<html>
<title> - SUSTAINABLE, ENERGY-EFFICIENT TRANSPORTATION INFRASTRUCTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                     SUSTAINABLE, ENERGY-EFFICIENT
                     TRANSPORTATION INFRASTRUCTURE

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2008

                               __________

                           Serial No. 110-110

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______





                     U.S. GOVERNMENT PRINTING OFFICE

42-962PS                  WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




























                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           PAUL C. BROUN, Georgia
CHARLES A. WILSON, Ohio
ANDRE CARSON, Indiana
                                 ------                                

               Subcommittee on Technology and Innovation

                    HON. DAVID WU, Oregon, Chairman
JIM MATHESON, Utah                   PHIL GINGREY, Georgia
HARRY E. MITCHELL, Arizona           VERNON J. EHLERS, Michigan
CHARLIE A. WILSON, Ohio              JUDY BIGGERT, Illinois
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
MIKE ROSS, Arizona                   PAUL C. BROUN, Georgia
LAURA RICHARDSON, California             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
      RACHEL JAGODA BRUNETTE Democratic Professional Staff Member
         MEGHAN HOUSEWRIGHT Democratic Profession Staff Member
         TIND SHEPPER RYEN Republican Professional Staff Member
           PIPER LARGENT Republican Professional Staff Member






















                            C O N T E N T S

                             June 24, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     8

Statement by Representative Phil Gingrey, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     9
    Written Statement............................................    10

Prepared Statement by Representative Laura Richardson, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    11

                               Witnesses:

Mr. Paul R. Brubaker, Administrator, Research and Innovative 
  Technology Administration, U.S. Department of Transportation
    Oral Statement...............................................    12
    Written Statement............................................    13
    Biography....................................................    20

Mr. Randell H. Iwasaki, Chief Deputy Director, California 
  Department of Transportation
    Oral Statement...............................................    21
    Written Statement............................................    23
    Biography....................................................    34

Dr. Robert L. Bertini, P.E., Director, Oregon Transportation 
  Research and Education Consortium (OTREC); Associate Professor, 
  Portland State University
    Oral Statement...............................................    34
    Written Statement............................................    37
    Biography....................................................    59

Mr. Gerald F. Voigt, P.E., President and CEO, American Concrete 
  Pavement Association
    Oral Statement...............................................    60
    Written Statement............................................    62
    Biography....................................................    68

Dr. Christopher M. Poe, P.E., Assistant Agency Director; Senior 
  Research Engineer, Research and Implementation Division-Dallas, 
  Houston, Texas Transportation Institute, Texas A&M University 
  System
    Oral Statement...............................................    70
    Written Statement............................................    72
    Biography....................................................    78

Discussion.......................................................    79

             Appendix 1: Answers to Post-Hearing Questions

Mr. Paul R. Brubaker, Administrator, Research and Innovative 
  Technology Administration, U.S. Department of Transportation...    96

Mr. Randell H. Iwasaki, Chief Deputy Director, California 
  Department of Transportation...................................   101

Dr. Robert L. Bertini, P.E., Director, Oregon Transportation 
  Research and Education Consortium (OTREC); Associate Professor, 
  Portland State University......................................   106

Mr. Gerald F. Voigt, P.E., President and CEO, American Concrete 
  Pavement Association...........................................   112

Dr. Christopher M. Poe, P.E., Assistant Agency Director; Senior 
  Research Engineer, Research and Implementation Division-Dallas, 
  Houston, Texas Transportation Institute, Texas A&M University 
  System.........................................................   116

             Appendix 2: Additional Material for the Record

Statement by the Arizona Department of Transportation............   120

Statement by Mike Acott, President, National Asphalt Pavement 
  Association (NAPA).............................................   125






























 
      SUSTAINABLE, ENERGY-EFFICIENT TRANSPORTATION INFRASTRUCTURE

                              ----------                              


                         TUESDAY, JUNE 24, 2008

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     Sustainable, Energy-Efficient

                     Transportation Infrastructure

                         tuesday, june 24, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On Tuesday, June 24, 2008, the Subcommittee on Technology and 
Innovation will hold a hearing to review ongoing federal, State, 
academic, and industry research and development activities related to 
reducing life cycle energy consumption, reducing fuel use and promoting 
sustainability for surface transportation infrastructure. The hearing 
will also address technical, regulatory, social, and financial 
challenges to implementing new measures and integrating new materials 
and technologies into existing transportation networks.

II. Witnesses

Mr. Paul Brubaker is the Administrator of the Research and Innovative 
Technology Administration (RITA) of the U.S. Department of 
Transportation.

Mr. Randell Iwasaki is the Chief Deputy Director of the California 
Department of Transportation (Caltrans).

Dr. Robert Bertini, P.E., is the Director of the Oregon Transportation 
Research and Education Consortium (OTREC).

Mr. Gerald Voigt, P.E., is the President and CEO of the American 
Concrete Pavement Association.

Dr. Christopher Poe, P.E., is the Assistant Agency Director and 
Director of the Center on Tolling Research at the Texas Transportation 
Institute.

III. Brief Overview

        <bullet>  The surface transportation sector is a major 
        contributor to energy use and pollution, accounting for 33 
        percent of carbon emissions in the U.S. annually. In addition 
        to energy use and pollution from vehicles, infrastructure 
        construction, maintenance, and destruction have high fuel costs 
        and require significant materials manufacturing. Transportation 
        infrastructure also is a factor in heat, noise, and water 
        pollution.

        <bullet>  Materials and technologies currently exist to combat 
        pollution and energy waste from transportation infrastructure. 
        Recycled or high performance pavement materials reduce 
        manufacturing and maintenance needs and can also cut fuel use 
        by reducing friction. Sophisticated traffic management and data 
        collection technologies reduce congestion, which resulted in 
        2.9 billion gallons of wasted fuel in 2007, according to the 
        Texas Transportation Institute.

        <bullet>  Many State and local governments are beginning to 
        adopt innovative surface transportation infrastructure 
        materials and technologies reduce energy costs and promote 
        sustainability, but widespread implementation remains slow. 
        Some impediments include lack of performance data, high costs, 
        lack of trained engineers and planners, and industry reluctance 
        to embrace new construction techniques and materials. 
        Additionally, new materials and technologies must be integrated 
        with existing transportation systems, requiring cooperation 
        between researchers and planners.

        <bullet>  Research, development, testing, and evaluation 
        (RDT&E) carried out by federal and State agencies, academia, 
        and industry is helping advance knowledge in the field of 
        innovative surface transportation materials and technologies, 
        but additional technology transfer and education efforts are 
        needed to engage policy-makers and the public. Strong 
        partnerships between the research and user communities are 
        vital to ensure that R&D efforts are tied to user needs and 
        that demonstration projects prove the effectiveness of various 
        technologies and materials.

IV. Issues and Concerns

What research and development efforts are needed to address current 
challenges in the surface transportation sector? How should the 
research community determine R&D priorities? What data collection needs 
currently exist, and how do researchers measure whether new materials 
and technologies have the desired impact of reducing energy use and 
promoting sustainability? Researchers have established a strong link 
between surface transportation infrastructure and a host of negative 
environmental impacts, including wasted fuel, urban heat island 
effects, carbon emissions, noise pollution, and demand on virgin 
materials for pavement. The R&D community addressing these challenges 
is diverse, ranging from federal agencies such the U.S. Department of 
Transportation's Federal Highway Administration (FHWA) and Research and 
Innovative Technology Administration (RITA) and the Environmental 
Protection Agency, universities, and industry. While entities such as 
the Transportation Research Board exist to help bridge gaps between the 
research and user communities, the R&D community further benefits from 
formal and informal connections to their immediate communities in order 
to understand users' research priorities. Additionally, data collection 
helps frame the environmental, economic, and safety challenges and 
influences research priorities by identifying the areas of greatest 
need.

What are the roles of the Federal Government, State agencies, academia, 
and industry in technology transfer? How should these entities help 
policy-makers find a balance between environmental impact and safety, 
cost, and efficiency? Because transportation infrastructure needs vary 
by region, technology transfer is most effective when it involves 
partnerships between local experts and policy-makers. Many universities 
involved in transportation research convene formal and informal 
meetings to discuss how available technologies might be integrated into 
transportation networks. The Federal Government also engages in 
technology transfer activities through partnerships, training, and 
demonstration projects. FHWA offers courses through the National 
Highway Institute, some of which cover innovative technologies. FHWA 
and the EPA also participate in the Green Highways Partnership, which 
coordinates outreach and education efforts and demonstration projects 
to promote use of environmentally friendly materials and technologies. 
However, acceptance and use of new transportation technologies remains 
slow. Decisions on the use of innovative technologies are made by State 
or local transportation officials who may or may not have access to 
data on their efficacy and cost.

What standards development activities are needed in both materials and 
intelligent transportation systems? What is the impact of the lack of 
standards? Stakeholders have engaged in some standards development 
activities for pavement materials and intelligent transportation 
systems, but the community has identified a need for further efforts. 
In the materials field, the expanded use of recycled materials and 
industrial byproducts in pavement to cut landfill waste requires 
characterization of products (such as fly ash, slag, or even 
construction waste like drywall) that may not be uniform in size, 
shape, or composition. The National Institute of Standards and 
Technology (NIST) has done some work in characterization and hosts a 
virtual lab to allow researchers to test their mixture of recycled 
materials via computer simulation To meet users' performance 
requirements, manufacturers need standards that specify the percentage 
of each type of recycled material that can be safely incorporated into 
cement. For data collection and traffic management systems, end-users 
have identified a need for technical standards that allow inter-
operability of systems across jurisdictions to ensure that the benefits 
of these technologies are seen region-wide.

V. Background

Environmental Challenges in Surface Transportation
    The surface transportation sector is a major contributor to energy 
use and pollution. Vehicle use, construction, maintenance, and 
destruction all result in significant energy costs, and the production 
of pavement materials uses valuable natural resources. Transportation 
infrastructure can also contribute to noise and heat pollution, 
increasing its environmental impact. Currently, the U.S. Department of 
Energy estimates that the transportation sector accounts for 33 percent 
of carbon emissions in the United States annually.
    The United States consumes approximately 128 million tons of cement 
annually, with a significant share being used for transportation 
infrastructure. Though the industry has effectively cut energy use and 
carbon emissions over the last few decades, the scope of cement 
manufacturing means that the environmental impact remains noteworthy, 
accounting for 1.5 percent of carbon emissions. According to a report 
by the American Concrete Pavement Association, this translates to 
52,800 tons of carbon dioxide emitted for the construction of a typical 
100 kilometer highway. In addition, the construction of infrastructure 
also carries considerable fuel costs, ranging from nearly 2000 to over 
10,000 gallons of fuel per lane-mile, depending on the material used 
for pavement.
    Vehicle use also results in fuel use and emissions, especially in 
congested areas. The Texas Transportation Institute estimated that 
traffic congestion in the United States in 2.9 billion gallons of 
wasted fuel in 2007. In a study of 85 urban areas with serious 
congestion problems, TTI also found that travel delays that result in 
idling, and thus fuel waste and extra emissions, have grown since 1982.

Research and development activities
    Research and development activities to combat the negative 
environmental impacts of surface transportation have been ongoing in 
the U.S. for several decades, with contributions from federal agencies, 
academia (especially U.S. DOT-funded University Transportation 
Centers), and industry. State transportation agencies also participate 
in data collection activities to help frame challenges and determine 
the efficacy of various measures. Current research covers traffic 
management and data collection activities through the use of 
intelligent transportation systems, materials characterization, design, 
and manufacturing research, and urban planning and transportation 
system design studies.
    Specific research activities addressing energy efficiency and 
sustainability range from intelligent transportation system (ITS) 
design and data collection technologies to paving materials design. ITS 
technologies help reduce fuel consumption and emissions by managing 
traffic flow to cut congestion and keep vehicles moving smoothly. 
Specific projects include traffic signal timing, highway on-ramp 
management, truck scales embedded in travel lanes, and other traffic 
management tools. Additionally, ITS technology can be used for data 
collection to identify problem areas or determine the effectiveness of 
traffic management technologies. Many of these technologies also have 
further safety benefits in addition to ensuring smoother traffic flow 
by helping avoid collisions.
    Materials research focuses on promoting sustainability and reducing 
energy use in the manufacturing process by incorporating recycled 
materials into paving materials or by designing high performance paving 
materials that reduce friction and require less maintenance. Industrial 
byproducts such as fly ash from coal power plants promote 
sustainability and energy savings by reducing the need for producing 
new materials while also cutting landfill waste. Academic and industry 
researchers are working to determine the types of materials that can be 
safely incorporated into cement, such fiberglass or drywall. They are 
also studying the maximum percentage of the mix that these byproducts 
can comprise.
    Extending the life cycle of pavement is another important goal for 
researchers working to improve energy efficiency in the transportation 
structure. Doing so reduces maintenance and construction needs, thus 
cutting energy costs. Researchers address this challenge through 
multiple approaches, including developing pervious pavements to reduce 
erosion or designing stronger pavements that are less vulnerable to 
cracking and potholes. Some of the smoother high performance pavements 
also help cut fuel use by reducing friction, especially for large 
vehicles. A study by the National Research Council of Canada found that 
fuel consumption by fully loaded trucks can be reduced by one to six 
percent when traveling on smooth pavement.
    Finally, some materials research efforts also address heat 
pollution. Dark pavement absorbs heat from the sun and has been found 
to raise ambient temperatures in urban areas by 9<SUP>+</SUP>F and 
increase demand for energy for air conditioning. Lighter colored 
pavements reflect sunlight, thus reducing the urban heat island effect.

Technology transfer and implementation issues
    Technology transfer in transportation infrastructure typically 
faces particular challenges related to regulations, cost, education and 
training, and industry reluctance to embrace new construction 
techniques. The Federal Government, academia, and industry all play a 
role in demonstrating the effectiveness of new technologies, training 
engineers on their use, and helping meet regulatory requirements.
    A lack of standards is a key impediment to the implementation of 
pavements using recycled materials and intelligent transportation 
systems. For pavements, State and local regulatory performance 
requirements related to the mix of materials comprising cement mean 
that byproducts must be characterized to understand their effect on the 
strength and performance of the pavement. Because there are not 
standards for the size, composition, or other characteristics of 
byproducts such as fly ash, manufacturers and researchers have a 
difficult time proving the performance of their materials from batch to 
batch. Technical standards for intelligent transportation systems (ITS) 
are also a key requirement prior to implementation. Especially in dense 
areas, such as the DC area, where multiple local governments oversee a 
broad transportation system, ITS technology must be inter-operable to 
ensure that the benefits are seen region wide.
    The cost of technologies and materials also prevents their 
manufacture and use. Concrete manufacturers must locate and ship 
byproducts to be incorporated into their mixes, increasing initial 
capital costs. Additionally, engineers and architects require further 
training for new materials, resulting in additional expenditures. 
Similarly, end-users may pay more initially for innovative materials 
and technologies for managing traffic. Researchers and the Federal 
Government can help promote technology transfer in the face of cost 
concerns by providing further information on costs over the life cycle 
of the infrastructure, rather than initial costs. Life cycle costs are 
typically reduced through the use of innovative materials and 
technology.
    Demonstration projects play an invaluable role in encouraging 
implementation of new materials and technologies. The Federal 
Government funds some local demonstrations of new technologies, which 
prove to engineers and policy-makers that new technologies can be 
effective in spite of training needs and high initial costs. 
Specifically, the U.S. Environmental Protection Agency (EPA) and 
Federal Highway Administration (FHWA) partner with State governments 
and industry on the Green Highway Partnership to demonstrate 
environmentally-friendly highway construction methods. University 
Transportation Centers also work with local agencies to demonstrate 
technologies suited to their region's specific needs.
    Chairman Wu. This hearing will now to order.
    I appreciate everyone's patience this morning and thank you 
very, very much for being here. I would like to welcome 
everyone. Right now, I can think of very few topics that are of 
greater interest to the American public than the pocketbook 
impact of refueling our cars and still trying to hold within 
each household's budget. According to the Department of Energy, 
the average price of gasoline in the United States as of 
yesterday was $4.08 per gallon at the pump. At the gas station 
closest to here, the number that strikes me is the number that 
is north of $4.50. One thing we all agree on is that we must 
take action to help reduce the costs of transportation overall 
for families across this nation.
    Thus far, the national focus has been on cutting or 
restraining the rise of the cost of fuel. However, any of the 
proposed solutions will not have a palpable impact for years to 
come but there are important steps that many cities and states 
are already taking to reduce fuel consumption and promote 
sustainability through changes in this transportation 
infrastructure which includes roads and freeways, networks of 
stoplights, public transportation systems and overall urban 
planning and design. Around the country, researchers in 
academia, industry, State and federal agencies have been 
working on developing innovative materials and technologies 
that reduce the life cycle energy costs of transportation 
infrastructure and promote sustainability. Pavements that 
incorporate waste materials that would otherwise be landfilled, 
traffic signal timing systems that cut congestion and 
monitoring devices that can warn drivers to take alternate 
routes around traffic jams are just a few of the examples of 
innovations in transportation infrastructure and technology 
that can help protect our environment.
    The potential benefits of these innovative materials and 
technologies are impressive. Currently, the surface 
transportation sector accounts for 33 percent of carbon 
emissions in the United States. Additionally, according to the 
Texas Transportation Institute, congestion alone accounted for 
2.9 billion gallons of wasted fuel in 2007. The Federal Highway 
Administration estimates that five percent of that congestion 
is due to poorly timed traffic signals. Intelligent 
transportation systems can eliminate congestion due to poor 
signal timing. That is a potential fuel savings of 145 million 
gallons of fuel per year.
    What is even more striking is that many of the technologies 
we need to bring about these fuel savings already exist. So why 
isn't every community in America using them? I am very 
interested to hear our witnesses' thoughts on why policy-makers 
opt not to use innovative materials and technologies as part of 
their transportation systems, and what the Federal Government 
can do to help spur technology transfer.
    I am proud that in Portland, Oregon, and in the First 
Congressional District, which I am pleased to represent, we 
have been leaders in using energy-efficient and sustainable 
transportation infrastructure.
    With technologies such as transit signal priorities that 
reduce idling by buses by linking on-board computers to traffic 
lights, ramp meters that cut congestion on our freeways and 
real-time traffic information so that drivers can avoid 
backups, the State and local departments of transportation in 
Oregon have worked effectively to identify and implement 
innovative solutions to important transportation challenges. 
These efforts are coordinated regionally, not just city by 
city, so that energy savings benefit taxpayers and gasoline 
purchasers and other fuel purchasers throughout the area.
    Dr. Robert Bertini, who is Director of the Oregon 
Transportation Research and Education Consortium, will tell us 
more about how the research and policy communities collaborate 
to make these projects a reality.
    Soon the Congress will be considering the next surface 
transportation reauthorization, and the Committee on Science 
and Technology plans to play an important role in defining our 
transportation research priorities for the future. 
Sustainability and energy efficiency are no longer just 
buzzwords in the transportation community.
    They are crucial components of a working national 
transportation infrastructure. Building more roads alone is not 
the answer. We must use our resources carefully and wisely, and 
that requires a commitment to reducing the creation of new 
materials and finding simple innovative ways to conserve fuel. 
I am confident that our panel today will give us some solid 
ideas for moving forward on a sustainable energy-efficient 
transportation policy.
    [The prepared statement of Chairman Wu follows:]
                Prepared Statement of Chairman David Wu
    This hearing will come to order. I'd like to welcome everyone to 
this morning's hearing. I can think of few topics that are of greater 
interest to the American public than the impact of filling up our cars 
on the household budget. According to the Department of Energy, the 
average price of gas in the U.S. as of yesterday was $4.08 per gallon 
at the pump. One thing we all agree on is that we must take action to 
help reduce the cost of transportation for families across the country.
    Thus far, the national focus has been on cutting the cost of fuel. 
However, any of the proposed solutions will not have a measurable 
impact for years. But there are important steps that many cities and 
states are already taking to reduce fuel consumption and promote 
sustainability through changes to the transportation infrastructure, 
which includes roads, freeways, networks of stoplights, public 
transportation systems, and overall city planning.
    Around the country, researchers in academia, industry, and federal 
agencies have been working on developing innovative materials and 
technologies that reduce the life cycle energy cost of transportation 
infrastructure and promote sustainability. Pavements that incorporate 
waste materials that would otherwise be landfilled, traffic signal 
timing systems that cut congestion, and monitoring devices that can 
warn drivers to take alternate route around traffic jams are just a few 
of the examples of innovations in transportation infrastructure and 
technology that help protect the environment.
    The potential benefits of these innovative materials and 
technologies are impressive. Currently, the surface transportation 
sector accounts for 33 percent of carbon emissions in the United 
States. Additionally, according to the Texas Transportation Institute, 
congestion alone accounted for 2.9 billion gallons of wasted fuel in 
2007. The Federal Highway Administration estimates that five percent of 
that congestion is due to poorly timed traffic signals. If intelligent 
transportation systems can eliminate congestion due to poor signal 
timing, that's a potential fuel savings of 145 million gallons of fuel 
per year.
    What's even more striking is that many of the technologies we need 
to bring about these fuel savings already exist. So why isn't every 
town in America using them? I'm very interested to hear our witnesses' 
thoughts on why policy-makers opt not to use innovative materials and 
technologies as part of their transportation systems, and what the 
Federal Government can to do to help spur technology transfer.
    I'm proud that the First District of Oregon has been a leader in 
using energy efficient and sustainable transportation infrastructure.
    With technologies such as a transit signal priority project that 
reduces idling by buses by linking on-board computers to traffic 
lights; ramp meters that cut congestion on our freeways; and real time 
traffic information for travelers so they can avoid backups, the State 
and local departments of transportation in Oregon have worked 
effectively to identify and implement innovative solutions to important 
transportation challenges. These efforts are coordinated regionally, 
not just city by city, so that energy savings benefit taxpayers 
throughout the area.
    Dr. Robert Bertini, who is the Director of the Oregon 
Transportation Research and Education Consortium, will tell us more 
about how the research and policy communities collaborate to make these 
projects a reality.
    Soon, the Congress will be considering the next surface 
transportation reauthorization, and the Committee on Science and 
Technology plans to play an important role in defining our 
transportation research priorities for the future. Sustainability and 
energy efficiency are no longer just buzzwords in the transportation 
community.
    They are crucial components of a working national transportation 
infrastructure. Building more roads alone is not the answer. We must 
use our resources carefully and wisely, and that requires a commitment 
to reducing the creation of new materials and finding simple, 
innovative ways to conserve fuel. I'm confident that our panel today 
will give us some solid ideas for moving forward on a sustainable, 
energy-efficient transportation policy.

    Chairman Wu. Now I would like to recognize my colleague and 
friend, the Ranking Member from Georgia, Dr. Gingrey, for an 
opening statement. Dr. Gingrey.
    Mr. Gingrey. Good morning, Mr. Chairman, and good morning 
to our distinguished panel of witnesses. I want to first thank 
you for holding this hearing today and this hearing that 
touches the lives of so many Americans on a daily basis. I am 
pleased to work with you as we continue this subcommittee's 
efforts to improve our nation's transportation infrastructure 
through innovative research and development activities that 
will hopefully result in a windfall of cost savings for our 
nation.
    While the importance of our roads and highways to our 
economy and our way of life are self-evident, I would like to 
take a moment to document for the Subcommittee the extent of 
their impact. There are approximately four million miles of 
roads in this country and Americans drive approximately four 
trillion miles per year. Furthermore, there are over 200 
million cars and light trucks on the road and a further eight 
million trucks on the roads supporting our businesses, so 
overall transportation-related activities currently account for 
10 percent of our gross domestic product.
    To support all this traffic, government expenditures on our 
highways are approximately $140 billion a year. Unfortunately, 
even with this constant influx of revenue, our infrastructure 
cannot support our growing traffic needs.
    According to the Urban Mobility Report published by Dr. 
Poe's Texas Transportation Institute, TTI, drivers in the 
Atlanta metropolitan area spend an average of 60 hours per year 
stuck in traffic and they waste approximately 44 gallons of 
fuel in the process. This is my hometown, by the way. With gas 
prices currently at $4.08 per gallon, as the Chairman said, for 
regular gasoline, this equates to almost $200 per driver that 
is wasted when families are struggling to pay for rising energy 
costs.
    Metropolitan Atlanta has similar congestion to Washington, 
D.C., and San Francisco, and only Los Angeles has a greater 
congestion problem. Congestion, as we know, it is not limited 
to our major cities. Nationally, TTI estimates that congestion 
on our nation's roads resulted in 2.9 billion gallons of wasted 
fuel in 2007 and a $78 billion drain on our economy.
    Congestion aside, our transportation infrastructure 
accounts for a significant portion of our total energy 
consumption. Civilian transportation consumes nearly nine 
million barrels of petroleum per day for gasoline, twice the 
amount of industrial uses. With oil prices now at about $135 
per barrel, the total cost is a staggering $1.2 billion per 
day.
    Despite the numerous challenges presented by our 
transportation infrastructure, researchers across America are 
working right now on reducing our energy consumption and easing 
our congestion problems. Our panel will describe many 
technologies that can improve the condition and sustainability 
of our highways both in the short- and long-term.
    The priority of research and development in the 
transportation sector has lagged behind construction and 
rehabilitation. The challenges that now face our transportation 
infrastructure will require innovative design and technologies. 
So I am eager to hear the panel's thoughts on how effective R&D 
activities have been in the past and how R&D should be 
included, as David just mentioned, the next transportation 
bill.
    Chairman Wu, again thank you for holding this hearing. It 
couldn't be more timely. I look forward to the panel and their 
testimony, and I yield back the balance of my time.
    [The prepared statement of Mr. Gingrey follows:]
           Prepared Statement of Representative Phil Gingrey
    Good morning Mr. Chairman. I want to first thank you for holding 
this hearing today that touches the lives of so many Americans on a 
daily basis. I am pleased to work with you as we continue this 
subcommittee's efforts to improve our nation's transportation 
infrastructure through innovative research and development activities 
that will hopefully result in a windfall of cost savings for our 
nation.
    While the importance of our roads and highways to our economy and 
way of life are self-evident, I would like to take a moment to document 
for the Subcommittee the extent of their impact. There are 
approximately four million miles of roads in this country and Americans 
drive approximately four trillion miles per year. Furthermore, there 
are over 200 million cars and light trucks on the road, and a further 
eight million trucks on the roads supporting our businesses. Overall, 
transportation related activities currently account for 10 percent of 
our GDP.
    To support all this traffic, government expenditures on our 
highways are approximately $140 billion annually. Unfortunately, even 
with this constant influx of revenues, our infrastructure cannot 
support our growing traffic needs.
    According to the Urban Mobility Report published by Dr. Poe's Texas 
Transportation Institute (TTI), drivers in the Atlanta Metropolitan 
area spend an average of 60 hours per year stuck in traffic and waste 
approximately 44 gallons of fuel in the process. With gas prices 
currently at $4.07 per gallon for regular gas, this equates to almost 
$200 per driver that is wasted when families are struggling to pay for 
the rising energy costs.
    Metropolitan Atlanta has similar congestion to the Washington, DC 
and San Francisco areas, and only Los Angeles has a greater congestion 
problem. Congestion--as we know--is not limited to our major cities. 
Nationally, TTI estimates that congestion on our nation's roads 
resulted in 2.9 billion gallons of wasted fuel in 2007 and a $78 
billion drain on the U.S. economy.
    Congestion aside, our transportation infrastructure accounts for a 
significant portion of our total energy consumption. Civilian 
transportation consumes nearly nine million barrels of petroleum per 
day for gasoline, twice the amount of industrial uses. With oil prices 
at $135 per barrel the total cost is a staggering $1.2 billion per day.
    Despite the numerous challenges presented by our transportation 
infrastructure, researchers across America are working, right now, on 
reducing our energy consumption and easing our congestion problems. Our 
panel will describe many technologies that can improve the condition 
and sustainability of our highways, both in the short- and long-term.
    The priority of research and development in the transportation 
sector has lagged behind construction and rehabilitation. The 
challenges that now face our transportation infrastructure will require 
innovative designs and technologies. I am eager to hear the panel's 
thoughts on how effective R&D activities have been in the past and how 
R&D should be included in the next transportation bill.
    Chairman Wu, again, thank you for holding this hearing and I yield 
back the balance of my time.

    Chairman Wu. Thank you, Dr. Gingrey.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    [The prepared statement of Ms. Richardson follows:]
         Prepared Statement of Representative Laura Richardson
    Thank you Chairman Wu for holding this very important hearing 
today, and our witnesses for their appearance. The purpose of today's 
hearing is to examine current efforts in transportation infrastructure 
research that will reduce energy consumption and improve energy 
efficiency.
    Fact of the matter is highway construction and maintenance consumes 
a lot of energy. From the amount of fuel that is consumed by cement 
trucks and other construction related vehicles, to the cars that waste 
fuel sitting idly in traffic due to lane closures as a result of 
highway construction, plenty of energy is consumed on a daily basis.
    In my home State of California, where there are more registered 
vehicles than there are registered drivers; and where we have been 
dealing with traffic congestion and the environmental impacts for 
years, the heads of the State DOT (Department of Transportation) have 
already begun to tackle this issue.
    Indeed, one of the individuals testifying today is Mr. Randell 
Iwasaki, Chief Deputy Director of the California Department of 
Transportation. Under his leadership the State of California has 
pursued a number of projects to address energy efficiency through our 
transportation infrastructure. This includes the use of old tires in 
rubberized asphalt, the installation of LED red lights saving the State 
taxpayers more than $2 million a year in power costs, and conversion of 
the Caltrans equipment fleet to clean burning fuels.
    Furthermore, under Executive Order S-3-05, which established 
climate change emission reduction targets for the state, Caltrans has 
embarked on an effort to lower fuel consumption, and reduce greenhouse 
gas emissions (GHG) by implementing several programs. The Intelligent 
Transportation Systems manages traffic flow; the Cold Foam Recycle 
Project (which won an award from Green Technology) recycles in-place 
materials on high speed, high traffic volume roadways, and Waste Tires 
which as mentioned earlier, establishes a variety of uses for waste 
tire products including shredded waste tires which are used as 
lightweight fill for embankments.
    Likewise the State of California uses environmentally friendly 
cement, in addition to establishing the Long-life Pavement 
Rehabilitation Strategies program. The purpose of this program is to 
reduce the need for future repairs on our highways, by building 
highways that last as long as thirty years with minimal maintenance.
    With the rise in gas prices, coupled with overall rise in the cost 
of living, the research being done at the University Transportation 
Centers across the country is vital to the sustainability of our 
national economy.
    I look forward to a productive discussion, Mr. Chairman I yield 
back my time.

    Chairman Wu. I am delighted to have such an expert group of 
witnesses before the Subcommittee today to discuss this very, 
very important and timely topic. Mr. Paul Brubaker is the 
Administrator of the Research and Innovative Technology 
Administration of the U.S. Department of Transportation. Mr. 
Randell Iwasaki is the Chief Deputy Director of the California 
Department of Transportation. My good friend, Dr. Robert 
Bertini, I especially welcome here in Washington, is the 
Director of the Oregon Transportation Research and Education 
Consortium, a university transportation center comprised of 
researchers from Portland State University, Oregon State 
University, the University of Oregon and the Oregon Institute 
of Technology. Next we have Mr. Gerald Voigt, President and CEO 
of the American Concrete Pavement Association, and Dr. 
Christopher Poe, Assistant Director and Director of the Center 
on Tolling Research at the Texas Transportation Institute.
    As our witnesses already know, your spoken testimony should 
be timed for about five minutes. Your written testimony will be 
taken into the record in its entirety, and after your 
testimony, Members of the Committee will have five minutes for 
each round to ask questions, and we will begin with 
Administrator Brubaker. Please proceed.

STATEMENT OF MR. PAUL R. BRUBAKER, ADMINISTRATOR, RESEARCH AND 
   INNOVATIVE TECHNOLOGY ADMINISTRATION, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Brubaker. Thank you, Chairman Wu, Dr. Gingrey, 
distinguished Members of the Committee. I have the privilege of 
representing the Research and Innovative Technology 
Administration at the United States Department of 
Transportation. Our job at RITA is to coordinate research 
across all the various modes, and one of the things that we are 
interested in doing is to make sure that we have mechanisms in 
place to ensure the appropriate level of investment across the 
Department in a variety of different areas, particularly those 
materials that can reduce life cycle energy costs and ensure 
sustainability for our transportation infrastructure.
    Mr. Chairman, our theme for the Research and Innovative 
Technology Administration is something we like to say, our tag 
line, if you will, our bumper sticker is, ``Innovation for a 
Nation on the Move,'' and the key there is to ensure that we 
continue to be on the move, and the points you raised in your 
opening statement about intelligent transportation systems and 
the ability to reduce fuel consumption just by keeping traffic 
moving is a really excellent one and it is one that we have 
devoted significant amount of research dollars into and we have 
got a number of university transportation centers across the 
country including those at Portland State and those at Georgia 
Tech that are engaged in--as well as other areas in the country 
that are engaged in that type of research to ensure that we are 
developing modern technology, the latest technology, taking 
advantage of commercial developments as well as researching 
ways that we can integrate existing and future technologies 
including things like nanotechnology to ensure that those 
developments are incorporated into the infrastructure over 
time. That is on the intelligent transportation system side.
    We also are conducting significant research into recycled 
materials and those innovative materials and methods that can 
significantly reduce life cycle energy costs and make use of 
recycled materials. We have got a number of efforts underway, 
particularly those that we are working with industrial and 
commercial waste products trying to figure out the best way to 
use waste material and industrial byproducts to achieve this 
objective, and one example is that we currently see over 71 
million tons of pulverized coal byproducts, also known as fly 
ash, produced in the United States and only about 39 percent of 
that fly ash is recycled or used for other purposes. Most of 
what is currently produced winds up in landfills, which as we 
know, is a very environmentally unfriendly option. So pavements 
made with fly ash offer the potential for providing lower costs 
and in fact more durable pavement and we are very interested in 
that type of research and we are going to do that and support 
that through the Department.
    Recycled tire fibers are also another technology that show 
great potential, and today, as we know, most old automobile 
tires wind up in landfills or they get incinerated which, is 
again, not exactly a very environmentally friendly option, and 
what we are supporting right now based on our experience with 
rubberized asphalt, we are supporting the use of recycled 
materials and trying to use recycled rubber to see if the 
performance that we experience with our rubberized asphalt 
projects using virgin synthetic fibers has the same durability 
and quality as that made with the virgin synthetic fibers.
    Also, we are looking at nanotechnology, like I mentioned, 
another cutting-edge innovation that may show some promise in 
reducing long-term energy consumption and dramatically 
increasing the sustainability. For example, at the Missouri 
University of Science and Technology in Rolla, Missouri, they 
are conducting a field test of bridge decking made with fiber-
reinforced composites. What that is going to do, it eliminates 
the need for steel rebar, which obviously is energy intensive 
to produce that rebar for reinforcement, but it also can 
significantly extend the life of the bridge, cutting down on 
replacement costs and the need to conduct repair of the bridge 
decking. Georgia Tech has some self-consolidating concretes 
that is going to reduce the maintenance costs and improve the 
durability and longer life of bridge structure. Federal Highway 
Administration is involved in a demonstration project for 
advanced material called ultra high performance concrete, and 
we view those as pretty critical developments.
    There are also some challenges though, which you asked us 
to address in the letter of invitation, and we view those in 
two particular areas. One is standards development: are there 
sufficient standards that exist to encourage the use of 
sustainable products and high-energy-efficient products, both 
in the construction and the repair of these materials, and then 
the second is the procurement process itself, is the 
procurement process--and as you know, most of the actual 
implementation is done at the State and local level--is the 
procurement process supportive in requiring these sustainable 
products, and those are the two areas that we see as the most 
significant challenges.
    So that concludes my testimony and I would be delighted to 
answer any questions.
    [The prepared statement of Mr. Brubaker follows:]
                 Prepared Statement of Paul R. Brubaker
    Thank you, Chairman Wu, Ranking Member Gingrey, and distinguished 
Members of the Subcommittee. I have the privilege of serving as the 
Administrator for the Department of Transportation's (DOT) Research and 
Innovative Technology Administration (RITA), and I am grateful to have 
the opportunity to come before you today to testify on RITA's role in 
coordinating and facilitating research into fuel efficiency and 
sustainability in our transportation infrastructure.
    With his signature on the Federal-Aid Highway Act of 1956, 
President Dwight D. Eisenhower committed the U.S. Government to 
investing in the development of a transportation system that would 
revolutionize the American economy and way of life for decades to come. 
However, no one could have anticipated the sheer volume of passenger 
and freight movement that the transportation infrastructure must 
support yearly. Our roads handled nearly three trillion vehicle miles 
in 2005 alone--a 74 percent increase from 1990. As America's economy 
and population continues to grow, it will push even greater demand on 
our highways, interstates and roads in the decades to come. A safe, 
reliable, and sustainable transportation system is key to our nation's 
continued prosperity.
    New construction, operational improvements, and routine maintenance 
of our transportation infrastructure have an enormous cost, and are 
straining federal, State and local resources. America has 162,373 miles 
of National and Interstate Highways, with nearly one-third needing 
extensive upgrades. Innovative, sustainable materials and systems 
provide us with the opportunity to construct new bridges and 
overpasses, expand capacity and make necessary operational 
improvements, with less resources and better long-term durability. 
Various factors, such as lagging national and State materials 
standards, technical barriers and budgetary constraints, have impeded 
the progress of the development and use of innovative materials, 
coatings, and planning processes that can increase the sustainability 
of our transportation infrastructure. It is clearly in our nation's 
best interest to have a transportation infrastructure that supports 
greater fuel efficiency, and is more sustainable. The Department of 
Transportation is committed to collaborating with stakeholders in 
government, industry and the academic community to overcome these 
challenges.
    Today, I will be discussing current research and programmatic 
activities of RITA and the University Transportation Centers (UTC) 
program within the areas of energy efficiency and infrastructure 
sustainability; the processes that guide our priorities in these areas; 
and the challenges to the research, development and national deployment 
of innovative materials and technologies.

Research and Development Activities in Energy Efficiency and 
                    Infrastructure Sustainability

    Since its creation in 2004, RITA has sought to effectively 
prioritize transportation research programs, identify innovation gaps, 
and coordinate research and technology efforts within the Department, 
and throughout the transportation community. While there are challenges 
to effectively promoting both the research and development, and 
widespread deployment of more energy efficient and sustainable 
materials and technologies, there has been a lot of progress as well. 
The Secretary of Transportation's seven priorities for national 
transportation have driven Departmental research and development in the 
areas of energy efficiency and sustainability--specifically by focusing 
on Reduced Congestion, Energy Independence and Environmental 
Sustainability.
    Under the guidance of these priorities, the Federal Highway 
Administration's Turner-Fairbank Highway Research Center (TFHRC), ,and 
the University Transportation Centers, have made great progress in 
researching and developing innovative materials and technologies that 
offer the potential for increasing the sustainability of our 
transportation infrastructure.

University Transportation Centers
    First, I would like to discuss a few of the University 
Transportation Center (UTC) research and development activities in the 
areas of energy efficiency and sustainability. The UTC Program is a 
great example of an effective partnership that brings together State 
transportation agencies and private sector stakeholders with the 
academic community to find solutions to pressing transportation 
challenges. UTCs are mandated to address regional issues that impact 
their states, and bridge the institutional divide--providing 
outstanding opportunities for technology transfer and deployment.
    DOT seeks to tap into the vast pool of expertise, and existing 
research portfolios, of our nation's academic community by funding UTC 
transportation research--including energy efficiency and 
sustainability.
    There are several great examples of the important work UTCs are 
engaged in:

        <bullet>  The Missouri University of Science and Technology at 
        Rolla conducted a field test of a bridge deck made with fiber 
        reinforced composites. Using composites precludes the use of 
        steel bars as reinforcement, which will significantly extend 
        the service life of the bridge, and eliminate the need to 
        replace steel reinforcements at some point in the future. 
        Missouri S&T is involved in numerous projects to study fiber 
        reinforced composites, and their potential for upgrading aging 
        bridges.

        <bullet>  The University Transportation Center for Materials in 
        Sustainable Transportation Infrastructure (MiSTI) at Michigan 
        Technological University conducts research in the areas of 
        recycled and beneficial use materials in transportation 
        infrastructure. For example, Portland cement production is a 
        significant contributor to total global greenhouse emissions. 
        Reducing Portland cement consumption is the simplest way to 
        reduce this greenhouse gas production. MiSTI is researching new 
        methods of constructing concrete highways and bridges using 
        less Portland cement, which will greatly reduce the 
        environmental impacts of Portland cement production.

        <bullet>  University of California-Davis' Institute of 
        Transportation Studies is evaluating modified binder mixes, 
        comparing overlays with mixes using a new process for 
        rubberizing asphalt binders. The results were extremely 
        promising. Caltrans is reviewing the results and the 
        recommendation to move to pilot projects and how to incorporate 
        results. This research should lead to more use of rubberized 
        asphalt, and longer lives for pavement maintenance and 
        rehabilitation overlays, which will save money and reduce use 
        of crushed stone.

        <bullet>  At the Georgia Institute of Technology, research has 
        developed three acceptable mixtures for self-consolidating 
        concretes for use in precast bridge girders. The use of these 
        self-consolidating concretes will result in better quality 
        bridge girders which require less construction labor and time 
        on site, significantly reducing project costs. The improved 
        materials properties will also result in more reliable, longer-
        lived bridge spans with reduced maintenance and repair costs.

U.S. DOT
    Departmentally, there has been very good progress in pushing 
innovative materials technologies as well. Turner-Fairbank Highway 
Research Center is conducting research into developing methods for 
using more fly ash, a by product of coal combustion, in concrete 
mixtures for road paving. Fly ash is typically land-filled after it is 
produced, and using more of it in concrete mixtures recycles fly ash 
with little environmental impact. Pavements made with fly ash offer the 
potential for providing lower-cost, more durable pavement, which uses 
less energy to manufacture. Turner-Fairbank is also working on testing 
procedures, construction guidelines, and supportive software 
applications to promote greater use of fly ash in paving applications.
    While Turner-Fairbank is exploring ways to use more fly ash in 
concrete mixtures, the FHWA is involved in a demonstration project for 
an advanced concrete material called Ultra High Performance Concrete 
(UHPC). This project is a part of the President's National 
Nanotechnology Initiative, and has broad energy efficiency and 
sustainability implications for transportation construction and 
maintenance. UHPC is composed of a special mixture of minerals and 
fibers that is lightweight, impermeable and resistant to freezing. This 
material offers the potential to reduce energy consumption across the 
life cycle, as it is a precast concrete that can be constructed away 
from the worksite, and subsequently transported--reducing the impact on 
driving costs, reducing congestion created by construction projects, 
and lowering maintenance costs. In 2006, the first highway bridge built 
in North America with UHPC was opened in Wapello County, Iowa--this 
bridge was the result of a collaboration of FHWA, Iowa DOT, the Iowa 
State University Bridge Engineering Center, and private industry.
    Partnerships such as this, and other collaborative relationships, 
are essential to our success in effectively facilitating research and 
development, and deploying research results in these areas. The multi-
state, multi-agency, public-private makeup of our national 
transportation infrastructure necessitates cooperative research in 
order for us to be successful innovators.

Coordinating the U.S. DOT Research, Development and Technology 
                    Portfolio

    While there have been very good outcomes from RITA's current 
research and development activities and investments, we are actively 
seeking to improve these processes. The U.S. DOT, through RITA, is 
instituting a new, Research Planning and Investment Coordination (RPIC) 
process for coordinating, facilitating and reviewing the Department's 
research and development programs and activities. It will allow the 
Department to:

        <bullet>  Align research investments with National 
        transportation goals;

        <bullet>  Track performance and net benefits of Departmental 
        RD&T dollars invested;

        <bullet>  Create visibility and transparency for all directed 
        and discretionary research funding;

        <bullet>  Identify potential redundancies and eliminate 
        unnecessary duplication; and

        <bullet>  Leverage available research resources including those 
        within the U.S. DOT, at the UTCs, in the State DOTs, and in the 
        private sector.

    The goal is to achieve greater transparency and bring into one 
database all of the RD&T data that are currently scattered among many 
agencies, as recommended in the GAO report Transportation Research: 
Opportunities for Improving the Oversight of DOT's Research Programs 
and User Satisfaction with Transportation.\1\ When completed, the 
database will allow policy-makers, researchers, and other users to 
search for RD&T information by research topic, funding level, grant 
description, contractor, State, and more. It will be a critical tool 
for coordinating research investments, and for sharing knowledge.
---------------------------------------------------------------------------
    \1\ Government Accountability Office, ``Transportation Research: 
Opportunities for Improving the Oversight of DOT's Research Programs 
and User Satisfaction with Transportation,'' August 2006, http://
www.gao.gov/new.items/d06917.pdf
---------------------------------------------------------------------------
    Additionally, we believe strongly in promoting Communities of 
Interest (COI) among the Department's modal administrations, external 
partners and relevant transportation stakeholders. COI allow agencies, 
organizations, institutions and individuals to exchange information and 
resources through multiple knowledge systems. COI offer an excellent 
opportunity for organic peer review and collaboration, expanding the 
pool of expertise readily available to enhance progress across priority 
RD&T areas.
    The Department's plan for achieving a safe, sustainable and more 
efficient transportation system, Transportation Vision 2030, defined an 
initial list of seven priority, multi-modal Communities of Interest 
(COI) that have a significant impact on the future of energy efficiency 
and sustainability:

        <bullet>  Multi-modal policy and transportation systems 
        research;

        <bullet>  Environmental stewardship and energy independence;

        <bullet>  Physical infrastructure;

        <bullet>  Surveillance infrastructure;

        <bullet>  Human factors research and applications;

        <bullet>  Materials; and

        <bullet>  Intelligent Transportation Systems.

Modal RD&T Collaboration within the U.S. DOT

    While each administration has unique, mission-related research 
areas and topics it must pursue, the Communities of Interest model will 
ensure that priority cross-cutting areas will be addressed through 
collaborative processes, encouraging better knowledge sharing and 
leveraging of RD&T dollars. Specifically, Communities of Interest in 
Physical Infrastructure and Materials are driving cross-cutting 
research and development activities in energy efficiency and 
sustainability across U.S. DOT modal offices.
    Intermodal research working groups and online forums are being 
established on these topics to cultivate ongoing collaboration among 
Departmental operating administrations, University Transportation 
Centers (UTCs), and U.S. DOT Centers of Excellence. Communities of 
Interest will help to ensure that related research is coordinated, 
fostering technology transfer through more effective sharing of 
outcomes and products.

Facilitating RD&T with External Partners

    The U.S. DOT engages in cooperative research with stakeholders 
across the transportation sector, including other federal agencies, 
State and local governments, the academic community, industry, and not-
for-profit institutions. RITA has been working to build closer ties 
between individual UTCs and U.S. DOT programs to ensure that UTC 
research is targeted toward the critical transportation challenges as 
mandated.
    The National Surface Transportation Policy and Revenue Commission 
recommended that ``funding of RD&T . . . be subject to careful planning 
and review by the transportation industry.'' \2\ The RD&T planning team 
has reviewed the strategic research documents of key stakeholders and 
will continue to work with them to ensure consistent and substantive 
input into the research investment planning process. By providing 
greater visibility and transparency into the U.S. DOT's research 
programs, the U.S. DOT seeks to foster greater collaboration and 
leveraging of resources with State and local governments, the 
Transportation Research Board (TRB), and other relevant entities.
---------------------------------------------------------------------------
    \2\ Transportation for Tomorrow: Report of the National Surface 
Transportation Policy and Revenue Study Commission, p. 31, http://
www.transportationfortomorrow.org/final<INF>-</INF>report/

Challenges to the Broad Deployment of Effective Technologies

    The Department's primary role in facilitating the broad deployment 
of innovative technologies is to provide the necessary support to 
demonstrate the viability of emerging technologies, and to establish 
the regulatory framework, standards and architectures to safely and 
effectively integrate new technologies into the transportation 
infrastructure.
    The Department does not do this in a vacuum--across all of the 
modal administrations, U.S. DOT experts serve on over 300 technical 
committees of 48 Standards Developing Organizations (SDOs), seeking to 
ensure that new technologies and applications may be deployed to 
enhance transportation safety, security and mobility. These standards 
become the basis for DOT safety regulations and planning guidance. U.S. 
DOT experts also serve on countless research panels and technical 
exchange committees to enable implementation of significant 
technological and operational innovations.
    Many current construction and operational standards, and State 
transportation agency contracting procedures do not adequately support 
or incentivize greater use of innovative materials. Our friends at NIST 
are currently reevaluating existing standards and best practices, and 
developing standards for new materials, high-performance and adaptive 
concrete technologies, to determine how standards and specifications 
can be revised to reflect national priorities for the use of innovative 
materials in construction and maintenance.
    More difficult is encouraging the deployment of incremental 
improvements in operational concepts, procedures and technology that do 
not rise to the level of a standard. In many ways, these smaller steps, 
often the result of U.S. DOT or State DOT research, are just as crucial 
to improving safety and efficiency. However, due to their incremental 
nature, sharing information on these advances across the many levels of 
government, multiple systems operators, and the contractor and 
consulting engineering community is difficult. This is where RITA's 
development of Communities of Interest is vital in expanding our 
processes for knowledge sharing, technology transfer and research 
implementation. Under the COI model, every project is required to have 
a mechanism for technology transfer and deployment by including State, 
institutional and industry stakeholders in the planning process.
    The multi-state, multi-agency, public-private makeup of America's 
transportation infrastructure, its providers and users, requires strong 
institutional arrangements and partnerships to ensure successful 
cooperation when planning, evaluating or implementing research results. 
State and local DOTs, transit agencies, port authorities, railroads, 
trucking firms, carriers and shippers need to be aware of research 
results, implementing contracting and internal operating practices that 
encourage the use of new research and technology, as so much of the 
implementation of transportation infrastructure research is conducted 
at those levels of government, often through cooperation with the 
private sector. We believe that Public-Private Partnerships offer a 
practical, effective vehicle for overcoming many of these barriers.

Conclusion

    RITA has made great strides in our young life towards coordinating 
DOT transportation research priorities, and we are working towards a 
national transportation research strategy and strategic plan. 
Innovative materials and Intelligent Transportation Systems will be two 
of the key priority areas we will address as we continue to advance in 
this direction.

     Examples of Current U.S. DOT and UTC Research and Development 
   Activities with Energy Efficiency and Sustainability Applications

U.S. DOT Activities

Development Of Portland Cement Concrete Pavement (PCCP) Mixtures 
Containing High Fly Ash Contents
FHWA/Office of Infrastructure R&D, Pavement Materials & Construction 
Team

    Verify, integrate, and refine software, guidance and test 
procedures to facilitate the use of high fly ash content concrete 
mixtures for highway paving. The products of this research will 
contribute to both greater use of fly ash in highway paving 
applications and improved performance of the pavement.

Greatly Increased Use of Fly Ash in Hydraulic Cement Concrete (HCC) for 
Pavement Layers and Transportation Structures
FHWA/Office of Infrastructure R&D, Pavement Materials & Construction 
Team and Contractor(s) to be Identified (Solicitation in Process)

    To more than double the use of fly ash in HCC and halve the use of 
Portland cement. The high payoffs are decreases in energy content of 
the cementitious phase, amount of CO<INF>2</INF> given off, and amount 
of fly ash land-filled--also elimination of the need for more cement 
production and imports and the productive use of an otherwise wasted 
material. Once technology is in place, initial costs may be lowered in 
those areas where fly ash haul distances are less than Portland cement 
and due to energy and disposal savings. Extended service life is also a 
realistic objective due to the recognized quality of fly ash in making 
concrete better--with less permeability, porosity, and microcracking, 
and the potential capability to heal due to extended hydration 
reactions.

Recycled Materials Resource Center
University of New Hampshire

    Expand the extent of use of industrial byproduct materials in 
highway construction through training, technology transfer, and 
research to support agency use of recycled materials.

Warm Mix Asphalt
FHWA/Office of Pavement Technology with support from the Office of 
Infrastructure R&D

    Efforts to implement high priority findings from the international 
scan completed last year and field demonstration projects to better 
understand the use and benefits of the technology. Warm mix asphalt 
technology will allow for increased levels of recycled asphalt 
materials in the production of hot mix asphalt.

Use of Reclaimed Asphalt Pavement
FHWA/Office of Pavement Technology

    Advancement of increased usage of recycled asphalt (RAP) in asphalt 
mix design. These efforts are focusing on support efforts with states 
to use much higher levels of RAP (> 25 percent) in hot mix asphalt 
applications. FHWA has helped in sponsoring workshops with industry, we 
have formed an Expert Task Group that has worked hard to conduct 
demonstration/pilot projects, and we have conducted on site support of 
high RAP mixes through the use of our mobile lab.

In-Place Pavement Recycling
FHWA/Office of Pavement Technology with support from the Resource 
Center

    FHWA recently supported a workshop in Utah on in-place pavement 
recycling and we are working with industry and State representatives to 
update training and design references on the use of this technology.

Use of Industrial Byproducts
FHWA/Office of Infrastructure R&D with Recycled Materials Resource 
Center (Designated Program)

    FHWA in partnership with EPA recently helped support a workshop in 
Denver on the use of industrial byproducts as a material resource to 
design and produce pavements.

Green Highways Partnership
FHWA/Office of Pavement Technology

    FHWA has continued to support the Mid-Atlantic Green Highway 
Partnership which includes the use of Recycled/Re-Use Materials as a 
major theme within the partnership. This partnership has encouraged the 
delivery of pilot projects using recycled materials on a few highway 
projects in the Mid-Atlantic area.

UTC Activities

    University Transportation Centers across the Nation engage in a 
wide variety of research projects. Here is a sampling from some of 
these centers.

Fibers from Recycled Tires as Reinforcement in Hot Mix Asphalt
Texas Transportation Institute (Texas A&M University)

    High-quality long-lasting hot mix asphalt (HMA) pavements are 
essential to the sustainability of the U.S. economy. Previous research 
and construction projects have demonstrated that virgin synthetic 
fibers can provide excellent reinforcing aids in asphalt paving 
mixtures. Fibers from scrap tires offer an excellent low-cost 
alternative supplement to virgin fibers. As no good use has been found 
for these byproduct fibers from the tire grinding process, they are 
currently being disposed of in landfills or, in some cases, 
incinerated.
    The proposed researchers have successfully incorporated virgin 
synthetic fibers into HMA and demonstrated the benefits in the 
laboratory and even in the field, on a limited basis. Virgin fibers can 
improve the resistance of HMA to cracking and rutting. This promising 
work needs to be continued to determine the value of using fibers from 
the tire recycling process in HMA. Equipment is available to 
incorporate fibers into HMA.
    A laboratory study will be developed and implemented to examine the 
utility of byproduct tire fibers in HMA for paving purposes. 
Researchers will incorporate the waste fibers into HMA, prepare and 
test HMA specimens in the laboratory, evaluate the benefits of fibers 
in different types of HMA. If tire fibers appear beneficial in HMA, the 
researchers will recommend modifications to materials specifications 
and field construction guidelines that can be used by State departments 
of transportation and other highway specifying agencies. This project 
may lead to additional research for TTI if the use of byproduct tire 
fibers in HMA appears promising.

Use of Recycled Materials in Bicycle and Pedestrian Trails
Texas Transportation Institute (Texas A&M University)

    The proposed research will investigate the feasibility and benefits 
of paving bicycle/pedestrian trails with recycled material. The 
proposed study will also perform field tests of paving bicycle/
pedestrian trails with recycled material. A preferred mix of recycled 
materials will be used in a test section of an off-road bicycle trail 
and then evaluated by the researchers and trail users.
    The proposed research would include site-identification, planning 
and coordination of a field experiment. Minimal lab testing would be 
required to establish and characterize the mix design for the materials 
chosen for evaluation. Field test sections will be evaluated for 
bicyclist/pedestrian satisfaction, constructability, cost, performance, 
environmental impact, and aesthetics.
    The increased use of byproducts in construction applications will 
provide numerous environmental and economic benefits. Positive 
environmental effects include reduced sold waste and reduced use of 
natural resources. Positive economic benefits should include (a) 
reduced construction costs; (b) creation of alternate materials for 
non-existent, poor, or depleting aggregate resources; (c) savings in 
energy prices versus disposal; (d) creation of new jobs through new 
manufacturing and marketing opportunities; and (e) extension of 
creative rationale to other byproducts.

Implementation of a System for Evaluating Waste/Recycled Materials in 
Transportation Projects
Texas Transportation Institute (Texas A&M University)

    Enormous quantities of waste materials are generated every year in 
Texas and recycling these waste materials is necessary to preserve the 
country's natural resources. A waste and recycled material evaluation 
system has already been developed which takes into account technical, 
economic, societal, and environmental aspects of waste and recycled 
material utilization in roadbase.
    Under this research project, the evaluation system will be field 
tested and implemented in various administrative levels including one 
or two TxDOT districts and one or two city of county projects. This 
will help reduce the volume of waste and recycled materials going into 
landfills by permitting reuse in transportation projects. The 
implementation will also help reduce the energy required to produce 
virgin aggregate involved in more than 110 million tons of recycled 
aggregate base for AC and PCC pavements in addition to several other 
environment related benefits.

RFID Applications in Transportation Operation and Intelligent 
Transportation Systems (ITS)
Oregon Transportation Research and Education Consortium (Portland State 
University)

    It is anticipated that great applications of Radio Frequency 
Identification (RFID) technologies in transportation operations are 
foreseen in next few years. The lower cost producing and the long-
lasting energy supply enables RFID technology with potential 
applications in many areas including transportation and logistics. 
Under the RFID equipped vehicle and highway system, almost all 
components (vehicles, highways, traffic signals, signs, symbols, 
pavement markers, etc.) can be provided with the long-lasting and cheap 
RFID tags or labels. RFID system typically includes an RFID device 
containing data, an antenna transmitting signals, a Radio Frequency 
(RF) transceiver generating signals, and a reader receiving RF 
transmissions. This research is intended to investigate the potential 
RFID applications in transportation operations through literature 
review and survey; and identify the possibility of incorporating RFID 
into the Intelligent Transportation System (ITS).

Evaluation of Traffic Simulation Models for Supporting ITS Development
Oregon Transportation Research and Education Consortium (Portland State 
University)

    The deployment of various ITS facilities will likely change the 
functions and structures of the existing urban transportation network 
components. The continuing expansion of ITS user service definitions is 
adding more and more travel and traffic control elements to the already 
complex network configurations. The dynamic interactions between the 
traffic control and management components and the traffic flows are 
becoming more complicated than ever before. In this context, the use of 
a traffic simulation model is becoming the most cost-effective way to 
analyze the complicated ITS networks. Many traffic simulation models 
are available for analyzing operations and management. While each type 
of traffic simulation model seems to have its own merit and 
shortcomings, there is a need to comprehensively evaluate and document 
all of the existing models and identify those models that are most 
suitable for application to different ITS network and development 
scenarios.

                     Biography for Paul R. Brubaker
    Paul Brubaker was nominated by President George W. Bush to serve as 
Administrator of the U.S. Department of Transportation's (DOT) Research 
and Innovative Technology Administration (RITA) on June 18, 2007. He 
was confirmed by the U.S. Senate on August 3, 2007, and was sworn into 
office on August 8, 2007.
    As RITA Administrator, Mr. Brubaker leads the agency responsible 
for coordinating and reviewing DOT's roughly $1 billion investment in 
research, development and technology, and is charged with advancing 
technologies that will improve the Nation's transportation system. RITA 
oversees the Bureau of Transportation Statistics, Volpe Center, 
Intelligent Transportation Systems program, Transportation Safety 
Institute, and numerous cross-modal research initiatives.
    Mr. Brubaker previously served as CEO of Procentrix, a firm that 
helps organizations plan, manage and achieve measurable performance 
improvement through the effective use of process and technology. His 
diverse background and expertise positioned him with the ability to 
empower public sector transformation and drive new models for 
government efficiency. Prior to this role, Mr. Brubaker served as 
Executive Vice President and Chief Marketing Officer of SI 
International, one of the Nation's fastest growing government 
contractors.
    Mr. Brubaker previously served as Deputy Assistant Secretary and 
Deputy Chief Information Officer at the U.S. Department of Defense 
(DOD) where he was the Department's second highest-ranking technology 
official and supervised DOD's $50 billion annual Information Technology 
expenditure. He drove the transformation of many of DOD's business and 
war-fighting processes including personnel, logistics, finance and 
command and control, and supervised the Department's electronic 
business activity including implementation of paperless contracting 
initiatives, travel process management and electronic mail. He was 
awarded the Distinguished Public Service Medal (with bronze palm) for 
his efforts on behalf of the Department.
    Before serving at DOD, Mr. Brubaker held various executive 
positions within the public and private sectors, including Vice 
President of Strategic Programs for Litton PRC, Vice President of 
Business Development for Federal Data Corporation, and in senior 
positions within the U.S. Senate and General Accounting Office. While 
serving as Republican Staff Director of the Senate Subcommittee on 
Oversight of Government Management, Mr. Brubaker was the principal 
staff architect of the Clinger Cohen Act while working for then-Senator 
William S. Cohen (R-Maine).
    He has also won numerous awards including the Association for 
Information Resource Management's (AFFIRM) Government Executive 
Leadership Award in 2000. He was named to Federal Computer Week's 
Federal 100 in 1996 and 2002, and was appointed to the board of the 
Virginia Innovative Technology Authority in 1998 where he served as 
chairman from 2001 to 2003. He recently ended terms as Chairman of the 
Technical Committee of the Armed Force Communications and Electronics 
Association (AFCEA) and President of its D.C. Chapter.
    Mr. Brubaker holds a B.A. from Youngstown State University and a 
M.P.A. from Kent State University, and is very active with the 
Churchill Centre. He lives with his family in Oakton, Virginia.

    Mr. Wilson. [Presiding] Thank you. Are there any questions? 
Pardon me. I recognize Mr. Iwasaki.

  STATEMENT OF MR. RANDELL H. IWASAKI, CHIEF DEPUTY DIRECTOR, 
            CALIFORNIA DEPARTMENT OF TRANSPORTATION

    Mr. Iwasaki. I think I need more than five minutes, though. 
Would that be okay? All right. Thank you.
    Good morning, Members of the Subcommittee. My name is Randy 
Iwasaki and I am the Chief Deputy Director at the California 
Department of Transportation and I am just going to get right 
into it.
    Government works the best when we have definite clear-cut 
goals. In California, we have AB-32, the California Global 
Warning Solutions Act of 2006, and then Governor Schwarzenegger 
signed an executive order which established climate change 
emission reduction targets for the state. We have to go back to 
1990 levels by 2020. So we have goals.
    Proposition 1B generated $19.925 billion for congestion 
relief in California. We have to take congestion levels down, 
delay levels down to below today's level by 2016. So we have 
goals not only on our climate change, on carbon reduction but 
also on congestion.
    So I want to get right into it. Some of the innovative 
materials that we are looking at--and by the way, our budget is 
about $14 billion at Caltrans. Less than 20 percent of that is 
federal. So we are a state that helps ourselves. In the area of 
materials, I am the technical coordinating committee chair of 
the Strategic Highway Research Program, SHRP 2, we call it, and 
I am in the renewal section. We are looking at getting in, 
getting out and staying out, basically rapid rehabilitation, 
minimize disruption and create longer-life facilities. In the 
area of materials--and by the way, what Congress can do is, it 
was set up at $450 million. It was cut to $150 million, and 
besides renewal, there is congestion--or there is capacity, 
reliability and safety as well, research in that area. When we 
talk about materials, we are looking at longer lasting. We are 
looking at recycling. We are actually doing recycling projects 
in California. Rubberized asphalt concrete, Administrator 
Brubaker talked about that. Thirty percent of our program, 
asphalt concrete rehabilitation, is done with asphalt rubber. 
We are looking at warm asphalt. You don't have to heat it as 
high so therefore you don't burn as much fuel.
    And we recently received an EPA award for environmentally 
friendly concrete and cement, and you wonder what is that. 
Well, on the San Francisco-Oakland Bay Bridge in the 
foundations, we poured concrete that had 50 percent fly ash in 
it. So in California, probably anywhere else, when you 
manufacture cement, one pound of cement equals one pound of 
CO<INF>2</INF>. It is a little bit less but for practical 
purposes it is one for one. And so two percent of our 
greenhouse gas emissions are cement manufacturing and so we are 
trying to reduce the amount of cement but still get the same 
strength and durability because the last thing you want is your 
facility to wear out faster and have to redo it sooner because 
you are just going to spend money there. The last thing in the 
area of materials is, we need to get in, get out, we need to do 
it rapidly. Get the facility in the hands of the traveling 
public sooner so we are doing it very, very quickly.
    We are looking at fuels. We are the first State agency, the 
major buyer of low-sulfur diesel in California five or six 
years ago. People wonder why are you buying that expensive 
fuel. Well, today they know because all fuel sold in California 
that is diesel is low sulfur and so we started that program. 
Hydrogen--we are going to build a hydrogen fueling facility in 
our Shop 7 in Los Angeles, the equipment shop. E85--we are 
building facilities throughout California. How you can help us 
is, we need one standard specification for the hardware that 
doesn't fluctuate and we get into conflict with the fire 
marshal.
    In the area of technology, there is so much technology out 
there that is hard to explain but the problem is integrating it 
into the transportation system. So I will talk about LED 
lights. It is a simple technology. We started working on that 
15 years ago because our controller box would kick out because 
of the heat. Today many, many states use LEDs. It is a lower 
draw. It is an energy saving. It is sustainable. We are proud 
to say that we are the recipient, the only recipient so far of 
the Safe Trip 21 effort. It is along the lines of VII, Vehicle 
Infrastructure Integration program, where cars talk to cars, 
cars talk to the infrastructure. One of these days, those cars 
are going to refuse to crash, refuse to run off the road, but 
in order to expedite that program, we applied for a Safe Trip 
21 grant and that is where the communication technology is not 
imbedded in the car but it is actually in consumer mobile 
devices. You know them as cell phones. And so we are going to 
take 10,000 cell phones and run through the Bay area and we are 
going to get arterial information, probe information so that 
you can take your trip faster, not shortest distance but 
quickest time. What does that mean? You are in your car less, 
you burn less fuel. We think that has a lot of potential. 
Travel information--we are beefing up our 511 systems. We want 
people to have up-to-date information to make mode choices, put 
people in other modes of transportation. And lastly on the 
technology, we just opened a system-wide adaptive ramp metering 
where we have 35-mile-an-hour mainline flows and we adjust each 
meter along the 210 in Los Angeles to maximize throughput and 
then we are looking at electronic tolling.
    You wonder how does California do it. We opened up right-
of-way for deployment. When the ITS World Congress came to San 
Francisco in 2005, we did a call for submissions with the 
private sector. It is like a three-legged stool for deployment 
of technologies: academia, government and the private sector. 
We don't build anything in State government, but when the ITS 
World Congress came to Sacramento, we opened up our right-of-
way. We have some great, great partnerships there and it 
morphed into the ultra-successful innovative mobility showcase 
where you could touch ITS. We have two test beds for mobility, 
one on Interstate 80 near Berkeley, the other one on the I-405 
near UC-Irvine. We fully fund our UTCs. We have five in the 
state. We partner with the Transportation Research Board, 
AASHTO, ITS America, U.S. Department of Transportation, Federal 
Highway Administration and others. We have joint research 
programs with other nations. We do mobility research for the 
last 20 years with France. We do material research with 
Denmark. We do seismic research with Taiwan and Japan.
    States should probably play in the deployment of technology 
because we need the overarching standards. We don't want the 
widget or the product not to work when you cross State lines or 
county lines. We have to have inter-operability. Some of the 
impediments are on the federal side when it is a federally 
over-sighted project. If we have a new mix design, it takes 
time to get those approvals. At the end of the day, the states 
are responsible for our rehabilitation projects, so if 
something happens, they don't come back to the Federal Highway 
Administration. They come back to the states. The non-
competitive bid--we have patent laws in the United States that 
allow the private sector to develop new widgets, new 
technology, but when you try to deploy them on a project, you 
have to go through a PIF process, that's a public interest 
forum. It takes time. And so we are trained not go through the 
PIF process, but how do you get innovation if you don't go 
through the PIF process.
    I think since I am red now, and I have so much to say, demo 
projects, you know, back in 1970, then-Governor Ron Reagan 
flipped a switch on the first transportation management center 
in Los Angeles. Today transportation management centers are 
spread throughout the United States. We need deployment. We 
need demo projects. AASHTO sponsors a number of scans that go 
throughout the Nation as well as internationally to look at 
technology and how they deploy those technologies so we don't 
have to reinvent the wheel. We use our strategic plan at 
Caltrans to help guide our research program.
    The last thing I would say is, we need people to maintain, 
operate, design and build these systems. That is where the UTCs 
come into play. They teach the next generation of leaders. We 
need to get people in trades. So thank you very much for your 
time.
    [The prepared statement of Mr. Iwasaki follows:]
                Prepared Statement of Randell H. Iwasaki

Mr. Chairman, Members of the Subcommittee:

    My name is Randell Iwasaki. I am the Chief Deputy Director of the 
California Department of Transportation, also known as Caltrans. I 
would like to thank you for the invitation to testify before you today.
    As Chief Deputy Director of Caltrans, I am responsible for a budget 
of 14 billion dollars, an organization of more than 23,000 employees, 
and a transportation system that includes 52,000 lane-miles of State 
highways, two of the five largest transit systems in the Nation, three 
Amtrak routes, and the two busiest ports in the United States.
    I serve as the Chair of the Intelligent Transportation Society of 
America's Board of Directors. I am also a member of the Intelligent 
Transportation Systems (ITS) Advisory Committee, which is providing 
executive-level advice and guidance for U.S. Department of 
Transportation (DOT) Secretary Mary Peters' Five-Year ITS Program Plan.
    As you know, all State departments of transportation belong to the 
American Association of State Highway and Transportation Officials, or 
AASHTO. I have been a member of the AASHTO Standing Committee on 
Research since 1999. This committee represents the Association's 
interests in all research activities for all transportation modes. The 
Committee makes reports and recommendations on the $35 million National 
Cooperative Highway Research Program (NCHRP) and other activities to 
the AASHTO Board of Directors. I am also a founding member of the 
AASHTO Technology Implementation Group (TIG) that provides leadership 
for promoting and supporting rapid implementation of selected 
technologies.
    With regard to the Transportation Research Board (TRB) Strategic 
Highway Research Program (SHRP 2), I am Chair of the Technical 
Coordinating Committee for Renewal.
    I was recently a member of the Committee on Climate Change and U.S. 
Transportation for TRB's Special Report 290: Potential Impacts of 
Climate Change on U.S. Transportation.
    California is growing rapidly, and by 2020, its population is 
expected to increase from 37 million to 44 million people; about one 
out of every eight Americans now lives in California. We have more 
registered vehicles (24 million) than we have licensed drivers (22 
million), so vehicle travel is an important part of our culture, and by 
2020, annual vehicle miles traveled will increase by 38 percent to 475 
billion miles. Trade volumes through our ports will also more than 
double by 2020. Responding to this growth is a high priority for the 
state. Our objectives are to protect the existing investment, fuel the 
economy, enhance the quality of life for our citizens, and protect our 
environment. Achieving these objectives will require a substantial 
effort.
    The need for the benefits that we receive from new materials and 
technologies could not be more apparent anywhere than it is here in 
California. Each year, our state suffers a societal cost of more than 
$46 billion in terms of car crashes and traffic congestion. Car crashes 
annually cause more than 4,000 deaths, 300,000 serious injuries, and 
the associated level of property damage. Traffic congestion leads to a 
loss of economic productivity, wasted fuel, and disrupted goods 
movement, the cost of which continues to rise. We sincerely believe 
that new materials and technologies will help us significantly improve 
safety and reduce traffic congestion, and we are committed to 
investigating the benefits of implementing them.
    On June 1, 2005, Governor Schwarzenegger signed Executive Order 
(EO) S-3-05, which established climate change emission reduction 
targets for the State. The Climate Action Team (CAT) was created to 
coordinate the statewide effort. Assembly Bill (AB) 32: California 
Global Warming Solutions Act of 2006 further established the first-in-
the-world comprehensive program of regulatory and market mechanisms to 
achieve quantifiable and cost-effective reductions of greenhouse gases 
(GHG), and required the reduction of GHG emissions to 1990 levels by 
2020. Caltrans is a member of the CAT, and we are committed to working 
with the California Air Resources Board to implement transportation 
strategies that will help reduce GHG emissions. The Caltrans' Climate 
Action Program was developed to promote clean and energy efficient 
transportation and provide guidance for incorporating innovative 
solutions into its business operations. Furthermore, Governor Arnold 
Schwarzenegger's Strategic Growth Plan, a ten-year mobility investment 
program, targets a significant decrease in traffic congestion below 
today's level by 2016. Therefore, Caltrans' approach to lowering fuel 
consumption and GHG from transportation is to:

        1)  Reduce congestion and improve efficiency of transportation 
        systems through smart land use, operational improvements, and 
        Intelligent Transportation Systems. These are objectives of the 
        State Strategic Growth Plan; and

        2)  Institutionalize energy efficiency and GHG emission 
        reduction measures and technology into planning, project 
        development, operations, and maintenance of transportation 
        facilities, fleets, buildings, and equipment.

    Innovation is one of the four core values that guide and shape the 
department, and staff is empowered to seek creative solutions and take 
intelligent risks. Caltrans has the largest and most vigorous research 
division of a State DOT in the Nation. We have ongoing studies that 
address the potential impacts of climate change and State legislation 
that mandates the consideration of environmental impacts in State 
decision-making and project development. We use innovative technologies 
for traffic management systems. We also have programs to develop 
alternative fuels, green pavement, fleet vehicle greening, smart 
parking, and many other projects that help to improve mobility and 
sustain a high quality of life in California.

Questions:

1)  What innovative materials and technologies are currently available 
to State and local transportation departments, and how do you decide 
which materials and technologies to use in California? Who are your 
resources for information on technical capabilities and engineering and 
design, and how would you rate their technology transfer efforts? How 
are new materials and technologies integrated into existing 
transportation networks, especially across multiple regions and 
jurisdictions?

    Caltrans encourages the use of innovative solutions. We have 
instituted a Green Highway Program to guide us in using environmentally 
friendly and recycled products and technologies. Caltrans' 
environmentally friendly business practices include using innovative 
materials, waste tires, pavement recycling, office waste recycling, and 
many other applications. Here are a few highlights from this program:

        <bullet>  Cold Foam Recycle--Caltrans' Interstate 80 Cold Foam 
        Recycle Project won an award from Green Technology, a nonprofit 
        organization that works with federal and State officials on 
        environmental solutions. The project was the first in 
        California and the United States to recycle in-place materials 
        on a high-speed, high-traffic volume roadway (Traffic counts 
        range from 30,000 to 60,000 vehicles/day).

           The innovative aspect of the project was three-fold: First, 
        the recycling methodology used 100 percent of the existing in-
        place asphalt concrete on a high-volume, high-speed interstate. 
        This was done in a single pass, allowing for the free flow of 
        traffic through the construction zone. This method reduced 
        construction zone congestion and idling motors at traffic 
        standstills, therefore lowering non-construction vehicle 
        emissions. Second, trucks were not needed to haul away the 
        existing milled asphalt concrete or bring in new replacement 
        hot mix asphalt. Third, the modern computer-driven all-in-one 
        recycler eliminated the need for the following three high-
        horsepower diesel engines: paver, pickup machine and breakdown 
        roller. This saved additional fuel and further reduced the 
        emissions as compared to conventional construction methodology. 
        The Cold Foam technology has been used successfully in over 10 
        projects statewide, and more projects are anticipated in 2008/
        2009.

        <bullet>  Waste Tires--Caltrans has established a variety of 
        uses for waste tire products. They include rubberized asphalt 
        concrete as a pavement alternative and shredded waste tires, 
        which are used as lightweight fill for embankments.

        <bullet>  Environmentally Friendly Cement--Carbon dioxide (CO2) 
        is a major byproduct in the production of cement (0.86 ton of 
        CO<INF>2</INF> per ton of cement in California, where cement 
        plants are among the most efficient in the world). California's 
        production of cement accounts for two percent (two percent) of 
        the state's total CO<INF>2</INF> emission. Caltrans, the Air 
        Resources Board, the California Environmental Protection 
        Agency, and our concrete industry are international leaders in 
        efforts to reduce GHG from cement production and concrete 
        cement usage. Our goal is to stretch the amount of cement used 
        in concrete and to reduce the energy necessary for production. 
        We are focused on concrete that meets our materials quality 
        requirements as we strive to meet the goals of State statue AB 
        32 (similar to the Kyoto Treaty).

           Specifically, Caltrans and our industry have been looking 
        into ways to reduce the amount of carbon in concrete mixes by 
        using more supplementary cementitious materials (SCM) and by 
        limiting the amount of cement in concrete mixes. For example, 
        we are reducing the amount of cement in the mix by allowing up 
        to five percent (limestone and 25 percent fly ash. The percent 
        of fly ash may be increased to 50 percent. Last year Caltrans 
        won an award from the EPA for building the new San Francisco 
        Oakland Bay Bridge with concrete that had 50 percent of the 
        cement replaced with SCM. We are investigating using different 
        fuels to produce cement so there are less GHG emissions.

           Caltrans is also studying the adoption of a GHG emission 
        standard to assure that cement imported to California has at 
        most the same cement intensity (so that it is as GHG friendly) 
        as cement produced in California. To accomplish this objective, 
        we are looking into the amount of GHG from shipping material by 
        different modes of transportation including ship, train and 
        truck.

        <bullet>  Caltrans Vehicle Fleet Greening Program--This program 
        began as a five-year plan in August 2000 to reduce emissions 
        from the Caltrans fleet, ahead of future regulations, and set 
        an example for the use of emerging, clean air technologies. 
        Today, Caltrans continues to promote an efficient fleet mix and 
        use of efficient, low emission vehicles to reduce our use of 
        petroleum, and our emissions of air pollutants and greenhouse 
        gases. Through a combination of regulatory compliance, State 
        purchasing policies, and innovative demonstrations, we have 
        implemented hybrid passenger vehicles; solar-powered equipment; 
        propane-fueled vehicles; low dust street sweepers, diesel 
        particulate filters on heavy-duty, diesel-powered vehicles; 
        hydrogen demonstration vehicles; and an E-85 fuel ethanol 
        demonstration project. We are also pioneers in the use of low-
        sulfur diesel and bio-diesel in our vehicle fleet.

        <bullet>  California Hydrogen Highway Network (CaH2Net)--
        Created as part of Executive Order S-7-04 issued by Governor 
        Arnold Schwarzenegger, the mission of the program is to assure 
        that infrastructure is in place to enable fuel cells and other 
        hydrogen vehicle technologies to be used by consumers as they 
        reach commercial readiness. Working in partnership with other 
        components of California's environmental and energy programs, 
        the CaH2Net can help achieve more stable and sustainable energy 
        usage, and increase the number of zero emission vehicles (ZEVs) 
        on California's roads. We are also currently installing a 
        hydrogen fuelling facility in one of our equipment shops in the 
        Los Angeles area.

        <bullet>  Long-life Pavement Rehabilitation Strategies 
        (LLPRS)--The goal is to rebuild high volume urban freeways with 
        pavements that are designed to last more than thirty years with 
        minimal maintenance. The program will reduce the need for 
        future repair projects and ultimately save public resources and 
        help preserve the environment for future generations of road 
        users. LLPRS candidate projects were selected from among 
        highways that experience minimum volume demands of 150,000 
        Average Daily Traffic or 15,000 Average Daily Truck Traffic, 
        and that have poor structural pavement condition and ride 
        quality. Most LLPRS candidate sections are Portland cement 
        concrete pavements on interstate freeways in urban networks, 80 
        percent of which are within the Los Angeles Basin, and 15 
        percent of which are in the San Francisco Bay Area. Pilot 
        projects include the I-10 concrete rehabilitation in Pomona, I-
        710 asphalt concrete rehabilitation in Long Beach, and I-15 
        concrete rehabilitation in Devore.

        <bullet>  Rapid Rehab: Construction Analysis for Pavement 
        Rehabilitation Strategies (CA4PRS)--By reducing highway 
        construction time and its impact on traffic, CA4PRS is a 
        schedule and traffic analysis tool that helps designers select 
        effective, economical rehabilitation strategies. The software's 
        scheduling module estimates highway project duration, 
        incorporating alternative strategies for pavement designs, 
        lane-closure tactics, and contractor logistics. On the I-15 
        Devore reconstruction project, CA4PRS software justified 
        implementing the one-roadbed continuous (24/7) closure 
        scenario, which saved $6 million in construction costs and $2 
        million in road user delay costs. The project was completed in 
        18 days by closing down one direction of traffic and 
        reconstructing the freeway. This project would normally have 
        taken 10 months to complete with nighttime closures. CA4PRS is 
        funded through a Federal Highway Administration (FHWA) pooled-
        fund, multi-state consortium (California, Minnesota, Texas, and 
        Washington), CA4PRS was developed by the University of 
        California Pavement Research Center through the UC-Berkeley 
        Institute of Transportation Studies. FHWA formally endorsed 
        CA4PRS as a ``Priority, Market-Ready Technologies and 
        Innovations'' product in 2008 for nationwide deployment. Over 
        700 people have been trained on the use of this software 
        product.

        <bullet>  Caltrans Stormwater Management Program--The program 
        received a Green Technology Leadership Award in the 
        transportation category for its pioneering integrated approach 
        to incorporate protection and treatment of stormwater. The 
        approach starts with project planning, design and construction, 
        and includes ongoing efforts in operations and roadside 
        maintenance. Through the corporate business cycle, practices 
        are continually being evaluated and improved.

    Our resources for information on technical capabilities and 
engineering come from many areas, including academia, Federal, State 
and local governments, private industry, and from other nations. 
Caltrans has established excellent working partnerships with our 
research community. Here are some of the partners we work closely with:

        <bullet>  Advanced Highway Maintenance and Construction 
        Technology (AHMCT), University of California, Davis,

        <bullet>  California Partners for Advanced Transit and Highways 
        (PATH), University of California, Berkeley,

        <bullet>  California Center for Innovative Transportation 
        (CCIT)--As part of the Institute of Transportation Studies at 
        UC-Berkeley, (Its focus is technology transfer efforts),

        <bullet>  Partnered Pavement Research Center--UC-Berkeley and 
        UC-Davis,

        <bullet>  Western Transportation Institute (WTI), Montana State 
        University-Bozeman (MSU),

        <bullet>  University Transportation Centers:

                  The University of California Transportation Center 
                (UCTC) at UC-Berkeley,

                  The Mineta Transportation Institute at California 
                State University, San Jose,

                  The METRANS University Transportation Center at the 
                University of Southern California,

                  The Sustainable Transportation Center at the 
                University of California, Davis,

                  The Leonard University Transportation Center at 
                California State University, San Bernardino,

        <bullet>  U.S. Department of Transportation, including the 
        FHWA, the Federal Transit, Administration (FTA), and the 
        Federal Motor Carrier Administration (FMCSA),

        <bullet>  Transportation Research Board (TRB),

        <bullet>  American Association of State Highway and 
        Transportation Officials (AASHTO), and

        <bullet>  International Partners:

                  France--Mobility Research,

                  Denmark--Pavement Research,

                  Japan/Taiwan--Seismic Research,

                  Holland--Sustainable Transportation Research,

    Caltrans is committed to the research and timely deployment of new 
and innovative materials and technologies, which includes the 
development of policies that promote sustainability and reduce energy 
consumption and impacts to the environment. At the same time, there are 
industry standards that we must follow to be in compliance with federal 
and State regulations for types of materials used, construction 
standards, and the like. These policies support our commitment to 
safety and reliability of the State transportation system. For example, 
in our pavement unit, a Pavement Standards Team (PST) evaluates 
pavement design, construction, and maintenance practices and procedures 
and, as appropriate, develops standard special provisions in a 
collaborative manner within Caltrans and with FHWA and industry 
associations. Many times, when changes are deemed necessary or when 
innovative changes need to be evaluated, pilot programs are initiated. 
Pilot programs typically require the construction of pilot projects to 
evaluate the proposed changes; especially, if the change involves an 
improved maintenance or construction practice, validating enhancements 
to pavement performance and/or life; and changes in material properties 
or sampling and testing. Pilot programs and pilot projects require 
prior approval from PST before they are initiated.

2)  What are the biggest impediments to the use of new infrastructure-
related materials and technologies? How can the Federal Government, 
academia, and industry contribute to overcoming these barriers? What 
role do technology demonstration projects play, and has California 
undertaken any specific demonstration projects? How are the results of 
these demonstrations disseminated?

    Based on our extensive experience with transportation innovation, 
here are some of the primary impediments to the use of new 
infrastructure-related materials and technologies:

        <bullet>  Insufficient resources for implementation,

        <bullet>  Resistance to change at multiple levels within the 
        implementing agency,

        <bullet>  Restrictive legal requirements, such as ownership and 
        use of intellectual property, and indemnification,

        <bullet>  Difficulty in operating and maintaining cutting-edge 
        technologies (lack of workforce with the necessary job skills),

        <bullet>  Procurement challenges due to non-competitive bid 
        (sole source) situations with technologies that are only 
        available from one source,

        <bullet>  Lack of executive-level sponsorship within the 
        implementing agency,

        <bullet>  Challenges with getting federal approval to use new 
        materials and technologies when they have not been educated on 
        them (``Public Interest Finding'' process),

        <bullet>  Lack of performance requirements and guidelines for 
        implementing the new idea,

        <bullet>  Risk-averse cultures within the implementing agency, 
        and

        <bullet>  Lack of clear performance measures that determine 
        success.

    Here are some of the ways to overcome these barriers to the use of 
new infrastructure-related materials and technologies:

        <bullet>  Develop products that meet the user's needs,

        <bullet>  Strengthen management commitment to using the 
        product,

        <bullet>  Provide funding to enable State DOTs to meet with 
        cutting-edge technology leaders to share experiences and to 
        learn from them,

        <bullet>  Develop products with user participation,

        <bullet>  Provide sufficient resources to fund complete 
        development of the product, and

        <bullet>  Use pilot projects to demonstrate the benefits of the 
        product.

    The Federal Government can help by providing national leadership, 
serving as a repository for information on best practices, and 
providing the higher level of resources that are needed for taking a 
product from research to deployment. Academia is our primary partner 
for performing research on new infrastructure-related materials and 
technologies. We then work with the private sector to commercialize 
these products so they Caltrans and others can use them.
    Technology demonstration projects play a key role in addressing the 
impediments to the use of new infrastructure-related materials and 
technologies. For example, they enable an implementing agency to deploy 
a new product on a limited scale to measure and evaluate its benefits. 
If the results of the evaluation are promising, it becomes much easier 
for the agency to overcome institutional resistance to change, to gain 
executive-level support, and to address a risk-averse culture. Another 
key aspect in the success of a technology demonstration project is to 
include the end-user of the product in its development and execution. 
When users play an active role in the project, they can become a 
champion for it among their peers, making it easier to overcome 
resistance to change.
    As a leader in the field of transportation innovation, Caltrans has 
participated in many technology demonstration projects. Here are a few 
of the notable examples:

        <bullet>  Vehicle-Infrastructure Integration (VII)--Caltrans is 
        working with ten other State DOTs, members of the auto 
        industry, and the U.S. DOT in a cooperative effort whose 
        outcome will be a new approach to transportation, whereby auto 
        manufacturers and transportation agencies would build systems 
        that communicate wirelessly with one another to:

                1.  Enable the implementation of cooperative safety 
                features that prevent vehicle crashes,

                2.  Provide unprecedented levels of reliable traveler 
                information, and

                3.  Give transportation managers full knowledge of the 
                real-time operating conditions on the Nation's roadway 
                network.

        <bullet>  SAFE TRIP-21--Caltrans is working with the U.S. DOT 
        on a program closely related to VII. Instead of emphasizing 
        communications equipment that is deeply embedded within a car, 
        it explores the use of consumer mobile devices, such as cell 
        phones that drivers typically carry with them when they travel, 
        as the communications medium for collecting traffic data from 
        cars and sending traveler information to drivers. Our project 
        is a successful public-private partnership that includes 
        several industry giants, such as Nokia, NAVTEQ, and Nissan.

        <bullet>  Cooperative Intersection Collision Avoidance 
        Systems--This project is also closely related to VII. It uses 
        the wireless communications technology developed under VII to 
        enable an application that warns distracted or inattentive 
        drivers before they run a red light, thereby avoiding many of 
        the serious crashes that occur at intersections.

        <bullet>  On-board Driver Monitoring System--Caltrans is 
        working with the Federal Motor Carrier Safety Administration on 
        this project to develop equipment that monitors the performance 
        of commercial truck drivers and warns them of unsafe driver 
        behavior. It can also detect the onset of drowsiness and advise 
        the driver to take a break.

        <bullet>  Travel Times on Changeable Message Signs (CMS)--This 
        project provides information on current traffic conditions to 
        drivers while they are commuting. Trip time is the most 
        practical information that commuters can use to assess traffic 
        and adjust their routes. The CMS displays information about 
        downstream corridor delays, traffic incidents, and estimated 
        travel times. Displaying accurate travel times on CMS helps 
        commuters assess traffic, alleviates driver stress, and allows 
        drivers to make better route decisions. Knowing the driving 
        times to popular destinations, travelers may choose a less-
        congested route or a different form of transportation.

        <bullet>  Integrated Corridor Management--Caltrans is working 
        with the FHWA and two regional transportation agencies (San 
        Francisco and San Diego) on ways to integrate both operations 
        and traveler information for different roads (arterials and 
        highways) and different modes (cars, commercial trucks, buses, 
        and commuter rail) along strategic transportation corridors. 
        When implemented, travelers can make more efficient decisions 
        on mode and route choice, saving them time and money.

        <bullet>  System-Wide Adaptive Ramp Metering (SWARM)--Along 
        Interstate 210 in the Los Angeles Region, Caltrans has 
        implemented a ramp metering algorithm that substantially 
        reduces the amount of traffic congestion along the corridor. 
        Based on the success of this demonstration, the SWARM algorithm 
        will be implemented along several other strategic corridors in 
        the near future.

        <bullet>  Caltrans Automated Warning System (CAWS)--This 
        technology has been deployed in the Central Valley of 
        California to detect and automatically inform drivers of foggy 
        and other reduced visibility conditions. It is now being 
        expanded to other regions that are prone to foggy conditions.

        <bullet>  Electronic Toll Collection (ETC)--The California 
        State Legislature passed a law requiring standardization of the 
        technologies for electronic toll collection, and Caltrans and 
        its regional partners have implemented this technology on toll 
        bridges and toll roads throughout California. ETC enables tolls 
        to be collected without requiring the driver to wait in line to 
        pay a toll collector, reducing the exhaust emissions created by 
        idling vehicles.

        <bullet>  Traffic Signal Synchronization--Caltrans is working 
        with the City of Los Angeles' Department of Transportation to 
        coordinate and synchronize traffic signals on city streets with 
        those on adjacent State highway routes. This effort will result 
        in a substantial reduction in traffic delay for users of both 
        roadways.

        <bullet>  Light Emitting Diode (LED) Traffic Signals--Caltrans 
        was one of the first public agencies to adopt LED technology 
        for traffic signal lights, instead of the traditional 
        incandescent light fixtures. This change results in a 
        considerable reduction in electric power usage, in addition to 
        the longer life of LED technology and their ability to operate 
        with battery-backup during power outages.

        <bullet>  Bus Forward Collision Warning Systems--Caltrans 
        worked with the San Mateo Transit District to develop and 
        implement a system to warn bus drivers of possible dangers 
        ahead in time for them to avoid a crash. This technology is now 
        available to all transit operators as an option when they 
        purchase a new transit bus.

        <bullet>  Bus Rapid Transit--This project developed methods for 
        operating buses on priority right-of-way to make bus transit 
        perform like rubber-tired light-rail systems, but with the 
        flexibility to operate on existing roadways. Some of the 
        technologies used include bus precision docking, automated 
        lane-guidance, and adaptive transit signal priority.

        <bullet>  Efficient Deployment of Advanced Public 
        Transportation Systems (EDAPTS)--Caltrans worked with a small 
        rural transit district in San Luis Obispo to develop 
        technologies that reduce life cycle costs, promote easy system 
        expansion, and contain adjustable levels of complexity and 
        function. EDAPTS uses a modular approach characterized by 
        common connections, standard communications interfaces, and 
        off-the-shelf hardware coupled with open-source software. 
        EDAPTS will be shared with other similar transit agencies to 
        improve their operations.

        <bullet>  Shakecast--After an earthquake, this software 
        decision support tool uses Google Earth maps and data available 
        from multiple sources to estimate and prioritize the likelihood 
        of damage to transportation infrastructure in the vicinity of 
        the earthquake. The tool enables Caltrans to send its 
        inspection crews to check out the structures most likely to 
        have been damaged first, so that they can be re-opened as 
        quickly as possible.

        <bullet>  National Automated Highway Systems Consortium--
        Caltrans was a core member of this consortium that was tasked 
        with developing and demonstrating automated highways, where 
        cars would travel under the control (steering, throttle, and 
        brakes) of computers embedded in the car, instead of being 
        operated by a driver. The objective of the project was to 
        improve safety, since human drivers cause a large percentage of 
        vehicle crashes, and to increase mobility, since more vehicles 
        can be safely packed onto the existing roadway if humans are 
        not driving them. Despite a successful demonstration in San 
        Diego in 1997, the USDOT terminated funding for the project due 
        to changing priorities.

    There are many ways to disseminate the results from a technology 
demonstration project. At a minimum, the sponsors of these projects 
require that a final report is prepared, delivered, and circulated to 
other states. In many cases, however, Caltrans does much more to spread 
the word on successful projects. All of our research reports are 
available on our web site, which also includes contact information for 
key staff that have additional knowledge about the project. They are 
also accessible in the TRB Transportation Research Information System. 
We have also conducted video teleconferences on select projects using 
the FHWA's facilities to reach out to our colleagues in other states. 
We are currently experimenting with Webinars as an additional mechanism 
for sharing the results of our work. Caltrans has used their video 
conference facilities to host the ``research connection'' where 
researchers provide their research findings directly to Caltrans 
practitioners. UCTC and PATH conduct an annual conference to share 
research results with Caltrans and local government agencies. Finally, 
much of our research is conducted in partnership with university 
research centers, and we encourage the academic researchers to write 
and publish papers documenting their work for industry-related events, 
such as TRB's Annual Meeting.

3)  What are your priorities for research and development of new 
technologies? Is the research community doing an adequate job of 
responding to the short and long-term needs identified by the user 
community?

    Caltrans ties its research to the Department's Strategic Goals 
through the Strategic Research Plan. The Strategic Goals are:

        <bullet>  Safety--Provide the safest transportation system in 
        the Nation for users and workers.

        <bullet>  Mobility--Maximize transportation system performance 
        and accessibility.

        <bullet>  Delivery--Efficiently deliver quality transportation 
        projects and services.

        <bullet>  Stewardship--Preserve and enhance California's 
        resources and assets.

        <bullet>  Service--Promote quality service through an excellent 
        workforce.

    The research priorities are also tied to the Strategic Growth Plan 
(SGP) unveiled by Governor Schwarzenegger in January 2006. Central to 
this plan was a proposed 10-year investment of $222 billion into the 
state's infrastructure including $107 billion in transportation 
investment. Caltrans developed a ``Strategic Growth Plan Pyramid'' as a 
dynamic illustration of the transportation elements of the State SGP:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As part of the Strategic Research Plan, a list of strategic 
research questions was developed to guide prioritization and selection 
of transportation research projects and ensure that all research 
projects supported by Caltrans are in alignment with Caltrans' Mission, 
Goals, and Objectives.

        1.  Data--How can we improve/enhance data collection and 
        interpretation across modes?

        2.  Travel Demand Management (Real-Time)--What are the most 
        effective real-time strategies to influence travel demand?

        3.  Travel Demand Management (System Elements)--What 
        transportation system elements and land use options are most 
        effective in reducing travel demand by enhancing choices?

        4.  Integrated Corridor Management--How can we optimize 
        movement through a corridor?

        5.  Goods Movement--How can we improve goods movement 
        throughout the State to generate jobs, increase mobility and 
        relieve traffic congestion, improve air quality and protect 
        public health, enhance public and port safety and improve 
        California's quality of life?

        6.  Design/Construction--What design features and construction 
        standards can be utilized to improve highway safety?

        7.  Proactive Safety--What can Caltrans do to mitigate 
        collisions?

        8.  Climate Change--How can Strategic Growth Planning be 
        advanced through addressing climate change adaptations and 
        mitigations?

        9.  Transportation Infrastructure (e.g., Pavement, Structures, 
        Maintenance Stations, Office Buildings, and others not 
        listed)--How can we optimize the performance of our 
        transportation infrastructure?

    Research roadmaps were developed to identify all research projects 
and activities needed over time and their expected research outcomes. 
Research roadmaps facilitate programming research activities and 
provide guidance to partnering with other organizations with common 
research needs.
    A Research and Deployment Steering Committee (RDSC) comprised of 
Deputy Directors and District Directors sets the Department-wide 
research priorities. The RDSC approves all research proposals and 
projects included in the program. Research projects are selected and 
programmed annually, using an integrated RFP (Request For Proposals) 
process. A short turn-around (quarterly) process responds to projects 
that require approval outside the annual cycle.
    Caltrans research project selection process emphasizes customer 
participation throughout the research process and customer ownership of 
the research products. In addition to the RDSC, research committees 
were established in various levels to get the customers involved in the 
research selection, management, and deployment process.
    Caltrans has established excellent working partnerships with the 
research community. In keeping with its Strategic Plan, Caltrans works 
with its research partners to create deployable research products. This 
applied-research approach results in a safer, more efficient and 
better-built transportation system that serves the short- and long-term 
needs of the traveling public. Four ways that Caltrans partners with 
the research community are:

        <bullet>  The Research and Technology Advisory Panel Executive 
        Committee,

        <bullet>  University-Contracted Research,

        <bullet>  The University Transportation Centers (UTCs), and

        <bullet>  Educational opportunities.

    The Research and Technology Advisory Panel Executive Committee 
(RTAP) is an external academic advisory committee created by Caltrans, 
in cooperation with leadership at the California Business, 
Transportation and Housing Agency. This committee is comprised of 
influential members of the academic research community and key State 
decision-makers. The RTAP advises Caltrans on critical long-term 
transportation research needs and helps to identify and evaluate 
critical long-term trends and research needs the department might 
otherwise overlook.
    Caltrans contracts with universities for the bulk of its research. 
Much of this research is conducted through partnerships with 
university-based research institutes. These institutes include the 
following:

        <bullet>  Advanced Highway Maintenance and Construction 
        Technology (AHMCT)--This partnership with University of 
        California, Davis, develops work zone concept vehicles and 
        equipment for Caltrans. So far, 16 concept vehicles and 18 
        pieces of equipment or software have been developed.

        <bullet>  California Partners for Advanced Transit and Highways 
        (PATH)--This partnership with University of California, 
        Berkeley, emphasizes research in new technologies that offer 
        potentially large improvements in traffic operations, 
        transportation safety, transportation policy, and transit 
        operations.

        <bullet>  California Center for Innovative Transportation 
        (CCIT)--As part of the Institute of Transportation Studies at 
        UC-Berkeley, this organization's goal is to ``accelerate the 
        implementation of research results and the deployment of 
        technical solutions by practitioners to enable a safer, cleaner 
        and more efficient surface transportation system.''

        <bullet>  Partnered Pavement Research Center--The key 
        objectives of this research group are to optimize pavement 
        performance, lower life cycle cost, increase service life, and 
        increase highway safety through smoother pavement and more 
        efficient maintenance and construction.

        <bullet>  Western Transportation Institute (WTI)--Established 
        by the Montana and California Departments of Transportation in 
        cooperation with Montana State University-Bozeman, this UTC 
        focuses on ``real transportation challenges facing rural 
        America.''

    Caltrans maintains a close relationship with California's federally 
funded University Transportation Centers, as well as those from other 
states. The five California UTCs are:

        <bullet>  The University of California Transportation Center at 
        UC-Berkeley,

        <bullet>  The Mineta Transportation Institute (MTI) at 
        California State University, San Jose,

        <bullet>  The METRANS University Transportation Center at the 
        University of Southern California,

        <bullet>  The Sustainable Transportation Center at the 
        University of California, Davis, and

        <bullet>  The Leonard University Transportation Center at 
        California State University, San Bernardino.

    Again, this partnership ensures that the research we support 
provides products that are more practical than theoretical.
    Last but not least, Caltrans supports educational opportunities for 
graduate students to develop advanced skills that focus on the most 
significant ``real-world'' transportation issues and problems. By 
partnering with the UTCs and other university researcher programs, 
Caltrans recognizes the long-term benefits of supporting high quality 
education and graduate training for transportation professionals and 
future transportation researchers. Garrett Morgan competition is held 
annually through MTI to encourage young middle school students to 
pursue science and engineering degrees.
    In all of the above examples, Caltrans strives to nurture a dynamic 
ongoing relationship with the transportation research community to be a 
catalyst for applied transportation solutions. This helps to ensure 
that its strategic research program is continually responsive to the 
changing transportation demands of California citizens and of the 
Nation.
    Since much of our research has common interest across the country, 
Caltrans is very active in research and the national level. We conduct 
partnered research with other states and the FHWA through the FHWA 
Pooled Fund Program. We have a long history of partnered research with 
the FHWA and FTA through the ITS Program and the Turner-Fairbank 
Highway Research Center. Caltrans pays special attention to research 
conducted the TRB, especially its cooperative research programs and the 
Strategic Highway Research Program (SHRP 2).
    Research and development of innovative methods and technologies can 
contribute significantly to the sustainability of highway 
transportation. The second Strategic Highway Research Program, 
authorized by Congress in SAFETEA-LU, is addressing the sustainability 
of the highway transportation system from several perspectives. The 
``Capacity'' portion of SHRP 2 is developing a new approach to 
transportation planning and development of highway projects. This 
approach, called the Collaborative Decision-Making Framework (CDMF), 
will more effectively integrate engineering, economic, social, and 
environmental considerations into highway planning and development. The 
research focuses both on the institutional and process aspects and on 
developing more robust economic inputs and scientific data regarding 
environmental impacts. Earlier stages of the CDMF focus on assessing 
the suitability of different strategies (including different 
transportation modes) for addressing local needs. Later stages focus on 
improving the environmental, social, and economic impacts of new 
highway capacity. Specific projects focus on greenhouse gases, ecology, 
conservation, smart growth, economic impacts, and highway operations.
    The ``Renewal'' portion of SHRP 2 is focused on renewing aging 
infrastructure more rapidly, with less disruption to users, and 
producing longer-lived facilities that will require less maintenance 
and cause less user disruption in the future. This research is 
addressing an array of tactics for speeding up delivery of highway 
renewal projects: performing more work off site and bringing completed 
portions of the facilities (modular bridges or pavements) to the site 
for quick installation; rapid techniques for work that must be 
completed on-site; non-destructive testing and evaluation technologies; 
and improved communication and collaboration methods to reduce the 
delays that arise when railroads and utilities cross or abut highway 
rights-of-way. Specific research projects address the use of recycled 
materials in rapid highway renewal, development of performance 
specifications to promote use of these and other materials, and 
techniques for encouraging innovation through better allocation and 
mitigation of risks.
    The ``Reliability'' portion of SHRP 2 addresses congestion caused 
by non-recurring events such as crashes, work zones, inclement weather, 
and special events. Approximately half of highway delay is due to non-
recurring events; this delay leads to significant waste of fuel and 
contributes to poor air quality. SHRP 2 research addresses data needs 
and performance measures for improved travel time reliability; 
institutional structures and training for improving highway operations 
related to reliability and incident management; innovative approaches 
for the future; and integration of reliability factors into highway 
programming, planning, and design processes. This last set of projects 
will produce the scientific and technical material needed to modify 
planning models and design standards to reflect the impacts of better 
highway operations, specifically in terms in incident management and 
other ways of improving travel time reliability. The planning portion 
of the work will be carried out in concert with the SHRP 2 Capacity 
work described above.
    SHRP 2 also has a significant focus on highway safety. SHRP 2 will 
study the interaction among driver behavior, vehicle and roadway 
characteristics, and environment to understand safety risk factors, 
identify crash surrogates, and provide the basis for improved safety 
countermeasures. This ``naturalistic driving study'' will involve 
instrumenting vehicles of 4,000 volunteers in several areas of the 
country. While primarily focused on safety, the data gathered in this 
study show promise for other applications. SHRP 2 will soon start a 
project to look at the feasibility of using these data to study driver 
behavior from an operational point of view to develop more efficient 
designs and operational strategies.
    SHRP 2 research will be completed over the next few years and be 
ready for field demonstrations. The ultimate success of this research, 
in terms of improved environmental, social, and economic sustainability 
of highway transportation, will depend on widespread deployment. 
Funding to support SHRP 2 implementation activities in the next 
authorization will bring the promise of this research to fruition. 
Additional information on SHRP 2 can be found on the programs web page: 
http://www.trb.org/shrp2/.
    In conclusion, Caltrans has the need for research to solve our 
transportation problems, the plans and the research projects to develop 
solutions, and the partnerships to leverage resources and expertise. We 
are active locally, nationally, and internationally as leaders in the 
pursuit of safer, more efficient, and ``greener'' transportation 
systems.

                    Biography for Randell H. Iwasaki
    Randell ``Randy'' Iwasaki is the Chief Deputy Director of the 
California Department of Transportation (Caltrans).
    Iwasaki manages the day-to-day operation of the Department, 
including an operating budget of $14 billion and almost 23,000 
employees.
    A licensed civil engineer, Iwasaki has been with Caltrans for 
almost 25 years serving in a number of high profile engineering and 
management positions.
    From July 2004 to November 2004, Iwasaki was appointed as the 
Department's Interim Director where he was responsible for California's 
State transportation system, including more than 50,000 lane miles of 
State highways stretching from Mexico to Oregon and from the Pacific 
Ocean to Nevada and Arizona.
    During his Caltrans career, Iwasaki has spearheaded a number of 
transportation engineering innovations ill California including the use 
of old tires in rubberized asphalt, the installation of LED red lights 
saving the State taxpayers more than $2 million a year in power costs, 
and conversion of the Caltrans equipment fleet to clean burning fuels.
    Iwasaki also serves on a number of national transportation panels. 
The panels include co-chairing an effort to encourage development and 
application of quiet pavement technologies to reduce highway noise in 
the United States. He is also the Technology Coordinating Committee 
Chair for the renewal portion of the Strategic Highway Research Program 
and most recently appointed the Chairman of ITS America.
    Iwasaki earned his Bachelor's degree in Engineering from California 
Polytechnic State University, San Luis Obispo, and a Master's in 
Engineering from California State University, Fresno.

    Mr. Wilson. Thank you, Mr. Iwasaki.
    The Chair now recognizes Dr. Bertini.

  STATEMENT OF DR. ROBERT L. BERTINI, P.E., DIRECTOR, OREGON 
   TRANSPORTATION RESEARCH AND EDUCATION CONSORTIUM (OTREC); 
         ASSOCIATE PROFESSOR, PORTLAND STATE UNIVERSITY

    Dr. Bertini. Thank you very much, Representative Wilson. 
Good morning, Chairman Wu and Members of the Subcommittee. 
Thank you for this opportunity.
    Approximately two-thirds of our ongoing research at OTREC 
addresses energy efficiency and sustainability by aiming to 
improve the operation of the multi-modal transportation system. 
Increasing efficiency means improving safety, reducing 
congestion and encouraging more energy-efficient travel. When 
the total amount of travel time or number of trips is reduced, 
there is always an accompanying benefit in reduced fuel 
consumption, energy use, emissions and other externalities such 
as noise, accident exposure and contribution to urban heat 
islands. Public transit also benefits by reduced travel times 
and increased reliability. Projects from the Intelligent 
Transportation Systems, or ITS, toolbox include new pricing and 
tolling strategies, integrated corridor management, incident 
management, ramp metering, measuring arterial performance and 
improved traffic signal coordination using adaptive systems. 
Also at OTREC, a joint project with the University of Minnesota 
is examining how drivers value travel time reliability, which 
is important for implementing advanced traveler information 
systems.
    How do we determine the potential environmental impact of a 
given technology? Typically, an evaluation will include 
standard performance metrics such as travel time and 
reliability, emissions and noise, number of trips, mode choice, 
and fuel and energy consumption. We use national resources such 
as the U.S. DOT's ITS benefits database and the Intelligent 
Transportation Systems Deployment Analysis System, or ITAS. For 
a successful evaluation, there are several critical ingredients 
based on my experience: Strong partnerships with transportation 
agencies and industry, careful identification of the problem to 
be addressed by the technology, a freely available data source, 
preferably as part of the technology deployment itself, the 
ability to measure performance both before and after 
deployment, early involvement by the evaluator, use of a test 
bed and technology transfer before and after and during the 
evaluation.
    We still have many research needs in order to improve the 
energy efficiency and sustainability of the transportation 
system. Our focus at OTREC is shifting toward efficient and 
sustainable operation of the transportation system, which 
requires new financing systems with energy efficiency and 
sustainability goals----
    Mr. Wilson. Dr. Bertini.
    Dr. Bertini. Yes?
    Mr. Wilson. Sorry to interrupt you but we are going to have 
to suspend the hearing for just a minute. We have votes to do 
and I have got two minutes to get over there. Mr. Wu should be 
back in just a few minutes. I apologize. I apologize to 
everybody but we need to vote. Excuse me.
    [Recess.]
    Chairman Wu. It is somewhat interesting and ironic that in 
the midst of discussing time, motion and traffic management, we 
are doing that sort of on a different scale, a small, minor 
scale such as we deal with here. This is not quite the 
equivalent of a bus going sideways on a narrow transportation 
corridor but let us just say that this is not uncommon but just 
a change in traffic flow to which we are adjusting.
    Dr. Bertini, I understand--we made a valiant attempt to 
keep the flow going and choreograph something up here on the 
dais. My understanding is that there may be some further 
unexpected changes or not-planned-for changes as we go. With 
the cooperation of the Minority Members, my understanding is 
that whether Minority Members are present or not, that we are 
good to go with further testimony and probably with some of the 
questions, and we will just see what happens on the House Floor 
as we proceed. My apologies to the witnesses and the attendees. 
This is the process of checks and balances that protects our 
liberties. An efficient government would more effectively take 
away your liberties, our liberties, so it is friction that 
allows us to travel, isn't it? With that, Dr. Bertini, let us 
reset the clock a little bit and be more generous with your 
time. Please proceed.
    Dr. Bertini. Thank you very much, Chairman Wu. I was 
beginning to talk about our future research needs and I had 
mentioned the need for a new financing system with energy 
efficiency and sustainability goals. Mr. Iwasaki talked about 
how we respond well to very specific goals. I also believe we 
need to pursue full and aggressive implementation of ITS-based 
congestion management strategies including ramp metering, speed 
harmonization and traveler information, in addition, a robust, 
high-quality and secure data collection infrastructure, ideally 
built upon Oregon's open data sharing philosophy and including 
a mix of public and private sources. Better management of 
arterials for all modes requires modern traffic signal systems, 
communications and data collection, accurate, timely and 
customized traveler information. A clearinghouse for obtaining 
freight data will be needed for managing freight transport. 
Green performance measures that can be generated and compared 
across different geographic areas and across all modes, 
standard traveler information graphics to replace text-based 
dynamic message signs, solving legal and institutional issues 
for automated enforcement, and serious exploration of liability 
issues following the lead of the European Union and Japan 
related to technology deployment.
    Now, there are many challenges impeding the use of 
innovative technologies in transportation. Some examples 
include the incomplete shift to an operations environment in 
transportation agencies, finance and funding, human resources 
in a multidisciplinary world, legacy systems and system 
integration, communications infrastructure, data quality, 
reliability and availability, the need for collaboration and 
the need for objective and continuing evaluation.
    There are many actions that can be taken by Federal, State 
and local governments in order to break down barriers to the 
application of innovative technologies. Several examples 
include encouragement of regional collaboration across modes 
and jurisdictional boundaries, include the private sector and 
academia, encourage public-private partnerships for data 
sharing and communications, funding and incentives for green 
operations, reward data sharing, continuing education and 
mentorship from transportation professionals, as I mentioned 
earlier, green performance measurement and evaluation, and 
expansion of the rural infrastructure.
    Now, regarding technology transfer, industry and academia 
play important roles in the implementation of technology 
solutions, and through collaboration such as with the UTC 
program under RITA's leadership, universities can work with 
transportation agencies and industry to provide unbiased, 
rigorous evaluations that complete the feedback loop in the 
project development cycle. In the ITS field, academia can play 
an important role in the collection, storage and maintenance of 
data archives.
    Now, OTREC has been in operation for about 18 months and 
our technology transfer efforts have been successful so far and 
we hope that will continue. In order to accomplish that, we 
have about 30 external public and private matching partners who 
have a vested interest in the success of the research that we 
are pursuing. External partners serve on our advisory board and 
assist with the peer review of our projects. We believe that 
these efforts will help get the results into the hands of those 
who can implement them in the transportation field. In 
addition, our educational programs are preparing future 
transportation professionals and providing opportunities for 
working professionals to seek additional education and 
training. Our website, publications, videos, podcasts that are 
available through iTunes, by the way, our online seminars, 
short courses and conferences. We even have a Facebook page for 
those of you younger generation. They all contribute towards 
the important technology transfer.
    Our theme of healthy communities, integration of land use 
and transportation and advanced technology is guiding us along 
with our agency and industry partners to develop research and 
education programs to solve transportation problems and 
strengthen the transportation workforce. Our research is being 
developed through a collaborative process and the important 
component of peer review.
    Thank you for this opportunity and I look forward to 
working with you to make a more sustainable and intelligent 
future.
    [The prepared statement of Dr. Bertini follows:]
                Prepared Statement of Robert L. Bertini
    Good morning Chairman Wu, Vice Chairman Mitchell, Ranking Member 
Gingrey and Members of the Subcommittee. I would like to begin by 
thanking you for this opportunity to share our views and perspectives 
on our ongoing research and development activities related to reducing 
life cycle energy consumption and promoting sustainability for surface 
transportation infrastructure. On behalf of my colleagues in academia, 
government and industry, we appreciate this chance to address the 
technical, regulatory, social and financial challenges to implementing 
new measures and integrating new technologies into existing 
transportation networks.
    My name is Robert Bertini and I am the Director of the Oregon 
Transportation Research and Education Consortium (OTREC) and an 
Associate Professor of Civil and Environmental Engineering and Urban 
Studies and Planning at Portland State University, in Portland, Oregon.

1. OTREC Background

    OTREC is dedicated to stimulating and conducting collaborative 
multi-disciplinary research on multi-modal surface transportation 
issues, educating a diverse array of current practitioners and future 
leaders in the transportation field, and encouraging implementation of 
relevant research results. OTREC's theme is Advanced Technology, 
Integration of Land Use and Transportation, and Healthy Communities. 
OTREC is a National University Transportation Center created by 
Congress in 2005 and is a partnership between Portland State 
University, the University of Oregon, Oregon State University, and the 
Oregon Institute of Technology. With a grant from the U.S. Department 
of Transportation, OTREC sponsors research, education and technology 
transfer projects at our partner universities. OTREC programs relate to 
the OTREC theme and support national transportation initiatives and 
needs. Through collaboration and partnerships with transportation 
agencies, industry, and other universities in the Northwest, OTREC aims 
to address the transportation needs of Oregon, the Northwest, and the 
Nation. The OTREC theme is focused on contributing to USDOT strategic 
objectives including: safety, mobility, global connectivity, 
environmental stewardship, security and congestion.

1.1 OTREC Research

    OTREC uses a rigorous peer review process to select the best 
research projects. Since December 2006, OTREC has received nearly 200 
proposals and has funded 45 research projects, involving 45 faculty 
members and 12 laboratories and research groups. All projects include 
external public and private matching partners with a total of 22 
different entities involved; half of the projects include the Oregon 
Department of Transportation as a partner. OTREC is multidisciplinary, 
with 12 different academic disciplines currently participating in our 
projects. The figure below illustrates how the many disciplines at our 
four campuses are interrelated around our theme:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The peer review process has included 380 unique reviewers for more 
than 800 reviews. We estimate that approximately 57 graduate students 
and 24 undergraduate students are working on OTREC-funded projects. In 
addition we have funded seven education projects and six technology 
transfer projects. Collaboration is strongly valued by OTREC, our 
partner universities and our many stakeholders, and has been woven 
through our activities as an important cornerstone:

        <bullet>  Historic University Partnership: The four partner 
        universities--Portland State University, the University of 
        Oregon, Oregon State University, and the Oregon Institute of 
        Technology--signed a historic Memorandum of Understanding in 
        March 2007. Strong communication among all parties is setting a 
        precedent for future joint university efforts.

        <bullet>  New Collaboration Among Faculty: Faculty are 
        encouraged throughout the proposal and project process to think 
        of innovative collaborative approaches to research, education 
        or technology transfer. In our first and second rounds of 
        project awards, 13 projects involve faculty at more than one 
        campus, and 28 have multiple investigators.

        <bullet>  Strong Ties to ODOT and Transportation Community: 
        More than 20 external partners provide matching funds of cash 
        or in-kind support for faculty-led projects. The Oregon 
        Department of Transportation (ODOT) is a primary partner, 
        jointly funding nearly half of our research projects selected 
        to date.

        <bullet>  Regional Collaboration: OTREC is part of the Region X 
        Transportation Consortium, made up of UTCs in Oregon, 
        Washington, Idaho, and Alaska, as well as the four State DOTs, 
        with input and participation by representatives of the USDOT. 
        The Consortium meets twice a year, supports an annual student 
        conference, and is exploring pooled fund research and joint 
        educational initiatives.

        <bullet>  National Connections: OTREC strives to meet national 
        transportation research and education needs, and is active with 
        the American Association of State Highway and Transportation 
        Officials (AASHTO), the Transportation Research Board (TRB), 
        the Council of University Transportation Centers (CUTC) and 
        other national activities.

1.2 OTREC Educational Activities

    All OTREC activities have student success as a primary goal. 
Whether it's offering students hands-on research experience with hot 
topic transportation issues, opportunities to present their research at 
conferences, including the TRB Annual Meeting, scholarships and 
fellowships to help them reach their degree goals, or providing 
continuing education opportunities to practicing professionals, 
students are central to our mission.
    Partner universities currently offer 16 undergraduate and graduate 
programs with transportation specializations, with more than 100 
students enrolled. During this past year 36 students graduated with 
transportation related graduate degrees and are now working in the 
transportation field. OTREC also supports transportation student groups 
at the partner campuses. This support is allowing undergraduate and 
graduate students to travel to conferences, host guest speakers, 
coordinate events and field trips, and communicate transportation 
issues and opportunities to students across the campuses. OTREC also 
co-hosts an annual Transportation Student Conference with the Region X 
Transportation Consortium. Students are able to present their research 
and exchange ideas with their peers in an environment that does not 
exist in the classroom or at other conferences. The conference includes 
both student presentations and poster sessions to showcase the great 
student-led transportation research being done in the Northwest.

1.3 OTREC Technology Transfer

    Sharing of knowledge and dissemination of program results are key 
components of all OTREC programs. All research projects have a 
technology transfer plan, so that research results are available to 
potential users in a form that can be directly implemented, utilized, 
or otherwise applied. OTREC is working towards an expanded and 
coordinated statewide program of transportation outreach involving 
accessible communication of research results and continuing education 
and training courses for transportation professionals in a variety of 
formats. A study by OTREC PIs and students is underway to identify the 
current transportation training opportunities in the region, and to 
determine how OTREC can best fill training needs for transportation 
professionals. OTREC is offering a series of short courses and 
partnering with other transportation organizations to offer more 
training and professional development opportunities in Oregon.
    The OTREC website (www.otrec.us) serves as a primary communication 
tool, and includes up-to-date news, newsletters, annual reports, 
recorded seminars, project information, and professional development 
opportunities. Final research reports with search options will be 
available. Website capabilities will expand to fill technology transfer 
needs as OTREC programs evolve. OTREC regularly sponsors guest speakers 
as part of our Visiting Scholar Program. At PSU, the Center for 
Transportation Studies (CTS) offers weekly transportation seminars that 
are broadcast live on the web, and archived in streaming video and 
podcast. More than 200 seminars have been presented, with more than 145 
available as online streaming video, and more than 30 available as 
Podcasts (.mp3) via iTunes. In addition to registered students, over 
500 professionals and guests also attended the seminars. OTREC 
sponsored several visiting scholars, see: http://www.cts.pdx.edu/
seminars.htm.

1.4 Impact of Intelligent Transportation Systems on Sustainability

    A broad range of diverse technologies, known collectively as 
Intelligent Transportation Systems (ITS), holds the answer to many of 
our society's transportation problems. ITS are comprised of existing 
and new technologies, including information processing, sensors, 
communications, control, and electronics. Combining these technologies 
in innovative ways and integrating them into our multi-modal 
transportation system will save lives, time, and resources--including 
benefits such as reducing energy, fuel, emissions, accident exposure, 
noise and more. Delay reductions almost always mean increased 
productivity and quality of life since people's value of time is 
significant, and more so for business-related travel where drivers are 
being paid an hourly wage. Safety improvements also have direct 
benefits (fewer crashes mean fewer fatalities, injuries, health care 
costs and property damage) and indirect benefits since many crashes 
cause congestion.
    Transportation is the backbone of our society--the movement of 
people and goods provides the foundation of our quality of life and 
economic prosperity. Fulfilling the need for a transportation system 
that is both economically sound and environmentally efficient requires 
a new way of looking at--and solving--our transportation problems. The 
strategy of adding more and more highway capacity neither solves our 
transportation problems, nor meets the broad national vision of an 
efficient, integrated transportation system. We focus on the 
integration and improvement of all modes--highway, transit, bicycle, 
pedestrian and freight. Traffic crashes and congestion take heavy tolls 
in lives, lost productivity, and wasted energy. ITS enables people and 
goods to move more safely and efficiently through a state-of-the-art, 
intermodal transportation system.

2. Research Related to Energy Efficiency and Sustainability

    OTREC is just one component of a larger program in Oregon and in 
the Oregon University System to address sustainability. For example, 
the Oregon Legislature has created the Institute for Natural Resources 
(INR), the Oregon Climate Change Research Institute (OCCRI), and a 
signature research center focusing on the Built Environment and 
Sustainable Technologies (BEST), and is developing a statewide 
Sustainability Initiative. There is also a proposal for a statewide 
Oregon Water Institute (OWI) to address water problems.
    Given OTREC's theme, a significant proportion of our research is 
aimed at improving the operation of the multi-modal transportation 
system, which is directly tied to energy efficiency and sustainability. 
Other research goals include providing improved equity and options for 
users of the transportation system, which is the basis for a 
sustainable economy and high quality of life. Fortunately the 
efficiency objective for transportation research typically includes the 
reduction in congestion which translates to standard measurements of 
travel time, delay and number of stops. Whenever congestion is reduced 
(via reduced travel time or delay), this is a time-based measure 
typically reported in vehicle-hours or person-hours of travel (VHT or 
PHT). When the total travel time is reduced, there is always an 
accompanying benefit in reduced fuel consumption, energy use, 
emissions, and other externalities such as noise, accident exposure and 
contribution to urban heat islands.
    Other research that includes travel demand management or 
alternative mode strategies may result in reductions in vehicle-miles 
or person-miles traveled (VMT or PMT). For example for a given trip, a 
``green'' traveler information system that provides information 
regarding alternative modes such as bus or rail, might encourage a user 
to forgo a trip by personal vehicle and choose transit instead. This 
reduction in VMT will also have a congestion reduction effect, with 
accompanying benefits such as reduced fuel consumption, energy use, 
emissions, and other externalities such as noise, accident exposure and 
contribution to urban heat islands.
    Some research related to incident management, for example, has a 
large multiplier effect-when the duration of an incident is reduced by 
50 percent, the resulting delay is reduced by 75 percent. It is 
important in transportation research to find these kinds of opportunity 
areas where a low investment can have extremely high benefits.
    In the context of OTREC's mission as a University Transportation 
Center, we have identified more than 40 planned and ongoing projects 
that relate to energy efficiency and sustainability.

2.1 Ongoing and Planned OTREC Research

    Consistent with our mission and under the guidance of our strategic 
plan, approximately two-thirds of OTREC's ongoing and planned research 
projects address energy efficiency and sustainability. As described 
below, we have grouped these projects into two categories: Intelligent 
Transportation Systems and Sustainability; and other Sustainability-
Related projects. Keeping in mind that many of these projects are 
currently in their initial stages, we look forward to reporting 
specific project outcomes in the coming months and years.

2.1.1 OTREC Intelligent Transportation Systems and Sustainability 
                    Research Projects

    Approximately one-third of OTREC's ongoing and planned research is 
related to Intelligent Transportation Systems (ITS) and Sustainability. 
Most of these project aim to improve the efficiency of the 
transportation system in support of national, State, regional and local 
transportation priorities. By focusing on improving the operation of 
the system in a more integrated way, without massive capital 
expenditures, it is possible to improve the efficiency of the 
transportation network so that all levels of the network and all modes 
work together in a more seamless way. Projects are described in detail 
in the following sections. The advantages of ITS and sustainability-
related projects include strategies for improving the efficiency of the 
multi-modal transportation system, leading to improved safety and 
reduced travel time, fuel consumption, energy use, emissions, and other 
externalities such as noise, accident exposure and contribution to 
urban heat islands.
    Several projects focus on sustainable transportation pricing and 
tolling strategies, recognizing that new technologies and publicly 
acceptable financing systems are needed for a sustainable future--these 
could include specific ``green'' strategies. A number of OTREC projects 
deal with integrated corridor management strategies, via such 
strategies from the ITS toolbox such as incident management, ramp 
metering, measuring and improving arterial performance and improved 
traffic signal coordination on arterials via adaptive systems. These 
strategies focus on managing a multi-modal corridor more proactively, 
taking advantage of existing capacity. Recognizing the Nation's 
congestion reduction goals, several projects focus specifically on 
understanding and mitigating congestion by improving our understanding 
of stop and go traffic dynamics. Given the critical issue of travel 
time reliability, an innovative OTREC project will examine issues 
related to how drivers (and shippers) value travel time reliability. 
This work will be important for future implementations of advanced 
traveler information systems.
    The issue of traveler information is also important as a 
sustainable strategy. By providing users with reliable information 
about travel times via different modes, routes or times of day, users 
can make better decisions which can result in an overall improvement in 
efficiency. OTREC has several projects underway in this area. As a 
fundamental foundation for research and evaluation, a robust, 
accessible, and inter-operable data infrastructure is critical. OTREC 
has several projects underway that focus on this issue, and strive to 
use the data infrastructure as a basis for generating performance 
metrics. It is possible to design programs and projects that by their 
very nature generate data that can later be used for evaluation, but 
early attention must be paid to this issue before projects are 
specified and implemented.
    A sustainable transportation system is one that can be resilient in 
the face of emergencies--thus several OTREC projects focus on 
understanding the impact of climate change and potential flooding on 
the transportation infrastructure and on the effects of winter weather. 
Finally, recognizing the critical role that freight transportation 
plays in our society, several OTREC projects aim specifically at the 
freight sector in working to make the transportation system more 
efficient, to leverage data collected as part of a statewide pre-
clearance system, lessen the energy needs for freight transport and to 
improve reliability.

Sustainable Transportation Pricing and Tolling Strategies

        <bullet>  2007-03: Socio-economic Effect of Vehicle Mileage 
        Fees, Phase 1 and 2008-81, Phase 2: This project considers the 
        socio-economic impacts of the new highway user fee structure 
        made possible by advanced technology. The Oregon Road User Fee 
        Task Force has proposed a vehicle mile tax to replace the 
        gasoline tax. The purpose of this study is to develop a model 
        which provides an analytical framework from which to quantify 
        the impact of changing to the proposed vehicle-mile tax. The 
        Oregon Department of Transportation (ODOT) will use the results 
        from this study to help formulate the specific form of the 
        vehicle-mile tax (flat tax, a graduated tax, a higher tax for 
        less fuel efficient vehicles, a differential tax for urban/
        rural areas, etc.). ODOT needs quantitative information on the 
        socio-economic impact of such a tax, to use in public 
        relations. A huge factor in determining the ultimate adoption 
        of such a tax structure will be the public acceptance of the 
        change and, in turn, they need to have full information on what 
        it will do. There are also implications for environmental 
        stewardship as a vehicle-mile tax has also been suggested as an 
        emissions tax. Finally, once the technology is in place for a 
        vehicle-mile tax, it becomes possible to implement a vehicle-
        mile tax that may vary by time of day and location, providing 
        an efficient congestion pricing tool.

        <bullet>  2008-116: Understanding Driver Behavioral Changes 
        Associated with Road User Fees: The Oregon Department of 
        Transportation (ODOT) conducted a test of an innovative 
        technology to replace fuel taxes with mileage fees. In the 
        test, some vehicles were charged a flat fee per mile and others 
        were charged differential fees that were higher for travel in 
        the Portland metropolitan area during weekday peak hours and 
        lower for other travel. The objective of this project is to 
        extend the analysis of changes in behavior by subjects in the 
        ODOT Road User Fee Pilot Project, and to draw on other sources, 
        to compare the behavioral changes observed in this experiment 
        with those found in other contexts. There is potential to gain 
        further information on characteristics that caused or prevented 
        changes in participants' driving patterns. A variety of 
        statistical analyses will be conducted to evaluate both the 
        extent of response to a vehicle mileage fee and the interaction 
        with both demographic and attitudinal characteristics of the 
        participants. A GIS analysis will be used to link household 
        location with better measures of transit service. Results would 
        include a better understanding of how pricing interacts with 
        other factors in affecting driving patterns and in particular 
        in affecting driving during peak periods. It would also provide 
        a better understanding of the revenue potential from such 
        charges.

Integrated Corridor Management

        <bullet>  2007-79: Identify and Address Institutional Barriers 
        Delaying Incident Clearance: Effective incident management can 
        substantially reduce congestion while expediting incident 
        clearance. In Oregon, the Oregon Department of Transportation 
        has a comprehensive incident management program in place. Due 
        to cooperative efforts among ODOT, Oregon State Police, local 
        police, and emergency providers most incidents are cleared 
        rapidly and traffic operations resume normally. However, a 
        major traffic-related incident can take considerable time to 
        clear and the closure of a major highway during peak travel 
        periods can cause major problems. The economic impact can be 
        considerable when road closures and delays occur in a 
        metropolitan area such as Portland. It is not known to what 
        extent institutional constraints may account for inefficiencies 
        that result in extended time elapsing from incident detection 
        through final site clearance. The research proposed in this 
        study will address several key objectives. Using a variety of 
        data resources, the research team will examine recent traffic 
        incidents in the Portland area to determine the extent to which 
        the incident and associated traffic obstructions impacted 
        systemic traffic operations. The research team will also 
        develop an enhanced implementation plan for addressing 
        institutional barriers that may affect the rapid clearance of 
        incidents occurring on Oregon highways. Finally, this research 
        effort will ultimately help identify specific legislative 
        initiatives or administrative procedures that should be 
        implemented to minimize delayed incident clearance and estimate 
        the benefit of the recommended changes.

        <bullet>  2008-190: Using Archived ITS Data to Measure the 
        Operational Benefits of a System-wide Adaptive Ramp Metering 
        System: A system-wide adaptive ramp metering (SWARM) system is 
        being implemented in the Portland metropolitan area. While 
        SWARM is designed to be more effective than the current ramp 
        metering strategy, the true benefits of the new system have not 
        yet been quantified. Using an existing data stream, there is a 
        unique opportunity to conduct a true before and after 
        evaluation of the operational benefits of the new SWARM system. 
        The project will also develop an interactive simulation 
        laboratory for evaluating and improving the new SWARM ramp 
        metering system in the Portland metropolitan area. The 
        simulation-based evaluation will help confirm field experiment 
        results, and complement the field experiment by testing 
        alternative solutions to any operational issues identified 
        during the field experiment. This project will also test 
        different control parameters in the SWARM algorithm, and 
        recommend strategies for improving the algorithm.

        <bullet>  Monitoring Arterial Performance Using Data From 
        Automatic Vehicle Location Devices and Inductive Loop 
        Detectors: The Portland region has good sensor coverage on 
        freeways, but the arterial system is limited to snapshots of 
        measurements from traffic studies using floating car studies 
        and temporary traffic counts. There is a need to implement 
        automated systems that can provide arterial travel time and 
        performance measures for management of freight and passenger 
        travel. This project will include a review of technological 
        solutions for automating traffic measurement on arterials. 
        Priority surface arterial locations for measurement will be 
        identified, considering geographical balance and specific 
        bottleneck locations. The task will include a case study of 
        arterial operations on Barbur Blvd. in the City of Portland. 
        Working with the City of Portland, we will review options for 
        using existing system detectors and CCTV cameras to gauge 
        arterial performance. The research will validate the delay 
        measurement and recommend locations for such systems on Barbur 
        Blvd. The City will then install two or three systems on 
        Barbur, which will then be evaluated. The approach delay 
        measurement system offers promise for providing an automated 
        way to determine approach delay at a signalized intersection. 
        This task will further validate that system on other 
        intersection approaches. The results will also provide the City 
        of Portland with methods to provide meaningful performance 
        measures for Barbur Blvd. and beyond.

        <bullet>  Field-Based Evaluation of Corridor Performance After 
        Deployment of an Adaptive Signal Control System in Gresham, 
        Oregon: The majority of traffic signal control systems in the 
        United States use, as their basis for coordination, static 
        timing plans (also called timing patterns) that have been 
        generated on the basis of typical average traffic volumes. In 
        2005, the City of Gresham, Oregon selected and deployed the 
        Sydney Coordinated Adaptive Traffic System (SCATS) on Burnside 
        Road, a major five-lane arterial carrying 38,000 vehicles per 
        day, between Eastman Parkway and Powell Valley Road. A field 
        evaluation was conducted to compare optimized time-of-day 
        coordination and the SCATS system on the basis of changes in 
        travel time, delay, and stops along this road segment. Probe 
        vehicle data were collected on three routes during peak and 
        non-peak hours in two travel directions. Side street delay was 
        also studied for three intersections in the corridor. Overall, 
        it can be concluded that the implementation of the SCATS 
        adaptive signal control system has improved the Burnside 
        corridor in terms of travel time, stopped delay and number of 
        stops. Travel times on the primary analysis route decreased two 
        to 15 percent for weekdays and weekends with the exception of 
        the morning weekday westbound direction which increased 10 
        percent (likely because the time-of-day plan had heavily 
        favored this direction). Although the secondary evaluation 
        routes did not see as consistent improvements, the majority of 
        changes were still positive. Analysis of side street delay was 
        less conclusive, although the majority of time periods and 
        directions did see improvement.

Congestion Management

        <bullet>  2007-37: Characteristics of Transitions in Freeway 
        Traffic: This project seeks to understand the characteristics 
        of transitions as freeway traffic changes from one state to 
        another. Transitions occur gradually over time and space, and 
        their temporal and spatial features are relatively unknown. The 
        dynamics of the transition zone will be explored by analyzing 
        the relationship between the duration of transition (at a fixed 
        location) and various traffic and location variables (e.g., 
        distance from the bottleneck, change in flow before and after a 
        regime change, etc.). Researchers are using data from inductive 
        loop detectors for the analyses of transition zones near the 
        tails of queues. These detector data are suitable for analyzing 
        this type of transition since the propagation of a transition 
        zone can be observed over a long distance. The length of 
        transition can be estimated based on the duration observed at a 
        detector location. For the other two types of transitions, data 
        sets from the Next Generation Simulation will be utilized. 
        These data sets provide individual vehicle trajectories whose 
        resolution is suitable for analyzing these types of 
        transitions. The length of a transition zone will be measured 
        directly from the vehicle trajectories. This research will 
        provide a valuable insight on how congested traffic behaves 
        under various transitions that frequently occur on urban 
        freeways. Hence, the results will expand the current knowledge 
        on traffic congestion and serve as a building block for future 
        traffic modeling and management practice.

        <bullet>  2008-130: Value of Reliability, Phase 1 and 2009-248: 
        Phase 2: The issue of travel time reliability is becoming more 
        critical for the movement of people and freight. In order to 
        examine issues related to the value of travel time reliability, 
        we plan to test drivers' preferences for alternate commuter 
        routes in a real world setting. The research participants will 
        drive on three different routes in two cities: (1) primarily 
        freeway, (2) primarily arterial roads, and (3) other streets. 
        Freeways have a possible trade-off between high speeds and 
        congestion during rush hour. Arterials typically have a series 
        of traffic signals that may be timed to favor through-traffic. 
        Other routes might have some traffic signals and some stop 
        signs, but they likely have less traffic. By comparing driver 
        perceptions of the alternate commuter routes, it will be 
        possible to determine the weights associated with the different 
        components of travel time. Driver preferences may also be based 
        on qualitative factors such as the attractiveness of the route. 
        Thus one objective of the proposed project is to measure and 
        then model the route preferences of drivers who have 
        experienced real-world alternatives to their regular commute to 
        and from work. Preference data will be obtained after the 
        participants have completed their morning and evening commutes 
        on three alternate routes (customized for each driver). The 
        added realism of the novel data collection method proposed for 
        this project should enable the value of travel time reliability 
        to be used in route preference models. In turn it will be 
        possible to more accurately predict traffic patterns and 
        produce solutions more likely to ameliorate traffic congestion. 
        An additional objective of the proposed research is to make 
        information about local road networks more available to 
        drivers. This will allow for the better use of existing 
        resources and road capacity for normal operations including 
        when drivers are commuting to and from work.

        <bullet>  2008-108: Empirical Observation of the Impact of 
        Traffic Oscillations on Freeway Safety: Traffic oscillations 
        (also known as stop-and-go driving) are a typical feature of 
        congested traffic flow. They are known to increase fuel 
        consumption and emissions, and decrease driving comfort. It is 
        also speculated that larger amplitudes of oscillations (i.e., 
        larger changes in flow or speed) increase the probability of 
        certain crash types (e.g., rear-end crashes). However, no 
        current study exists that irrefutably confirms or disproves 
        this speculation. The objective of this research is to find 
        empirical evidence to substantiate this hypothesis and to 
        quantify the relationship between the amplitude of oscillations 
        and probability of crash event. This proposed research will be 
        conducted using freeway traffic and incident data. It will be 
        supplemented by a statewide database of reported motor vehicle 
        crashes. Various features of oscillations (e.g., amplitude, 
        period, etc.) will be measured from traffic data collected from 
        inductive loop detectors. Existing databases for crashes and 
        incidents will be used to analyze incidents in correlation with 
        oscillations. This study will consist of general analysis to 
        identify which crash types are particularly affected by traffic 
        oscillations and detailed analysis via econometric modeling to 
        quantify the probability of each crash type as a function of 
        various characteristics of oscillations and relevant factors 
        such as freeway geometry, congestion level, and others. These 
        analyses will be conducted for several freeway locations in 
        order to confirm reproducibility and to examine any site-
        specific features.

Advanced Transportation Information Systems

        <bullet>  2007-57: Assessment and Refinement of Real-Time 
        Travel Time Algorithms for Use in Practice, Phase 1 and 2008-
        145: Phase 2: The Federal Highway Administration (FHWA) has set 
        a high priority on the use of existing dynamic message signs 
        (DMS) to provide travel time estimates to the public. The 
        Oregon Department of Transportation (ODOT) currently has three 
        DMS in the Portland metropolitan area configured to display 
        travel time information. In the near future, ODOT would like to 
        make travel time estimates available on additional DMS, over 
        the Internet on tripcheck.com and via 511. Travel time 
        estimates are valuable to the traveling public; however, the 
        estimates must be accurate to be useful. The FHWA indicates 
        that 90 percent accuracy is ideal and suggests a minimum 
        accuracy of 80 percent. Thus, in order to display travel time 
        estimates, it is essential to understand the accuracy of the 
        estimates. The purpose of this study is to extend prior travel 
        time research conducted at Portland State University with 
        additional data collection and analysis to provide statistical 
        confidence in travel time estimates and to determine the best 
        travel time estimation approach for ODOT. Ground truth data in 
        the form of probe vehicle runs will be collected and travel 
        time estimates will be evaluated using that data. Several 
        travel time estimation algorithms will be evaluated and 
        modifications to existing algorithms will be proposed. In 
        addition, this project will provide analysis to help understand 
        the reliability and performance of the algorithms under various 
        conditions (free-flow, congestion, incidents). A methodology 
        will be developed for determining if travel time estimates fall 
        within an acceptable accuracy limits. At the conclusion of the 
        project, it is desired that a methodology can be recommended 
        that will provide accurate measures of travel time for use with 
        DMS, the Internet and 511 applications.

        <bullet>  2007-64: Improving Travel Information Products via 
        Robust Estimation Techniques: Traffic-monitoring systems, such 
        as those using loop detectors, are prone to coverage gaps, 
        arising from sensor noise, processing errors and transmission 
        problems. Such gaps adversely affect the accuracy of Advanced 
        Traveler Information Systems. This project will explore models 
        based on historical data that can provide estimates to fill 
        such gaps. We build on an initial study using both a linear 
        model and an artificial neural network (ANN) trained on 
        historical data to estimate values for reporting gaps. These 
        initial models were 80 percent and 89 percent accurate, 
        respectively, in estimating the correct speed range, and 
        misclassifications were always between adjacent speed ranges 
        (in particular, the free-flow range and congested range were 
        never confused). Going forward, we will investigate other non-
        linear models, such as Gaussian Mixtures, that provide further 
        statistical metrics, in contrast to the uninterpreted weights 
        of ANNs. Initially we will build and test estimators in off-
        line mode. We will select a highway segment (comprising 
        multiple detector stations) that is representative in terms of 
        pattern of outages. We will build models for this segment, then 
        examine their performance on estimates for synthetic gaps (so 
        we can compare estimates to reported values). Later, using live 
        loop-detector data we will work towards on-line estimation over 
        the local freeway network, which requires computing estimates 
        in a timely manner. Our end target is improvements in end-user 
        travel information products, such as the Portland-Metro Speed 
        Map on ODOT's Trip Check. Our main evaluation metric will be 
        the trade-off curve between accuracy of prediction and 
        percentage of gaps that can be filled.

Multi-modal Archived Data User Service

        <bullet>  2009-269: Exploiting a Next Generation ITS Data 
        Warehouse for Improved System Performance and Congestion 
        Monitoring: The objective of this project is to build on an 
        existing data archive platform, toward development of next 
        generation performance measurement and congestion reduction 
        tools. This project will also review the current paradigm 
        described by the National ITS Architecture's Archived Data User 
        Service (ADUS) and examine the possibility of developing a new 
        generation ADUS, going beyond the creation of a passive 
        storehouse of data. Given current developments in the 
        transportation operations and management area, this project 
        will pursue several possible ADUS extensions including: live 
        re-serving of data, additional services (e.g., selectable 
        imputation methods), derived sources (e.g., pre-aggregated 
        data), coverage of a wider variety of data sources (including 
        contextual data such as weather and events), and active 
        monitoring of performance metrics against the historical 
        baseline. In order to frame this research, a survey of current 
        and potential users will be administered, seeking input 
        regarding requirements for next-generation transportation 
        information portals on topics including types of products and 
        services, performance requirements (e.g., latency, 
        availability) and desired interfaces (FTP, web services, 
        publish/subscribe). The proposed research will develop a system 
        and software architecture that meets those requirements, and 
        will address such issues as how such a portal should be 
        structured internally, what storage and processing needs exist, 
        how extensibility and availability can be ensured and how such 
        portals could federate on a regional scale.

        <bullet>  2008-115: Application of WIM Data for Improved 
        Modeling, Design, and Rating: The objectives of this research 
        are to: collect, sort, filter, and archive WIM data to permit 
        development of long-term continuous records of high-quality WIM 
        data and; use the WIM data archive to monitor WIM sensor 
        health, develop loads for asphalt design, load models for 
        bridge rating and deck design, and monitor freight movement on 
        the highway system, specifically the volume, weight, safety, 
        and time demands. Researchers will collect WIM data from DOT 
        agencies (ODOT and others nationally). The data will be 
        analyzed and filtered to handle anomalous data and archived in 
        a universally available format for use in subsequent research 
        activities. This collection and archiving of data will allow 
        researchers to continue development of one of the longest 
        continuous and highest-quality WIM data archives available in 
        the country. In developing the archive, the research team will 
        develop data-processing techniques to help identify data and 
        system performance metrics. Results from these studies will be 
        compared with those used in the national specification and 
        improvements will be recommended.

        <bullet>  2008-176: Expanding Development of the Oregon Traffic 
        Safety Data Archive: There is a growing recognition in the 
        safety community that decisions are more effective if they are 
        knowledge-based. Traffic records such as driver files, crash 
        data, enforcement, highway traffic and geometric information, 
        court records, and emergency medical records are the typical 
        data needed to make effective safety-related decisions. Often 
        these data are in various formats, maintained by distinct 
        agencies, and require specialized knowledge to use and link 
        together to achieve maximum use of the data. While nearly all 
        traffic safety data in Oregon is available on request from 
        various agencies (Oregon Department of Transportation, Oregon 
        Justice Department, U.S. Department of Transportation, Human 
        Services Department) there is no clearinghouse where other 
        interested researchers, students and professionals can easily 
        access the data in a processed, consistent and usable form. 
        Linking data sources on an ad-hoc basis is time consuming and 
        inefficient. This research proposes to systematically develop a 
        knowledge-based clearinghouse of safety-related data in Oregon. 
        This archive, the Oregon Traffic Safety Data Archive (OrTSDA), 
        will serve as a comprehensive source of safety data. When fully 
        implemented, the archive will provide significant benefits to 
        decision-makers, researchers, practitioners, and interested 
        citizens.

Emergency Transportation Operations

        <bullet>  2009-257: Future Flooding Impacts on Transportation 
        Infrastructure and Traffic Patterns Resulting from Climate 
        Change: Climate change is likely to bring more frequent, 
        heavier winter precipitation as temperature rises. 
        Transportation infrastructure and travel patterns are 
        vulnerable to potential changes in runoff regimes and stream 
        geomorphology. The objectives of the project are to investigate 
        the changes in the timing and magnitude of winter runoff under 
        climate change scenarios; determine the lag time of streams to 
        adjust to changes in the discharge regime; and quantify the 
        operational and economic impacts of these changes on 
        transportation choke-points and damage related to flooding. The 
        following methodology will be used to conduct the proposed 
        work. (1) hydro-climate modeling; (2) stream geomorphology 
        survey; (3) vulnerability analysis; (4) traffic analysis. The 
        economic impact of the disruptions on workers, freight, and 
        businesses will be estimated. The outcomes of this research 
        will include maps showing potentially vulnerable roads to 
        different magnitudes of flooding, socioeconomic damage of trip 
        disturbance resulting from road closures, and a final report.

        <bullet>  Dynamic Ice Warning System Evaluation: ODOT has 
        recently deployed an automatic ice detection and warning system 
        on OR 140 near the Lake of the Woods pass. The ODOT Region 4 
        Traffic Manager and the District 11 office would benefit from 
        an evaluation to determine the accuracy and effectiveness of 
        the ice detection system. The potential to integrate the 
        existing warning system into the larger regional ITS also needs 
        to be examined. This task will include a quantitative 
        assessment of the fidelity of the current ice detection and 
        warning system. The integration activities will include a 
        literature review, an evaluation of the current hardware and 
        software, field studies to assess accuracy of ice detection, 
        evaluation of the local warning system, evaluation of ITS 
        system integration, particularly with the S. Oregon VMS, and 
        reporting to ODOT. A validated ice warning system will provide 
        ODOT with an assessment of the reliability of the current 
        system in order to potentially deploy additional systems 
        integrated in the S. Oregon VMS system and beyond.

Electronic Freight Management

        <bullet>  2007-14: Using Existing ITS Commercial Vehicle 
        Operation (ITS/CVO) Data to Develop Statewide (and Bi-state) 
        Truck Travel Time Estimates and Other Freight Measures: The 
        transportation of freight is an important component of the 
        Oregon economy. While other modes are clearly important for 
        freight transportation, trucking is the dominant mode in terms 
        of tons and value. Currently, there is no system that estimates 
        travel time for many major freight corridors in Oregon. 
        However, the existing infrastructure of Oregon's Green Light 
        program provides an opportunity to generate travel time 
        estimates for many travel corridors in Oregon with little 
        additional investment. The Green Light program enrolls 
        approximately 3,330 trucking companies with 30,200 transponder-
        equipped trucks (which does not include carriers participating 
        in other electronic screening programs from other states). 
        There are 22 equipped stations in Oregon where these 
        transponders can be read and corridor travel times predicted. 
        These estimates would also be useful to travelers and would be 
        an additional enhancement to Oregon's traveler information 
        system, TripCheck. In addition, these stations also include 
        weigh-in-motion systems which provide axle weights, spacing, 
        and gross vehicle weight estimates uniquely matched to a 
        transponder-equipped truck. The objective of this research is 
        to test the feasibility of using AVI data already being 
        collected from transponder-equipped trucks to develop travel 
        time estimates along major Oregon highway corridors and 
        eventually link these estimates with those produced in 
        Washington. Further, the research will seek to integrate other 
        sources, particularly weigh-in-motion data to capture other key 
        freight measures. As part of the research, it would be 
        determined whether additional transponder readers can be 
        deployed to read information at key points not at weigh 
        station, particularly in the Portland area. It is anticipated 
        that privacy concerns could be addressed appropriately.

        <bullet>  2008-131: Oregon Freight Data Mart: Increasing 
        freight volumes are adding pressure to the Oregon 
        transportation system. Monitoring the performance of the 
        transportation system and freight movements is essential to 
        guarantee the economic development of the region, the efficient 
        allocation of resources, and the quality of life of all 
        Oregonians. Freight data is expensive to collect and maintain. 
        Confidentiality issues, the size of the data sets, and the 
        complexity of freight movements are barriers that preclude the 
        easy access and analysis of freight data. Data accessibility 
        and integration is essential to ensure successful freight 
        planning and consistency across regional partner agencies and 
        planning organizations. The main objectives of this project 
        are: a) to maintain a long-term freight database that would be 
        available for Oregon Universities, State transportation 
        agencies, regional planning agencies, and economic development 
        organizations, b) to integrate freight data into the existing 
        and successfully operating PORTAL system, and c) to monitor 
        freight performance measures. The data will be stored on a 
        designated server space at Portland State University and 
        integrated into the PORTAL system which will streamline data 
        accessibility and consistency.

        <bullet>  2008-133: Freight Distribution Problems in Congested 
        Urban Areas: Fast and Effective Solution Procedures to Time-
        dependent Vehicle Routing Problems: Congestion creates a 
        substantial variation in travel times during peak morning and 
        evening hours. This is problematic for all vehicle routing 
        models which rely on a constant value to represent vehicle 
        speeds. And while the ubiquitous availability of real time 
        traffic information allows drivers to reactively alter routes 
        and customer service sequences to better cope with congestion, 
        static routing models are unable to take advantage of these 
        advances in real-time information provision in order to 
        proactively find adequate routing solutions. In addition, 
        changes in travel time caused by congestion cannot be 
        accurately represented in static models. Research in time-
        dependent vehicle routing problem is comparatively meager and 
        current solution methods are inadequate for practical carrier 
        operations which need to provide fast solutions for medium to 
        large instances. Even faster solution methods are essential to 
        take advantage of real time information. The aim of this 
        proposal is to develop and evaluate new methods for vehicle 
        routing in congested urban areas. The emphasis will be placed 
        on improving the running time of the existing methods using 
        tailored data structures, the efficient handling of local and 
        global variables, hybrid approaches, and parallel computing.

        <bullet>  2008-134: Practical Approximations to Quantify the 
        Impact of Time Windows and Delivery Sizes on Freight VMT in 
        Urban Areas: Supply chains and urban areas cannot thrive 
        without the efficient movement of goods and accessibility to 
        services. From a freight planning perspective, it is crucial to 
        understand and quantify how routes and distribution decisions 
        translate into commercial VMT. In urban areas, most of the 
        trips take place within a multi-stop tour or trip chain. In the 
        logistics and operations research literature, modeling efforts 
        have focused on the design of routes but not on the estimation 
        of distances traveled or VMT. Freight planning models cannot 
        quantify the impact of delivery size and time windows in urban 
        areas. There is scant research relating number of stops per 
        tour, delivery sizes, time windows, and VMT per tour. Delivery 
        sizes and time windows have a significant impact on the 
        efficiency and VMT generated by freight movements in urban 
        areas. The fundamental research questions of this proposal are: 
        a) how to obtain practical and intuitive approximations on the 
        length of commercial vehicle tours and VMT traveled in urban 
        areas? and b) is it possible to estimate the impact of time 
        windows and delivery sizes on VMTs?

        <bullet>  2009-230: Exploratory Methods for Truck Re-
        identification in a Statewide Network Based on Axle Weight and 
        Axle Spacing Data to Enhance Freight Metrics: This research 
        seeks to develop an a new method to determine flow patterns of 
        trucks by matching archived vehicle-attribute data such as axle 
        spacing and axle weights at multiple geographic locations. 
        Overall, this research focuses on developing advanced methods 
        and algorithms to anonymously identify and match commercial 
        trucks crossing two data collection stations on roadways; and 
        on investigating how these re-identification methods can be 
        employed to enhance freight metrics. By capitalizing on the 
        vehicle-attribute data from a number of AVC and/or WIM stations 
        in a network, the proposed methods can potentially support and 
        benefit multiple applications, such as determining travel 
        times, quantifying travel time reliability, estimating truck 
        flow patterns (i.e., origins-destinations), estimating empty 
        truck movements, trip length estimation, tracking movements of 
        trucks without transponders, and pavement management. The 
        results of this study will benefit not only Oregon but 
        potentially all other states since truck characteristics do not 
        vary significantly from state to state, and many states also 
        collect axle spacing and axle weight data.

        <bullet>  2009-276: Analyzing and Quantifying the Impact of 
        Congestion on Less-Than-Truckload Industry Costs and 
        Performance in the Portland Metropolitan Region: The 
        manufacturing, service, distribution, retail, and wholesale 
        economic sector is increasingly affected by growing congestion. 
        Unreliable and increased travel times shrink the distribution 
        radius of existing operations and reduce the operational 
        efficiency of drivers and vehicles. Even though there is a 
        clear consensus regarding the negative impacts of congestion, 
        the quantification and measurement of these impacts in 
        distribution logistics is a difficult task due to the lack of 
        detailed routing data. Unlike most freight and trucking 
        congestion studies based on aggregate measures, disaggregated 
        dispatching and actual GPS fleet route data sets will be 
        available for study in this research. The main objectives of 
        this research project are: (a) to understand the impact of 
        urban congestion on commercial vehicle fleets, (b) to quantify 
        and discriminate between the impacts of recurrent and non-
        recurrent congestion on fleet operations, (c) to study how 
        adverse weather conditions compound the negative impacts of 
        congestion, and (d) to provide congestion performance measures 
        at a network level.

        <bullet>  2009-277: Analysis of Travel Time Reliability for 
        Freight Corridors Connecting the Pacific Northwest: Most supply 
        chains cannot thrive without access to an efficient and 
        reliable freight system. The objective of this research is to 
        evaluate travel time reliability in the main freight corridors 
        connecting the Pacific Northwest to California, the Midwest, 
        and Southwest. Statistical analysis of Global Positioning 
        System (GPS) commercial vehicle travel data will be used to 
        study travel time reliability and identify congestion choke-
        points affecting corridors to/from the Pacific Northwest. GPS 
        data will be used to determine travel time distributions along 
        different corridors by corridor segment (connecting main cities 
        along the corridor), time of day, and day of week. Unlike 
        previous studies, (a) GPS data will be complemented with 
        detector and transponder based information to improve the 
        accuracy of the travel time estimations in urban areas and to 
        compare measurements and (b) the impact of travel time 
        variability by time of day will be tested. A major objective of 
        the project is to quantify travel time reliability on I-5 and 
        I-84 freight corridors connecting major regional origin-
        destinations that start, end, or run through Oregon.

2.1.2 OTREC Sustainability-Related Projects

    Another one-third of OTREC's ongoing and planned research projects 
related more generally to sustainability. Some of the projects aim to 
make transportation and land use systems more efficient, while others 
deal with making alternative modes such as bicycling and walking more 
attractive. We anticipate that this research will result in measures 
that can be implemented that will make our communities more efficient 
and sustainable by encouraging a shift toward travel that requires less 
energy. An additional set of projects deals with freight planning 
issues that also aim to reduce the carbon footprint of our freight 
transportation sector, specifically in the food supply arena.

Land Use and Transportation Linkage

        <bullet>  2007-68: Co-Evolution of Transportation and Land Use: 
        The interaction between land use and transportation has long 
        been the central issue in urban and regional planning. This 
        project examines the land use-transportation interaction from 
        an evolutionary perspective--once a certain set of goals are 
        determined and pursued by politicians and planners, their land 
        supply and transportation investment decisions are to a large 
        extent driven by their previous decisions and the supply-demand 
        dynamics in the urban system. Different from existing 
        integrated land use and transportation models that assume 
        exogenous network investment decisions, the co-evolution model 
        considers both land use growth and transportation network 
        growth as endogenous and market-driven. The central research 
        question is how market and policies translate into 
        transportation facilities and land use developments on the 
        ground. The co-evolution model achieves a novel Urban Growth 
        Equilibrium, which is a useful concept for planning and policy 
        analysis. An agent-based simulation approach is employed to 
        integrate an existing land use model and the transportation 
        network growth model. The resulting integrated co-evolution 
        model is demonstrated in a series of policy sensitivity tests.

        <bullet>  2008-137: Dynamic Activity-Based Travel Forecasting 
        System: The proposed research project has as its primary goal 
        the development of a dynamic activity-based demand model system 
        for Metro that will be capable of meeting these objectives 
        through explicit consideration of time of day and accumulated 
        activity times in the propensities of individuals to construct 
        tours. Although activity-based travel demand models have been 
        developed or are currently under development in several cities 
        in the U.S. and elsewhere, sensitivity to time-dependent path 
        information seems to be lacking in these efforts. Specifically, 
        extant models tend to treat activity episode generation, 
        duration, location, starting time, and travel mode choices as 
        essentially independent, which they are able to do because they 
        ultimately produce trip tables for static network assignment 
        methods. Model components to be developed under this project 
        include: activity pattern choice, daily starting time choice, 
        tour generation, tour mode choice, next stop purpose, next stop 
        location, next stop mode, next stop timing and system 
        simulation event tracker.

        <bullet>  2008-152: Overlooked Density: Re-Thinking 
        Transportation Options in Suburbia, Phase 1 and 2009-216: Phase 
        2: This project aims at understanding of how regulation and 
        site design practices may be modified to transform existing and 
        new suburban multi-family housing areas into places that offer 
        a range of travel modes and potentially reduce the exclusive 
        use of automobiles. This proposal investigates the integration 
        of land use and transportation and also focuses on the role of 
        site design as a critical aspect in the creation of livable, 
        less congested and multi-modal suburban communities. Using a 
        case study approach, this research will include transportation 
        and demographic surveys of suburban multi-family residents, 
        audits/analysis of existing site designs, and interviews with 
        planners, developers, and designers of multi-family housing 
        developments. In order to expose students to the challenges of 
        creating integrated and sustainable suburban multi-family 
        development, this project will also include an educational 
        component in which a class of students will travel to study and 
        document existing models of suburban multi-family development 
        in Eugene, Oregon and Phoenix, Arizona. Both of these cities 
        have seen growth of this housing type in the last decade and 
        will serve as test cases of how different site design 
        approaches have affected transportation behavior. Students will 
        work with local officials, developers and architects to 
        understand code and development related issues, and will then 
        propose alternatives to existing models of development.

        <bullet>  2008-163: No More Freeways: Urban Land Use-
        Transportation Dynamics without Freeway Capacity Expansion: 
        This research aims to answer the following critical land use-
        transportation planning questions: (1). Under what conditions 
        will freeway capacity expansion become counterproductive to 
        urban planning goals (where is the saturation point and are we 
        there yet)? (2). How would urban land use and transportation 
        dynamics evolve if an investment policy prohibiting all freeway 
        capacity expansions was implemented (i.e., no-more-freeway). 
        (3). What would be the implications of such a policy on 
        mobility, accessibility, land use pattern, transportation 
        finance, and social welfare? Improved knowledge on these issues 
        should benefit planers and decision-makers who pursue mobility 
        and sustainability objectives and have the power to shape 
        future cities. The general public will also benefit from more 
        informed transportation investment decisions. The proposed 
        research builds upon an integrated modeling tool developed in 
        previous research--ABSOLUTE (Agent-Based Simulator Of Land Use-
        Transportation Evolution)--which translates planning policies 
        such as the ``no-more-freeway'' policy into alternative urban 
        growth paths and possibly urban growth equilibria.

        <bullet>  2008-160: Long-Term Evaluation of Individualized 
        Marketing Programs for Travel Demand Management: With 
        increasing concerns over traffic congestion, fossil fuel use, 
        air pollution, and livability, coupled with severe constraints 
        on funding for new transportation infrastructure, cities and 
        regions are increasingly looking to a wider range of options to 
        address transportation problems. Transportation demand 
        management (TDM) is one of those options used over the past 30+ 
        years with varying success. More recently, the concepts of 
        social and individualized marketing are being applied to TDM at 
        the household level and for all types of trips. This research 
        project has two specific aims: (1) to evaluate whether the 
        benefits of these individualized marketing programs continue to 
        at least one year after the project ends; and (2) to examine 
        whether the theory of planned behavior can help explain the 
        behavior changes identified. To do so, we will conduct 
        additional follow-up surveys of randomly-selected residents and 
        program participants, examine secondary sources of data, and 
        expand planned surveys.

        <bullet>  2008-184:Understanding School Travel: How Residential 
        Location Choice and the Built Environment Affect Trips to 
        School: This project will examine the relationship between 
        parents' residential location decisions with the built 
        environment and travel mode to school asking several questions: 
        how is school travel implicitly or explicitly considered in 
        families' decision-making process for residential location, a 
        process that generally involves trade-offs a family faces in 
        addressing its various needs? what and how do local 
        environmental factors, such as land use patterns, street 
        network characteristics, transportation opportunities, and 
        housing stock characteristics around school sites play a role 
        in housing location choice, and in turn home-school proximity? 
        To what degree does family location preference is constrained 
        by school siting and other environmental factors, and how does 
        the constraint affect school travel behavior? We will survey 
        random samples of families with children attending selected 
        public schools in the City of Eugene's 4J school district. We 
        will collect information on children's school travel behavior, 
        household background, parents' attitude toward school travel 
        means, and their consideration of school travel in residential 
        location choice. Schools will be selected based on type, 
        quality, size, and location. A comprehensive strategy aimed at 
        reducing school auto-trips should consider providing more 
        walkable environments and reducing the demand for auto-travel.

Walking, Bicycling and Healthy Communities

        <bullet>  2007-18: Active Transportation, Neighborhood Planning 
        and Participatory GIS, Phase 1 and 2008-98: Phase 2: This 
        project is aimed at developing, implementing, and evaluating 
        new community-based walkability tools. This proposed project is 
        designed to utilize new mobile GIS technology in the 
        development of tools that communities themselves can use to 
        assess, map, analyze, and deliberate within their efforts to 
        improve local walking conditions. These goals will be achieved 
        through the development, testing, evaluation, and transferring 
        of GIS and PDA-based tools focusing on measuring and mapping 
        the pedestrian environment. The tools will be developed in a 
        way that maximizes public involvement by local municipalities, 
        school districts, transit agencies, and citizen groups while 
        minimizing the training needs of a general, non-GIS using 
        public. With the data, communities can conduct self assessments 
        of local scale walkability, identify specific geographic areas 
        of unsafe conditions, prioritize areas of greatest need, engage 
        with local transportation officials more productively, and be 
        better prepared to leverage enhancement funds. The purpose of 
        the tools is twofold: 1) to collect relevant information about 
        the walking environment that can lead to greater safety and an 
        increase in pedestrian utilization; and 2) to catalyze 
        community involvement that can urge public involvement and 
        sustain other efforts to encourage greater walking. There are 
        four primary components of this proposal: 1) refine an existing 
        walkability audit tool for Safe Routes to School; 2) develop 
        additional walkability PDA and GIS based audit tools focusing 
        on ADA standards, Complete Streets, and walking environments 
        around transit stops; 3) test each of these tools in 
        communities throughout the country interested in addressing 
        walkability at the local scale; and 4) to conduct an evaluation 
        of the utilization of these tools in the various communities. 
        Once the tools are developed in the research lab, they will be 
        field tested within a community setting.

        <bullet>  2007-20: The Influence of Community Walkability and 
        Safety on Active Transportation Among Low Income Children: In 
        the proposed study, we will examine the contributions of 
        walkability measures and perceived neighborhood safety (traffic 
        and crime-related) on active transportation among an ethnically 
        diverse group of low income children. Second, we will 
        investigate the relationship between children's active 
        transportation and overall physical activity and obesity. The 
        data set that will be used for this research is a cross 
        sectional survey of 765 parents and guardians of children in 
        Florida aged 5-18 who receive Medicaid, the health coverage 
        program for the low income. Using this data set, we will 
        develop multi-variate regression models to identify the 
        independent influences of walkability and safety on active 
        transportation, while controlling for children's individual 
        characteristics. We will test whether walkability factors are 
        equally important in communities that are perceived to be safe 
        and those that are unsafe. Then, we will examine the 
        relationship between active transportation and overall physical 
        activity and obesity for this low income population of 
        children. The findings from this study will add to the emerging 
        body of literature on the influence of community 
        characteristics on active transportation and will uniquely 
        focus on ethnically diverse, low income children. This study's 
        findings will provide insight regarding policy approaches that 
        may be effective for encouraging low income, minority children 
        to use active transportation. Improving physical activity 
        levels for low income children holds great promise for 
        improving health status, and for reducing income and ethnicity-
        based disparities in health outcomes.

        <bullet>  2007-33: Understanding and Measuring Bicycling 
        Behavior: A Focus on Travel Time and Route Choice: An ongoing 
        project is: examining the relationship between urban form and 
        people's decision to bicycle; examining other intervening 
        factors influencing the decision to bicycle, such as weather, 
        topography, attitudes and perceptions, and socio-demographics; 
        and testing the use of readily available technology (personal 
        digital assistants with GPS) to objectively measure physical 
        activity of bicyclists. That project first included a phone 
        survey of Portland area residents about bicycling behavior. The 
        second part of the project, currently underway, involves 150-
        200 bicycle riders carrying a PDA/GPS unit with them when they 
        ride. This new project supplements and builds upon that work in 
        two ways: 1. Collect GPS data from an additional 100 bicycle 
        riders. Recruitment for the additional participants will focus 
        on people with demographic characteristics and located in areas 
        that were under-represented in the original sample. This will 
        allow for more robust results. 2. Analyze all collected GPS 
        data to answer additional questions. The current project 
        focuses on developing and testing the PDA/GPS technology and 
        analyzing bike riding in relation to urban form variables. The 
        proposed project will evaluate the following new questions, 
        among others: what is the difference in travel time between 
        bicycling and driving? how does this difference vary spatially? 
        how do cyclists' routes differ from the shortest network 
        distance? how do cyclists choose their routes? How do network 
        characteristics (e.g., bike lanes or heavy traffic) influence 
        those decisions?

        <bullet>  2007-43: Factors for Improved Fish Passage Waterway 
        Construction: Roughened chutes (simulating natural stream 
        passages) are a cost effective means to provide fish passage at 
        locations where existing culverts and bridges are structurally 
        sound yet do not meet current fish passage rules and 
        regulations. Currently, the construction of roughened chutes 
        consists of using equipment and water-wash methods to place the 
        stream-bed materials; compaction consists of water 
        consolidation and use of bucket and track (using the wheels and 
        tracks of equipment). Excessive subsurface voids can be a 
        significant problem that settles the larger rock and allows the 
        gravel and fines to be washed away. The loss may result in 
        subsurface flow which may impedes passage for fish. Among the 
        factors contributing to this loss, both hydraulic design and 
        construction methods may play significant roles. This project 
        is designed to investigate the role that construction technique 
        plays in the loss of simulated stream-bed materials. The 
        overall objective of this research project is to determine a 
        list of significant construction factors affecting loss of 
        fines in roughened chutes and develop a tool that provides 
        better direction for the construction of roughened chutes.

        <bullet>  2009-227: Evaluation of Bike Boxes at Signalized 
        Intersections: Analyses of motor vehicle and police reported 
        crash data reveal that nearly 68 percent of bicycle crashes in 
        Portland occur at intersections which are consistent with 
        national trends. Of these intersection crash types, a common 
        crash pattern is the ``right-hook'' where right-turning 
        motorists collide with through or stopped bicycles. To 
        partially address these conflicts between bicycles and right-
        turning motor vehicles, the City of Portland will be installing 
        up to 12 ``bike boxes'' at signalized urban intersections. We 
        propose conduct a comprehensive, classical, observational 
        before-after study of the effectiveness of the installed 
        experimental traffic control devices and responses of all 
        system users impacted by the installation of the bicycle boxes. 
        Our approach will answer such research questions as: do the 
        bike boxes reduce conflicts or the potential for conflict 
        between motorized vehicles and bicycles? do the bike boxes 
        create any new or potential conflicts between motorized 
        vehicles and bicycles? how does motor vehicle driver and 
        bicyclist behavior differ with and without the bike boxes? what 
        design features affect behavior and conflicts? do the bike 
        boxes affect pedestrian safety, behavior, or conflicts with 
        motor vehicles or bicyclists? what are the impressions of the 
        drivers and bicyclists using the intersections about how the 
        bike boxes affect safety and operations?

        <bullet>  2009-249: Improving Regional Travel Demand Models for 
        Bicycling: There is very little research in the U.S. on 
        bicycling. What does exist provides some general indications, 
        but is limited in scope and often employs unreliable methods. 
        Moreover, the primary tool used by public agencies to plan 
        urban transportation systems--travel demand models--rarely 
        includes bicycles as a separate mode. Without more 
        sophisticated modeling tools, planners are not able to 
        accurately evaluate infrastructure options that involve 
        cycling. One reason models do not adequately address the 
        bicycle as a mode of transportation is a lack of data. Models 
        are built using travel and activity surveys, which usually 
        don't include enough bicycle travel to develop better models. 
        This project will address these problems. For the past two 
        years, we have collected data from over 150 bicyclists on their 
        bicycle trips using GPS. Past research has evaluated why and 
        where people bicycle, including identifying different types of 
        cyclists. Focusing specifically on route choice behavior, it 
        has been possible to compare the characteristics of the 
        cyclists' routes with those of the shortest paths. The research 
        project proposed here takes that several steps further. The GPS 
        data already collected will be used to develop a bicycle 
        component to Metro's travel demand model. This will be done, in 
        part, by estimating the relative utilities of various types of 
        facilities and factors, e.g. bike boulevards, arterials with 
        and without bike lanes, low traffic streets, hills, etc. In 
        addition, the results will be used to improve a bicycle route 
        planning guide (ByCycle) that is currently available.

        <bullet>  2009-229: Implementation of Active Living Policies by 
        Transportation Agencies and Departments: The overall aim of 
        this project is to examine how and why some public agencies 
        adopt policies that are intended to create a built environment 
        that that supports physical activity and active living. 
        Understanding how and why is essential to promote reformation 
        of planning and policy processes to support active living. The 
        project will focus on transportation agencies, including city 
        and county departments of transportation and public works, 
        congestion management agencies, metropolitan planning 
        organizations (MPOs), other regional transportation agencies, 
        and State departments of transportation. To address the overall 
        aim, we will answer the following questions: what actions 
        (e.g., policies, plans, standards, programs, etc.) can 
        transportation agencies take to support active living? which 
        agencies have taken these actions? why have these agencies 
        adopted policy innovations that support active living? what 
        factors influence adoption? to what extent is health and active 
        living a motivation for these actions? why don't more agencies 
        adopt such actions? what are the obstacles to active living? 
        Methods include a thorough literature review (print and web), 
        an inventory of State DOT actions, interviews with innovative 
        State DOTs, examining a random sample of MPOs and regional 
        transportation plans, a survey of local and regional agencies 
        that are undertaking best practices, and a random survey of 
        MPOs and city/county agencies.

        <bullet>  2009-224: Healthy Communities and Urban Design: A 
        Multi-Disciplinary National Analysis of Travel Behavior, 
        Residential Preference, and Urban Design: This proposed 
        research project is firmly and directly connected to that 
        fundamental core through an examination of the connection 
        between urban form and transportation behavior within and 
        between cities across the country. This project seeks to 
        understand the relationship between urban form and active 
        transportation (walking and biking) by comparing behavior 
        within new urbanist and traditional suburban neighborhoods in 
        carefully selected neighborhood pairings in cities across the 
        United States. In twenty different cities we have selected one 
        new urbanist and one traditional suburban neighborhood by 
        initial GIS analyses of their urban forms. By including these 
        ?pairings? of neighborhoods within cities, and by including 
        multiple cities across the country, we can both control for 
        local policy and cultural conditions within a single city, and 
        control for differences across cities. Thus, we will be able to 
        analyze the relationship of urban form to active travel in a 
        way that has not previously been done.

Sustainable Freight Transportation Systems

        <bullet>  2008-154: Food Delivery Footprint: Addressing 
        Transportation, Packaging, and Waste in the Food Supply Chain: 
        Bringing food products to the majority of U.S. consumers 
        generally involves frequent and lengthy trips from the food 
        growers and producers through a distribution network to the 
        institutional, grocery, and restaurant businesses. 
        Increasingly, businesses are assessing the impact of their 
        purchasing decisions on their carbon footprints. These 
        decisions have complex implications for the environment based 
        on the mode of transportation employed, the corresponding 
        packaging used to transport the goods, and the resulting waste 
        and disposal transportation. The objective of the proposed 
        research is to examine the environmental implications of the 
        purchasing decisions made by these intermediary food 
        businesses. We will start by assessing the current condition; 
        then conduct life cycle assessments of different types of 
        materials and identify alternatives that meet packaging 
        requirements (e.g., shelf stability, etc.) with reduced 
        environmental impacts. Ultimately this project will serve as 
        the foundation for a broader assessment of an organization's 
        carbon footprint which would extend to other forms of energy 
        usage, transportation, and materials management. This 
        represents an enhancement of current `food miles' assessment 
        methodologies, which primary consider greenhouse gases emitted 
        during food transport. The research results can be used to 
        develop purchasing and logistics strategies and models for 
        supplier collaboration to reduce carbon foot print as well as 
        overall transportation and waste costs.

        <bullet>  2008-195: Freight Performance Measures: Approach 
        Analysis: This research has two main objectives: develop a set 
        of freight performance measures that can effectively guide 
        State-level multi-modal transportation investment; identify 
        existing freight data sources and recommend a freight data 
        inventory system that supports the performance measures. This 
        research will develop data-oriented approaches to freight 
        performance analysis that focus on evaluating the cost-
        effectiveness of various alternatives in achieving identified 
        policy priorities. This method is more likely to be supported 
        by existing and/or expected future freight data sources than 
        more comprehensive planning approaches, while focusing on a 
        smaller number of policy objectives at a time. ODOT will use 
        the results from this study to help make freight investment 
        decisions, plan future freight data collection activities, and 
        communicate the benefit of multi-modal investment to 
        politicians and the general public.

        <bullet>  2009-226: Maintaining Safe, Efficient and Sustainable 
        Intermodal Transport through the Port of Portland: The overall 
        objective of this project is to help maintain safe, efficient, 
        and sustainable intermodal navigation in the lower Columbia 
        River by understanding, and suggesting remedies for, a problem 
        that threatens both navigation and salmon habitat. More 
        specifically, we will: use analyses of LOADMAX and historical 
        water level data to document long-term changes in key datum 
        levels and other tidal properties; use results from water level 
        analyses, dynamical models, remote sensing, channel topography 
        and other data to determine the causes of the decreased water 
        levels in the LCR; develop strategies to combat water level 
        reduction, facilitating timely connections to land transport. 
        The proposed research will apply advanced data analysis tools 
        and remote sensing to a transportation problem and its 
        associated habitat restoration needs, in direct collaboration 
        with the public and private sectors. This research takes a new 
        look at the consequences of dredging and uses of dredged 
        material, and considers the impacts of ongoing climate change.

2.2 Evaluating Environmental Impact of Technology

    Within the realm of Intelligent Transportation Systems, a range of 
technology applications exist which can lead to improved safety which 
has direct benefits due to fewer fatalities, injuries and less property 
damage. Safety improvement technologies have secondary benefits since 
the congestion resulting from a crash is also eliminated which prevents 
unnecessary delay, energy consumption, emissions, exposure to secondary 
crashes and noise.
    Other technologies result in reduced VHT and/or VHT, which can lead 
to reductions in energy consumption, emissions, accident exposure OTREC 
researchers have been involved in evaluating various technologies in 
the U.S. and abroad for many years, across all modes. Typically an 
evaluation will include some standard performance metrics such as:

        <bullet>  Travel time or delay savings (congestion)

        <bullet>  Variability of travel time (reliability)

        <bullet>  Emissions

        <bullet>  Number of trips

        <bullet>  Number of stops

        <bullet>  Mode choice

        <bullet>  Noise

        <bullet>  Fuel and energy consumption

        <bullet>  Carbon footprint (e.g., offset by tree planting)

    Fortunately there are several national resources that assist with 
technology evaluation at the planning, design and implementation 
stages, including the U.S. DOT ITS Benefits Database 
(www.itsbenefits.its.dot.gov) and the Intelligent Transportation 
Systems Deployment Analysis System (IDAS--see http://idas.camsys.com). 
In order to rigorously evaluate any technology there are several 
important considerations:

        <bullet>  Partnerships: our evaluations of specific 
        technologies have all involved strong partnerships, typically 
        with transportation agencies and the private sector. We have 
        found opportunities to work collaboratively with the 
        transportation industry where we have been able to provide 
        resources for unbiased evaluation when transportation agency 
        staff lack time and resources to focus on research.

        <bullet>  Problem identification: it is possible to avoid the 
        phenomenon of a problem looking for a solution by carefully 
        identifying the problem that need to be solved before 
        identifying a specific technology.

        <bullet>  Data source: there must be a sufficient data source, 
        preferably as part of the technology deployment itself. In our 
        experience, it is extremely helpful when there is an 
        environment of open data sharing. Transportation agencies in 
        Oregon freely share their data (subject to privacy 
        requirements) with one another and with researchers and the 
        private sector, which is a model that should be followed 
        elsewhere.

        <bullet>  Before and after: typically technology deployments 
        that result in the generation of data do not consider the need 
        for both ``before'' and ``after'' data. If possible, 
        evaluations should develop a robust set of baseline data before 
        implementing the ultimate system.

        <bullet>  Involve evaluator early: if the need for evaluation 
        is built into the project or program early, the costs will be 
        minimized and the potential effectiveness of the evaluation 
        will be maximized.

        <bullet>  Test bed: if alternative technologies are available, 
        consider the development of a simple testbed that allows for 
        raw data from several different sources to be collected by a 
        neutral party for direct comparison. The freeway authority in 
        Munich, Germany successfully used this format for evaluating 
        alternative road weather monitoring systems.

        <bullet>  Technology transfer: communicating the results of 
        technology evaluation through training, seminars, publications, 
        new media and conference/workshop presentations has been a 
        cornerstone of OTREC's work. In addition we focus on educating 
        students who participate in the evaluations and will become the 
        employees of the transportation agencies and private firms 
        implementing future technologies. By involving agency staff in 
        the evaluation there is also technology transfer directly to 
        those employees (who may later move up through the agency to 
        leadership roles).

2.3 Future Research and Development Needs

    A wide array of research and development is needed in order to 
improve the energy efficiency and sustainability of the transportation 
system, and many are underway at OTREC and elsewhere. Recognition that 
the focus is shifting toward efficient and sustainable operation of the 
transportation system will require research and development of new 
sustainable performance based planning, design, operations and 
maintenance. New incentives for operations and maintenance will need to 
be developed. It is not possible to be exhaustive but several research 
needs related to categories of projects described above are listed 
here:

        <bullet>  Sustainable Transportation Pricing and Tolling 
        Strategies: the area of transportation finance is receiving 
        more and more attention, but a sustainable financing system 
        with energy efficiency and sustainability goals does not yet 
        exist. Strategies for implementing emissions fees, or further 
        creative `green' finance systems that are publicly acceptable 
        should be developed.

        <bullet>  Congestion Management: Since about 30 percent of the 
        vehicle miles traveled (VMT) occur on freeways (accounting for 
        only three percent of the lane miles), ITS based congestion 
        management strategies should be aggressively pursued, including 
        ramp metering, speed harmonization, and traveler information. 
        This will require better infrastructure for data collection and 
        fusion of data from multiple sources. Research and development 
        of greater data quality is also needed. Incident management 
        should be exploited to its maximum level of effectiveness. 
        Basic principles such as better signing, striping and marking 
        as well as enforcement, should also be pursued. Mechanisms for 
        improving travel reliability should be the core of this work.

        <bullet>  Integrated Corridor Management: Arterials handle 
        about 42 percent of the VMT with about 11 percent of the 
        Nation's lane miles, and their operation should be optimized 
        through better operations. This requires a national effort to 
        exploit the existing infrastructure of controllers and 
        surveillance systems to provide needed data for management 
        purposes. Building on private sector innovation, investment in 
        research and development for more open source capable traffic 
        signal controller hardware and software should be considered. 
        Communications systems and data quality management components 
        supporting these systems will also be needed.

        <bullet>  Advanced Transportation Information Systems: There is 
        great value in accurate, timely and customized traveler 
        information. There is still research needed to understand how 
        people use traveler information and how it influences their 
        decision-making. For example, would providing travelers with 
        detailed `green' traveler information that reports emissions, 
        noise, and energy impacts, influence mode choice and affect 
        traveler behavior? Navigation systems could be extended to 
        include not only the shortest distance and shortest time 
        routes, but the `greenest' route as well.

        <bullet>  Multi-modal Archived Data User Service: 
        Transportation data will be more and more critical in the 
        future so national attention should be paid to developing 
        robust data collection, storage and management systems. 
        Building on Oregon's open data sharing philosophy, further 
        research is needed to understand how to fuse data from multiple 
        sources, including a mix of public and private sources in a way 
        that encourages innovation in both the private and public 
        sectors.

        <bullet>  Electronic Freight Management: The unavailability of 
        disaggregate freight data continues to be a problem decade 
        after decade. Some strategy for creating a firewall between 
        private sector needs in the freight sector and public sector 
        needs should be developed, perhaps by a neutral third party. 
        The need for data clearinghouses may be needed across the 
        transportation system since the issues of fusing data from 
        multiple sources with varying degrees of quality and 
        sensitivity are becoming more important.

    Several other issues that require further research and development 
include:

        <bullet>  Development of `green' performance measures that can 
        be generated and compared across different geographic areas 
        (state, county, urban/rural, city) and across all modes.

        <bullet>  Development of standard traveler information graphics 
        to replace text-based dynamic message signs.

        <bullet>  Dealing with automated enforcement legal and 
        institutional issues.

        <bullet>  Serious exploration of liability issues (following 
        the lead of the European Union and Japan) related to technology 
        deployment.

3. Innovative Technologies in Transportation Systems

    The deployment of innovative technologies in the transportation 
system involves a complicated array of public and private 
organizations, viewpoints, interests, motivations, legacies, funding 
programs, and cross-disciplinary collaboration and communication. 
Historically, the transportation profession has included engineers and 
planners (as well as many others), but not necessarily requiring 
expertise in computing, data processing, programming, communications, 
system engineering and system integration. The development of the field 
of Intelligent Transportation Systems (ITS) has required the formation 
of new multi-disciplinary teams that require more careful communication 
and collaboration. Educational institutions, firms and government 
agencies, and professional organizations have begun to respond to this 
shift, but the response is not complete. Challenges remain that impede 
the use of innovative technologies in transportation, and there are 
roles for transportation agencies (local, State and federal) as well as 
academia and industry.

3.1 Challenges Impeding Use of Innovative Technologies

    As noted, there are many challenges impeding the use of innovative 
technologies in transportation systems.

        <bullet>  Shift to operations: the needed shift in the 
        transportation field toward an operations environment is 
        partially complete, but still impedes the advancement of 
        innovative technologies. Organizationally, there may not be 
        incentives and rewards for operations personnel to advance in 
        their career. Some agencies may not have sufficient operations 
        staff. Limited operations staff may not have time or expertise 
        to oversee implementation of new technologies.

        <bullet>  Finance and funding: more flexible funding programs 
        could expand the implementation of innovative technologies. 
        Incentives that encourage transportation agencies to share 
        resources across jurisdictional boundaries would remove 
        barriers to implementation.

        <bullet>  Human resources: transportation professionals 
        typically come from single-discipline educational backgrounds, 
        and there may not be sufficient opportunities for professional 
        development and continuing education. Many agencies and firms 
        have travel restrictions that prevent employees from attending 
        and participating in regional, national, and international 
        conferences and symposia (even across State boundaries in some 
        cases). There may not be programs for tuition reimbursement for 
        pursuit of continuing education or advanced degrees, or rewards 
        (e.g., promotion or salary increase) for attainment of graduate 
        degrees.

        <bullet>  Legacy systems: there are numerous legacy systems 
        throughout the transportation infrastructure that have not been 
        maintained or upgraded. Funding for these kinds of upgrades 
        should be expanded, along with performance incentives that 
        allow for upgrades to new versions of hardware and software. 
        Often the legacy systems do not allow flexible data transfers 
        which impacts inter-operability.

        <bullet>  Communications: historically transportation systems 
        have been linked to communications, but transportation 
        professionals may not have the necessary expertise to plan, 
        design or implement robust communications networks. More 
        attention should be paid to the establishment of communications 
        infrastructure that supports the implementation of innovative 
        technologies for the transportation system.

        <bullet>  Data: there is a need for high quality ubiquitous 
        transportation surveillance data across all modes and all 
        levels of the network. Systems for measuring, storing, and 
        disseminating transportation data are complex and currently 
        inconsistent.

        <bullet>  System integration: diverse systems that have been 
        implemented piecemeal require integration. Data standards are 
        moving targets and it is difficult to establish concrete 
        standards for data formats and structures.

        <bullet>  Collaboration: the implementation of innovative 
        technologies requires thinking beyond traditional 
        jurisdictional boundaries. Users want to operate on a seamless 
        transportation network, so traditional boundaries that divide 
        finance, data, and other systems must be broken down. 
        Boundaries between public and private entities along with 
        associated liability issues also present challenges.

        <bullet>  Need for objective and continuing evaluation: often 
        once a project has been implemented and possibly evaluated, 
        continuing maintenance and performance evaluation is not 
        provided.

3.2 Federal, State and Local Actions Needed

    There are many actions that can be taken by Federal, State, and 
local governments in order to break down barriers to the application of 
innovative technologies. Several examples of these roles include:

        <bullet>  Encourage regional collaboration: in the Portland 
        metropolitan region, the TransPort ITS Advisory Committee has 
        been meeting monthly on a voluntarily basis since 1994. 
        TransPort includes representatives from Federal, State, 
        regional, local governments, the private sector and academia. 
        The committee provides official ITS advising to the regional 
        transportation decision-making body and also provides a 
        valuable forum for sharing project information, data, and 
        resources. TransPort could be a model for regional coordination 
        nationwide.

        <bullet>  Public/private partnerships: government agencies 
        could encourage public/private partnerships particularly in the 
        area of standards for data sharing and communications.

        <bullet>  Funding and incentives for operations: new strategies 
        for funding operations activities within transportation 
        agencies should be developed, particularly for those with small 
        staffs. Operations funds should not compete with funding for 
        capacity improvements and dealing with aging infrastructure.

        <bullet>  Reward data sharing: agencies that openly share data 
        with other agencies and make it available for research and to 
        the private sector (e.g., value added resellers) should be 
        rewarded.

        <bullet>  Continuing education and mentorship: agencies should 
        partner with education and training organizations to advance 
        the multi-disciplinary educational level of employees, using 
        specific performance targets. Increase level of experience 
        within agencies to effectively implement, operate, integrate 
        and maintain technology. Agency personnel can serve as valuable 
        mentors and colleagues for students and faculty.

        <bullet>  Performance measurement: develop new strategies and 
        incentives for `green' performance measurement and evaluation.

        <bullet>  Rural infrastructure: communications and utilities in 
        rural locations can be unreliable and expensive to operate and 
        maintain. Agencies should focus on improving rural 
        infrastructure for technology.

3.3 Role for Industry and Academia Industry

    Industry and academia play important roles in the implementation of 
innovative technology solutions. At a fundamental level, it is 
important for both industry and academia to be at the table at the 
planning, design, and implementation stages. Often industry can assist 
government. For example, new vehicles are already equipped with 
advanced positioning and communications systems that could serve as a 
backbone for those vehicles to act as `probes' in the transportation 
system. However, serious privacy issues exist that prevent any 
aggregation of data generated from private vehicles to be used for 
management or information systems. Perhaps in the future, a 
collaboration of public, private and university organizations can work 
to develop a framework for integrating data from multiple sources in a 
mutually beneficial way. The figure below illustrates one way that 
academia can play a significant role in the development of new 
technology. Most transportation agencies have systems in place to 
identify problems, set specific goals for their region or state, select 
and assess multiple alternative strategies, and ultimately take 
particular actions. The feedback loop is complete when the evaluation 
step is completed, which provides feedback into the next stage of 
problem identification. Many times, the evaluation step is left out and 
this is where academia can play an important role. Through 
collaboration, universities can work with transportation agencies and 
industry to provide unbiased, rigorous evaluations that complete the 
feedback loop.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the ITS field, often academia can play an important role in the 
collection, storage and maintenance of data archives. It has been shown 
that having a group of researchers who are interested in using data can 
ensure its quality. Academia also plays a crucial role in providing 
unbiased, rigorous evaluations of ITS projects and programs, which 
serves as a training ground for future and current professionals.

4. Technology Transfer

4.1 OTREC Technology Transfer

    OTREC's technology transfer efforts are contributing toward an 
expanded and coordinated statewide program of transportation outreach 
involving accessible communication of research results, continuing 
education and training courses for transportation professionals at all 
levels and at all stages of their careers, in a variety of formats. 
These programs are being developed in coordination with a statewide 
needs assessment, transportation agency, industry, and community needs, 
and may also appeal to a larger national and international audience. In 
addition, all OTREC projects have an explicit component of transferring 
ideas, skills, and results as part of the research process. OTREC is 
also working with individual campus commercialization officers to 
efficiently move intellectual property into the marketplace as 
relevant.
    There is a need to improve our transportation systems to make them 
more sustainable through research and education. There is also a 
workforce crisis in the transportation sector in that half of our 
nation's transportation system employees will be eligible for 
retirement in the next ten years. Many rural city managers and 
transportation planning staff are expected to retire within the next 
decade, yet many rural towns in Oregon are experiencing either rapid 
growth or decline where transportation issues become central issues. 
OTREC is supporting efforts to link student service learning projects 
with improving rural community planning, and will bring this approach 
to developing transportation training modules for new city managers, 
planners, planning commissioners, and legislators throughout rural 
Oregon. OTREC is encouraging and funding investigator-based technology 
transfer initiatives and encourage development of ways to share 
knowledge nationally and internationally. An example of such an 
initiative is the free web-based
    Friday seminar program already underway at PSU. Each research/
education project proposal requires a technology transfer plan that is 
evaluated as part of our peer review process. OTREC will encourage 
dissemination of research results via journal publications and 
presentations at recognized conferences.
    There is a comprehensive OTREC website with links to all reports 
and publications. Project descriptions are posted on the OTREC website 
and submitted to TRB's RiP database one month after project selection. 
The OTREC newsletter is a key communication tool, and has been 
published twice a year and posted on the OTREC website. We also use 
electronic communication by e-mail as a key outreach tool for faculty, 
students, professionals and stakeholders. OTREC provides the Uniform 
Resource Locator (URL) of all full text reports to TRIS, transmits it 
to NTL and sends five printed copies to the Northwestern University 
Transportation Library, Volpe National Transportation Systems Center 
the Institute of Transportation Studies Library at the University of 
California at Berkeley, the TRB Library and NTIS within two months of 
project completion.
    In addition to national conferences such as the Transportation 
Research Board Annual Meeting and others, OTREC faculty and students 
actively participate and present at local conferences including:

        <bullet>  Annual Region X (TransNow) student conference

        <bullet>  Oregon Planning Institute (OPI) Conference

        <bullet>  Northwest Transportation Conference currently 
        sponsored by ODOT in even-numbered years

        <bullet>  Oregon Transportation Safety Conference

        <bullet>  Institute of Transportation Engineers District 6 
        Annual Meeting (13 Western states)

    Research PIs will be encouraged to produce posters and ``project 
capsules,'' one page summaries of project results with graphics. These 
are posted on the website and are also used in hardcopy to provide a 
convenient format to distribute to transportation professionals. The 
OTREC newsletter also features abstracts from recently published 
results. A series of seminars/lectures/symposia/panels will be 
continued and/or expanded at all campuses.
    OTREC is supporting and expanding existing short courses and 
training programs (e.g., Kiewit Center Safety Courses, PSU's Urban Rail 
series, NCAT training, etc.). OTREC hopes to develop programs for the 
Pacific Rim (e.g., China and Vietnam). In addition, we try to work with 
other organizations to be a clearinghouse for a broad array of training 
programs (ODOT's Road Scholars, the University of Washington's 
Transpeed programs, WTS leadership programs, OSU's Kiewit Center 
courses, FHWA sponsored courses through the National Highway Institute 
(NHI), the National Transit Institute (NTI) and ITS Oregon sponsored 
courses.)
    OTREC has been in operation for about 18 months, and so far we 
believe that our technology transfer efforts have been successful. By 
funding 85 projects, there are now about 60 different faculty involved 
in OTREC projects with roughly 95 students involved as research 
assistants. Each project has an external matching partner who is 
interested in the research undertaken. External partners also assist 
with peer review of the final report, which also requires review by a 
federal agency staff member. These efforts, along with direct access to 
the products of each project, will help get the results into the hands 
of those who can implement the technology. Our projects have about 30 
external partners. We have 17 undergraduate and graduate degree 
programs that are preparing future transportation professionals and 
providing opportunities for working professionals to seek additional 
education and training. OTREC faculty and students are quite active 
publishing and presenting their research results and providing 
opportunities for students to gain experience presenting the results of 
their work. Finally, during our first year of operation our 31 
professional development courses and symposia have reached about 585 
transportation professionals.

4.2 OTREC Industry Partners

    Industry partners play a significant role in technology transfer in 
several ways. First, each project has an external matching partner to 
help ensure success, and some of these come from industry. Second, 
OTREC's External Advisory Board includes four members from private 
industry, who help identify research topics and ensure technology 
transfer.

    4.3 OTREC Demonstration Projects
    OTREC has not been involved in any official federally-funded 
demonstration projects for new technologies.

5. Conclusion

    Our themes--healthy communities, integration of land use and 
transportation and advanced technologies--are guiding us, along with 
our transportation agency and industry partners across the state, to 
develop research and education programs aimed at solving transportation 
problems and strengthening the transportation workforce. Our research 
is being developed through a collaborative process and all products 
will be peer-reviewed. Thank you for this opportunity to provide 
testimony at this important hearing. With your continuing support, we 
are looking forward to making important contributions toward a more 
intelligent and sustainable future.

                    Biography for Robert L. Bertini
    Dr. Robert L. Bertini is an Associate Professor of Civil & 
Environmental Engineering and Urban Studies & Planning at Portland 
State University in Portland, Oregon. A registered professional 
engineer in Oregon and California, he is also the Director of the 
Oregon Transportation Research and Education Consortium (OTREC), a 
statewide collaborative national university transportation center that 
is a partnership between Portland State University, the University of 
Oregon, Oregon State University and the Oregon Institute of Technology. 
OTREC is advancing new research, education and technology transfer 
initiatives throughout the State of Oregon with a multi-disciplinary 
theme of advanced technology, integration of land use and 
transportation and healthy communities. With 20 years of experience in 
transportation, Bertini is a recipient of the National Science 
Foundation CAREER award entitled Mining Archived Intelligent 
Transportation Systems Data: A Validation Framework for Improved 
Performance Assessment and Modeling.
    Since joining the Portland State faculty in 2000, Bertini has 
developed an Intelligent Transportation Systems Lab, unique in the 
Northwest, where he and his students and colleagues are developing ways 
of archiving and mining transportation data to improve the operation of 
our transportation system, reduce congestion and fuel consumption and 
improve quality of life. Bertini's goals at Portland State University 
have been to create rich classroom and laboratory environments to 
prepare leaders in transportation field; to conduct relevant research 
toward more efficient, equitable, effective and sustainable 
transportation system; and to develop new partnerships at Portland 
State, within the Oregon University System, with transportation 
agencies, consultants and industry. During this time Bertini has 
developed new courses, curricula and seminars; published over 200 
papers and articles (81 peer reviewed), most with student co-authors; 
his published work has been cited 139 times; he has presented 163 
invited lectures and presentations; he has been principal investigator 
or co-principal investigator on 53 research projects; and has 
supervised 87 undergraduate and graduate students. He is the recipient 
of several best paper awards from the Institute of Transportation 
Engineers, a diversity achievement award from the Women's 
Transportation Seminar and the Distinguished Faculty Achievement Award 
from the Portland State University Alumni Association.
    Bertini works to bring a community-based learning component into 
the classroom and serves as the advisor for the Portland State 
University student chapter of the Engineers Without Borders. He is the 
Secretary of the Transportation Research Board's Committee on Traffic 
Flow Theory and Characteristics. He received a Ph.D. in Civil 
Engineering from the University of California at Berkeley, an M.S. in 
Civil Engineering from San Jose State University, and a B.S. in Civil 
Engineering from California Polytechnic State University San Luis 
Obispo. His government and industry experience includes positions with 
the San Mateo County California Department of Public Works, DeLeuw, 
Cather & Company, Parsons Brinckerhoff Quade & Douglas, Inc., and 
DaimlerChrysler Research and Technology North America, Inc. As a 
transportation engineer he has worked on public works, highway, light 
rail and airport projects, including planning, design and construction. 
Bertini and OTREC are members of ITS America, ITS Oregon, the Institute 
of Transportation and the American Road and Transportation Builders 
Association.

    Chairman Wu. Thank you, Dr. Bertini.
    Mr. Voigt, please proceed.

  STATEMENT OF MR. GERALD F. VOIGT, P.E., PRESIDENT AND CEO, 
             AMERICAN CONCRETE PAVEMENT ASSOCIATION

    Mr. Voigt. Thank you. Good morning, Chairman Wu and 
distinguished Members of the Subcommittee. It is both my 
pleasure and privilege to represent the 460 members of the 
American Concrete Pavement Association before you today. I will 
address two areas: how paving materials can contribute to 
energy efficiency and sustainability and what challenges impede 
the adoption and implementation of sustainable practices.
    Concrete is inherently a long-lasting and renewable 
building material. One of the unique distinguishing factors and 
features of concrete pavements are their well-documented 
durability and longevity over many decades of evaluation. Most 
pavements have a design life of 20 years but concrete pavements 
generally last much longer. In fact, there are cases of heavily 
trafficked concrete pavements that have performed for longer 
than 40 or even 50 years. A good local example is Interstate 66 
just outside the Beltway here in the Capital region, which was 
completed in 1963 and is still in service today carrying a 
daily traffic level 10 times what it was designed for. There 
are many other examples like that across the country.
    According to research in Canada, it is this exceptional 
longevity that is primarily responsible for enhanced 
sustainability benefits, particularly fewer repair cycles, 
which is the primary reason concrete pavements have a 
significantly lower energy footprint than comparable asphalt 
pavements. Although cement, the glue that binds all the rocks 
and sand together in a concrete mixture, requires a significant 
amount of energy during manufacturing, it makes up only about 
eight percent of the volume of a typical concrete paving 
mixture. Over the past two decades, the trend has been for less 
Portland cement to be used per cubic yard of concrete, largely 
because of improved mixture technology and the industry's 
significant use of industrial byproducts, which I believe were 
mentioned earlier, such as fly ash from coal-fired energy 
plants and slag from iron blast furnaces. Concrete is also 100 
percent recyclable and reusable.
    There are a number of sustainability features and benefits 
that concrete pavement provides in addition to those based just 
on materials. For example, concrete roadways require about one-
fifth the energy to produce as comparable asphalt pavement. If 
concrete were substituted for the 500 million tons of asphalt 
used in roadways each year, it would save around 1.2 billion 
gallons of diesel fuel used in construction, or roughly the 
equivalent of removing 2.7 million cars off the road annually. 
I would like to point out that we are not suggesting that every 
road in America needs to be concrete. We are just trying to 
make the illustration of the benefits and the sustainability 
features that concrete provides.
    According to the National Research Council of Canada, 
trucks traveling on concrete pavements use up to 6.9 percent 
less fuel than on asphalt, so if all asphalt surfaces on the 
national highway system were concrete, it would save as much as 
2.1 billion gallons of diesel fuel per year, or $8.2 billion at 
$4 a gallon.
    Concrete pavements are also naturally light colored, 
reflect light and do not retain as much heat as darker colored 
pavements. This could save cities and municipalities up to one-
third on energy costs associated with streetlights. Concrete 
pavements also have a direct effect on mitigating urban heat 
islands and have been used successfully with other light-
colored surface technology to reduce urban temperatures. 
According to Lawrence Berkley Laboratories, the potential 
energy savings in the United States from this approach is 
estimated at $5 billion per year through reduced cooling costs 
in those cities.
    In terms of the current and needed future research and 
technology activities, at the top of the list for us is a new 
sustainability technology initiative within our industry's 
long-range research road map which will encompass a wide range 
of activities to close research and technology transfer gaps. 
We have outlined these in our written testimony.
    Lastly, I want to mention several challenges our industry 
sees to further implementation of sustainable materials and 
practices for transportation infrastructure. First, there is a 
lack of a clear and universally accepted way to measure the 
sustainability of roadways. Second, current specifications 
should be replaced with specifications that require more 
sustainable practices. In many cases, existing specifications 
unintentionally limit the use of more sustainable materials 
like blended Portland cements. Demonstration projects and 
workforce training at all levels will be necessary to develop 
the knowledge and skills to implement sustainable and 
innovative technology. And there is also an acute need for a 
design and decision tool or tools to assess and continually 
improve the sustainability of all pavements. At present, most 
pavement decisions are based on, first, cost and, to a limited 
degree, life cycle cost without regarding to sustainability 
factors and benefits. A stronger federal position with an 
objective and more comprehensive pavement selection policy 
would help ensure that agencies effectively apply appropriate 
considerations for energy use and sustainability. The decision 
process must change to impact the use of innovative and current 
materials that are more sustainable and less costly in the long 
run.
    Mr. Chairman, the stakeholders in our nation's surface 
transportation network currently stand at an important fork in 
the road. We can let our surface transportation network 
continue to erode through the continuation of current practices 
or we can reinvest in new practices and quality materials that 
contribute to sustainable development. Our industry looks 
forward to continuing this dialogue with you. Thank you for the 
opportunity.
    [The prepared statement of Mr. Voigt follows:]
                 Prepared Statement of Gerald F. Voigt
    Good morning, Chairman Wu, Ranking Member Gingrey, and 
distinguished Members of the Subcommittee.
    My name is Gerald F. Voigt, President and CEO of the American 
Concrete Pavement Association. The American Concrete Pavement 
Association represents more than 460 member companies, including paving 
contractors, cement companies, ready-mixed concrete producers, and 
suppliers of capital equipment, machines, materials, value-added 
products, and services that are used in the construction of concrete 
pavement.
    It is both my pleasure and privilege to appear before you today to 
talk about the concrete pavement industry's research and development 
activities aimed at reducing life cycle energy consumption and to 
address sustainability for surface transportation infrastructure. My 
testimony today will address questions aligned with three key areas:

        1.  How concrete pavements contribute to energy efficiency and 
        sustainability;

        2.  What research is improving or will improve the 
        sustainability of concrete pavements; and

        3.  What challenges impede the use of innovative and more 
        sustainable materials in the Nation's surface transportation 
        infrastructure.

How Concrete Pavements Contribute to Energy Efficiency and 
                    Sustainability.

    Concrete is the most commonly used building material in the world. 
It is often taken for granted, but you find it in your homes, 
buildings, under your feet while walking down a sidewalk, supporting 
airplanes at airports and, yes, as a major component of many miles of 
roads and highways in the United States and elsewhere in the world. 
Concrete is inherently a long-lasting and renewable building material, 
primarily made from locally available raw materials, including 
limestone or other natural stones, gravel, sand, and relatively small 
amounts of water.
    To be clear, the other common paving material, asphalt, is also 
made from locally available aggregate and sand, which is combined with 
bitumen, a product of distilling petroleum.
    One of the unique distinguishing features of concrete pavements is 
their well-documented longevity compared to asphalt pavements. Most 
pavements are placed with a targeted design life of 20 years, but in 
reality concrete pavements generally last much longer, while asphalt 
pavements last less than 20 years. In fact, there are well-documented 
cases of heavily trafficked concrete pavements that have performed for 
longer than 50 years. The State of Minnesota has recently begun 
specifying a 60-year concrete pavement design and California (CALTRANS) 
is working toward the goal of 100-year Sustainable Pavements.
    Modern technology also continues to extend the service life of old 
concrete pavements through innovative repair and rehabilitation 
strategies. Increasingly, highway agencies are turning to a process 
known as diamond-grinding, which can be used as part of a long-term 
strategy to restore exemplary surface characteristics to structurally 
sound concrete pavements. Diamond grinding uses large machines that 
travel across the surface of the pavement, removing bumps and restoring 
the surface texture to like-new condition. A study by CALTRANS\1\ 
suggests that the service life of a well-designed concrete pavement can 
be extended by about 17 years with diamond grinding.
---------------------------------------------------------------------------
    \1\ ``The Effectiveness of Diamond Grinding Concrete Pavements in 
California,'' CALTRANS, May 2005.
---------------------------------------------------------------------------
    Of the two types of highway pavements--asphalt and concrete--
concrete pavements inherently have the lowest overall energy footprint. 
The reasons for this are many, but the primary factors are the 
exceptional longevity of concrete pavements, the relatively low amounts 
of fuel required to place concrete pavements, and, of course, the fact 
that our product is not a byproduct of petroleum refining and 
production and thus has a much lower embodied primary (including 
feedstock) energy.\2\ It is the exceptional longevity of concrete 
pavement that is primarily responsible for its enhanced sustainability, 
as the lack of frequent repair and replacement results in reduced 
congestion; fewer construction cycles (and the associated energy 
consumption, pollution generation, and use of natural resources); and 
enhanced safety through surface characteristics.
---------------------------------------------------------------------------
    \2\ ``A Life Cycle Perspective on Concrete and Asphalt Roadways: 
Embodied Primary Energy and Global Warming Potential,'' Athena 
Institute, September 2006.
---------------------------------------------------------------------------
    It is important to distinguish cement from concrete. Concrete is 
the mixture we form into pavements, bridges and other structures. 
Cement (technically Portland cement) is a powder that when combined 
with water and aggregates becomes the glue that binds the gravel and 
sand together and gives concrete its strength and rigidity. Cement 
requires the most energy to produce of all of the concrete 
constituents. However, it makes up only about eight percent of the 
volume if a typical concrete pavement mixture. The energy and 
sustainability benefits of hardened concrete used in transportation 
infrastructure overcome any drawbacks from the energy intensive 
manufacture of this one component.
    The concrete pavement industry has recognized and embraced the 
concept of sustainability. We are supporters of the Green Highways 
Partnership,\3\ and have taken on self-imposed actions and research 
focused on improving concrete and concrete pavement sustainability.
---------------------------------------------------------------------------
    \3\ See http://www.greenhighways.org. The Green Highways 
Partnership (GHP) is a voluntary, public/private initiative. It strives 
to change the manner in which roadways are developed through concepts 
such as integrated planning, regulatory flexibility, and market-based 
rewards. GHP seeks to incorporate environmental streamlining and 
stewardship into all aspects of the highway life cycle.
---------------------------------------------------------------------------
    In recognition of their corporate obligations, the U.S. cement 
industry has adopted voluntary reduction targets for key environmental 
performance measures. Member companies of the American Concrete 
Pavement Association and Portland Cement Association have adopted four 
goals:

        <bullet>  Carbon Dioxide--Reduce carbon dioxide emissions by 10 
        percent (from a 1990 baseline) per ton of cementitious product 
        produced or sold by 2020.

        <bullet>  Cement Kiln Dust--Reduce the disposal of cement kiln 
        dust by 60 percent (from a 1990 baseline) per ton of clinker 
        produced by 2020.

        <bullet>  Environmental Management Systems--At least 75 percent 
        of U.S. cement plants will implement an auditable and 
        verifiable environmental management system by 2010 and 90 
        percent by 2020.

        <bullet>  Energy Efficiency--Improve energy efficiency by 20 
        percent (from a 1990 baseline) as measured by total Btu per 
        unit of cementitious product by 2020.

    Over the past two decades, the trend has been for less Portland 
cement to be used per cubic yard of concrete. This trend stems from 
improved mixture technology, and the industry's use of industrial 
byproducts, such as fly ash (from coal-fired energy plants) and slag 
(from iron blast furnaces), to replace cement. Cement manufacturers 
have developed new products where these supplementary materials are 
combined during manufacturing as a blended cement product.
    Some pavements have been constructed with as much as 25 percent fly 
ash and 50 percent slag replacing Portland cement, and research is just 
getting underway to further increase the amount of fly ash that can be 
used. The net effect of this is a positive diversion of a large amount 
of ``waste'' away from landfills, while at the same time improving 
concrete properties and cost effectiveness, ultimately reducing 
concrete's overall energy footprint. The proper use of these byproduct 
materials in concrete also improves a pavement's longevity and overall 
performance, illustrating how the concrete pavement industry is and can 
be an even more integral part of creating a sustainable transportation 
infrastructure.
    Concrete is also 100 percent recyclable and reusable. Routinely, 
old concrete is crushed, steel components are removed and recycled, and 
then, the crushed concrete is used for roadbed materials, for 
stormwater management, for aggregate in new concrete mixtures, and also 
for some non-paving applications.
    With regard to energy consumption, there are a host of energy-
related factors that are not considered in the typical pavement type 
selection process in use presently by State transportation departments. 
Primary among them is the energy required to build pavements and the 
energy consumed by vehicles to drive on pavements once they are opened 
to traffic.
    According to the Federal Highway Administration's Technical 
Advisory on Price Adjustment Contract Provisions, construction of hot-
mix asphalt roadways consumes more than five times as much diesel fuel 
as the construction of comparable concrete roadways. Given the Federal 
Highway Administration's (FHWA's) estimate of 500 million tons of hot-
mix asphalt placed annually, this would equate to a 1.2 billion gallon 
annual savings of diesel fuel if those pavements were built with a more 
sustainable concrete pavement. Considering the associated reduction of 
carbon dioxide by constructing only concrete pavements. this equivalent 
to taking 2.7 million cars off the road annually.
    The National Research Council of Canada\4\ recently completed a 
study on fuel efficiency of commercial trucks on both asphalt and 
concrete pavements. The study demonstrated a statistically significant 
fuel savings for semi-tractor trailers (18 wheelers) on concrete versus 
asphalt pavements. Trucks traveling on concrete pavements use between 
0.8 percent to 6.9 percent less fuel. The National Highway System is 
the primary system for the delivery of goods by truck in the U.S. Some 
80 percent of U.S. communities can be accessed only by truck for 
deliveries. The system presently consists of approximately 160,000 
lineal miles of pavement, 59 percent of which has an asphalt surface. 
If these asphalt surfaces were converted to concrete surfaces, it would 
save 2.1 billion gallons of diesel fuel per year at the pump (an $8.2 
billion dollar annual savings at $4.00/gallon), reduce our dependence 
on oil, lower the emissions from vehicles, and decrease the cost of 
transporting goods.
---------------------------------------------------------------------------
    \4\ G.W. Taylor, P. Eng., & J.D. Patten, P. Eng. ``Effects of 
Pavement Structures on Vehicle Fuel Consumption--Phase III,'' 2006.
---------------------------------------------------------------------------
    Concrete pavements are also naturally light-colored, reflect light 
and do not retain as much heat as darker-colored asphalt pavements. 
This enhances night-time visibility, which in turn, improves both 
pedestrian and vehicle safety. These properties also can have a 
profound effect on energy savings, as it requires fewer lighting 
fixtures or lower wattage fixtures to illuminate concrete roadways in 
comparison to the darker asphalt surfaces. When properly accounted for 
during design, cities and municipalities can save up to one-third on 
energy costs associated with street lights. The potential savings are 
huge, considering that the cost of keeping street lights illuminated is 
often the third costliest item a typical city might incur, right behind 
schools and employee salaries.\5\
---------------------------------------------------------------------------
    \5\ Data from City of Milwaukee, Wisconsin.
---------------------------------------------------------------------------
    Concrete pavements have a direct effect on mitigating urban heat 
island effects. Urban areas can be up to nine degrees Fahrenheit warmer 
than surrounding areas, related to among other things heat-absorbing 
dark-colored horizontal surfaces like roofs, roadways and parking 
areas, which translates to more pollution and more energy required for 
cooling buildings. Concrete has been used successfully, along with 
other light colored building materials and strategic planting, to 
reduce the urban heat island effect. According to work done in 2005 at 
Lawrence Berkeley Laboratories,\6\ the potential energy savings in the 
United States from this type of planned mitigation is estimated at $5 
billion per year through reduced cooling costs. At this time urban heat 
island is not a factor used in the selection of pavements by FHWA or 
State transportation departments.
---------------------------------------------------------------------------
    \6\ Akbari, H. ``Energy Savings Potentials and Air Quality Benefits 
of Urban Heat Island Mitigation,'' First International Conference on 
Passive and Low Energy Cooling for the Built Environment, Athens 
Greece, May 17-25, 2005.
---------------------------------------------------------------------------
    Naturally, when we talk about sustainability, it is logical to 
focus solely on the longevity and environmental aspects of concrete 
pavements. But there's more. Concrete pavements have indirect societal 
and economic benefits, too. Downtown areas have been revitalized by the 
use of decorative concrete pavements, which are colored and stamped 
with decorative textures to create a higher aesthetic quality. This not 
only improves civic pride and creates a sense of community; it also 
tends to improve business along Main Street, U.S.A.

What ongoing or future R&D projects will improve the sustainability of 
concrete pavement? What are the most important current technical 
challenges, and what types of R&D projects are needed to overcome these 
challenges?

    In September, 2005, the National Center for Concrete Pavement 
Technology (CP Tech Center),\7\ seated at Iowa State University in 
Ames, Iowa, published the Concrete Pavement (CP) Road Map,\8\ which is 
a comprehensive and strategic long-term plan for concrete pavement 
research, prepared with broad industry participation under the aegis of 
the Federal Highway Administration. The CP Tech Center is an 
independent, third-party organization that represents the research and 
technology transfer needs of the concrete pavement community. It is 
also unique among technology centers in that it has the established 
goal of collaboration with universities and other organizations across 
the country to leverage the best minds and expertise. Today, the CP 
Tech Center and the Concrete Pavement Roadmap are managed by executive 
and advisory boards consisting of private, public as well as academic 
leaders in the field of concrete pavement engineering.
---------------------------------------------------------------------------
    \7\ See http://www.cptechcenter.org
    \8\ See http://www.cproadmap.org/index.cfm
---------------------------------------------------------------------------
    When published, the CP Road Map consisted of 12 research tracks. 
Although it was decided then that sustainability must be an 
inextricable component of each of the 12 tracks, the ever sharper focus 
on sustainability worldwide led the CP Road Map's Executive Committee 
to create a separate sustainability and environmental track in 
September 2007.
    The track is currently underway, with the first meeting of the 
Leadership Group\9\ scheduled for July 23, 2008. The diverse group will 
lead the development of a Track Framing Document to guide research and 
outreach, as well as to select projects for immediate and future 
funding, all with the goal of advancing the sustainability of concrete 
pavements, and building on concrete's already outstanding position as a 
sustainable paving material. This track will closely align with the 12 
other CP Road Map Tracks to ensure a coordinated and comprehensive 
effort to address sustainability.
---------------------------------------------------------------------------
    \9\ The Leadership Group, consists of individuals representing 
government (Federal Highway Administration; U.S. Environmental 
Protection Agency; the Vermont Agency of Natural Resources; Virginia 
Department of Transportation; Caltrans; North Dakota Department of 
Transportation; Kentucky Department of Transportation; Minnesota 
Department of Transportation; and New York Department of 
Transportation. Also, the group is represented by industry (in the form 
of representatives from companies including Holcim (US); Lafarge North 
America; Duit Construction; The Right Environment, Snyder and 
Associates; and Applied Pavement Technology), as well as associations 
(American Coal Ash Association; American Concrete Pavement Association; 
Wisconsin Concrete Pavement Association; Slag Cement Association; 
Cement Association of Canada; National Ready-Mix Concrete Association; 
Portland Cement Association, and the American Association of State 
Highway and Transportation Officials); and academia (Iowa State 
University--CP Tech Center and the University of New Hampshire--
Recycled Materials Resource Center).
---------------------------------------------------------------------------
    Inherent to increasing the sustainability of concrete pavements is 
the need to increase energy efficiency, both in the production and 
operational phases of the pavement's life. Current and future research 
that directly or indirectly increases energy efficiency during the 
production phase includes:

        <bullet>  Development and adoption of new recycling methods for 
        concrete pavements to further advance the means through which 
        existing materials may be reused.

        <bullet>  Development and adoption of advanced construction 
        testing and monitoring to assure the quality of the end-
        products as more sophisticated and complex material 
        combinations are implemented.

        <bullet>  Development and adoption of advanced, highly 
        efficient equipment, as well as methods for evaluating and 
        improving constructability to ensure that contractors operating 
        under the low-bid procurement process have the technology and 
        capability to achieve specified results.

        <bullet>  Optimized aggregate sizing to reduce cement content 
        to reduce the energy embodied in concrete.

        <bullet>  Increasing fly ash and slag contents in pavement 
        concrete to advance the extent of reuse of these byproducts for 
        cement substitution.

        <bullet>  Two-lift slipform paving construction to allow 
        further use of locally available aggregate that may be 
        acceptable in the lower region of the pavement, but not near 
        the surface.

        <bullet>  Development of practices to reduce and eliminate 
        construction waste and increased use of recycled water as 
        further improvements in sustainable construction practice.

        <bullet>  Development and adoption of advanced, highly 
        efficient equipment to minimize fuel consumption and emissions 
        generated during construction.

    In addition to improvements during the construction phase, 
improvements in energy efficiency during the operational phase are 
being targeted. These include improvements that may be realized through 
the maintenance, rehabilitation, and recycling operations and those 
that directly benefit the highway user and surrounding communities. 
Current and anticipated research that addresses improvements in energy 
efficiency during the operational phase includes:

        <bullet>  Increased pavement longevity, minimizing future 
        maintenance and reducing user costs and delays resulting in 
        significant energy savings.

        <bullet>  Fast-track (expedited) repairs and rehabilitation of 
        concrete pavements to reduce construction time and congestion 
        and associated wasted energy from vehicles delayed through work 
        zones.

        <bullet>  Precast pavements/slabs for maximum durability, and 
        rapid repair and replacement to minimize disruption to 
        motorists and businesses.

        <bullet>  New and improved in-place recycling techniques that 
        save energy by eliminating any need to transport materials to 
        and from a crushing and processing facility.

        <bullet>  New concrete overlay techniques that extend pavement 
        life with the least amount of materials and energy expended, 
        while also providing the energy-related advantages of concrete 
        pavement surfaces.

        <bullet>  Lower rolling resistance that increases the fuel 
        efficiency of vehicles operating on the pavement surface.

        <bullet>  Highly reflective surfaces that require less 
        illumination, saving lighting energy and lives while lowering 
        energy required for cooling urban areas.

        <bullet>  Optimized textures that reduce tire-road noise, 
        maintain frictional characteristics, and provide pavement 
        demarcation to improve aesthetics and community acceptance.

        <bullet>  Photo-catalytic surfaces to treat air pollution, 
        lowering energy required for alternative treatment strategies.

        <bullet>  Pervious concrete surfaces that eliminate energy 
        consumed to treat point source run-off.

    ACPA also is working closely with researchers at Arizona State 
University's National Center of Excellence on SMART Innovations for 
Urban Climate and Energy to better understand how pavement designs and 
materials contribute to surface temperature changes. Begun in 2005, 
this research was designed to identify mix design factors that could 
allow production of cooler pavement surfaces and a modeling tool by 
which to evaluate the surface temperature changes. This work will 
provide further awareness of the urban heat island issue, and influence 
municipal ordinances and building codes to adopt environmentally 
appropriate materials and solutions.
    In pursuing this research, ASU has developed a simplified 
laboratory test method to evaluate the thermal conductivity of paving 
materials using conventional construction techniques. ASU also 
collaborated with ACPA to develop infrared images and place in-pavement 
sensors for a concrete overlay of an existing asphalt concrete parking 
lot in Rio Verde, Arizona. This collaboration provided dramatic 
information and imagery on concrete's benefit in reducing urban heat 
island effects in a living community.

What challenges impede the use of innovative materials for 
transportation infrastructure? What actions can the Federal and State 
and local governments take to overcome these impediments? What is the 
role of industry and academia, especially in technology transfer?

    Current institutional and technical challenges exist that impede a 
more widespread use of sustainable and energy efficient pavements. It 
is our contention that significant improvements could be achieved 
simply by including consideration of these important factors in the 
selection process used for pavements. At present, most decisions are 
based on first cost, and to a limited degree life cycle cost. However, 
factors such as user costs, the energy required to build and operate 
pavements, as well as the energy consumed by vehicles driving on 
pavement surfaces or used for lighting roadways, is not appropriately 
considered. New, more comprehensive selection processes could take 
these real agency and societal impacts into consideration. A stronger 
federal position on the use of federal aid funds coupled with an 
objective and more comprehensive federal pavement selection policy 
would help insure that states and other agencies effectively apply 
appropriate considerations for energy use and sustainability.
    The culture of considering ``lowest first cost'' in place by most 
State Departments of Transportation (DOT's) must change to impact the 
use of innovative and current materials that are more sustainable. 
Traditionally, State departments of transportation have considered the 
construction and maintenance of a roadway as two separate operations, 
with separate funding levels assigned to each. Some states have adopted 
life cycle cost strategies for some of their pavements, in which both 
the initial construction costs and long-term maintenance and operation 
costs are included as a way of comparing alternate pavement designs for 
a section, but this has not pervaded all of their decisions. An asset 
management and sustainability strategy can only truly be reached when 
an agency applies this mindset both simultaneously across their roadway 
network and continuously throughout time. In doing so, the pavement 
network is viewed as an asset and a mix of different rehabilitation 
strategies are employed to sustain its value.
    We do not intend to be critical of our partners in the State 
highway agencies, but the fact remains that a new mindset is needed to 
achieve more sustainable practices. We also would be remiss if we did 
not recognize the challenges faced locally with constrained funding 
that limits an agency's initiative to adopt new, more sustainable 
practices.
    Application of strategic asset allocation to a pavement network 
would allow the states to maintain the network in the highest overall 
condition possible at the lowest constant level of dollar flow into the 
pavement network. Such a system is inherently dynamic and necessarily 
would adhere to the principles of sustainability. The FHWA has 
recognized this need in their publication A Quick Check of Your Highway 
Network Health\10\ which states: ``By viewing the network in this 
manner [with each pavement as an asset in a collected network], there 
is a certain comfort derived from the ability to match pavement actions 
with their physical/functional needs. However, by only focusing on 
projects, opportunities for strategically managing entire road networks 
and asset needs are overlooked.''
---------------------------------------------------------------------------
    \10\ FHWA-IF-07-006, ``A Quick Check of Your Highway Network 
Health.''
---------------------------------------------------------------------------
    A number of specific implementation challenges currently impede the 
immediate adoption of more sustainable pavements. These include:

        <bullet>  Lack of a clear and universally accepted way to 
        ``measure'' the sustainability of a roadway. However, research 
        conducted in Canada\11\ provides many answers, but has not yet 
        received broad acceptance within the transportation industry. 
        The Canadians have looked at the embodied primary energy of a 
        roadway segment over a 50-year life cycle (including material 
        extraction, processing, mixing, placement, operation, 
        maintenance and salvage). However, more work is required in 
        this area.
---------------------------------------------------------------------------
    \11\ ``A Life Cycle Perspective on Concrete and Asphalt Roadways: 
Embodied Primary Energy and Global Warming Potential,'' Athena 
Institute, September 2006.

        <bullet>  Existing specifications. In most cases, existing 
        specifications unintentionally limit the use of more 
        sustainable practices. Paving specifications are often based on 
        dated information and agencies do not often respond quickly to 
        changes in materials or industry advancements. Current 
        specifications should be replaced as appropriate with 
        specifications that require more sustainable practices. One 
        such change that would have immediate benefit is opening up the 
        use of blended cements. Blended cements (Portland cement 
        blended with slag or other supplementary materials during 
        manufacturing) are used extensively throughout Canada and 
        Europe, but are not widely used by State DOT's in the U.S. As 
        noted earlier, these materials have a lower energy footprint 
        than standard cements. Another positive change would be to 
        allow much great amounts of SCM's in concrete paving mixtures. 
        When given the opportunity, industry often will find innovative 
        ways to make use of these byproducts, while improving the 
---------------------------------------------------------------------------
        pavement quality and saving dollars.

        <bullet>  Training the workforce. The design, construction, 
        maintenance, rehabilitation, and recycling of sustainable 
        pavements requires great knowledge and skills. As such, the 
        current and future workforce must be educated with respect to 
        sustainability and the important role each individual plays in 
        increasing sustainable infrastructure. This includes all 
        members of the workforce, from the construction laborers and 
        superintendents through the planners and designers. Immediate 
        and long-term benefits can be derived through focused training 
        programs that bring current and future innovations to light.

        <bullet>  Lack of design and decision tools. There is an acute 
        need for tools designers can use to assess and improve the 
        sustainability of pavements. Although the technology exists to 
        create such tools, none are currently widely available and thus 
        there is no systematic way to determine the sustainability of a 
        given design or to compare design alternatives. Tools need to 
        be developed and implemented that are based on international 
        standards for assessing the life cycle costs and benefits of 
        design alternatives.

        <bullet>  Demonstration projects and commensurate technology 
        transfer workshops can be used to demonstrate current and 
        emerging technologies that improve the sustainability of 
        concrete pavements.

        <bullet>  Gaps in research, as outlined earlier.

    Many of the achievements of the CP Tech Center were accomplished 
through a cooperative agreement with the Federal Highway Administration 
and used federal research funds to leverage funding from others, 
including our industry. We greatly appreciate the efforts of Congress 
to support of research and development for improved pavements. We are 
confident that with our public sector partners, we can close gaps in 
the technology and practice that will break down barriers to use of 
innovative and more sustainable materials and practices.

Closing Remarks

    Mr. Chairman, to summarize these remarks, I submit that the 
stakeholders in our nation's surface transportation network currently 
stand at an important fork in the road.
    We can let our surface transportation network condition erode 
through the perpetuation of current practices that ultimately will have 
dire consequences to the safety and personal mobility of our citizens, 
as well as the ability of our nation to compete in the global economy. 
Or, we can reinvest in new practices that contribute to sustainable 
development of our surface transportation systems.
    In many ways, sustainable pavement technology is already available 
in a familiar building material called concrete. We need to fill some 
research gaps and develop the mechanisms to put more sustainable 
practices into common use. If we accept this challenge, we will once 
again create a system that stands peerless above all others and neither 
detracts from our environment nor impedes future generations from 
achieving the standards of living that we have enjoyed as a direct 
result of our surface transportation network.
    The concrete pavement industry stands ready and willing to invest 
the time and other resources to advance our products and processes in 
pursuit of even more sustainable practices. We look forward to the 
support of the public sector to realize the American vision of the best 
highways and roadways in the world. Thank you for your time, for 
providing this opportunity to our industry, and for your kind 
consideration.

                     Biography for Gerald F. Voigt

Professional Summary

American Concrete Pavement Association, 1988 to Present

    Capstone: Serving the ACPA for almost two decades, I have been 
involved in every facet of the Association's business, predominantly in 
technical and management positions. During my entire tenure, I have 
consistently balanced the dynamic needs of the industry by developing 
and implementing new ideas; leading by example; and staying true to our 
founding principles of service, hard work, and extra effort for the 
betterment of the industry and the pavements we produce. I have 
concentrated my work on technology and technology transfer for all 
three primary segments of our mission: airports, highways and streets.

<bullet>  President & Chief Executive Officer, 2005 to present

<bullet>  Chief Operating Officer/Senior Vice President of Technical 
Services, 2004

<bullet>  Chief Operating Officer/Vice President of Technical 
Operations, 2000-2003

Role and responsibilities:

        <bullet>  Formulate and oversee annual budget and manage 
        general operations and finances.

        <bullet>  Manage diverse professional staff.

        <bullet>  Work as proactive appointed member of ACPA Board of 
        Directors and Executive Committee to develop and implement 
        policies, programs, and budgetary guidelines.

        <bullet>  Guide overall work programs and implement process 
        flows to improve productivity.

        <bullet>  Lead all areas of Association's focus, including 
        technical & research programs, promotion programs, 
        communications, and government relations.

        <bullet>  Provide some key hands-on technical support, 
        troubleshooting and research management.

        <bullet>  Serve as Trustee for employee (ACPA and chapter/
        state) 401-k plan.

Key Achievements:

        <bullet>  Successfully lead ACPA through the creation of 
        National Concrete Pavement Technology Center in 2005.

        <bullet>  Reorganized staff structure for improved service to 
        members and industry.

        <bullet>  Formulated a streamlined budgeting process.

        <bullet>  Developed first-ever ACPA employee/management review 
        process.

        <bullet>  Solidified relationships and built trust with 
        chapters and key industry partners (FHWA, EPA and State DOTs).

<bullet>  Vice President--Technical Operations/Chief Knowledge Officer, 
1999-2000

Role and responsibilities:

        <bullet>  Manage staff work programs

        <bullet>  Direct ACPA's technical information and information 
        technology programs.

Key Achievements:

        <bullet>  Worked with colleagues to develop and initiate the 
        Innovative Pavement Research Foundation.

        <bullet>  Created ACPA's first (and currently used) highway 
        market measurement process and associated quarterly report, 
        ``Pavement Market Quarterly.''

        <bullet>  Initiated ACPA's first ``Knowledge Management'' 
        program, integrating the latest computer- and network-based 
        technology to streamline and expedite the flow of information.

<bullet>  Director of Technical Services, 1988-1999

Role and Responsibilities:

        <bullet>  Assisted ACPA members and agencies with questions and 
        technical issues related to pavement construction and design 
        concerns, saving member contractors millions of dollars in 
        unnecessary removal and replacement costs.

        <bullet>  Researched, produced and published technical 
        publications and guide specifications in all segments 
        (airports, highways and streets).

        <bullet>  Prepared and presented more than 400 technical 
        presentations, white papers, and training sessions on concrete 
        pavement design, construction, and rehabilitation.

Key Achievements:

        <bullet>  Developed relationships with State DOT, FAA, FHWA and 
        industry contacts.

        <bullet>  Produced more than 35 technical publications and 
        guide specifications, most of which are still actively used in 
        the industry and among agencies.

        <bullet>  Provided technical assistance or guidance in response 
        to more than 8,000 inquiries or requests during this period.

Midwest Consulting Engineers, Inc., 1987-1988

    Capstone: Before accepting a position with the ACPA, I served in an 
engineering position with this Chicago-based design and construction 
consulting-engineering firm. During my tenure, I worked on several 
major design and construction projects, while also providing 
administrative and technical support to colleagues, and introducing the 
company to computer spreadsheets for cost estimating and geometric 
design.

<bullet>  Staff Design Engineer, 1987-1988

Role and responsibilities:

        <bullet>  Served in key role on a team responsible for the 
        design of pavement rehabilitation strategies for Illinois 
        Department of Transportation.

        <bullet>  Provided administrative and office management support 
        to principals of the firm.

Key Achievements:

        <bullet>  Developed concrete pavement rehabilitation strategies 
        used by the firm.

        <bullet>  Designed geometrics for two major arterial roadway 
        and expressway interchange improvement projects still in 
        service in suburban Chicago.

Significant Skill Sets and Experience

        <bullet>  Personnel and fiscal management experience.

        <bullet>  Expansive range of technical knowledge in all phases 
        of pavement design, construction, rehabilitation and materials.

        <bullet>  Broad range of hands-on research and management of 
        research projects.

        <bullet>  Extensive experience in Association management 
        issues.

        <bullet>  Widely published technical author and experienced 
        speaker and presenter.

        <bullet>  Clear and concise communicator.

Education

        <bullet>  Master of Science, Civil Engineering, conferred by 
        the University of Illinois, 1986

        <bullet>  Bachelor of Science, Civil Engineering, conferred 
        (with honors) by the University of Illinois, 1985

Professional Registration

        <bullet>  Registered Professional Engineer (Civil) in the State 
        of Illinois.

    Chairman Wu. Thank you, Mr. Voigt.
    We have another vote called on the Floor, and we also have 
a request from the Minority side that we pause the testimony at 
this point so that a larger number of Members can listen to the 
witnesses and participate in the Q&A, and that is a request 
which the Chair intends to honor. So with your forbearance, we 
are going to pause the testimony for a moment and continue when 
the Members have had an opportunity to return. Thank you for 
your forbearance.
    [Recess.]
    Chairman Wu. At this point I would like to resume witness 
testimony. Dr. Poe, please proceed.

  STATEMENT OF DR. CHRISTOPHER M. POE, P.E., ASSISTANT AGENCY 
DIRECTOR; SENIOR RESEARCH ENGINEER, RESEARCH AND IMPLEMENTATION 
DIVISION-DALLAS, HOUSTON, TEXAS TRANSPORTATION INSTITUTE, TEXAS 
                     A&M UNIVERSITY SYSTEM

    Dr. Poe. Chairman Wu, Members of the Subcommittee, thank 
you very much for the opportunity to testify today.
    As you know, the Nation's transportation system has a 
substantial impact not only on our economy but on the 
environment as well. In addition to impacting air and water 
quality, it affects our energy efficiency and sustainability. 
The Texas Transportation Institute's environmental research 
encompasses air, water and soil studies as well as roadway 
landscaping and environmental management and control.
    In my written testimony, I provided examples of how TTI is 
testing new pavements that reduce water runoff, noise and air 
pollution. TTI is also studying how technologies and products 
reduce soil erosion and impacts on ecosystems. However, in the 
interest of time, I would like to focus this morning on the 
issue of traffic congestion and how it is affecting the 
environment. Some might say some congestion is a sign of growth 
and economic development but it is also a sign of waste. In 
2005 alone, we as a nation wasted 2.9 billion gallons of fuel 
in the urban areas of our country and that does not count the 
rural areas where traffic tie-ups and a number of other causes 
stress our road network.
    TTI has worked to help mitigate this problem through more 
accurate data gathering, improved reporting and developing 
Intelligent Transportation System technologies to link the 
various components of the transportation system together. We 
are also working to solve this problem through projects such as 
the Dallas area Integrated Corridor Management Project, which 
will provide State, transit and local agencies comparative 
travel data which they can then provide to the public to help 
travelers avoid congestion and select the best routes and 
modes. By using cities such as Dallas, San Antonio and Houston 
as real-time laboratories, research findings and technology 
transfer occurs instantaneously as we work with our 
counterparts from local transportation agencies and private 
industry on a daily basis.
    What is the benefit-cost ratio of decreasing congestion? 
Well, in a series of studies from 2003 to 2006, for the Texas 
Governor's Business Council, the Texas Department of 
Transportation and the Texas Metropolitan Planning 
Organization, researchers at TTI estimated that investment of 
$66 billion in efforts to eliminate congestion and improve 
mobility would generate $540 billion in savings from lower 
travel delay, reduced fuel consumption and increased business 
efficiency, an eight to one return on investment. By reducing 
stop-and-go driving, researchers estimate that Texans could 
save as much as $37 billion in fuel consumption alone, and that 
was done when gasoline was at $3 a gallon.
    What are the impediments to solving this problem? Well, the 
first is money. Sixty-six billion dollars is a lot of money. 
Secondly, at a time with increasing gas and grocery prices, we 
must effectively communicate the need, how it will be addressed 
and the resulting benefits. To communicate more effectively, we 
must first improve even further our ability to gather data, 
interpret the impacts of transportation on the environment 
today, and more importantly, how transportation improvements 
will affect the environment tomorrow. This will give us firm 
footing in terms of benchmarking progress.
    As for the solutions, there is not a one-size-fits-all 
approach that works. Decreasing congestion, emissions and fuel 
consumption will require all the stakeholders, public and 
private, federal, State and local, to come together, share 
information and work together to ensure that we as a nation can 
continue to grow our economy but do it in a way that protects 
our environment.
    TTI was established 58 years ago as the research arm of the 
State of Texas. Even from the early days, the groundwork of the 
business plan of the Institute had been established, that is to 
say that we primarily are sponsor driven. Today research 
funding comes from Federal, State and local governments or 
private industry. While this approach works well to address 
short-term and mid-term solutions, we are also fortunate that 
we have received federal funding through projects such as the 
Translink Laboratory and Research Center and the University 
Transportation Center for Mobility. These projects provide 
multi-year funding which enables researchers at the Institute 
to look at nationwide problems in the long-term. Addressing the 
impact of our nation's transportation system on the environment 
will require a comprehensive, multi-year program. Even at TTI 
with our long history and broad ranging environmental research 
program, we have had to seek solutions one project at a time. 
Without a national, comprehensive, long-range approach, our 
program will only be successful at incremental advances rather 
than providing major solutions. That is why your effort to 
advance green transportation is so important. The University 
Transportation Center, as part of that initiative, provides 
multi-year funding which is important to solving long-term 
problems. It also provides a well-established process for 
getting research into practice and training the transportation 
industry. In addition, this research program model has been 
successful in providing the research and academic community 
more input into setting the research agenda at the federal and 
State levels while ensuring continued cooperation and input of 
all the other stakeholders in our nation's transportation 
system.
    With that, I will conclude my remarks. I appreciate the 
opportunity.
    [The prepared statement of Dr. Poe follows:]
                Prepared Statement of Christopher M. Poe
    Mr. Chairman, distinguished Members of the Subcommittee, I would 
like to thank you for the opportunity to testify today. It is indeed an 
honor. I would also like to commend you all for your efforts to address 
the environmental impact of our nation's transportation infrastructure 
through H.R. 5161, the Green Transportation Infrastructure Research and 
Technology Transfer Act. I believe this legislation will help address 
many of the issues this Subcommittee is examining today, such as the 
need for improved coordination among Federal, State, and local 
governments; the private sector and university-based research 
organizations, as well as the need to shorten the time to find and 
implement solutions.
    The Texas Transportation Institute's (TTI's) environmental research 
encompasses air, water and soil studies, as well as roadway landscaping 
issues, environmental design and other aspects of the field. TTI is 
nationally recognized for its state-of-the-art testing facilities, 
experts in transportation-related environmental concerns and an 
interdisciplinary approach to environmental research.
    TTI's Environmental Management program conducts landmark 
transportation research in areas such as storm water quality and 
erosion-control materials, housing a full-scale evaluation facility. 
Research from the Air Quality Studies Program expands analytical 
approaches to transportation air quality analysis and provides results 
that help to more effectively evaluate air quality policies and 
emission reduction measures. The University Transportation Center for 
Mobility focuses on infrastructure congestion, which is a major cause 
of wasted fuel each day.
    Offices housed in several of the state's air quality non-attainment 
areas provide TTI with awareness of local concerns and targeted 
solutions. Personnel throughout the agency conduct research on wide-
ranging environmentally related topics such as public transit, urban 
planning and traffic patterns.
    We consider Green Transportation Infrastructure as the design, 
construction, operation, and maintenance of transportation 
infrastructure to mitigate air pollution, ground water contamination, 
and surface water contamination with an end result of reducing 
congestion, flooding, erosion, and impacts to ecosystems.
    First, let me summarize my key points.

        <bullet>  Green Transportation Infrastructure includes a 
        diverse group of stakeholders that must act together to fully 
        address the impact of transportation on the environment. I 
        would like to commend the Committee for its efforts to elevate 
        the topic through a University Transportation Center.

        <bullet>  Congestion problems will continue to challenge our 
        metropolitan regions in the future. Travel delays and 
        unpredictable travel times for people and freight will be a 
        problem leading to increased emissions and fuel consumption. 
        With the increase in gas prices, the impact will only become 
        more costly to the average citizen.

        <bullet>  Research is needed to quantify the benefits of green 
        transportation strategies. The transportation industry needs 
        solid evidence on the impact of technologies, strategies, and 
        materials.

        <bullet>  There are design, operational strategies, 
        technologies, materials, and construction techniques that will 
        reduce transportation's impact on the environment. Technology 
        transfer of research and best practices is needed to increase 
        implementation of green transportation.

    I would like to expand on these ideas in five key elements: the 
congestion problem, improvements in design and operations, improvements 
in pavements, improvements in construction materials, and future 
research needs and the federal role.

The Congestion Problem

    Most, if not all of you, have driven through the District during 
rush hour, so I need not point out that congestion is a major problem, 
not only in our nation's capital but in cities across the Nation. 
Technically we might use words that describe elements of problems or 
solutions like accessibility, mobility, reliability, connectivity, and 
seamless productivity. These are all useful distinctions and point to 
viable and important solutions, but the meaning of these various words 
may be lost on people and freight shippers who understand their 
congestion problem, but do not parse it in the way that experts do. 
People are concerned when it takes them longer to get where they want 
to go than they think it should. I think it is important to recognize 
this difference between what people call the problem and how we attack 
it.
    Our research suggests that no matter what you call it, we've got 
several problems. A quick summary:

        <bullet>  We waste quite a lot of time--3.7 billion hours in 85 
        cities in 2005

        <bullet>  We use more fuel than we should--2.3 billion gallons 
        in those 85 cities

        <bullet>  This has value--$63 billion in 85 cities in 2005

        <bullet>  We cannot reliably predict travel time very 
        accurately due to several factors such as crashes, vehicle 
        breakdowns, weather, special events and road work.

        <bullet>  Jobs, shops and homes are spread out for a variety of 
        understandable reasons, many of which make transportation 
        service more difficult to provide.

        <bullet>  There are fewer travel options than people say they 
        want, but many of the existing options are underutilized.

        <bullet>  We have to plan around congestion during most 
        daylight hours and on weekends.

    A 2003 study for the Texas Governor's Business Council used 
information developed by the State's metropolitan planning 
organizations and the Texas DOT to estimate the benefits of improving 
mobility. To keep the relatively high level of congestion experienced 
in major Texas cities from getting worse will require an increase in 
spending from $108 billion to $123 billion between now and 2030. The 
more desirable outcome of eliminating serious congestion will increase 
spending to $174 billion. That $66 billion increase generates $540 
billion in savings from lower travel delay, reduced fuel consumption 
and business efficiency, an eight to one return ratio. Reductions in 
fuel purchases that would result from less stop-and-go driving were 
estimated at $37 billion alone, more than half of the cost of the 
program.
    Addressing the congestion problems can provide substantial benefits 
and provide improvements in many sectors of society and the economy. 
The costs involved in eliminating serious congestion problems are large 
and the projects, programs and policies that are implemented will 
require the cooperation of the public, agencies at all levels of 
government and, in many states, the private sector as well.
    The Texas Governor's Business Council study estimated that solving 
the serious congestion problems in the State's eight largest 
metropolitan regions would generate $540 billion in economic benefits--
including $37 billion in reduced fuel consumption and $104 billion in 
travel time savings (Figure 1). The analysis estimated almost $80 
billion in business efficiencies and operating savings would result 
from lower congestion levels. More than $320 billion in construction 
benefits, which include more than 110,000 jobs that would be created, 
were also identified.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Design and Operation of Transportation Infrastructure

    Some may say congestion is a byproduct of success and economic 
development. However, accommodating the growth does not have to produce 
the same past results. Public agencies need to find new ways of 
designing and operating the transportation system to accommodate the 
growth. An example of this in the Dallas area is the Integrated 
Corridor Management project jointly funded by the U.S. DOT and Dallas 
Area Rapid Transit and in cooperation with the North Central Texas 
Council of Governments, North Texas Tollway Authority, Texas Department 
of Transportation and the cities of Dallas, Richardson, Plano Highland 
Park, and University Park. The goal of this project is to operate the 
U.S. 75 corridor in a collaborative manner among all agencies to save 
the traveler from congestion. For the first time, all agencies will 
have comparative travel data for freeways, toll roads, arterials 
streets, and transit. By knowing the fastest way to travel and sharing 
this with the public, travelers will be able to avoid congestion by 
traveling on different routes, traveling at different times, or 
traveling by transit.

Improvements in New Pavement Surfaces

    New pavement surfaces can improve safety and improve the 
environment. Porous friction courses (PFC) are special asphalt mixtures 
characterized by high air-voids content (i.e., air gaps between the 
asphalt material) as compared to the most commonly used dense-graded 
hot mix asphalt. Placed as a surface layer, the PFC mixture reduces the 
risk of hydroplaning and wet skidding, decreases splash and spray, and 
improves the visibility of pavement markings in wet weather. These 
safety benefits (as evident in Figure 2) are realized as water travels 
through the connected air voids within the pavement layer instead of 
over the surface.
    PFC also serves as a filtering mechanism for storm water runoff. 
The quality of storm water runoff monitored before and after 
installation of PFC on a highway in Austin showed a much lower 
concentration of total suspended solids and pollutants associated with 
particulate material after installation of the PFC. PFC pavements also 
provide a significant reduction in traffic noise that is readily and 
reliably measurable at the roadside and is the primary reason for their 
increasing use in Europe.
    The safety and environmental benefits associated with PFC result 
from the high-air voids in the pavement layer which allow for water and 
air to infiltrate and move through this layer. These same 
characteristics also have the potential to reduce the life of the 
pavement surface by causing oxidative aging of the asphalt binder 
(causing brittleness and stone loss in the surface) or by the action of 
water with traffic destroying the bond between the asphalt binder and 
the stone (leading to potholes) or destroying the bond of the PFC layer 
to the underlying surface (causing delamination or separation of the 
pavement material). TTI has an extensive, ongoing research effort aimed 
at optimizing the mix design and construction practices for PFC, as 
well as characterizing the properties of the asphalt binder and stone 
which are needed to guarantee the safety and environmental 
functionality without sacrificing durability.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Improvement in Pavement Construction

    Warm mix asphalt pavement technology can reduce air pollution and 
save energy. Traditional hot-mix asphalt is typically produced in 
either batch or drum mix plants at temperatures ranging from 
280<SUP>+</SUP>F to 325<SUP>+</SUP>F. It has been necessary to use 
these elevated temperatures to dry the aggregates, coat them with the 
asphalt binder, achieve the desired workability, and provide sufficient 
time to compact the HMA mat. A new technology, warm mix asphalt can 
reduce the production temperature to as low as 200<SUP>+</SUP>F. This 
reduction in both production (mixing) and paving (compaction) 
temperatures yields beneficial environmental effects:

        <bullet>  decreased fuel or energy consumption at the plant;

        <bullet>  reduced emissions and odors from plants; and

        <bullet>  improved working conditions at the paving site.

    While preliminary field trials (Figure 3) have indicated that these 
mixtures perform as well as conventional mixes, the technology is in 
its infancy and some of the laboratory tests that engineers use to 
predict performance indicate a cause for concern. The warm mix asphalt 
tends to exhibit lower strength and a propensity for moisture 
susceptibility in laboratory tests. TTI is conducting a comprehensive 
field and laboratory study to ensure that the improved benefits of warm 
mix asphalt do not cause a sacrifice in pavement performance.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Environmental Management in Construction

    When examining the impact of our surface transportation 
infrastructure on water quality, one should keep these numbers in mind:

        <bullet>  1 soil--is the number one pollutant of receiving 
        waters

        <bullet>  2 acres--the size of a stormwater runoff oil slick 
        created by a quart of motor oil

        <bullet>  3 million dollars--the largest stormwater fine ever 
        assessed by EPA was levied on Wal-Mart for runoff violations at 
        construction sites across the country

        <bullet>  4 metals--lead, mercury, iron, manganese can be found 
        in runoff

        <bullet>  5 pollution prevention benefits of vegetation--
        includes protecting soil from the impact of raindrops, slowing 
        down storm water runoff, anchoring soil in place, intercepting 
        soil before it runs off, increasing filtration rate of soil

Roadway Grasses: A Marriage of Function and Beauty

    Grass. It isn't just for mowing anymore.
    In fact, the sometimes lush and pretty patches along roadways are 
an important frontline defense in the battle to improve water quality. 
But which varieties work best? For example, which seed mix of grasses 
will stand up to brutal Texas weather and regimented mowing heights? 
And just how much grass is needed to effectively filter roadway 
stormwater runoff?
    The Texas Department of Transportation (TxDOT) sponsored a study 
conducted by the Texas Transportation Institute (TTI) studying these 
very questions.

The native alternative

    While the concept of using native seed sounds great, two things 
need to be considered in its use, however. Number one, when a 
contractor goes in and strips off the soil, gets it down to subgrade, 
pours concrete and does everything else you have to do to build a 
road--you no longer have a native environment. Number two, in their 
natural environment, native seeds are left alone and allowed to grow. 
But highway rights-of-way are mowed three or four times per year. This 
changes the development of the native vegetation.
    In a research project which concluded in August of 2005, 
researchers studied native seed species along with the standard, TxDOT-
approved seed mix. Using soil samples taken from Austin, Abilene, 
Lufkin and Corpus Christi, TTI researchers tested the different seed 
mixes at greenhouse facilities and outdoor laboratories.
    In addition, test plots were planted in Georgetown, north of 
Austin, using both commercially available native seed mixes and the 
standard TxDOT seed mix. Researchers also monitored a second set of 
test plots at TTI's Erosion Control Laboratory on the Riverside campus.
    The laboratory at TTI is a unique testing facility that helps us 
cut down on research costs and yet still conduct accurate testing. One 
section of the test plots was mowed according to TxDOT specifications 
and the typical mowing schedule. This ensured that the performance of 
the seed mixes is evaluated under the normal conditions grasses would 
encounter along roadways.
    Vegetation along roadways plays an essential role in stabilizing 
soil banks, stemming erosion and protecting habitats and waterways from 
too much sediment. Beyond beauty, this is ultimately grass' most 
important function.

Grass filters

    Most environmental researchers agree that sediment is the number 
one pollutant of receiving waters. While some techniques, like 
construction sequencing, can help minimize sediment runoff during 
construction, establishing vegetation is the single most important step 
toward protecting waterways from harmful runoff.
    Water streaming off the hard-packed surface of roads can grab 
sediment and pick up heavy metals and organic compounds (like motor 
oil), and would eventually deposit such sediment in pipes, drainage 
systems and water bodies were it not for one potent defense mechanism 
along roads: grassy filters.
    The premise of this research was to study how vegetative buffer 
strips affect runoff from highways. Preliminary findings show that the 
more grass water runs through, the cleaner it gets. Leaving vegetation 
buffer strips near roads is a good management practice.
    To study how effective grassy strips are at filtering runoff, 
researchers buried 30-foot lengths of eight-inch PVC pipe at two, four, 
and eight meters from roadway pavement edges along Hwy 6 in College 
Station, Texas, and Hwy 360 in Austin. Rainwater is collected during 
test periods and is then sent to the Lower Colorado River Authority in 
Austin for chemical analysis.
    Research into how vegetated roadside swales (shallow depressions 
that carry water mainly during rainstorms) can function to filter storm 
water runoff, reduce the need for end-of-channel water quality 
structures, and improve the overall quality of runoff from the highway 
system is important. Understanding the properties of and having good 
documentation of roadside water quality performance can potentially 
reduce the cost and size of end-of-channel water quality structures on 
the highway system. The results of this project showed that up to a 
certain distance, grass can be quite effective at trapping and 
filtering sediment.

Introducing Native Plant Life to Roadsides

    Traveling down the highway can be tedious--miles and miles of road, 
tens of thousands of lane markers and traffic signs. Sometimes the 
scenery is the only thing that keeps you awake. But the Texas 
Department of Transportation (TxDOT) sponsored a study conducted by the 
Texas Transportation Institute (TTI) to use native plants to recreate 
the visual character of the regional native landscape. Prior to this 
time, the typical approach to interchange landscape design was to 
create a park-like setting dominated by canopy trees. Maintenance 
required mowing the area at the same frequency as other sections of 
corridor.
    This project explored the use of local plants in landscaping the 
roadside rather than using a one-size-fits-all approach. This would not 
only give the roadside a `local look,' but would also facilitate the 
growth and maintenance of the landscaped area by using plant life 
native to the area.
    An interchange in Austin was used as the test case. A context-
sensitive design was used to enhance both the local community and the 
natural environment. Located in an urban area amid office buildings and 
shopping centers, the interchange presented some design challenges. 
TxDOT wanted to reduce maintenance while developing a publicly 
acceptable landscape aesthetic. The first three goals of the design 
plan were established as eliminating the need for hand maintenance 
wherever possible, especially near travel lanes, preventing erosion on 
slopes and improving the appearance and maintainability of the 
detention ponds.
    Researchers worked with various stakeholders--City of Austin Parks 
Department representatives, representatives of the Lady Bird Johnson 
Wildflower Research Center, the Texas Parks and Wildlife Department, 
and representatives of local, grassroots environmental programs--to 
finalize the site design.
    Water quality was identified as the key environmental issue since 
so much water flowed through the site. The plan called for enhancing 
the siltation function of the ponds by installing a rock filter dam and 
reducing mowing. The aesthetic goal was to recreate the visual 
character and, as much as possible, the ecological character of the 
Texas Hill Country live oak savanna.
    Aesthetically, the site today resembles some commonly seen rural 
landscapes of native plant communities. The new maintenance schedule 
reduces the frequency of mowing, which, in turn, reduces management 
costs to TxDOT and taxpayers.
    This project demonstrated that we can improve maintenance, make the 
roadside look better, reduce erosion, and improve the environment for 
native plants and wildlife, even in urban areas.

Future Research Needs and Federal Role

    The Green Transportation Infrastructure initiative is bold idea 
that will impact how surface transportation is designed, built, and 
operated. Thus, it is imperative that the industry fully understand the 
benefits of ``going Green.'' There is significant research needed to 
fully explore the impact and benefit that will result from Green 
Transportation implementation. The research must take a holistic 
approach to ensure direct benefits and secondary benefits are fully 
analyzed.
    Furthermore, once the relationships between Green Transportation 
strategies and the resultant impact are known, this information must 
get into the hands of transportation design and construction industry. 
Research is only as good as the ones implementing it. The university 
transportation center network has well established processes and 
delivery methods to disseminate and train the transportation industry.
    The research and academic community has not always had direct input 
into setting the research agenda at the federal and State level. To 
ensure that Green Transportation Infrastructure builds on successful 
past research and truly addresses gaps in research going forward it is 
imperative that the academic community has input. The University 
Transportation Centers have successfully created the environment where 
academia and industry can collaboratively set research agendas.

                    Biography for Christopher M. Poe

Professional Interests

        <bullet>  Freeway management systems

        <bullet>  Intelligent transportation systems

        <bullet>  Advanced traffic management systems

        <bullet>  Geometric design

        <bullet>  High occupancy vehicle lanes

Education

        <bullet>  Ph.D., Civil Engineering, The Pennsylvania State 
        University, University Park, Pennsylvania, 1999.

        <bullet>  M.Eng., Civil Engineering, Texas A&M University, 
        1987.

        <bullet>  B.S., Civil Engineering, Texas A&M University, 1986.

Experience

        <bullet>  Assistant Agency Director, Research and 
        Implementation Division--Dallas, Houston, Texas Transportation 
        Institute, December 2006-Present.

        <bullet>  Senior Research Engineer, Research and Implementation 
        Division--Dallas, Houston, Texas Transportation Institute, June 
        2005-Present.

        <bullet>  Senior Research Engineer, Research and Implementation 
        Division--Dallas, Houston, Texas Transportation Institute, June 
        2005-November 2006.

        <bullet>  Center Director, TransLink Research Center, Texas 
        Transportation Institute, December 1996-August 1999.

        <bullet>  Associate Research Engineer, System Monitoring 
        Program, Texas Transportation Institute, January 1996-August 
        1999.

        <bullet>  Research Assistant, Pennsylvania Transportation 
        Institute, 1993-January 1996.

        <bullet>  Assistant Research Engineer, System Operation 
        Management, Texas Transportation Institute, September 1991-
        August 1993.

        <bullet>  Engineering Research Associate, System Operation 
        Management, Texas Transportation Institute, December 1987-
        August 1991.

        <bullet>  Research Assistant, System Monitoring Program, Texas 
        Transportation Institute, September 1986-December 1987.

        <bullet>  Junior Structural Engineer, Hudson Products 
        Corporation, 1985-December 1985.

        <bullet>  Junior Structural Engineer, Raymond Kaiser Engineers, 
        1984-May 1984.

Consulting

        <bullet>  Parsons Brinkerhoff Farradyne, Dallas, Texas, October 
        2002-May 2005.

        <bullet>  Parsons Brinkerhoff Farradyne, Dallas, Texas, August 
        1999-October 2002.

Professional Registration

Registered Professional Engineer in Texas, Registration No. 70345.

Selected Publications

E.J. Seymour, J.D. Carvell, D.W. Borchardt, R.E. Brydia, C.M. Poe, M.D. 
        Bomar. Development of Guidelines for Data Access for Texas 
        Traffic Management Centers. Research Report. 0-5213-1. Texas 
        Transportation Institute, College Station, TX. May 2007.

Selected Presentations

Technologies for Managed Lanes. Presented at ITS America Annual 
        Meeting, Palm Springs, California, June 2007.

Advanced Public Transportation Through Technology. Presented at Texas 
        Transportation Summit, Irving, Texas, August 2006.

                               Discussion

    Chairman Wu. Thank you very, Dr. Poe, and at this point we 
will begin with the first round of questions, and as Chair, I 
recognize myself for five minutes.
    For the next major surface transportation reauthorization, 
which is coming up very soon, I would like to ask of each of 
the witnesses what you all think are the key research 
priorities for the Nation for surface transportation in this 
next bill, especially in the context of reducing life cycle 
energy use and promoting sustainability. Whoever is right can 
proceed, but if Mr. Brubaker, you would like to start, perhaps 
we can just sweep from my left to my right.
    Mr. Brubaker. Okay, Mr. Chairman, sounds great. I would 
suggest that, I think we have laid the ground for, as we have 
laid out our priorities for research in the Department, 
particularly in the areas of materials. We have divided up the 
research portfolio into communities of interest, one of which 
is materials, and focusing on that and ensuring that there is, 
you know, enough visibility and enough investment going into 
that particular arena, both in terms of basic research 
development, some applied research development, particularly 
focusing on the applied side and then the technology transfer 
activities, and I think that would be most helpful, as well as 
the continuation of the Intelligent Transportation System 
portfolio but to make sure that it is focused in such a way as 
you described in your opening statement.
    Chairman Wu. Thank you.
    Mr. Iwasaki.
    Mr. Iwasaki. I think that the way the research program is 
set up currently, it is a good one. The problem is, it doesn't 
have enough money, and I mentioned in my testimony that the 
Strategic Highway Research program was set up for $450 million 
and it was reduced to $150 million. There are some key 
components that are left out that we could take a look at not 
only on congestion relief but on the material side as well, and 
being able to do our jobs faster, better and for less money. So 
I think that make it performance-based however you do it but I 
think we ought to add more money to the research program 
nationwide. Percentage-wide in the transportation business, it 
is a small amount of money versus what other facets of industry 
looks at. The other thing is, those demonstration projects are 
pretty critical and we would be willing to submit any 
performance-based criteria proposal to Congress to get some of 
that money. I think California competes very well and we love 
to compete and we are very aggressive at it, and so maybe more 
deployment or demonstration projects and then couple that with 
the resources necessary to get the word out on the benefits of 
those demonstration projects.
    Dr. Bertini. Sure, for the reauthorization, there are a 
couple points that I made earlier. The first one is the data 
infrastructure, so if we want to have a transportation system 
that is sustainable and green, we need to be able to measure 
that, and so having the infrastructure for robust data 
collection and evaluation is really important. Evaluation--I 
have--we talk about one percent for art in government-funded 
buildings and projects. I sometimes talk about X percent for 
evaluation. Sometimes I say four percent if I am talking about 
a project in the city of Portland in the safety area that we 
have going. Randy mentioned this need for ongoing--you know, 
thinking of setting aside a percentage of what we do for 
evaluation and monitoring, and then I guess the idea of green 
performance measures so we talk often about reducing 
congestion, reducing delay, but I think the general public is 
not really aware of what the, let us say, sustainability 
impacts of that are, the fuel consumption, emissions, noise and 
so on.
    Mr. Voigt. Thank you. I think our industry's picture of 
what would be needed in research is probably best split into 
two major focus areas, the first being with regard to the 
material side and things we can do to further enhance the 
sustainability in use of materials within concrete 
particularly, recycling methods. There is a great ability to 
recycle concrete and use it back into the mixtures that are 
used directly in highways. There are a lot of agencies that are 
reluctant to do that in certain areas. We feel that there is a 
lot more opportunity there as well as further use, and I 
believe it was mentioned earlier in one of the remarks with 
regard to further use of fly ash and further use of slag as 
part of concrete mixtures. There are blended cements that are 
manufactured by the U.S. cement industry that are not routinely 
used in highway pavements that could be routinely used in 
highway pavements and they would have a sustainability benefit. 
So there are a number of associated materials issues that could 
be addressed. We also see the other side of looking at the 
sustainability of the use of the paving structures, and by that 
what we are getting at is, some of those things I directed in 
my comments earlier with regard to the fuel efficiency of 
vehicles on the pavements, the lighting and energy savings that 
could be derived by the reflectivity of the pavements, and 
those associated benefits in energy savings that we are not 
currently accounting for in the selection and the use of 
pavement systems. And so we see need for research and further 
development of our understanding along those areas coupled with 
a decision framework that needs to be put into place to include 
those sustainability benefits as part of the selection 
criteria, and that simply is not happening right now. It is 
purely a cost basis method of selection that is being used. So 
we see a need along those lines.
    Chairman Wu. Thank you.
    Dr. Poe.
    Dr. Poe. Two things. Let me echo Dr. Bertini's comments 
about evaluation. If we are going to challenge the industry to 
do things differently, new transportation solutions, we better 
know the impact of those and what the relationship between 
those transportation solutions are and the impact on our 
environment, and that closely ties a measure and be able to 
evaluate is highly important. The second thing is, green 
transportation is a very broad topic. It involves researchers 
and industry working all different parts, and by bringing--
currently right now they are kind of working in their areas, 
and by bringing attention to green transportation and allowing 
to come under one umbrella and getting those collaborations 
between the research environment and industry working together 
on one solution, how do we reduce the impact on our 
environment, will go a long way in reauthorization to come up 
with good solutions.
    Chairman Wu. Terrific. Thank you very much to all the 
witnesses.
    Dr. Gingrey, you are recognized for five minutes.
    Mr. Gingrey. Mr. Chairman, thank you. I was at a meeting 
early this morning, the Oversight and Investigation 
Subcommittee of the House Armed Services, of which I am a 
Member, and we were talking about making sure that people 
understand the difference in a strategic plan and how that 
leads to policy and operational activity, and so I want to ask 
a real direct, simple question of all the witnesses and start 
with Mr. Brubaker, and that is, what do you think is the single 
most important thing that the Federal Government could do to 
increase adoption of new transportation technologies from a 
strategic perspective as we go forward to set policy for the 
21st century in regard to surface transportation?
    Mr. Brubaker. I am glad you asked that question. 
Fundamentally, knowledge sharing, and it is an area of focus 
that we have put into our strategic plan but the good news 
about, you know, having it in our strategic plan is, we have 
actually made it actionable. We are actually coming up with a 
construct to share knowledge, particularly and beginning with 
the University Transportation Centers. It is very--it was very 
telling when I took over this organization that we had a lot of 
great activity going on in various University Transportation 
Centers and out in the research community generally but that 
knowledge, that research wasn't being shared amongst 
researchers who were doing work in similar areas. That is one 
aspect of it. The other aspect of it is, we would have these 
great meetings where, you know, the research community might 
get together once a year, and particularly at TRB, 
Transportation Research Board's annual meeting, and they would 
communicate with other researchers as opposed to making a 
concerted effort to share knowledge, capture that knowledge and 
be able to transfer that knowledge to the private sector or to 
not-for-profits who could actually look at commercializing some 
of these things and deploying them and develop standards that 
you could actually use for deploying these technologies and 
getting them out in the field. So that is key to us.
    Mr. Gingrey. Thank you.
    Mr. Iwasaki.
    Mr. Iwasaki. I think the best way to phrase this would be, 
in our strategic plan, we have guiding principles, and one of 
our guiding principles is innovation, and there are a lot of 
mothers and fathers of innovation when it works right. There 
are no takers when it doesn't work, and so how does the Federal 
Government help states deploy innovation? Accept some of the 
risk. Take a risk, don't make us go through these arduous 
review processes and get that technology deployed sooner 
because at the end of the day it is just costing us more money, 
so it is going to take some time, but I think on a strategic 
level, accept some more risk.
    Mr. Gingrey. Dr. Bertini, in Oregon?
    Dr. Bertini. I would say if I had to say one word, I would 
say incentives, so there are incentives built into the way 
transportation systems are developed now. People are rewarded 
by feeling proud about a big project, a big bridge. I got into 
transportation because of the Golden Gate Bridge. When I was a 
kid, I loved this bridge. But people--you know, I get excited--
Mr. Iwasaki mentioned this earlier this morning, I get excited 
when a new sensor is placed out on the roadway network, but are 
there incentives for transportation agencies to make sure that 
the underlying hidden infrastructure is as good as it can be, 
as advanced as it can be, so incentives across the board for 
the individual, let us say, people who are doing the work, for 
them to become more educated and more inspired by implementing 
advanced technology and for the agencies who are building and 
maintaining the systems as well.
    Mr. Gingrey. Mr. Voigt.
    Mr. Voigt. Thank you. I would go back to address the 
question to some of the remarks in my testimony. I think that 
most pavement decisions right now are really based on a first 
cost or a lowest cost method. That really is not necessarily 
easily linked to doing more sustainable construction unless you 
include within that decision process those benefits and 
economic impacts of the longevity and the other things that are 
associated with sustainable practices.
    Mr. Gingrey. And that--if you will permit me to interrupt, 
that is basically what I was getting at in regard to strategic 
planning, and I think you are getting to that point.
    Mr. Voigt. Yeah, you know, we have looked at a number of 
research studies that indicate that there is some benefits that 
simply we haven't accounted for in the methods that we are 
using in the processes we are using, so what we feel that the 
federal level could really be helpful in this regard is to 
develop a strategic framework for including those factors of 
sustainability and those benefits and features, perhaps 
creating that and deploying that within the more local 
agencies. That would be motivation, I think, and guidance 
perhaps to allow that practice to pervade across the country, 
but I think it needs to--personally, I think it needs to start 
at the federal level to provide that framework and that 
guidance to go on down.
    Mr. Gingrey. Thank you.
    Mr. Chairman, if you will permit me to allow Dr. Poe to 
respond as well? Thank you very much for your generosity.
    Dr. Poe.
    Dr. Poe. Similar to what was said, I think incentives and 
some reward for challenging the community to further pursue 
green transportation. As I was saying just earlier to Chairman 
Wu, we have researchers working on soil erosion, we have 
researchers working on pavements, we have researchers working 
on traffic congestion and traffic signals, but by calling 
attention to this and giving incentives for the states and 
universities to work on this problem brings those 
collaborations together and I think that will advance the whole 
area significantly.
    Mr. Gingrey. Thank you, Mr. Chairman. I yield back.
    Chairman Wu. Thank you, Dr. Gingrey.
    The gentlelady from California, Ms. Richardson, is 
recognized for five minutes.
    Ms. Richardson. Yes, thank you, Chairman Wu.
    First of all, a statement for all of the panelists that we 
have here. Much has been said about providing additional 
funding for research but I would like to respectfully request 
that you provide to the Committee is specifically how much do 
you think would be needed and for what specific projects. As we 
go through looking at SAFETEA-LU reauthorization and various 
appropriation changes that we can do in the upcoming year, if 
you give us specific examples of what you would like us to 
consider, I am sure the Chairman and others would welcome that 
thought.
    Mr. Iwasaki, coming from California, I apologize that I 
wasn't here to properly welcome you to the great area here of 
Washington, D.C., but California is known to be at the 
forefront and more people need to know the tremendous work that 
is done at Caltrans, so thank you for being here. My question 
for you is, has California carried out any cost-benefit 
analysis, which is leading really into the last comments that 
were made, for specific technologies and materials that you 
described in your testimony? If so, what were your findings and 
how do life cycle costs and benefits affect your decisions 
about which technologies and materials to use?
    Mr. Iwasaki. We are currently analyzing the cost-benefit 
basis for a lot of the technologies that I mentioned, the 
system-wide adaptive ramp metering, those kinds of things. We 
did an 18-month project and deployed signal synchronization 
down in the Los Angeles area as well as a SWARM project along 
the 210 which has dramatically improved the throughput through 
that corridor, and what we are doing now is, we are analyzing 
the benefit-cost information then to pass onto other regions 
for that technology. We have done some benefit-cost analysis on 
some of the demand management strategies like freeway service 
patrol. In some cases where you have a highly congested 
corridor, it is 22 to one and it is better than any new freeway 
STIP project that you could ever achieve but it is not really 
sexy. It a freeway service patrol. But as far as getting people 
on the move, it is a very, very effective tool. I think some of 
the things in the future, what we are trying to do is, we are 
trying to on our corridor mobility improvement account, the 
$19.925 billion bond, the $4.5 billion worth of projects, on 
those we are doing before-and-after studies to see how 
effective the change was that we made.
    As far as materials are concerned, we don't do a lot of 
benefit-cost analysis on our material-type selection. We do it 
based on, we design to a certain life so if we want a 20-plus-
year pavement, generally we go to Portland cement concrete. If 
we do a rehabilitation project, we will do an asphalt concrete. 
And so in those cases, we are driven by past practices.
    Ms. Richardson. And some of the other Members spoke about 
the fact that when you are responding to bids, it is typically 
on an initial cost perspective. So you find that your states 
are being more supportive of looking at the more lifetime, 
lifespan cost and making sure that they are really evaluating 
the cost of the project effectively?
    Mr. Iwasaki. Well, absolutely. If you look at the rapid 
rehab project that we did at Devora on I-15 heading to Las 
Vegas, it was done in about 17 days. It cost a lot more money 
initially but it put the utility back in the hands of the 
public. I say you are going to take your castor oil over an 
eight-month period or are you going to do it over a 17-day 
period. Most people would rather do it on a short-term basis. 
Currently, we are rehabilitating the boat section in 
Sacramento. We did each direction in 10 days, and we used a 
new, fast-setting concrete mix designed there so it would limit 
the amount of shrinkage and those kind of things, and that 
project is going to last another 50 years, but we had to take 
traffic off of it and so it cost us more money up front but the 
benefits far outweigh the initial costs.
    Ms. Richardson. Okay. And Mr. Voigt, a couple questions for 
you. You note in your testimony that many State transportation 
departments do not consider life cycle costs when making 
decisions regarding transportation infrastructure. How does the 
concrete industry determine life cycle costs, especially when 
multiple variable factors, such as the cost of fuel, come into 
play? What research is needed to better understand the life 
cycle costs of transportation infrastructure?
    Mr. Voigt. Let me clarify that where the states are not 
using in many cases--I have to be a little careful with making 
judgments across many states because the practices vary so 
widely but in general, where we see less decisions being based 
on a life cycle basis is on the maintenance and the 
preservation end of the system, and so that is an area where we 
feel there could be more done, but going back to linking the 
usage end, this is the key piece to us, the usage end of the 
roadways, there are many sustainability benefits and/or 
disadvantages, depending on what you are looking at for your 
project, that are simply not accounted for in the process and 
we feel that again if we begin to account for those, then that 
will in and of itself incent the use of more sustainable 
practices. It would be simply looking at it maybe from a local 
government perspective of saying we are paying so much energy 
for lighting costs, but if we use this pavement selection, we 
would reduce that cost on this side of our budget while we may 
have to pay a little bit more up front on this side of our 
budget, but in the long run, it will take down the entire 
budget of the agency. It is a matter of looking just simply not 
at the paving materials end, the projects themselves, but 
looking across the perspective.
    Ms. Richardson. Thank you, Mr. Chairman. I yield back.
    Chairman Wu. Thank you.
    The gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Mr. Brubaker, what is the total annual budget of the 
federal Department of Transportation?
    Mr. Brubaker. That is a good question. It is in the high 
60s. I will get you an exact number for the record but it is in 
the high 60s.
    Mr. Ehlers. Okay. Now, that includes what? Is that 
everything? That includes the FAA as well as the highways, et 
cetera?
    Mr. Brubaker. No, I don't think--I think--my staff informs 
me that that is the total budget.
    Mr. Ehlers. How much did you say, 80?
    Mr. Brubaker. No, close to--it is in the high 60s.
    Mr. Ehlers. Okay. And what is the budget of RITA, your 
little niche there?
    Mr. Brubaker. Well, that is a great question. The 
appropriated budget for operations is in the neighborhood of 
$12 million but that doesn't include fee-for-service 
organizations such as the Transportation Safety Institute which 
adds probably another $20 million in revenue plus an 
additional--and I will get you the exact numbers for the 
record--plus the Volpe National Transportation Center, which is 
a fee-for-service organization that adds another $160 million 
or so to the operation.
    Mr. Ehlers. Where does that money for that come from?
    Mr. Brubaker. That comes from customers on a fee-for-
service type----
    Mr. Ehlers. And who are the customers primarily?
    Mr. Brubaker. The customers are primarily the 
transportation modes within DOT. It is a fee-for-service-type 
arrangement.
    Mr. Ehlers. Okay. The reason I am asking these questions, 
do you know any private sector company with an annual budget of 
$70 billion which would have a research budget somewhere in the 
low millions?
    Mr. Brubaker. No, sir, I do not.
    Mr. Ehlers. And I suppose you understand there is a reason 
why they spend more than that.
    Mr. Brubaker. Yes, sir, I do.
    Mr. Ehlers. Because they want to stay in business, right?
    Mr. Brubaker. Yes, sir.
    Mr. Ehlers. And you can't stay in business, you can't do a 
job without the research money. The reason I am asking this is, 
we have to publicize the fact that the government is being very 
stupid in this, and I have to implicate the Congress in that as 
well. The private sector has learned that if you want to stay 
alive, you have to do the research. This committee has the 
responsibility for the research direction and funding and yet 
we are advisory in a sense to the Transportation Committee. 
When we went through the last go-round and Mr. Wu, our roles 
were reversed then but as you recall, we worked together very 
hard to improve the amount of funding going for research in the 
transportation department, particularly in RITA, and it got 
knocked down by the House Transportation Committee, got knocked 
down every more by the Senate Transportation Committee, and 
what we had submitted was not nearly as much as you should 
have. You can demonstrate that research money saves money in 
construction, no question about it, and yet we are not doing 
it. We are throwing away a lot of taxpayers' money in the name 
of getting projects done without researching the best way to do 
it, and I think we simply have to publicize this so that the 
next go-round, we can give you the kind of funding you need, 
and I am not saying you are not doing a good job. I think you 
are doing a great job with the small amount of research funding 
that you have, but it is just unconscionable to me. It is not 
just because I am a physicist and a researcher, but any 
businessperson looking at this would say good grief, if we can 
do enough research to add just an extra year to the life of the 
concrete we are laying this year, how much do we save? Well, 
obviously you would save enough to pay for the research many 
times over. Similarly, the different types of concrete, as Mr. 
Voigt mentioned, and all the research that is being done there, 
and similarly for asphalt. We are being penny-wise and pound-
foolish. Now, this is pretty much the end of my sermon, and I 
know, I am preaching to the choir when I talk to you or to this 
group, but we really have to make that impact on the 
Transportation Committee on the next go-round. Mr. Brubaker.
    Mr. Brubaker. I would like to make a couple of clarifying 
points just so we understand what we are talking about here. 
The numbers I was giving you or I gave you are the operational 
numbers of RITA, and staff reminded me that there is an 
additional $27 million going for the Bureau of Transportation 
statistics, which is the data side of the house. But just to be 
clear, I want everybody to understand that the total research 
budget of the Department is almost $1.2 billion, so there is 
sufficient--we can talk about sufficient--what I want to make 
sure of is that we understand that the total research budget 
dollars that are allocated for research-related activities in 
the Department of Transportation amount to about $1.2 billion a 
year. Now, getting to your question, I don't know any similar 
ratio in a technology-intensive private sector firm that would 
even equate to that, so your point is still well taken.
    Mr. Ehlers. And I am not criticizing your department or 
your operation in any way. I want to make that clear. That is 
not the reason for the questions. The reason is simply to say 
we have to do better than that, and if we are really talking 
about running government efficiently, then we have to design 
projects efficiently and you have to build them efficiently, 
and I am convinced that we could add a considerable amount to 
RITA's budget and have it pay for itself by doing the research 
properly and building bridges and highways properly and so 
forth. So this is just a plea to you to help us in our battles 
with the Congress next time around to make sure you get the 
funding that you need and that will really pay for itself. I 
think the states will all agree with that too, and I know 
states, individual states spend money on research too. When I 
was in the Michigan legislature, I helped get some funding for 
research at one of the universities.
    But putting it all together, we are just not doing it as 
well and as efficiently as we could, and so let us all join 
this battle together next go-round and make sure we start off 
from the blocks running and make a very strong case. Thank you, 
Mr. Chairman.
    Chairman Wu. Thank you, Dr. Ehlers.
    Mr. Brubaker, when Dr. Ehlers is trying to push research 
money your way, my recommendation is to just accept is 
graciously, especially when you take into account the building 
dollars that come in from city sources, county sources, State 
sources, and what I would guess would be proportionately 
smaller research budgets at those levels. I am going to try to 
squeeze in two quick questions.
    Mr. Ehlers. Mr. Chairman, may I just add one comment?
    Chairman Wu. Of course.
    Mr. Ehlers. I am sure that you are aware that if we do 
increase the research budget, that a good share of it gets 
shoveled off to Dr. Bertini's institute and other institutes in 
Oregon.
    Chairman Wu. That thought had not occurred to me but I am 
glad you point that out. Metrics--we have had some sort of 
cursory discussion of metrics but how do you measure lifetime 
environmental impact or energy costs or other costs, what 
methods exist, what are the metrics that are being used? To the 
extent that any of you all can expand on the discussion that we 
have already had, I would greatly appreciate that. And if we do 
this quickly, then I will try to rush on to a second question.
    Mr. Voigt. I can respond to that to some degree. The 
National Research Council of Canada has done work in looking at 
the life cycle of paving systems. That includes all of the 
energy and the embodied energy in the materials that are used 
as well as the energy used to place the pavements, to recycle 
the pavements or to--I should say to rehabilitate the pavements 
over many cycles. They did a 50-year analysis. That was 
information that we had. It is cited in my written testimony. 
And I think a similar thing would be very helpful here. Now, 
the one thing the Canadian study did not include was the 
operational fuel issues but that could I think also be 
included, linked up with some research on the fuel efficiency 
issues. So there is some work that has been done. It needs to 
be expanded but I think it would be greatly helpful to making 
this connection and this framework that we need to really put 
those sustainability issues into practice.
    Chairman Wu. Thank you.
    Dr. Bertini.
    Dr. Bertini. In my testimony, I talk about standard metrics 
that are used and I think we know how to estimate the 
emissions, let us say, costs of different alternatives and 
different projects or products. We know how to estimate the 
noise impacts, fuel consumption impacts. One of the problems is 
that these impacts accrue to different people in different ways 
so in the case of a project that Caltrans wants to build, their 
capital budget has to pay for additional capital costs of the 
17-day project versus the eight-month project. The benefits, if 
I save time or if I live near there and I breathe fewer 
particulates, there isn't some slot machine where coins are 
coming out and going into my pocket. Those are costs that are 
spread out and not accounted for anywhere, even though they are 
a benefit to society, so I think a lot of the, let us say, 
green and sustainable benefits of projects are not ones that 
show up in a capital budget, they are ones that show up over a 
much longer term in people's health, in the health of our 
economy and so on. So I think incentives and rewards for 
finding ways to include those slightly more intangible benefits 
are really important. There was seminal work done at the 
University of California-Davis. I should say I am a product of 
the UTC at UC-Berkeley so the UTC program is, you know, 
creating generations of transportation researchers and, in my 
case, UTC directors. But at UC-Davis, Mark Delukey has done a 
lot of work, it would probably fill this table, with trying to 
quantify the full cost of transportation on society in some of 
these unquantified ways so a lot of that has already been 
established. It is just a question of how to account for it.
    Chairman Wu. A lot of these methods exist. Some need to be 
disseminated, and then to the extent that others are missing, I 
am particularly interested in that, particularly with respect 
to new materials or methods. Does anyone else want to--Dr. Poe?
    Dr. Poe. Just on congestion specifically, one of the 
things--we spent a lot of time trying to relate to the public 
and media, how do you convey this congestion. Travel time is 
very well understood. How much time does it take you to get 
from where you are starting your trip to your destination and 
how much time you actually spend in congestion. The public 
measures this on a daily basis. But the other thing that is 
gaining increased importance is reliability, and reliability 
is, how much extra time do you have to plan for to make it to 
your trip on time, and people really understand that, and so 
trying to come down to this hearing itself, how much extra time 
did you have to budget in your day and your trip to make it. It 
plays very well and the public understands that and they are 
paying the price right now with congestion.
    Chairman Wu. Anyone else? Mr. Iwasaki.
    Mr. Iwasaki. I will just add this. Through the bond 
initiative, we are looking at how green our projects are, and 
it is project-specific. The problem is, we don't have data for 
every project and so we are having to go put detection systems 
in to gather the information to correlate the reduction in 
carbon, for example, and so, that is the other piece is that we 
need data. We need a reliable, good source of data then to make 
the calculations and that is not everywhere in the United 
States and so we need to kind of keep that in mind when we do 
these things. It is not a model. You have to get down specifics 
of a project and the benefits and that is what is harder to do, 
and we worked very closely with one of the UTCs, UC-Davis, on 
the sustainability issue.
    Chairman Wu. Thank you very much. Since I seem to be the 
lone person standing, I choose to recognize myself for an 
additional five minutes. What has happened in the course of 
this hearing is one graphic illustration of what you plan for 
and then sort of the dispersion of time that can occur. My 
flight might leave from Dulles at 6:15 and if everything goes 
right, I could leave the Hill at 5:00, but that would be very 
unwise. I try to leave at 3:00, and if everything goes right, I 
am at the gate at 3:45, but if things go wrong, and that 
happens about 40 percent of the time, yeah, that time gets 
taken down and I have to plan for that no matter what, and I 
think the general public gets that very, very well, and I just 
want to work with you so that we can all get a little bit more 
certainty on our planning. We can enhance our research budgets 
where we need them to be on the transportation side.
    I wanted to ask a pretty general question about workforce 
training. Until I got more familiar with some of your work, I 
was quite frankly a user of the end product or service but not 
well aware of you all's work, and I am sure that there is not 
only a huge workforce in building the transportation networks 
but there is significant issues in workforce training on the 
research side and on the implementation side, and if you could 
try to address some of those workforce issues, whether it is at 
the research end or at the far end of actually getting things 
built and everything in between about removing barriers to 
better transportation system.
    Mr. Brubaker. Just on the research side, if I may, and this 
is a dangerous thing to say sitting at a table with a whole 
bunch of civil engineers, but, you know----
    Chairman Wu. And they are civil.
    Mr. Brubaker. And they are civil, with an emphasis on the 
civil. The point you were asking or the question that you were 
asking before about data, I think it illustrates what I am 
about to say. We really have to have a better understanding of 
the holistic performance of the supply chain, of passenger 
movement, of system performance generally speaking and then 
understand and mitigate whatever impacts that construction 
projects may have on system performance, disruptions, manmade 
or natural, have on that system performance. In order to best 
do that, it is really imperative, and particularly when this 
comes to planning as well, that we had taken an 
interdisciplinary approach to the research, that we bring not 
just civil engineers to the table but we bring economists, 
business people, you know, social scientists, behaviorists so 
that we have this holistic understanding of system performance 
and disruptions to the system and what that may mean for the 
economy and how people respond and react as well as getting 
into the material side of sustainability issues but also the 
business side of it. For example, when Mr. Iwasaki was 
describing, you know, the 17-day project and the reason why 
they do that, it is because they recognize that there is an 
economic cost to that disruption that has to go into that 
equation when they determine what is the best course of action 
for the public. So that is what I would say in terms of 
workforce, to ensure that we are training researchers and 
opening our aperture, if you will, to embrace folks from 
multiple disciplines and not just the civil engineering 
community anymore, not that they are not important and critical 
to this but it needs to go beyond that.
    Chairman Wu. Mr. Iwasaki.
    Mr. Iwasaki. About 50 percent of the managers in California 
State government are eligible for retirement over the next five 
to seven years. That includes Caltrans, and that really 
concerns us. Of course, that is not me. I am too young for that 
yet. But ultimately I will retire and so somebody has to 
replace us and so that was a focus. So, with this influx of new 
money from our bond initiative, we created what we call ICE. It 
is Industry Capacity Expansion. So we need more aggregate 
because we are going to build more. We need more people to go 
to the trades. How do we go out to the grammar schools, the 
grade schools and get people energized about going into trades, 
to be finishers, concrete finishers, to drive trucks. And then 
how do we work with the UTCs to generate the next generation, 
like Dr. Rob here, he is a product of the UTC system so he is--
because you fund UTCs, he is a product. Now he is a leader. He 
is one of the directors of a UTC. It is a great process. But 
how do we get these people energized into going into civil 
engineering rather than becoming the next owner of Google or 
something else because that is really what our video games and 
those kinds of things. And so we are trying to energize the 
young people, and also we have the Garrett Morgan symposium 
where we adopt high schools. Caltrans has--we try to adopt 12 
different high schools in California and talk about science and 
mathematics and get them interested in not only engineering but 
the trades as well. And so we recognize the problem. How do we 
rebuild America? How do we rebuild America smart and use 
existing labor? We can't. We need more people. And so we are 
trying to do that through various tools.
    Chairman Wu. Dr. Poe, did you have something? Dr. Bertini.
    Dr. Bertini. Going in order. It is safe to say that we have 
a workforce crisis in the transportation field and many of us 
are working hard to respond to that, and the technology 
transportation and education mission of the UTC program in 
addition to research is critical to that, and it is exciting to 
me in our UTC that I believe have about 12 different 
disciplines working on projects, working together. I am a civil 
engineer but my colleagues from statistics and computer 
science, urban planning, geography, psychology and landscape 
architecture and more are working together, sitting around the 
table working to solve problems, and that extends to students, 
so you visited our Intelligent Transportation Systems lab and 
we have students there from not only civil engineering but 
urban planning, statistics and computer science, and they are 
working together on projects and learning to communicate in 
each other's language, which I think is part of this issue. 
Communication from the various disciplines is a little bit 
different. So I think the workforce crisis can be solved. There 
are some easy things in my written testimony that I talk about, 
so part of it has to do with funding. The other part has to do 
with some policies that could be easily changed with regard to 
out-of-state travel, so if a staff member of a transportation 
agency in Oregon wants to come to Washington, D.C., for the 
Transportation Research Board annual meeting, perhaps they work 
on their own time on a paper that gets accepted for 
presentation but the agency policies won't allow them to leave 
the state, won't even allow them to spend the night in 
Washington State. So I think thinking about the fact that we 
want to retain the top talent that we have and giving them 
opportunities to share knowledge about their projects and learn 
about other projects in other states, I think is a very small 
price to pay and those policies could be easily changed.
    Mr. Voigt. I represent a lot of companies that have 
laborers and it is a challenge to get practices, you know, and 
get those folks to the point where they are able to apply the 
technology. What we started in 2006 really was the National 
Concrete Pavement Technology Center. It is centered at Iowa 
State University, and we took a different approach with that, 
somewhat based on a frustration level on how long it takes for 
new technology to come into practice, and we hear different 
people say, you know, different things, and our estimation is, 
it is somewhere between 10 and 15 years in the transportation 
area for new technologies to really pervade practice, and that 
is just not good enough, and so we put a technology center 
together and the idea behind that was collaborative research, 
and we feel when we involve the industry with the states and 
the Federal Highway Administration Together, creating the 
technology and doing the research, that the acceptance to put 
into practice should be shortened and we are starting to see 
some fruits from that. So I think as we look forward to, you 
know, new technologies and sustainability and energy 
efficiencies and many of things we have talked about this 
morning, we have got to also factor in that working together is 
the way to get that into practice faster and we have really 
looked at it that way in the way we are approaching all of our 
research and technology areas. The last thing I would say is, 
in our industry, we are just now starting to use technology, 
putting technology on our sides, webinars and those types of 
things as just additional ways to get the information into the 
hands of the people that need to do it. For many of the 
challenges that we see out there from our traditional 
education, people can't travel across State lines. You can't do 
regional seminars. We have to find other ways to get the 
information into their hands.
    Chairman Wu. Mr. Voigt, you talked about the program at 
Iowa State that your organization was setting up. I have seen 
Dr. Bertini's transportation research center. Is there a role 
at a--is there a role for our community colleges apart from 
research in this human training need?
    Mr. Voigt. I would think yes. I would think that there 
could be very interesting benefits to that and some programs 
that could be created at that level. At a time in a young 
person's life when they are still maybe looking at what it is 
they want to do, that could inspire them, and we are, I don't 
think, doing a lot in that area that I am aware of across the 
industry, the transportation industry. I think that sounds like 
an interesting idea.
    Chairman Wu. Dr. Poe, anything to add, or do we have 
further comment?
    Mr. Iwasaki. I just want to really quickly add, at the 
community college, we actually work with a community college to 
help train equipment operations in the Stockton area so we have 
a joint program with the community colleges there. We also have 
a program with the community colleges to help sign up DBE 
participants. They explain how to fill out the forms and those 
kinds of things and so that helps us get more DBEs under 
federally funded contracts.
    Dr. Poe. Just real quickly, I will just say that when you 
invest in research, the workforce training is a byproduct of 
that. You not only invest in the researcher doing the work but 
the students that are helping the researcher do the work and it 
helps broaden the workforce. We have added a technology 
transfer component on researcher proposing projects. They have 
to get funded. They have to show a path that they are going to 
take technology transfer training, so we don't even fund 
projects through out UTC now that don't have that built into 
the whole project from the start.
    Chairman Wu. With respect to intelligent highway systems, 
is there an inter-operability or compatibility issue? And I am 
asking this question because in other context, for example, in 
first responders, we have significant inter-operability 
compatibility issues. Is there a parallel issue in intelligent 
highway systems?
    Mr. Brubaker. I think it is fair to say that there is a 
concern but it has been somewhat obviated by the fact that we 
have got an intelligent transportation system architecture that 
we have more or less prescribed. We have laid it out there for 
people to build to so we have got an architecture that 
establishes certain communication standards, certain 
communication protocols to ensure inter-operability for that 
very specific reason. And we are in the process right now of 
refocusing, re-energizing that architecture, particularly at 
the communications layer to ensure inter-operability in the 
future. So it is a significant concern, particularly when you 
have got new communications capabilities that are coming on 
line that we haven't really dealt with before like wireless 
communications and wi-fi and wi-max and some use of cellular 
and radio spectrum that we are interested in exploiting to 
enable future intelligent transportation systems applications. 
So it is an issue but I think we are working hard to make sure 
that it doesn't overwhelm us and that we can ensure inter-
operability.
    Chairman Wu. Okay. I have many other questions that I will 
either submit in writing or just keep to myself until some 
future date when we meet in a far, far better world where the 
premium of time is a lot less, but I do want to ask one further 
question of the panel and particularly Dr. Bertini. Sometimes I 
am a quick adopter of technology. Most frequently I am a late 
adopter because I want to make sure it works. The one thing 
that would drive me to have one of those little display screens 
on my dash that shows a map of the street grid, I have seen it 
in your laboratory, the current traffic status from red to 
yellow--I am sorry--from green to yellow to red, I believe. 
There is this horribly slow way of getting traffic news through 
the radio, and I frequently wondered why does this late-model 
car not have a little pop-up so that I can access not only the 
map, the static map but I can access the current flow 
information on the highway grid. Does that exist and I am just 
not using it? Go ahead, whoever wants to take that.
    Mr. Iwasaki. In California we have predicted travel times 
so we have the algorithm set up to give you on changeable 
message signs from, let us say, Navado to SFO so that you as a 
traveler, if you take that often, you are going to----
    Chairman Wu. No, I have seen those and I really appreciate 
that. I am just wondering if----
    Mr. Iwasaki. In the next generation of--we just recently 
were the recipient of a Safe Trip 21 grant, actually the only 
one so far at Caltrans. We got it at Caltrans. It is a $12 
million proposal, a public-private partnership where we are 
going to use the next generation of cell phones, which are GPS 
enabled which will give you data from all over the arterials. 
So, the plan is to send thousands of these phones out in the 
Bay area, San Francisco Bay area, and then get information on 
travel times on the local arterials as well as the freeways so 
you will be able to plug into your dash a nav unit that says 
shortest trip, shortest time trip and that is what you are 
really looking for, right? I mean, you are looking for the 
ability to maneuver----
    Chairman Wu. Will I have to get new hardware in order to do 
that?
    Mr. Iwasaki. Well, it depends. I mean, it depends on what 
kind of nav unit you have, but possibly, yeah, absolutely, but 
that is the next generation of nav unit, that we are taking the 
imbedded communications and we are putting it into the 
consumers' hands and then using those as probes.
    Mr. Brubaker. Just--I am not sure if everybody on the panel 
is aware of it but that capability actually does exist today. 
There is really a handful of companies that produce GPS devices 
that actually provide real time--some provide real time, some 
provide probe data, some provide historic data. There is one in 
particular that actually acts as a probe in a network that you 
can use leveraging wi-fi communications. It is a company from 
California called Dash. I actually went out and bought a unit 
myself because I wanted to test it, and there are several 
hundred other folks in the area who have them and it acts as 
sort of a self-contained network so I can see where other 
people have gone before me real time and pick up on that data 
and it is integrated with this historic data that is probe data 
from vehicles, delivery vehicles, commercial vehicles and such, 
and it tells a much better picture. Now, is it perfect? No, but 
does it tell me that, you know, I have got congestion on Route 
66 when I am trying to get on the same flight probably you are 
to the West Coast to Dulles airport and that I should take an 
alternative route. Yes, it will do that. Not perfect but it is 
pretty darn good. Likewise, I was just, you know, recently 
using a, I believe it was a Garmin unit that I got from a 
rental car company that I was late getting to Logan airport and 
it told me to take an alternative route, and I don't know what 
they use for that but it was very helpful. So that technology 
exists. It is not quite perfect. What Randy is describing here 
is a--and I will change that to Mr. Iwasaki for the record.
    Mr. Iwasaki. You can call me Randy.
    Mr. Brubaker. Okay. What Randy is describing is going to 
provide a much higher level of fidelity in the data and much 
more current data as opposed to a probe from somebody that went 
down the road, you know, five minutes before I did or 10 
minutes before I did. When you have got 10,000 phones and 
eventually 100,000 phones and millions of phones out there that 
are GPS enabled and everybody is sort of acting as a probe, 
privacy protected, hopefully, I mean that is the game plan, 
making sure that we are protecting privacy here but at the same 
time getting better situational awareness. That in effect is 
the goal so that people can plan their routes better and avoid 
traffic and keep traffic moving, which is totally green.
    Mr. Iwasaki. I would invite the Committee to come to 
California and kick the tires of ITS. If you want to come down 
to the Berkeley area, we can take you out to the Richmond field 
station and show you the next generation of these types of 
technologies, ITS technologies.
    Chairman Wu. Why don't we go to the mother lode of traffic 
and try it in the Hollywood Freeway on a Friday afternoon?
    Mr. Iwasaki. We can take you down there as well, 
absolutely.
    Chairman Wu. Dr. Bertini.
    Dr. Bertini. These are great examples, and I think the 
answer to your question is, some places and some times you can 
get real-time information that is useful for you. The problem 
is, this is a big jigsaw puzzle, and I have been involved in 
this for maybe the last 13 years and have seen different 
generations of these companies with different technologies, 
different ideas. I visited other countries and kind of kicked 
the tires of different systems in Japan and Europe. We have 
done some research with BMW looking at the real-time traffic 
information system on some of the autobahns there. So if you go 
to a place that is kind of like a test bed or has data in place 
that has been validated, my concern is that what we have is not 
consistent across the country, so if you have a vehicle and you 
want to use it in Portland but you cross the Columbia River to 
Vancouver, Washington, it may not work because the sensor 
infrastructure may not be there, the communication system may 
be different. So we have got pieces, we have got demos, we have 
got examples and we have got lots of great ideas but what we 
don't have are fully deployed projects. I think we would all 
like would be something that is real time, that is available to 
everyone, that is low cost, that is proven, that you can 
customize so you are not getting information that you don't 
need or information that is old. Maybe it is even alerting you 
so you might get, you know, a message that you need to leave 
for Dulles airport now or you might get a call, a wake-up call 
in the morning and it would say take the Metro today because 
the freeway is going to be all jammed up. So the idea that each 
user can interact with the system so they are not getting 
information that is outside their purview I think is where we 
are all interested in going. We still have a ways to go.
    Chairman Wu. Perfect. Thank you very much. I just want to--
as I was listening to you and the challenges that we face, it 
is a challenge. It is an opportunity. To all of you on the 
panel, it is kind of like Dr. Goddard fooling around with 
sounding rockets in the 1920s. To the folks on this side of the 
dais, it might be like being a Congressman and having the 
Internet and being Al Gore in 1975. A small political joke, a 
very small one.
    Before we bring the hearing to a close, I want to thank all 
of our witnesses. We look forward to working together with you 
all, with Republicans and Democrats, everyone who is interested 
in helping move people the way that they want to be moved and 
particularly before the next reauthorization of the Surface 
Transportation Bill. The record will remain open for additional 
statements from Members and for questions and answers to any 
follow-up questions that the Committee or individual Members 
may ask of the witnesses. I want to thank the witnesses for 
their tremendous flexibility, tolerance and patience and also 
the attendees in the room today, and with that, the witnesses 
are excused and the hearing is now adjourned.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Paul R. Brubaker, Administrator, Research and Innovative 
        Technology Administration, U.S. Department of Transportation

Questions submitted by Chairman David Wu

Q1.  What are the primary impediments to inter-operability for 
intelligent transportation systems (ITS)? If there are technical 
challenges, what research is needed to overcome those challenges? What 
actions should the Federal Government take to promote inter-operability 
for ITS across regions?

A1. In general, the primary impediment to inter-operability is the lack 
of sufficiently mature and robust Intelligent Transportation Systems 
(ITS) standards. ITS standards are critical to all applications of ITS, 
such as ITS infrastructure, traveler information, and vehicle-based 
safety technologies. Each area has unique issues that must be 
addressed, in addition to development of standards. For example, lack 
of staff experience in successfully procuring and operating standards-
compliant systems is a particular impediment to deploying ITS 
infrastructure at the State and local level. For emerging wireless 
communications for vehicle-based safety, impediments include resolving 
diverse interests and standards requirements of the broad range of 
stakeholders, from traditional ITS equipment manufacturers and 
customers to the vehicle and communications equipment industries.
    These technical challenges require research to develop sufficiently 
robust standards and associated procedures and tools to test 
conformity; a time-consuming process due to the complex nature of ITS 
technologies. The U.S. DOT ITS program provides technical and financial 
support to facilitate standards development, create test procedures, 
and evaluate test results to facilitate the broad adoption of inter-
operable ITS technologies by State and local governments, transit 
agencies and others. For emerging wireless communications technologies, 
challenges include developing standards concurrently with a rapidly-
advancing state of the technological art and cooperating with both 
vehicle and traditional ITS equipment manufacturers and customers to 
agree on standards that meet their respective needs. The vehicle 
industry is a global one; the most cost-effective standards would meet 
international as well as U.S. market requirements. Developing standards 
is complicated by the diversity of worldwide ITS standards and 
practices.
    The Federal Government maintains a strong role in promoting inter-
operability. Facilitating inter-operability of ITS technologies remains 
a primary focus of the DOT's ITS program for traditional ITS hardware 
and software, as well as for the emerging vehicle to infrastructure and 
to vehicle communications technologies. DOT's primary roles include 
expediting development of standards, enabling testing, providing 
education and technical assistance on the use of standards, and 
facilitating easy access to information about standards. In accordance 
with legislative direction, DOT developed the National ITS Architecture 
and mandated that project architectures be developed that comply with 
the National ITS Architecture. DOT provides technical and financial 
support to develop ITS standards to define architecture interfaces.

Q2.  How do energy efficiency and sustainability fit within RITA's 
priorities? Do you anticipate any changes in the amount of support for 
projects related to energy efficiency and sustainability? What 
percentage of university transportation centers (UTCs) have as 
increased energy efficiency or sustainability as one of their research 
goals? Should energy efficiency and sustainability goals be integrated 
into the R&D at all the UTCs?

A2. Energy efficiency and sustainability research supports DOT's 
``environmental stewardship'' strategic goal, and the DOT research 
strategy that addresses ``environmental sustainability.'' Within RITA, 
the Hydrogen Fuels R&D Program and some of the work of the University 
Transportation Centers (UTCs) address these priorities. Thirteen of the 
UTCs (22 percent) have energy efficiency as primary research themes, 
and 11 centers (18 percent) have environmental sustainability as 
primary research themes. We anticipate minimal changes to this support 
in the near-term, pending the results of the next surface authorization 
act.
    Energy efficiency and sustainability goals should be integrated 
into the R&D at all the UTCs, but only to the extent practicable. Due 
to the differing research and technology strengths and thematic goals 
of the individual UTCs, the extent of integration of energy and 
environmental aspects will vary considerably. All UTCs already have 
energy efficiency and environmental sustainability issues integrated 
into their curricula.

Questions submitted by Representative Phil Gingrey

DOT Views and Priorities

Q1.  What are the priority research areas for the Research and 
Innovative Technology Administration? How do you plan to transfer 
successful research projects to State DOTs and industry where they can 
be implemented? Additionally, do the statutes governing departmental 
and university research programs at RITA currently allow you to 
effectively manage the Federal Government's research investments? If 
not, do you have suggestions for potential improvements? Finally, does 
the funding for current projects within the Department and University 
Transportation Centers accurately reflect the Administration's research 
priorities?

A1. RITA's priority research areas mirror the Secretary's RD&T focus 
areas:

        <bullet>  Enhance System Performance;

        <bullet>  Reduce Congestion;

        <bullet>  Improve Safety;

        <bullet>  Address Climate Change and Environmental Linkages to 
        Quality of Life;

        <bullet>  Maintain Infrastructure Integrity;

        <bullet>  Meet Freight Logistics and Global Challenges; and

        <bullet>  Assess Policy and System Financing Alternatives.

    To a lesser degree, DOT's priority research areas reflect the 
Administration's Research and Development (R&D) Priorities:

        <bullet>  Homeland Security and National Defense;

        <bullet>  Energy and Climate Change Technology;

        <bullet>  Advanced Networking and Information Technology;

        <bullet>  National Nanotechnology Initiative;

        <bullet>  Understanding Complex Biological Systems;

        <bullet>  Environment;

        <bullet>  Next Generation Air Transportation System;

        <bullet>  Federal Scientific Collections; and

        <bullet>  Science of Science Policy.

    There cannot be a direct correlation with the Administration's R&D 
Priorities, because the Priorities do not include all of DOT's mandated 
missions in safety, reduced congestion, global connectivity, 
environmental stewardship and security, preparedness and response. 
However, through the DOT research coordination process, RITA and the 
other Operating Administrations are engaged to some degree in all of 
the Priorities. Flexibility to shift funding to the Administration's 
R&D Priorities is limited by legislative designations for specific 
research and technology programs and projects.
    Planning for research and technology implementation is a priority 
for all Operating Administrations, with research partnerships including 
likely State and local or industry implementers, and research plans and 
contracts requiring an implementation segment. Within RITA, each 
University Transportation Center (UTC) is required to present its 
technology transfer plan as part of its UTC Strategic Plan, which is 
reviewed by representatives of FHWA, FTA, OST, RITA and other parts of 
DOT. In those plans, each UTC addresses how it plans to transfer 
successful research projects to State DOTs and to industry.
    In each UTC's annual report to RITA, the UTC is required to specify 
how it has transferred its research results to State DOTs and industry. 
Each UTC also receives a periodic formal site visit from a RITA team 
that specifically inquires about the UTC's technology transfer 
activities and accomplishments and includes face-to-face interviews 
with representatives of the relevant State DOTs and industry regarding 
technology transfer.
    RITA has sufficient authority to coordinate, facilitate, and review 
DOT's research and development programs and activities, and to advance 
innovative technologies, as provided by the Norman Y. Mineta Research 
and Special Programs Improvement Act (``Mineta Act,'' P.L. 108-426, 
November 30, 2004).

RITA Planning and Coordination

Q2.  What led you to institute the new Research Planning and Investment 
Coordination process at RITA? How will this process, and especially the 
new Communities of Interest model, affect current University 
Transportation Centers? In your testimony you state that all projects 
will be required to have a mechanism for technology transfer and 
deployment. Will currently funded projects be reviewed for compliance?

A2. RITA is implementing the Research Planning and Investment 
Coordination process, with the full support of DOT, as a means of 
pursuing the primary goals of the research coordination program, 
including:

        <bullet>  Completing a full inventory of all DOT R&D projects;

        <bullet>  Assessing those projects for unnecessary duplication;

        <bullet>  Ensuring that all projects support an Administration 
        or Secretarial R&D Priority;

        <bullet>  Reviewing all projects to ensure that they meet the 
        goals of the R&D Investment Criteria--relevance, quality and 
        performance.

        <bullet>  Reviewing funded and planned projects for compliance 
        with the requirement for technology transfer and deployment 
        plans.

    The RPIC process builds upon the Research, Development and 
Technology (RD&T) Planning Council, Team and Process, established by 
RITA in 2005. The RPIC process will not affect current UTCs, except to 
tie in the expertise found at the UTCs into the Communities of 
Interest, building the corporate expertise of the transportation 
community. The initially-planned Communities of Interest are:

        1.  Transportation Planning and Policy Research;

        2.  Systems Performance Research;

        3.  Human Factors Research and Applications;

        4.  Transport, Logistics and Infrastructure Research;

        5.  Advanced Materials Research;

        6.  Hazardous Materials Research;

        7.  Vehicle Systems Research;

        8.  Communications, Navigation and Surveillance (CNS)/Traffic 
        Management; and

        9.  Safety Analysis and Risk Management.

Tech Transfer

Q3.  In the end, implementation of new technologies will require local 
developers and planning boards to accept and cooperate in their use. Do 
local decision-makers have access to comprehensive and comprehensible 
data on potential new technologies? Are pilot projects enough to 
demonstrate effectiveness across the wide variety of weather and built 
environments?

A3. Within RITA, the Intelligent Transportation Systems Joint Program 
Office's (ITS JPO) Electronic Document Library (EDL) provides 
historical and comprehensible information on new, innovative 
technologies for transportation. The EDL, a web-accessible collection 
of RITA's National Transportation Library (NTL), provides access to 
over 2,100 research reports, lessons learned, product evaluations, and 
articles published or sponsored by ITS JPO. On average, over 150 items 
are added to EDL annually.
    Beyond ITS technologies, the NTL cooperates with libraries and 
information providers in State and local agencies through regional 
networks. The purpose of these networks is to facilitate knowledge 
transfer, including technology information and applications reports, 
between members and across other transportation stakeholder groups. 
This outlet also provides local decision-makers with access to 
comprehensive and comprehensible data on new technologies.
    Pilot projects, and more importantly their results and lessons 
learned, provide local decision-makers with critical information for 
the research implementation and project investment planning process. 
Depending on the scope of the pilot project, results may or may not 
demonstrate effectiveness across the spectrum of environments in the 
U.S., but they do provide a level of evaluation upon which other 
research can be built or technology investment decisions made. 
Stakeholder feedback on NTL collections indicates that pilot projects, 
implementation of new technologies, and evaluation of these experiences 
are of high value to State and local decision-makers, and that more 
data and information of this type is desired. Successful practices will 
also be promulgated through various trade journals, conferences and 
technology customers.
    The most effective support to local agency technology transfer is 
FHWA's Local Technical Assistance Program (LTAP). LTAP is a network of 
transportation technology transfer centers established specifically to 
enhance local agency road management and safety. There are 51 LTAP 
Centers, one in each state and Puerto Rico, and seven regional Tribal 
Technical Assistance Centers (TTAP) that help tribal governments 
improve transportation management. The LTAP-TTAP Centers provide 
training and materials to over 12,500 local communities. In 2007, the 
LTAP and TTAP Centers provided training and technology transfer 
services to more than 115,000 people at 4,000 training sessions; 
provided information newsletters to more than 131,000 local contacts, 
and distributed 250,000 materials to local agencies. RITA's University 
Transportation Centers (UTCs) often host LTAP Centers, making the 
transition from technology to local training easier.

Workforce Training

Q4.  The U.S. DOT estimates that there are 349 thousand people employed 
in bridge, street, and highway construction. What impacts do the 
research activities discussed at the hearing have on these workers? 
Will implementation of sustainable transportation technologies require 
wide-scale training and education? If so, who is responsible for 
providing this training?

A4. We are pleased the committee recognizes the essential role of a 
well trained workforce as a key component of a viable transportation 
system. Our experience has shown that addressing this need requires 
partnership across the industry which includes the collaborative 
efforts of the private, education and public sectors. DOT, and 
especially FHWA, have sponsored numerous activities to support 
workforce partnerships, including partnering with the Transportation 
Research Board and Council of University Transportation Centers (CUTC) 
on studies and workshops, and working with the Education Subcommittee 
of the President's President's Council of Advisors on Science and 
Technology to develop a federal agenda of actions. Through 
implementation of SAFETEA-LU, we have expanded the number of 
universities focusing on transportation, and initiated new grant 
programs for attracting students to transportation careers and 
development of new transportation curriculums.
    To obtain the benefits of new research and technologies, whether 
from federal or State research, educational institutions or other parts 
of the transportation industry, joint efforts from across the 
transportation community are required for implementation. For example, 
in 2007 FHWA's National Highway Institute conducted over 700 training 
and professional development activities reaching over 19,000 people, 
and the LTAP-TTAP centers provide training to transportation employees 
at professional, journeyman and apprentice levels. We partner with 
professional associations and organizations (e.g., American Association 
of State Highway and Transportation Officials, American Public 
Transportation Association, Institute of Transportation Engineers, 
American Public Works Association, National Association of County 
Engineers) to move innovation from research to application through 
professional development and training activities. The expanding FHWA 
and FTA partnerships with RITA's UTCs goes far in addressing 
transportation's future workforce needs through education and 
professional development.

Coordination

Q5.  How can RITA and the other agencies of the Department of 
Transportation increase the coordination within the research community 
and awareness of research results in the broader community

A5. RITA, in collaboration with the other Operating Administrations, 
has made significant progress in improving coordination within the 
transportation research community, and across the broader 
transportation planning, design, construction, operations and 
maintenance enterprise. All OAs are active members of the DOT RD&T 
Planning Council and Planning Team, which has been successful in 
increasing program- and project-level coordination within the DOT 
research community. All OAs continue to develop the needed external 
partnership with State and local DOTs, universities, other research 
entities, and stakeholder organizations, to increase awareness of 
research in progress, and research results. Specifically, the existing 
relationship between RITA's National Transportation Library and the 
Transportation Research Board has increased broad community awareness 
of research results and new technologies. The development of regional 
Transportation Knowledge Networks (TKNs), bringing federal, State, 
university, association and other partners together specifically in 
collaboration for information sharing, promises significant benefits in 
dissemination and deployment of research results.

Operations & Maintenance Costs

Q6.  A recurring criticism of some sustainable transportation practices 
is the need for regular maintenance or significantly increased initial 
deployment costs. Are transportation research agencies and centers 
capable of adequately assessing life cycle costs when developing new 
technologies and processes?

A6. We believe that the University Transportation Centers (UTCs), and 
other research centers supporting DOT, State DOTs and industry have the 
capability to conduct life cycle costing in support of technology 
transfer and commercialization. Most of RITA's UTCs use life cycle 
costing as a standard practice, and offer their expertise to State DOTs 
and other implementing agencies.

Questions submitted by Representative Adrian Smith

Q1.  By how much does the total cost of construction of a mile-lane 
increase for every $1/gallon increase in fuel?

A1. The U.S. Department of Transportation does not collect information 
that allows calculation of the increase in lane-mile construction costs 
as a result of fuel price increases. RITA's Bureau of Transportation 
Statistics (BTS) could not find a reliable estimate of this impact; 
anecdotal calculations vary widely.
    FHWA provides guidance to State Departments of Transportation 
(DOT's) for use in preparing fuel price escalation clauses in highway 
construction contracts. This guidance indicates a scope of construction 
cost impacts from on-site fuel costs, but not the significant impact of 
fuel costs on materials such as asphalt and steel. The FHWA Technical 
Advisory may be found at: http://www.fhwa.dot.gov/programadmin/
contracts/ta50803.cfm. Broader discussions of recent highway 
construction cost increases and issues are available at: http://
www.fhwa.dot.gov/programadmin/contracts/price.cfm
    In addition, there is abundant anecdotal evidence of energy prices 
driving up the costs of highway construction,. Some illustrative 
examples include:

        <bullet>  Florida Department of Transportation finds that 
        leading indicators, including diesel prices, continues to put 
        upward pressure on construction prices, but competitive 
        pressures have some moderating impacts on those increases. 
        Highway Construction Leading Indicator Report, June 2008. 
        http://www.dot.state.fl.us/planning/policy/costs/indicators-
        may08.pdf

        <bullet>  Washington State Department of Transportation 
        provides a summary of market analyses of several key markets 
        from various publications, including asphalt, concrete, fuel, 
        lumber and plywood, steel, and highway material and 
        construction. WSDOT Market Analysis, June 2008. http://
        www.wsdot.wa.gov/biz/construction/CostIndex/CostIndexPdf/
        20082QMarket %20Analysis.pdf

        <bullet>  California Department of Transportation reports price 
        trends for several construction items, including roadway 
        excavation, aggregate base, asphalt concrete pavement, Portland 
        cement concrete pavement, Portland cement concrete structures, 
        bar reinforcing steel, and structural steel. Summary, Price 
        Index for Selected Construction Items, Second Quarter ending 
        June 30, 2008. http://www.dot.ca.gov/hq/esc/oe/
        contract<INF>-</INF>progress/cost-index-summary.pdf

        <bullet>  The American Road and Transportation Builders 
        Association reports on the increases in highway construction 
        materials prices. Highway Construction Producer Prices, July 
        2008. http://www.artba.org/economics<INF>-</INF>research/
        recent<INF>-</INF>statistics/
        prod<INF>-</INF>price<INF>-</INF>index/
        PPI%20July%2008%20Report.pdf

        <bullet>  The Associated General Contractors of America reports 
        on the increased costs of steel and fuel and their impacts on 
        construction costs. Construction News, April 2008. http://
        agc.org/cs/news<INF>-</INF>media/press<INF>-</INF>room/
        press<INF>-</INF>release? pressrelease.id=167

        <bullet>  The U.S. DOT Office of the Inspector General reports 
        on the extent of recent price increases in project construction 
        costs, the main drivers of those increases, whether the 
        increases are transitory or structural, and the extent of 
        regional differences. Growth in Highway Construction Costs and 
        Maintenance Costs, Report CR-2007-079, Sept. 2007. http://
        www.oig.dot.gov/StreamFile?file=/data/pdfdocs/
        Growth<INF>-</INF>in<INF>-</INF>Highway<INF>-</INF>Construction<INF>-</INF>
        and<INF>-</INF> 
        Maintenance<INF>-</INF>Costs<INF>-</INF>Final.pdf
                   Answers to Post-Hearing Questions
Responses by Randell H. Iwasaki, Chief Deputy Director, California 
        Department of Transportation

Questions submitted by Chairman David Wu

Q1.  What are the primary impediments to inter-operability for 
Intelligent Transportation Systems (ITS)? If there are technical 
challenges, what research is needed to overcome those challenges? What 
actions should the Federal Government take to promote inter-operability 
for ITS across regions?

A1. Inter-operability is seamless and efficient interconnectivity. 
Caltrans has actively participated in many of the national ITS 
standards development efforts, and it is considered a pioneer in the 
field of ITS inter-operability. Starting from the Mobility 2000 
Initiative and the early Intelligent Vehicle-Highway Systems (IVHS) 
Architecture efforts, Caltrans established the Testbed Center for 
Inter-operability (TCFI: 1992-2002), which addressed many ITS inter-
operability issues, including:

        <bullet>  Technical inter-operability, such as communication 
        inter-operability and traffic control inter-operability.

        <bullet>  Information inter-operability.

        <bullet>  Operational inter-operability, especially in the 
        areas of regional ITS.

    In response to 9/11 and other natural disaster events, better 
situational awareness and new emergency management approaches put 
``First Responders'' inter-operability at the top of most agencies' 
goals for safety and security. To this end, Caltrans has participated 
in the Department of Homeland Security (DHS) efforts to address First 
Responders' inter-operability needs for the 21 Century.

Primary Impediments:

        a.  Availability of funds to develop, implement, and ensure 
        compliance with standards and inter-operability best practices.

        b.  Weak public agency involvement in the standards testing 
        programs, especially compared with the early days of IVHS/ITS. 
        Public sector ITS practitioners are the best agents of change 
        within government.

Technical challenges:

        a.  Many ITS projects address inter-operability as an after 
        thought, and in ad-hoc way. A ``Design for Inter-operability'' 
        philosophy needs validated standards, test metrics, and 
        identified best practices, many of which don't exist today.

        b.  Developing inter-operability best practices requires 
        familiarity with the evolving standards and the system(s) in an 
        ongoing basis.

        c.  There are excessive delays between research completion and 
        dissemination of research findings/publications.

        d.  There is a lack of standards quality assurance (validation 
        and testability).

        e.  Gaps exist between research and real-world operations 
        (internal technology transfer).

Needed research:

        a.  Standards testing and validation.

        b.  Inter-operability testing of new and after-market 
        technologies.

        c.  Integration and standards compliance.

Actions needed from the Federal Government:

        a.  Increase the level of funds for State and local agencies to 
        implement and validate measures of inter-operability.

        b.  Help make research findings available to the ITS community 
        and require that lessons learned, test procedures, and metrics 
        be widely distributed and reviewed beyond the funded entities.

        c.  Facilitate the use of Web technology to accelerate the 
        dissemination and validation of current research activities.

Q2.  How do you find a balance between competing requirements for 
infrastructure such as safety, cost, and sustainability? Is there 
adequate data to provide a realistic picture of the benefits and 
disadvantages of various technologies and materials?

A2. As the owner and operator of the State Highway System, Caltrans is 
frequently challenged to find an acceptable balance between safety, 
cost, and sustainability when deploying new infrastructure. To overcome 
this challenge, we adhere to State laws, established policies, and 
specific work plans that guide our actions. Per the California State 
Legislature, Section 167 of the California Streets and Highways Code 
establishes the sequence of priorities for Caltrans as:

        1.  Stewardship of the existing State Highway System.

        2.  Improving safety.

        3.  Expanding capacity.

        4.  Reducing environmental impact.

    This legislation also identifies specific plans that we develop to 
guide us in implementing these priorities. For stewardship, we have the 
Rehabilitation Plan and the Maintenance Plan under the State Highway 
Operation and Protection Program. For safety, we follow the Strategic 
Highway Safety Plan. For capacity, we use the Regional Improvement Plan 
and the Inter-regional Improvement Plan under the State Transportation 
Improvement Program. Finally, for protecting the environment, we follow 
the guidelines under the Environmental Enhancement and Mitigation 
Program.
    Caltrans has also adopted departmental goals that are closely 
related to the priorities listed above. We consider these goals when 
making trade-offs between safety, cost, and sustainability. Here are 
the five goals for Caltrans:

        <bullet>  Safety--Provide the safest transportation system in 
        the Nation for users and workers.

        <bullet>  Mobility--Maximize transportation system performance 
        and accessibility.

        <bullet>  Delivery--Efficiently deliver quality transportation 
        projects and services.

        <bullet>  Stewardship--Preserve and enhance California's 
        resources and assets.

        <bullet>  Service--Promote quality service through an excellent 
        workforce.

    Regarding the availability of data that identifies the benefits and 
liabilities of new technologies, we typically make the pursuit of this 
information a crucial part of the research that leads to the deployment 
of new technologies. Whenever possible, we use pilot deployments to 
help capture this data, so that decision-makers can consider real-world 
experience when determining whether or not to fund full-scale 
deployment.

Q3.  What methods does California use to encourage private developers 
to follow the state's example with implementation of sustainable and 
energy efficient practices, materials and technologies? Are there 
incentives for the use of these technologies and materials?

A3. Two pieces of recent legislation, one enacted and one pending, 
provide the basis for answering these questions. Both are described in 
detail below.

Assembly Bill 32 (AB 32), Nunez. Air pollution: Greenhouse Gases: 
California Global Warming Solutions Act of 2006.

    In response to the requirements set forth in AB 32, on or before 
January 1, 2009, the state's Air Resources Board (ARB) shall prepare 
and approve a Scoping Plan for achieving the maximum technologically 
feasible and cost-effective reductions in greenhouse gas (GHG) 
emissions from sources or categories of sources of greenhouse gases by 
2020. On June 26, 2008, ARB staff presented the initial draft of the AB 
32 Scoping Plan for Board review. The AB 32 Scoping Plan contains the 
main strategies California will use to reduce the GHGs that cause 
climate change. It includes incentives for use in GHG reductions, 
including the use of ``feebates'' (which would combine a rebate program 
for low-emitting vehicles with a fee program for high-emitting 
vehicles), congestion pricing, Pay-As-You-Drive (PAYD) insurance 
programs (in which motorists could lower their insurance costs by 
driving less), and Indirect Source Rules (which are designed to address 
air pollutant emissions associated with residential and commercial 
developments through better urban design and development patterns).

Pending Legislation: Senate Bill 1754 (SB 1754), Kehoe. Energy: 
California Alternative Energy and Advanced Transportation Financing 
Authority. 2007-2008 Session.

    This bill would establish an authority to finance renewable energy 
sources. The authority would establish a renewable energy program to 
provide financial assistance to public power entities, independent 
generators, utilities, or businesses manufacturing components or 
systems, or both. Assistance would be used to generate new and 
renewable energy sources, develop clean and efficient distributed 
generation, and demonstrate the economic feasibility of new 
technologies, such as solar, photovoltaic, wind, and ultra-low emission 
equipment.
    In addition, this bill would authorize the authority to purchase 
alternative source energy or projects for sale to a specified 
participating party and to make a loan to a participating party to 
purchase alternative source energy or projects.

Questions submitted by Representative Phil Gingrey

Tech Transfer

Q1.  In the end, implementation of new technologies will require local 
developers and planning boards to accept and cooperate in their use. Do 
local decision-makers have access to comprehensive and comprehensible 
data on potential new technologies? Are pilot projects enough to 
demonstrate effectiveness across the wide variety of weather and built 
environments?

A1. Pilot projects are valuable mechanisms to evaluate technologies 
within specific parameters. However, the achieved results are specific 
to the conditions set forth in the variables of the project, and may 
not be appropriate across varying circumstances.
    Activities proposed under the AB 32 Scoping Plan both (a) create a 
need for better information to be made available as part of the local 
decision-making process, and (b) offer a new source of data that can be 
used to analyze effectiveness of new technologies in a variety of 
situations.
    Under AB 32, local governments and regional government agencies are 
seen as essential partners in achieving California's greenhouse gas 
goals. Local governments are encouraged to build on existing strategies 
and adopt best practices, such as those developed by the Institute for 
Local Government's ``California Climate Action Network,'' to achieve 
greenhouse gas reductions. They are also encouraged to develop climate 
action plans, to set 2020 targets to reduce greenhouse gas emissions, 
and to incorporate greenhouse gas reduction measures and regional 
blueprint plans into their general plans.
    As part of process, the California Air Resources Board, along with 
relevant State agencies, will work with the California Climate Action 
Registry, ICLEI-Local Governments for Sustainability, Local Government 
Commission, and the Institute for Local Government's ``California 
Climate Action Network,'' to develop measurement and tracking 
protocols, planning tools, and best practices to assist local 
governments in planning for, quantifying and reporting greenhouse gas 
emissions reductions. Using these tools, ARB encourages local 
governments to set municipal and community-wide 2020 greenhouse gas 
reduction goals and adopt measures and best practices to meet those 
goals. ARB will work with local governments to reconcile local level 
accounting with State and regional emissions tracking as the AB 32 
Scoping Plan is implemented.

Workforce Training

Q2.  The U.S. DOT estimates that there are 349 thousand people employed 
in bridge, street, and highway construction. What impacts do the 
research activities discussed at the hearing have on these workers? 
Will implementation of sustainable transportation technologies require 
wide-scale training and education? If so, who is responsible for 
providing this training?

A2. The objective of research is to find ways for these people to plan, 
design, construct, operate, and maintain the highways faster, safer, 
and with greater efficiency and sustainability. For example:

        a.  Technological advancements in automated three-dimensional 
        surveys (total station) reduce the exposure of survey workers 
        to traffic and enable three-dimensional design and GPS-guided 
        construction equipment. The result is quicker, more accurate 
        construction with fewer workers needed.

        b.  Intelligent Transportation Systems will assist motorist in 
        construction work zones and provide a safer environment.

    Implementation of sustainable transportation technologies requires 
two forms of training and education. The first is wide-scale education 
of the workforce for modern technologies such as computers, 
communications, and sustainable transportation systems. Schools (K-12), 
universities, colleges, and trade schools have the primary 
responsibility with support from industry and government. The second is 
specific training for the individual technology. Users of the 
technology have the primary responsibility for this training, with the 
assistance from manufacturers, researchers, industry organizations, and 
government.

Coordination

Q3.  How can RITA and the other agencies of the Department of 
Transportation increase the coordination within the research community 
and awareness of research results in the broader community?

A3. Caltrans is involved in a number of efforts to improve coordination 
of transportation research, including the AASHTO Research Advisory 
Committee's Coordination and Collaboration Task Group. An Authorization 
Position Paper developed by this Task Group, and adopted by AASHTO, is 
attached. We concur with the findings and recommendations presented in 
this paper. Among these are the following highlights:

        <bullet>  Transportation research coordination and 
        collaboration is needed to:

                  Transfer knowledge or technology

                  Prevent research duplication

                  Identify research gaps

                  Save time and money.

        <bullet>  Most current transportation research coordination and 
        collaboration activities are unfunded, and administered by 
        volunteers.

        <bullet>  Congress should fund coordination, collaboration, and 
        deployment of research efforts to support the transportation 
        sector, including federal, State, and local transportation 
        organizations.

        <bullet>  Funding should include support for development, 
        maintenance and marketing of a research collaboration web site.

Operations & Maintenance Costs

Q4.  A recurring criticism of some sustainable transportation practices 
is the need for regular maintenance or significantly increased initial 
deployment costs. Are transportation research agencies and centers 
capable of adequately assessing life cycle costs when developing new 
technologies and processes? Are states and localities meeting their 
current operations & maintenance requirements and do they have the 
capacity to perform more? What are the consequences of failing to 
perform this work?

A4. The cost of operating and maintaining new technologies after they 
are deployed is becoming a greater challenge as time goes on. Caltrans 
has recently begun considering life cycle costs when making the 
decision on whether or not to deploy new technologies in capital 
projects. In the past, the divisions within Caltrans that were 
planning, designing, and constructing the facilities that include new 
technologies did not always consider the needs of the divisions that 
would operate and maintain these facilities over time. Therefore, they 
were not always built with ease of operation and maintenance in mind, 
which proved to be a challenge for the divisions that inherited them. 
We've been working to improve the coordination between these two groups 
to ensure that new facilities can be sustained over their lifetime. The 
answers to your specific questions are shown below.

Capable of assessing life cycle costs?

    We are keenly aware of the need to estimate the life cycle costs of 
a new technology as part of the research that develops it, including an 
evaluation of the trade-offs associated with one that might have a 
higher initial deployment cost, but a lower life cycle cost overall. 
This estimate serves as one of the primary decision-making criteria 
when determining whether or not to deploy. The accuracy of the estimate 
varies, depending on the type of new technology. If it is primarily a 
refinement of an existing product or process, it is easier to quantify 
the life cycle costs. If it is a revolutionary new product or process, 
it is much more challenging to estimate these costs, and sometimes we 
must wait until the product or process has been implemented so that we 
have a chance to collect historical data.

Meeting current O&M requirements?

    We face a challenge here in that the funding mechanisms for 
developing and delivering capital improvements are not linked to the 
ones that fund operations and maintenance, so inventories of 
specialized equipment and facilities can increase without a 
corresponding increase in the resources necessary to operate and 
maintain them. We have made some improvements in this arena, by better 
capturing the historical operations and maintenance workload data for 
each inventory item, and then requesting additional resources through 
our budgeting process. For example, we know that historically it takes 
a certain number of hours per year for a Traffic Engineer to observe 
the operation of a signalized intersection and adjust the timing plan 
to ensure the smooth movement of traffic through the intersection. 
However, in spite of having this historical workload data to support 
requests for additional resources, we are sometimes under-resourced for 
these needs, resulting in a reduced Level-of-Service for the facility. 
In these days of budget shortfalls, it is becoming more difficult to 
sustain our existing infrastructure, let alone adding to it. We are 
sometimes limited to providing only the level of support that is 
legally required.

Consequences of failure to perform O&M?

    The biggest consequence of failure to perform operations and 
maintenance is that the new facility may not perform at an optimal 
Level-of-Service, or that it may not work at all. For example, we have 
about 2500 Vehicle Detection Stations (VDS) deployed statewide, 
primarily using inductive loop technology for vehicle sensing. These 
VDSs serve multiple purposes, from collecting traffic counts, to 
detecting incidents, to providing data for estimating travel times. 
However, at any one time, only 70-80 percent of the stations may be 
reporting valid data, due to a variety of reasons. We do not have 
enough resources to continuously maintain the stations that go down, so 
we have to prioritize the stations that need maintenance based on their 
location, and service those at the top of the list first.
    Based on this example, it is easy to see why we are concerned about 
the reliability of any new technology that we add to our system. We 
need to know that it will perform its intended function without causing 
additional effort for either operation or maintenance.
                   Answers to Post-Hearing Questions
Responses by Robert L. Bertini, P.E., Director, Oregon Transportation 
        Research and Education Consortium (OTREC); Associate Professor, 
        Portland State University

Questions submitted by Chairman David Wu

Q1.  You note in your testimony that all OTREC research projects have a 
technology transfer plan. Can you provide additional detail on how 
those plans are developed? What would you recommend to other 
researchers struggling with technology transfer?

A1. In the context of the University Transportation Center (UTC) 
program, technology transfer means making transportation research 
results available to potential users in a form that can be implemented, 
utilized or otherwise applied. Each OTREC proposal is evaluated in 
terms of the quality of its plan for research implementation. For most 
research projects there are several key ingredients that lead to 
successful technology transfer, which we recommend for anyone who is 
considering technology transfer:

        <bullet>  Incorporating an external partner (transportation 
        agency, private industry, advocacy group, etc.) into the 
        development of the project proposal. The federal match 
        requirements encourage this and help ensure that there is an 
        external advocate who is interested in the project results.

        <bullet>  Creation of a technical advisory committee who helps 
        develop and refine the work plan, monitors the project while 
        the research is conducted, helps resolve any problems and avoid 
        pitfalls, reviews project products, provides peer review of 
        final report and assists with project implementation.

        <bullet>  Each proposal must include a good literature review. 
        This helps ensure that there is no duplication of effort and 
        also reveals where other researchers are working on similar 
        problems. This can encourage collaboration and communication 
        with others who are tackling similar research topics, and can 
        aid in technology transfer through established channels.

        <bullet>  Provide travel funding for principal investigators 
        developing presentations for relevant conferences such as the 
        Transportation Research Board Annual Meeting, ITS America 
        Annual Meeting, ITS World Congress, Institute of Transportation 
        Engineers Annual Meeting, Women's Transportation Seminar, 
        American Society of Engineers, etc. These conferences also 
        provide opportunities for students to present the results of 
        their research and receive feedback.

        <bullet>  Include project details in national databases 
        including the Transportation Research Board's Research in 
        Progress (RiP) database upon project inception, and upon 
        completion the final report is submitted to the Transportation 
        Research Information Service (TRIS Online) through the Bureau 
        of Transportation Statistics' National Transportation Library.

        <bullet>  Each final report is posted on the OTREC web site 
        available for free download, and sent to Northwestern 
        University Transportation Library, Volpe National 
        Transportation Systems Center, the Institute of Transportation 
        Studies Library at the University of California at Berkeley, 
        the TRB Library and NTIS.

        <bullet>  In addition to the final report, OTREC encourages 
        publications for peer-reviewed academic journals, professional 
        publications, and conference proceedings. In addition, the 
        OTREC web site includes a project web page for each project 
        that includes the final report and links to any other 
        publications and presentations. We plan to include short video 
        presentations from each researcher describing their project and 
        its results--these videos can be submitted to YouTube for wide 
        dissemination. The OTREC newsletter features concise, easily 
        digestible articles summarizing the results and benefits of 
        each project in a way that can be read by nontechnical people 
        and decision-makers.

        <bullet>  Researchers are invited to present at the Portland 
        State University Center for Transportation Studies weekly 
        Transportation Seminar that reaches not only the local 
        transportation community but anyone who wishes to participate 
        via our live video stream or our archived seminar podcasts 
        which are available free in perpetuity.

        <bullet>  We encourage faculty to incorporate research results 
        into their course work and to consider developing new academic 
        and professional courses as new topics emerge. OTREC funds 
        development of courses and course modules, and also works with 
        other organizations to offer and sponsor conferences and 
        professional development lectures, workshops and symposia.

        <bullet>  OTREC encourages use of new and emerging media for 
        technology transfer.

        <bullet>  Close contact with university commercialization 
        officers is also crucial to efficiently move intellectual 
        property into the marketplace as relevant.

Q2.  In order for some intelligent transportation systems to be 
effective in reducing congestion and fuel waste, there need to be 
changes in driver behavior. For example, drivers must be willing to 
change their route in response to real time traffic information, or 
must be willing to slow down in response to variable speed limits. What 
steps must both researchers and policy-makers take to ensure that 
driver behavior changes in response to intelligent transportation 
systems? How can you test a given technology to determine whether it 
works in an imperfect, real-world situation?

A2. Over the last 20 years, experience in the U.S. and abroad has shown 
that customers will adopt intelligent transportation systems (ITS) 
technologies and change behavior if there are clear benefits for doing 
so. These benefits may manifest themselves in the form of reduced 
travel time (coupled with reduced fuel consumption, greenhouse gas 
emissions and energy use and improved safety), improved travel 
reliability or information that increases user confidence in the 
overall transportation system. The best example is the wide adoption of 
electronic toll collection technology. Users are willing to adopt the 
technology knowing that they will not have to stop to pay a toll at a 
toll booth, nor will they have to fumble for change or open their 
window during inclement weather. A similar result has occurred in 
cities that have adopted smart cards used for payment of transit fares 
or parking fees-integrated payment systems offer clear benefits to 
users that are well understood through comprehensive research and 
evaluations in advance. In this context, another important element is 
inter-operability. Whether one is considering electronic toll 
collection; smart card payment systems, truck pre-clearance systems or 
any other transponder-based systems, they should be inter-operable 
across jurisdictional boundaries. This is an area where federal 
influence can help substantially.
    The more broad issue of encouraging travelers to change behavior in 
response to traveler information (this could include both pre-trip and 
on-route, and can include changing a driver's route, travel mode, time 
of travel, or the need to travel at all) requires developing a strong 
trust relationship between the customer and the information provider 
(can be public or private). It is important that customers see the 
information as reliable and somewhat customized to their needs. An 
ongoing, continuing, proactive evaluation program that compares 
reported travel times on the network with actual experiences from 
drivers will help convey the performance of the system to users and 
decision-makers. Often when an ITS system is deployed, an initial 
evaluation will be conducted, but it is rare that an ongoing reporting 
system is maintained. We recommend partnerships between transportation 
agencies and university researchers who can help with such ongoing 
evaluations.
    Some ITS applications aim to improve safety or reduce congestion by 
monitoring or reducing traffic speed. For example, variable speed limit 
systems have been deployed in work zones or along urban corridors that 
experience recurrent congestion. By reducing speeds at the appropriate 
times and locations, safety can be improved and increased throughput 
can be achieved, which provides benefits in terms of crash reductions 
and savings in fuel consumption and greenhouse gas emissions. For these 
systems, good evaluations are needed to inspire customer confidence, 
but the most important element is enforcement. For example, variable 
speed limit systems in Germany include speed cameras that can issue 
tickets to violating drivers. Funding for implementation of variable 
speed limit systems should include funds for evaluations and 
enforcement.
    There are several key steps that are involved in testing a given 
technology to determine whether it works in an imperfect, real-world 
situation:

        <bullet>  Develop plan for implementing technology in a 
        collaborative environment, preferably with key representatives 
        of transportation agencies, the private sector, the public, 
        decision-makers and ideally the university research community.

        <bullet>  Conduct a scan of international or domestic 
        applications of similar technologies in order to gain lessons 
        learned.

        <bullet>  Depending on the exact nature of the technology, 
        tests can be conducted through customer focus groups, 
        computerized simulations or driver simulator environments.

        <bullet>  Incorporate a data collection component and an 
        evaluation plan into the initial design of the technology 
        application, including the need for data archiving. Be sure to 
        include a mechanism for collecting ``before'' data for later 
        comparison to ``after'' data once the system is tested or 
        deployed.

        <bullet>  Sometimes a technology application can be tested in a 
        pilot study environment, and if this is possible it should be 
        done in the context of an evaluation that includes a sample of 
        potential users. The inclusion of a ``feedback'' look in the 
        pilot and ultimate implementation can allow for modifications 
        in response to users and a technical evaluation.

    Many times a transportation technology can be tried with low risk, 
and in these cases the real-world, imperfect implementations should be 
seen as successful as long as lessons learned are documented and shared 
with others.

Q3.  You discuss transportation-related education activities at partner 
universities. What does the typical curriculum cover? Are energy 
efficiency and sustainability in transportation infrastructure 
included? If not, do you think that these goals should be part of 
transportation-related curriculum, and who should be involved in 
developing new curriculum?

A3. The broad array of transportation professionals in the U.S. receive 
education from high schools, community colleges, professional schools, 
certification programs, as well as baccalaureate and graduate degree 
programs at colleges and universities. Generally speaking, there are 
professional organizations, accreditation bodies, and university 
departments and governance structures that oversee and influence 
curriculum development and content. Individual faculty typically work 
with their colleagues to develop and propose new courses that can be 
offered, improved, and then must be approved at departmental, college 
and university wide levels through the faculty senate's curriculum 
committee structure. Individual degree programs are accredited by 
national organizations that focus on specific disciplines. Often 
individual departments will have external advisory boards made up of 
industry professionals and alumni who can weigh in on course and 
program offerings.
    Our four partner universities in our consortium offer three 
different undergraduate degrees that specifically prepare students for 
careers in the transportation field:

        <bullet>  B.S. in Civil Engineering (PSU, OSU and OIT): 
        undergraduates are required to take two transportation 
        engineering courses that include a small amount of material 
        related to energy efficiency and sustainability in 
        transportation infrastructure (historically not a prime focus 
        but this is expected to change).

        <bullet>  B.A./B.S. in Community Development (PSU)

        <bullet>  B.A. in Supply and Logistics Management (PSU)

    At the undergraduate level, it is clear that students are very 
interested in the issues of sustainability and energy efficiency. OTREC 
and the University of Idaho's National Institute for Advanced 
Transportation Technology (NIATT), the Region X Transportation 
Consortium, the Institute of Transportation Engineers, the Council of 
University Transportation Centers, and the Transportation Research 
Board, are all collaborating to sponsor a conference in June 2009 that 
will focus on improving the undergraduate transportation engineering 
course. We expect that new modules dealing with energy efficiency and 
sustainability will be developed. It is appropriate that these 
organizations are involved in developing new curricula. Transportation 
agencies and private firms who hire transportation graduates should 
also be involved.
    At the graduate level, our partner universities offer nine degrees 
at the Master's level, three doctoral level degrees and one graduate 
certificate:

        <bullet>  Master of Urban and Regional Planning (PSU)

        <bullet>  Master of Science in Civil and Environmental 
        Engineering (PSU and OSU)

        <bullet>  Master of Engineering in Civil and Environmental 
        Engineering (PSU and OSU)

        <bullet>  Master of Engineering in Civil and Environmental 
        Engineering Management (PSU)

        <bullet>  Master of Urban Studies (PSU)

        <bullet>  Master of Community and Regional Planning (UO)

        <bullet>  Dual Master's Degree in Urban and Regional Planning 
        and Civil and Environmental Engineering (PSU)

        <bullet>  Ph.D. in Urban Studies (PSU)

        <bullet>  Ph.D. in Civil and Environmental Engineering (PSU and 
        OSU)

        <bullet>  Graduate Certificate in Transportation (PSU)

    Graduate degree programs offer students the opportunity to 
specialize and take a more diverse set of courses, as well as the 
opportunity to pursue individual research. Therefore, graduate students 
in these programs who specialize in transportation are exposed to the 
issues of energy efficiency and sustainability in several courses. 
Students are very interested in these topics so it is possible that 
more specific course offerings will be developed in the near future. In 
addition to faculty and accreditation bodies, transportation industry 
and agency representatives and professional organizations should be 
involved in developing enhanced curricula in the area of energy 
efficiency and sustainability. International experience in developing 
these types of curricula should also be included.

Questions submitted by Representative Phil Gingrey

Tech Transfer

Q1.  In the end, implementation of new technologies will require local 
developers and planning boards to accept and cooperate in their use. Do 
local decision-makers have access to comprehensive and comprehensible 
data on potential new technologies? Are pilot projects enough to 
demonstrate effectiveness across the wide variety of weather and built 
environments?

A1. While much of the technological focus has been on State-operated 
freeways (where most of the vehicle miles of travel occur), it is true 
that ultimately regional and local agencies will be responsible for 
implementing new technologies that support the operation of transit 
systems, and. arterial and local roadways. Fortunately these agencies 
can take some lessons from the implementations on State-operated 
facilities, but there are many new and complicated issues that arise at 
the local level. First, local agencies have limited staff, particularly 
with expertise in new technologies, which requires a more broad 
educational and experiential background than past more traditional 
applications. Local agencies also have limited budgets for training and 
education for their staff, and very often have restrictions on out-of-
state travel that prevent staff from attending regional or national 
conferences, workshops or other training opportunities where they can 
learn about potential new technologies.
    In the Portland metropolitan region in Oregon, there is a regional 
advisory group called the TransPort ITS Advisory Committee that has 
been meeting monthly on a voluntary basis since 1994. Made up of staff 
from city, county, regional, State, and federal transportation 
agencies, as well as private sector and university representatives, 
this group has been a critical resource for sharing information and 
leveraging funding for collaborative technology implementations. A 
group such as this could be expanded to include more local agencies 
outside of the metro area and could become a key source of 
comprehensive and comprehensible information about technology 
deployment. State and local chapters of professional organizations such 
as ITE and ITS America also play important roles in this regard. 
Technology transfer programs implemented by State departments of 
transportation and university transportation centers also meet critical 
needs in transferring and translating information for local agency 
staff. In some cases, specific programs are aimed at training local 
elected and appointed officials (such as planning commissioners). In 
Oregon, the local chapter of the American Planning Association sponsors 
highly accessible and successful training presentations for city 
planning commissioners. Programs like this could be replicated and 
expanded through distance learning techniques. There are a lot of 
existing resources available from federal and State agencies and 
universities, but local officials may simply not know how to access 
them. In an age of ``information overload'' there are challenges in 
providing information in easily digestible formats.
    Visible, highly documented and evaluated pilot projects that 
demonstrate technology applications are an effective step toward 
determining whether the application is appropriate across diverse 
weather and built environments. But one pilot implementation can never 
satisfy the wide diversity of environments and situations that 
characterize the U.S. transportation system. Looking across the 
spectrum from rural to urban, and from mountainous areas to coastal 
area, there is no one solution for all problems. But this diversity 
should not prevent us from implementing pilot projects as appropriate 
in order to test and demonstrate potential solutions to transportation 
problems. Often lessons learned can be transferred from (for example) 
an urban application to one in a rural area, with the understanding 
that the existing infrastructure for power supplies and communications 
will be very different from one locale to another. This is why it is 
necessary for research and technology transfer to be conducted in both 
rural and urban areas, with appreciation for the similarities and 
differences between the two types of location.

Workforce Training

Q2.  The U.S. DOT estimates that there are 349 thousand people employed 
in bridge, street, and highway construction. What impacts do the 
research activities discussed at the hearing have on these workers? 
Will implementation of sustainable transportation technologies require 
wide-scale training and education? If so, who is responsible for 
providing this training?

A2. For research to be truly successful, ultimately it must be 
implemented on the ground. The responsibility for this implementation 
lies with the many transportation professionals employed in 
construction and maintenance. The implementation of some sustainable 
transportation technologies will involve construction and maintenance 
techniques and practices that are substantially similar to the more 
traditional types of transportation projects. In these instances, 
ongoing training should continue to be provided by transportation 
agency, industry and professional organizations, along with educational 
institutions at various levels. There will be situations where 
sustainable transportation technologies that result in life cycle cost 
and energy savings will require new construction and maintenance 
techniques. It should also be noted that new financing mechanisms such 
as public private partnerships that involve more focus on construction 
quality assurance may also require new training and education. In these 
cases, training should continue to be provided by the agencies, 
industry and professional organizations, with educational institutions 
as key partners. Training and education offerings can be coordinated 
both within states and across State boundaries. A set of shared 
calendars for training opportunities should be developed along with a 
central clearinghouse for collecting and organizing training needs. 
Breaking down barriers and erasing concerns about ``turf' will help 
making these opportunities available to all who need them.
    At a broader level, if agencies implement a strong culture of 
continuous improvement, they will need to encourage and foster an 
environment that appreciates and rewards an appreciation for ongoing 
education and training at the individual employee level. This kind of 
culture can inspire employees to better themselves and their team by 
seeking more training and education. Rewards in terms of promotions, 
salary step increases, and other incentives that are tied to 
educational accomplishments should be considered and implemented.

Coordination

Q3.  How can RITA and the other agencies of the Department of 
Transportation increase the coordination within the research community 
and awareness of research results in the broader community?

A3. Within the traditional transportation disciplines, there are 
several existing systems that help coordinate ongoing research and 
allow for efficient dissemination of research results. For example the 
TRB RiP database is a good example of a system that allows researchers 
to conduct queries about ongoing projects. Of course, any database is 
only as good as the data that are entered--so there is a risk that some 
projects are not entered in a timely fashion, are not updated or are 
not entered at all. The committee structure of TRB allows researchers 
in a particular narrow area to be aware of ongoing research and results 
that are relevant to that particular sub-discipline since researchers 
usually want and need to present and publish their work. USDOT agency 
personnel typically participate in TRB committees and their meetings 
and activities. Further, TRB committees also often develop research 
problem statements that are later submitted through the AASHTO research 
selection process for NCHRP projects. The TRIS database is an excellent 
resource for learning about completed, published research results, and 
this includes research conducted by State departments of 
transportation, university transportation centers and all federally 
sponsored research. Moving toward adding full text documents (e.g., PDF 
format) for all TRIS entries would help make research results more 
transparent and available. Many TRIS entries include links to full text 
documents but some only provide abstracts. There may not be funding 
available for this but it should be considered in the future, under the 
auspices of the National Transportation Library.
    Now that transportation research is being conducted by increasingly 
diverse, multidisciplinary researchers, there is a risk that 
dissemination of results may occur through other channels not monitored 
by traditional transportation researchers. There has been an example in 
the physics community where valuable contributions have been made to 
the transportation field but published in the physics journals which 
traditional transportation researchers may not be aware of.
    RITA and other USDOT agencies are already working toward 
coordinating research activities and promoting awareness of research 
results within the context of their relatively limited resources. RITA 
requires the UTCs to aim toward solving national-level research 
priorities by partnering with USDOT agencies. Further efforts toward 
developing a concrete, ``official'' means of collaboration between UTCs 
and federal agencies would help improve this coordination and would 
leverage research funding toward improved products.

Question submitted by Representative Adrian Smith

Q1.  When using recycled materials in road pavement, how much does this 
change the cost of construction?

A1. There are cases when considering life cycle costs that the 
inclusion of recycled materials in road pavement can reduce the cost of 
construction. In other cases, the construction cost may increase 
slightly but would provide other benefits in terms of user costs 
(noise, ride quality, safety) or reduced maintenance costs.
                   Answers to Post-Hearing Questions
Responses by Gerald F. Voigt, P.E., President and CEO, American 
        Concrete Pavement Association

Questions submitted by Chairman David Wu

Q1.  You discussed in your testimony the four voluntary environmental 
goals adopted by member companies, which include implementing an 
auditable and verifiable environmental management system. Can you 
provide more details on this environmental management system? What are 
the impediments to implementation? In addition to environmental 
protection, are there other benefits or detriments to companies that 
implement these systems?

A1. It is important to note that the cement industry began to address 
climate change in the mid-1990s--one of the first industries to do so. 
Today, the cement industry accounts for less than 1.5 percent of U.S. 
CO<INF>2</INF> emissions, well below other sources such as electric 
generation plants (33 percent) and transportation (27 percent). The 
voluntary reduction targets for key environmental performance measures 
are a part of the progress that has been made, which will continue into 
the future. ACPA member companies, which also comprise the members of 
the Portland Cement Association (PCA) represent over 98 percent of the 
cement clinker production in the U.S., which means that the voluntary 
action is truly an industry-wide initiative.
    In the 1990's, the cement industry joined the USEPA Climate-WISE 
program. This voluntary program assisted companies in improving energy 
efficiency and reducing CO<INF>2</INF> emissions. As part of this 
program, an MS-Excel spreadsheet was developed for the calculation of 
CO<INF>2</INF> cement plant emissions. This effort was used to develop 
an international emission calculation spreadsheet. U.S. cement 
manufacturing companies are using this international consensus-
developed spreadsheet to calculate current and past CO<INF>2</INF> 
emissions.
    The environmental management system is a benchmarking process that 
U.S. cement manufacturers are performing to track their progress. By 
2020, the industry aims to reduce CO<INF>2</INF> emissions by 10 
percent below 1990 baseline levels. To achieve this goal, the cement 
industry has adopted the following strategies:

        1.  Improve the energy efficiency by upgrading plants with 
        state-of-the-art equipment.

        2.  Improve product formulation to reduce energy of production 
        and minimize the use of natural resources.

        3.  Conduct research and develop new applications for cement 
        and concrete that improve energy efficiency and durability.

    The industry fully recognizes and discloses that emission of 
CO<INF>2</INF> is a part of the cement manufacturing process, 
regardless of what energy source is used for production. The chemical 
reaction that converts limestone and other raw material ingredients to 
cement clinker--calcination--releases CO<INF>2</INF>. However, it is 
also our industry's view that these emissions are outweighed 
dramatically by the energy-savings and sustainability benefits derived 
from concrete compared to alternative building products, such as 
asphalt for pavements. To understand this point, it is important to 
recognize that cement represents only a small fraction of the volume of 
concrete--roughly about eight percent of the volume of a typical 
concrete paving mixture.
    The challenges we see with implementing the strategies noted above 
include the communication of these relationships, the cost for new or 
upgraded equipment, and the impact of global competition. While the 
U.S. cement industry is working to reduce CO<INF>2</INF> emissions, 
other countries' cement industries do not have the same dedication to 
environmental stewardship. In recent years, up to 20 percent of the 
cement sold in the U.S. has come from imported sources, including 
China, India and other areas with less manufacturing controls than are 
standard in the U.S. today. It will be difficult for the U.S. cement 
industry to compete under a system where there is no balance on the 
emphasis of environmental stewardship in manufacturing.
    Despite these challenges, the environmental management system will 
continue to benefit the industry with a consistent tracking process and 
a means to more effectively measure and communicate its goals.

Q2.  How do you measure the impact of light-colored pavement on urban 
heat islands? Does light-colored pavement have any negative impacts or 
associated problems? Can recycled materials such as fly ash be 
incorporated into light-colored pavements?

A2. The temperature of any pavement surface depends upon the 
reflectance and emittance of the surface, as well as the amount of 
solar radiation. The standard test used to measure the reflectance of a 
surface is American Society for Testing and Materials (ASTM) C1549, 
Standard Test Method for Determining Solar Reflectance (ALBEDO) Near 
Ambient Temperature Using a Portable Solar Reflectometer. The test 
measures ``ALBEDO,'' the ratio of reflected solar radiation to the 
total amount that falls on that surface, known as incident solar 
radiation. ALBEDO values range from 0, for perfect absorbers, to 1, for 
perfect reflectors; most ALBEDO readings are expressed as a percentage.
    The values for typical paving surfaces\1\ are as follows:
---------------------------------------------------------------------------
    \1\ Adapted from: Levinson, R. and H. Akbari. 2001. ``Effects of 
Composition and Exposure on the Solar Reflectance of Portland Cement 
Concrete,'' Lawrence Berkeley National Laboratory Report LBNL-48334, 
Berkeley, CA.

        <bullet>  Concrete pavements produced with white cement have 
        ALBEDO readings in the range of 0.70-0.80 when new, and 0.40-
        0.60 after significant use and accumulation of dirt, grime, 
---------------------------------------------------------------------------
        etc.

        <bullet>  Concrete pavements produced with ordinary gray cement 
        have ALBEDO readings in the range of 0.35-0.40 when new, and 
        0.20 to 0.30 after significant use and accumulation of dirt, 
        grime, etc.

        <bullet>  Asphalt pavement has a typical ALBEDO range of 0.05-
        0.10 when new, and 0.10-0.15 after oxidation, significant use 
        and accumulation of dirt, grime, etc., aged.

    Lighter surfaces reflect more energy and do not contribute as much 
heat to the ambient conditions, as do darker, more energy-absorbent 
surfaces. To measure the impact of this additional heat requires 
calculation of the electric costs to cool urban buildings based on 
differing ambient temperature regimes, as well the corresponding 
reduction of pollution and other effects of decreasing the necessary 
energy production. Lawrence Berkeley Laboratory\2\<SUP>,</SUP>\3\ 
studies provide this type of indication, estimating that $5 billion per 
year can saved be through reduced cooling costs. We are also aware that 
Arizona State University's Center for National Center of Excellence on 
SMART Innovations for Urban Climate and Energy is working to refine 
these relationships.
---------------------------------------------------------------------------
    \2\ Akbari, H. ``Energy Savings Potentials and Air Quality Benefits 
of Urban Heat Island Mitigation,'' First International Conference on 
Passive and Low Energy Cooling for the Built Environment, Athens, 
Greece, May 17-25, 2005.
    \3\ Pomerantz, M., B. Pon, H. Akbari, and S.-C. Chang. 2002. ``The 
Effect of Pavements' Temperatures on Air Temperatures in Large 
Cities,'' Lawrence Berkeley National Laboratory Report LBNL-43442, 
Berkeley, CA.
---------------------------------------------------------------------------
    There are no known negative impacts or associated problems with the 
light-colored pavement surfaces. In addition to reducing the impact of 
urban heat islands, they also improve on-road visibility from both 
vehicle headlights and street lights, resulting in enhanced vehicle and 
pedestrian safety.
    Recycled materials, such as fly ash (from coal combustion) and slag 
cement (a by-product of the manufacture of iron) are easily 
incorporated into concrete paving mixtures. Fly ash, although typically 
somewhat darker than ordinary gray cement, does to our knowledge not 
lower ALBEDO appreciably. This may be related to the fact that fly ash 
is typically incorporated into concrete pavements in percentages (by 
weight of cementitious materials) less than 20 percent. However, slag 
cement, also routinely used where locally available, sometimes in 
percentages as high as 50 percent (by weight of cementitious material), 
generally elevates concrete's ALBEDO. Concrete containing slag may 
yield ALBEDO readings in the ranges similar to those made from white 
cements.

Questions submitted by Representative Phil Gingrey

Tech Transfer

Q1.  In the end, implementation of new technologies will require local 
developers and planning boards to accept and cooperate in their use. Do 
local decision-makers have access to comprehensive and comprehensible 
data on potential new technologies? Are pilot projects enough to 
demonstrate effectiveness across the wide variety of weather and built 
environments?

A1. Generally speaking, local decision-makers do have access to 
comprehensive and comprehensible data to evaluate and implement new 
technologies, although there are considerable challenges in educating 
and transferring technology to a constantly-changing workforce. 
Attrition in the public sector, along with limited funding for 
training, as well as state-imposed restrictions on travel for training, 
makes this even more challenging.
    Access is only one variable in the equation, however. To truly 
adapt energy conservation and sustainability practices throughout the 
transportation-construction community, the culture of considering 
``lowest first cost''--a culture that remains in many State Departments 
of Transportation (DOTs)--must change to impact the use of innovative 
and current materials that are more sustainable. Traditionally, State 
DOTs have considered the construction and maintenance/preservation of a 
roadway as two separate operations, with separate funding levels 
assigned to each. Sound public policy should ensure public monies are 
being invested with the optimum return on the investment through all 
phases of the pavement life cycle.
    Furthermore, when evaluating return on investment, true first costs 
and life cycle costs should be evaluated for highways, as well as other 
facilities in our nation's surface transportation infrastructure 
overall. These evaluations should be made on actual performance data 
and using true costs to the agency, including all factors such as 
material price escalators.
    Pilot projects are not enough to demonstrate the effectiveness of 
new technologies, particularly noting climatic differences, as well as 
other regional variables, whether man-made or naturally occurring. 
However, in road-building, one of the largest hurdles is getting 
previously unspecified technology to be used on a project, and pilot 
projects are extremely beneficial to overcome these hurdles. Never-the-
less, it is our considered opinion that the requisite approaches to the 
``tech transfer'' challenge include several concerted efforts, 
including:

        <bullet>  Applied research to evaluate and validate new 
        technologies;

        <bullet>  Pilot programs for proving the new technologies;

        <bullet>  An adequately-funded clearinghouse for research 
        findings that is specific and germane to the transportation-
        construction community. This clearinghouse should include 
        research findings from various stakeholders and should be 
        available to persons in the public sector, private sector, and 
        academia.

        <bullet>  A formal, technology transfer and implementation 
        program, specifically centered on training public- and private-
        sector stakeholders in best practices associated with energy 
        conservation (and within it, fossil fuel reduction) and 
        sustainable highway construction. We feel this program should 
        be executed equally by the Federal Highway Administration and 
        co-equally by the concrete and asphalt pavement industries for 
        purposes of educating State agencies and the private sector. 
        Industry should have the responsibility for providing training 
        to contractors and others in the private sector, as well as 
        academia.

Workforce Training

Q2.  The U.S. DOT estimates there are 349 thousand people employed in 
bridge, street, and highway construction. What impacts do the research 
activities discussed at the hearing have on these workers? Will 
implementation of sustainable transportation technologies require wide-
scale training and education? If so who is responsible for providing 
this training?

A2. The research and development activities discussed at the hearings 
will have a material impact on workers, but only if there is adequate 
training, positive incentives and a framework that guides State and 
federal agencies to embrace both emerging and existing technologies 
associated with energy conservation and sustainability.
    We look forward to the continued support of Congress on pavement 
research and development in future transportation funding bills, and we 
thank you for supporting these provisions in past bills. We also 
recommend that a significant focus of future efforts be placed on 
technology implementation. It is our observation that implementation 
has been overlooked in the spectrum of research and development. It has 
been said by those in the public and private sector alike, that it 
takes as many as 10 to 15 years to see new technology implemented into 
wide-spread practice across the 50 states. This record must be improved 
and this can only be achieved by training those who have to work with 
the technology in the field.
    We believe the responsibility of training should be shared, because 
of both the scale and scope of the training required. In our view, the 
responsibility of training private sector workers should rest primarily 
with the industry associations and other organizations like ACPA, with 
support provided from the Federal Highway Administration and Federal 
Aviation Administration.
    The agencies of the U.S. Department of Transportation should 
shoulder the load for training workers of the State departments of 
transportation with support from industry. A significant challenge now 
exists with the education of State workers. Most states prohibit their 
employees from traveling across State lines for education and training. 
This burdens the process of training (and ultimately the speed of 
implementing new technology) as it limits the sharing of experiences 
and slows the process within available resources. These barriers must 
be addressed so that the education and training can be made more 
efficient and effective.

Coordination

Q3.  How can RITA and the other agencies of the Department of 
Transportation increase the coordination within the research community 
and awareness of research results in the broader community?

A3. RITA and other agencies of the U.S. Department of Transportation 
(DOT) can increase the coordination within the research community and 
awareness of research results in the broader transportation-
construction community by working more closely with local and State 
agencies and the industry to educate, inform, and otherwise support 
efforts to implement energy conservation and sustainability practices.
    Pooling research funds is an excellent mechanism to leverage 
resources and efforts, as well as involve more people through the 
process and bridge the gap for implementation. When we learn and put 
technology to use together, it simply works better and faster.
    RITA and other agencies of the U.S. DOT also can have a positive 
and profound effect by changing the culture and reducing our nation's 
dependency on fossil fuels through a balance of policies, training, and 
outreach to all stakeholders in the transportation-construction 
community.
                   Answers to Post-Hearing Questions
Responses by Christopher M. Poe, P.E., Assistant Agency Director; 
        Senior Research Engineer, Research and Implementation Division-
        Dallas, Houston, Texas Transportation Institute, Texas A&M 
        University System

Questions submitted by Chairman David Wu

Q1.  You discuss special asphalt mixtures called porous friction 
courses (PFC) in your testimony, noting that this material contributes 
to energy efficiency and sustainability by filtering runoff and 
extending the lifetime of the pavement? How much fuel does it take to 
lay a lane-mile of PFC compared to conventional paving materials? What 
are the impediments to deployment of PFC?

A1. Rainwater travels along the surface of most pavements until it 
reaches the edge of the pavement where it drains into ditches or storm 
water utility systems. Porous friction courses (PFC) are different in 
that they are about a two inch thick asphalt surface with a very high 
air void content that allows the water to quickly penetrate into the 
surface. The storm water then travels within that surface layer to the 
edge of the pavement. This increases safety by helping to reduce the 
risk of hydroplaning and wet skidding and also decreases splash and 
spray from vehicle tires. Because this type of surface also acts as a 
filter, the quality of the storm water runoff can be improved since 
many of the suspended solids and pollutants will be trapped within the 
asphalt layer. And because of the high air void content within the 
surface, there is a significant reduction in traffic noise which is the 
primary reason for their increasing use in Europe.
    There is no documented fuel savings associated with porous friction 
courses and there is no extended pavement life. Their primary reason 
for use is for improved wet weather safety and the noise reduction 
benefits. Impediments to the use of PFC include the following:

        <bullet>  The potential life of PFCs is unknown but indications 
        are that their life is shorter than conventional paving mixes 
        (mainly because of the effects of water in the layer which can 
        have a negative effect on pavement performance).

        <bullet>  It is unknown how long PFCs can remain 
        ``functional.'' In other words, how long will these mixtures 
        maintain their drainability and noise reduction benefits before 
        they become clogged with dirt and particulate matter?

        <bullet>  PFC paving mixtures are more expensive than 
        conventional mixes. At a time when highway construction and 
        maintenance budgets are stretched, it may be difficult for 
        engineers to justify using a paving surface like PFC when long-
        term performance and functionality is unknown.

Questions submitted by Representative Phil Gingrey

Tech Transfer

Q1.  In the end, implementation of new technologies will require local 
developers and planning boards to accept and cooperate in their use. Do 
local decision-makers have access to comprehensive and comprehensible 
data on potential new technologies? Are pilot projects enough to 
demonstrate effectiveness across the wide variety of weather and built 
environments?

A1. Pilot projects that include a formal technology transfer component 
are effective at disseminating information. In addition, published 
material, webinars, conferences, and training session are all 
complimentary to the technology transfer efforts. In addition to 
demonstration of technology effectiveness, local decision-makers and 
transportation professionals need life cycle costs of new technologies. 
To make sound transportation decisions, the ongoing maintenance costs, 
replacement costs, and time to replacement are all needed to adopt and 
implement technologies.

Workforce Training

Q2.  The U.S. DOT estimates that there are 349 thousand people employed 
in bridge, street, and highway construction. What impacts do the 
research activities discussed at the hearing have on these workers? 
Will implementation of sustainable transportation technologies require 
wide-scale training and education? If so, who is responsible for 
providing this training?

A2. We believe wide-scale training and education will be necessary to 
mainstream new technologies and research results. As with much of the 
training of new transportation ideas and technologies, training will 
come from a variety of sources including the Federal Government (often 
geared towards State DOTs and MPOs), the private sector, and academia. 
What is often overlooked is the time and resources required to develop 
good quality training. Pilot tests and research do not inherently 
result in the production of training materials. Resources must be 
dedicated to turning the results from research and pilot programs into 
training. There is capacity to deliver the training through public, 
private, and academic instructors; however, resources are needed to 
develop the content for the training materials.

Coordination

Q3.  How can RITA and the other agencies of the Department of 
Transportation increase the coordination within the research community 
and awareness of research results in the broader community?

A3. The coordination issue is one of the concerns that led to the 
creation of RITA. RITA is intended to have purview over the various 
multi-modal research committees and councils of USDOT, and is taking a 
leadership role in determining research priority needs within the 
department. To this end, the Communities of Interest were developed, 
identifying several research areas and putting together groups of modal 
agencies, research centers and other research entities with interest in 
each area. The idea is to facilitate communication within these groups, 
get the researchers talking to each other, and stimulate new ideas as 
well as avoid duplication. They also take this information back to 
their customers/partners, which helps the transportation community to 
understand who is doing what, and why they are doing it.
    SAFETEA-LU states that ``The Secretary shall coordinate the 
research, education, and technology transfer activities that grant 
recipients carry out under this section, disseminate the results of the 
research, and establish and operate a clearinghouse to disseminate the 
results of the research.'' [Section 5402 (k) (1) Program Coordination] 
To address this legislative mandate, RITA requires UTCs to submit all 
research to the Research in Progress (RiP) database and to TRIS. This 
makes ongoing and completed research available to anyone searching the 
web for information on a particular transportation topic and is thought 
to be one of the most effective ways that research coordination and 
dissemination occurs.
    In recent years, a partnership has been created between RITA and 
the Council of University Transportation Centers (CUTC), and all UTCs 
are strongly encouraged to join. CUTC provides center development 
activities as a part of its annual meeting, and provides a venue for 
UTCs and other transportation centers to meet on a regular basis. 
Because CUTC has an annual newsletter and sponsors a high-profile event 
at TRB, RITA's involvement increases awareness of its research 
activities.
    In recent years, federal funding to sport TRB has been reduced. 
This along with the fiscal constraints on public agencies to send 
scientists, engineers, and transportation professionals to the premier 
annual meeting to disseminate research results has hindered further 
coordination. Funding for TRB and support to public agencies is needed 
to continue this coordination, technology transfer, and education.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

         Statement of the Arizona Department of Transportation

Introduction

    In the world of transportation, research and technology are vital 
to providing safer, more efficient, cleaner and less costly facilities. 
The challenges that the Nation faces now and in the future--congestion, 
safety, rising fuel costs, energy supply, economic demands, 
environmental impacts, climate change, and growth will require that we 
all look to new technologies and innovations to expand the capacity of 
our infrastructure, grow the economy and at the same time reduce our 
impact on the environment.
    Arizona in particular has seen incredible population growth as one 
of the fastest growing states in the Nation. In the face of this 
growth, it is clear that the challenges presented will require 
innovation based on research. The demand on today's overburdened 
transportation facilities means that transportation professionals will 
be challenged to sustain the Nation's mobility. Responding to 
challenges in an innovative way has always been one of the things that 
Americans do best.
    The future presents both challenges and opportunities. Rapidly 
advancing technology will be an essential part of the solution to new 
problems. Applying this technology through research will create new 
opportunities for improved transportation systems.

Current Research

    ADOT's research program encompasses a broad spectrum of topics 
relative to transportation systems. The research is focused on 
advancing technology, solving problems and pursuing practices that will 
save lives and money. The primary driver in this program is the Federal 
Highway Administration (FHWA) State Planning and Research (SPR) 
funding. Other important program elements include information derived 
from the Transportation Research Board, FHWA research programs, and 
national cooperative transportation research programs, such as the 
National Transportation Cooperative Research Program (NCHRP) and the 
Transit Cooperative Research Program (TCRP). Under the American 
Association of State Highway and Transportation Officials (AASHTO), 
ADOT participates in the Standing Committee on Research (SCOR) and the 
Research Advisory Committee (RAC).
    ADOT's Arizona Transportation Research Center (ATRC) directs the 
ADOT research program. Under the research program ADOT conducts 
transportation research on materials, construction activities, 
structures, maintenance, traffic, intelligent transportation systems, 
safety, environmental topics, planning, administration, and computer 
systems. ATRC publishes reports on completed research and maintains a 
library of transportation resources.
    The following are examples of innovative research and technology 
applications that ADOT is using for materials and products, intelligent 
transportation systems and computerized information systems:

Materials and Products

        -  The ATRC coordinates ADOT's product evaluation program as 
        part of the research program. The ATRC Product Resource 
        Investment Deployment and Evaluation (PRIDE) program was 
        established to provide a framework for introducing new 
        products. The PRIDE program provides a centralized system for 
        evaluating a wide range of products used by ADOT. Through the 
        PRIDE program ADOT increases its ability to select cost-
        effective, safe products for use on the State highway system 
        and roll them out throughout the agency.

        -  Arizona was the first state to implement a pilot in 
        partnership with FHWA to test the noise reduction capabilities 
        of rubberized asphalt on 115 miles of selected freeways in the 
        Phoenix area. We have used rubberized asphalt since 1988 to 
        resurface roads across the state, at various elevations and in 
        different climates and found that it reduced traffic noise.

           Data collected for the pilot has shown an average noise 
        reduction of five decibels in residential neighborhoods. By 
        participating in the pilot ADOT aims to confirm that the noise 
        reduction is sustainable over the average 10-12 year life of a 
        pavement overlay. Now Illinois is piloting the use of 
        rubberized asphalt as well.

           Rubberized asphalt consists of a mixture of aggregate 
        combined with asphalt cement and crumb rubber from discarded 
        tires. As a result of utilizing this resurfacing application, 
        more than 15 million tires have been recycled in Arizona since 
        1988.

        -  ADOT has converted most of our traffic and pedestrian 
        signals from incandescent light bulbs to LED (light-emitting 
        diode) signals which are environmentally friendly, reduce 
        energy costs significantly and provide cost savings to 
        taxpayers. This has allowed us to convert the cabinets to 
        include uninterruptible power supply and has reduced energy 
        consumption for traffic signals by 80 percent. We also use LED 
        lighting on most of our heavy trucks and on vehicles with 
        emergency lights.

Information Technology Systems

        -  In March 2002, Arizona launched its statewide 511 System 
        through ADOT's Traffic Operation Center. The 511 system 
        provides information both on-line and through the phone system 
        to motorists about road closures, restrictions, construction 
        locations, traffic-related maintenance activities, weather-
        related road closures, and traffic incidents. Last year, ADOT 
        implemented the Sonora/5-1-1 system which is the first to reach 
        beyond U.S. borders to allow motorist to access information on 
        traffic issues in Arizona's neighboring State of Sonora Mexico.

        -  An important technology that ADOT uses to inform and ensure 
        the safety of motorist is the Variable-Message Sign. The signs 
        are capable of quickly changing messages remotely making it a 
        simple and quick way to inform motorists of accidents, 
        closures, detours or most recently drive times in Metropolitan 
        Phoenix. Our Variable-Message Signs, directional arrow signs, 
        and weather stations all use solar power.

        -  ADOT uses driving simulators to train and refine operating 
        skills on equipment such as snow plow trucks. The equipment is 
        mobile so it may be moved from site to site. Use of the 
        simulators saves fuel, reduces equipment wear and tear and 
        helps to reduce accidents by providing training in a variety of 
        simulated weather and traffic conditions. Some ADOT on-road 
        heavy equipment is equipped with on-board crash avoidance 
        sensors which detect front, rear and side obstacles.

        -  Global Positioning Systems (GPS) and Automated Vehicle 
        Locator (AVL) Systems are now being used to track snow plows 
        and paint striper trucks to identify equipment location, speed 
        and productivity.

        -  Geographic Information Systems (GIS) are also being used to 
        track snow plows and striper plows to identify depth and type 
        of material used, allowing for better analysis of productivity. 
        GIS also monitors ambient air temperatures allowing the 
        operator to better determine the amount of material needed 
        based on air temperature. GIS also displays information on 
        traffic incidents so it can be seen on-line and facilitate 
        detours and information to motorist.

Computerized Information Systems

        -  ADOT is among a very few State DOTs actively developing a 
        Feature Inventory System (FISDC). This system incorporates 
        Global Positioning System (GPS) data collection with the power 
        of Geographic Information System (GIS) for inventory purposes 
        and easy access and presentation of geographic and manmade 
        features that exist within ADOT's right-of-way. The system will 
        provide an accurate inventory for the existing features as 
        maintained by the individual districts. After the completion of 
        the system, the inventory will be tied to the State plane 
        coordinate system and the data can be easily downloaded and 
        used by planners, designers, contractors and maintenance 
        personnel, giving districts a better tool to manage their 
        resources and plan their maintenance activities. We were 
        recently contacted by Maryland DOT who is seeking information 
        on asset management systems and to learn from the experience 
        gained by ADOT in this field.

        -  An innovative, state-of-the-art maintenance management 
        system, Pecos IV, is scheduled for roll-out in March 2009. Our 
        new system will incorporate state-of-the-art design and 
        programming tools. Innovative features include:

                <bullet>  map-based displays

                <bullet>  improved information retrieval and reporting 
                capabilities

                <bullet>  improved information accuracy, audit ability, 
                reconcilability and timeliness

                <bullet>  better data entry validation

                <bullet>  better business processes for purposes such 
                as indirect costs tracking and allocation, activity, 
                equipment, and labor

                <bullet>  improved trend analysis

                <bullet>  better tracking of contracts utilization and 
                time

                <bullet>  Geo-Coding of work report location

        -  The Maintenance Budgeting System (MBS) provides ADOT with a 
        state-of-the practice, performance-based method for 
        quantitatively assessing the impact of maintenance activities. 
        Road condition is related to Level-of-Service (LOS), providing 
        a way to link maintenance program budgeting to customer 
        expectations and legislative interest in the maintained road 
        network. Assessments of the existing LOS, and projections of 
        target LOS based on ADOT priorities and desired improvements, 
        provide a way to meet customers' expectations while allocating 
        maintenance resources in a cost-effective manner.

           This effort involves the definition of customer-oriented 
        levels of service (LOS), where LOS is defined in each program 
        category as the percentage of maintained items that meets 
        minimum criteria. The LOS concept is used to characterize the 
        status of roadway system based upon observed conditions. Future 
        LOS values can also be projected in relation to planned budget 
        levels to express targets for future maintenance performance. 
        This innovative approach enables ADOT to compare the actual 
        level of service achieved in the future to the target LOS value 
        that has been forecast at the approved budget level, providing 
        accountability for the maintenance expenditures in each 
        program.

        -  ADOT is beginning to fully populate the Electronic Contract 
        Management System (e-CMS) with contract data during State 
        fiscal year 2009 and developing safeguards in the system to 
        promote data integrity and to assist with timely contract 
        close-outs. These processes will result in helping to reduce 
        the backlog by over five percent.

        -  A Cost-Negotiations Cross Functional Team has been formed to 
        develop an automated tool to assist Project Managers to develop 
        independent contract cost estimates (hours) to compare with 
        those submitted by consultants. A standardized automated cost 
        proposal template will also be developed and integrated into 
        the system to be used by consultants to submit their cost 
        proposals on-line. Once these tools have been developed and 
        Project Managers and consultants are trained, it is expected 
        that the time required to analyze and negotiate agreed upon 
        estimates to do the work can be reduced by about five percent 
        or seven (7) calendar days. Significant double digit 
        improvements are expected in FY10 and beyond once the systems 
        have become standard operating procedures.

        -  Our Statewide Project Management Office is using various web 
        sites to host project documents, outline process descriptions, 
        and maintain a people directory for better communication, cross 
        functional training, higher productivity and succession 
        planning. This group also uses blog, webinar and instant 
        message to enhance our communication in project development. 
        The next generation of project managers will be able to learn 
        from project history for future process innovation. A search 
        engine will be built to link all websites.

        -  ADOT's Right of Way Operations (ROW) Section is implementing 
        two new databases. The first is an accounting database to 
        prepare and track all non-EPS payments processed by the unit. 
        This replaces an antiquated system that used both paper and 
        computers. The second is a checks database to track all 
        payments received in ROW Operations. The new systems will 
        greatly reduce processing time for accounting transactions in 
        Right of Way. Also, as the new system interfaces with the 
        Department's accounting system there will be a drop in the 
        number of errors.

        -  The Roadway Engineering Group is working to utilize a Portal 
        with electronic documents and files for all studies. 
        Information stored in the Portal is compatible with and can 
        easily be uploaded into the Project Reference Manual once a 
        project moves to a design phase. Within the coming months, all 
        Pre-design study documents will be transmitted electronically 
        for reviews.

        -  The Roadway Engineering Group is also implementing 
        electronic signatures on final study documents. The Drainage 
        Section has efforts underway to scan all drainage reports so 
        that they will be available to internal staff, consultants and 
        other agencies. This alone will generate a large savings in 
        time and resources. The Roadway Design Section continues to use 
        electronic plans submittals and will be further evaluating the 
        practice of supplying electronic design data to the contractor. 
        The Roadway Engineering Group will also utilize electronic 
        submittals for project cost proposals and payments for 
        supplemental service personnel.

        -  The Engineering Fields Survey Section will soon utilize a 
        PDA with a terrain navigator. The test results show that the 
        PDA will save paperwork and facilitate survey crews in finding 
        targets in the field.

        -  A cross-functional team has recommended Engineering Field 
        Surveys pilot several major projects in FY09 to deliver design 
        level engineering surveys before the design kickoff meetings. 
        This effort is expected to eliminate some duplication of survey 
        effort during the design phase of projects.

Research Issues

    Technology demonstration projects are vital to ensuring we find 
better and more efficient ways to meet the growing demand on the 
transportation infrastructure. Arizona is one of the most requested 
states for pilots and demonstration because of our hot climate and 
varied terrain. When we participate in pilot or demonstrations, ADOT 
typically provides ongoing information on the web such as our 
rubberized asphalt pilot at www.quietroads.com. We also maintain 
records and reports that are provided on request.
    Some of the biggest impediments to the use of new materials and 
technologies relate to the federal interpretation for procurement. 
There is a greater emphasis on ensuring competition between vendors 
than on innovation. Competition is important but a balanced approach 
that recognizes and rewards innovation is necessary.
    The transportation community would be more effective at innovation 
if the Federal Government would allow a broader interpretation of 23 
CFR Ch. 1, Section 635.411.
    Over 15 State transportation departments submitted a Public 
Interest Finding to use a specific type of high performing sign 
sheeting, but were denied by the FHWA. Because the product is new and 
innovative the cost of the product is slightly higher but it also has a 
higher level of performance. Because of price the product, it is not 
currently allowed for use on federally funded projects. Again, 
balancing initial cost against long-term cost and productivity would 
open the door for innovation.
    In addition, a demonstration or pilot on new techniques or 
materials does not include funding if the test does not work leaving 
the agency to fix or replace the problem. Failure is an important part 
of the innovative process and can provide valuable information. 
Punishment is the wrong response. In addition, federal web sites need 
to keep on-line information on research and pilots up to date.
    In order for State departments of transportation and local 
governments to make use of new technologies and innovations to 
facilitate improvements to our transportation system, it is critical 
that states are provided with the flexibility to pilot and implement 
new technologies. University research facilities should consult with 
State departments of transportation on direction and needs to ensure 
that research supports what is happening in the field.

Research Needs

    As part of our strategic plan ADOT has identified the following as 
vital to achieving our vision of being ``the standard of excellence for 
transportation systems and services.''

        <bullet>  Technology--ADOT must maximize the use of technology 
        in all aspects of its operations.

        <bullet>  Congestion Management--ADOT must deploy the best mix 
        of multi-modal strategies to manage congestion.

        <bullet>  Customer Service--ADOT must maintain a strong 
        customer service focus.

        <bullet>  Highway Safety--ADOT must always strive to make 
        Arizona's transportation infrastructure safe.

        <bullet>  Environmental Stewardship--ADOT must deploy the best 
        environmental management techniques into its business 
        practices. This also includes exploration of a balanced and 
        multi-modal system.

    Some of ADOT's major priorities for research are:

        <bullet>  Inter-operable communication systems to better 
        coordinate with the Department of Public Safety, local police 
        and the fire department during incidents on State highways.

        <bullet>  Evacuation planning to ensure that in the event of a 
        disaster, ADOT can facilitate a quick and effective way to move 
        people away from the site.

        <bullet>  Cheaper alternative recyclable pavement, materials 
        and equipment.

        <bullet>  Development of alternative fuel infrastructure for E-
        85 fuels.

Conclusion

    Research and technology play an enormous role in the transportation 
industry. These tools will be the most critical part of moving to a new 
tomorrow for transportation. For the next reauthorization increased 
funding for research and greater flexibility for the development and 
use of innovative technologies and processes are vital to meeting the 
Nation's growing transportation needs.
                        Statement of Mike Acott
        President, National Asphalt Pavement Association (NAPA)
    On behalf of the National Asphalt Pavement Association's 1,200 
member companies, the association would like to thank Chairman Wu and 
Ranking Member Gingrey for holding this hearing to examine ways to 
reduce energy costs and environmental impacts through improved pavement 
technologies. I am Mike Acott, President of NAPA.
    NAPA represents asphalt pavement producers and related industries 
at the national level. Asphalt pavement material is composed of 
approximately five percent asphalt cement and 95 percent stone, sand or 
gravel. Of the 2.6 million miles of paved roads in the United States, 
over 94 percent are surfaced with asphalt. Approximately 85 percent of 
the Nation's airfield pavements and 85 percent of the parking lots are 
also surfaced with asphalt pavement. There are approximately 4,000 
asphalt plants located in the United States producing annually 500 
million tons of asphalt pavement material and employing directly or 
indirectly 300,000 U.S. workers.
    NAPA has a long history in developing and promoting innovations 
that improve sustainability, energy efficiency, and virtually every 
other aspect of asphalt. Today, the industry produces a sustainable, 
environmentally friendly material that is adaptable to different 
climates, traffic loads, and end-use applications.
    Moreover, asphalt pavement is America's most recycled product. Each 
year, about 100 million tons are reclaimed, and 95 percent of that 
total is reused or recycled. NAPA has supported an active research 
program designed to answer questions about environmental issues and to 
improve the quality of asphalt pavements and paving techniques used in 
the construction of roads, streets, parking lots, airports, and other 
facilities.
    The asphalt industry has been engaged with product improvement 
through technological innovation for many years. In 1986, the industry 
founded the National Center for Asphalt Technology (NCAT) at Auburn 
University, Alabama, by means of a $10,000,000 endowment from companies 
and individuals in the asphalt industry. Today NCAT is at the forefront 
of technological breakthroughs that are of benefit to contractors, 
agencies, and taxpayers. Its current operating budget is about 
$5,000,000 annually, mostly through research funding.
    The NAPA Committee for Asphalt Research and Technology (CART) was 
formed in 1996 to provide a forum for industry-identified research 
topics to be discussed and put forward for funding.
    Recently, CART partnered with the Federal Highway Administration 
(FHWA) to produce the National Asphalt Roadmap for Research and 
Technology.\1\ The asphalt industry's research agenda is embodied in 
this document. In addition to FHWA, the partners in developing the 
document included the Asphalt Institute (AI), the American Association 
of State Highway and Transportation Officials (AASHTO), and the 
National Stone, Sand & Gravel Association (NSSGA). This is considered 
to be a living document, and already many of the research projects 
identified within it have been approved for funding by FHWA and the 
National Cooperative Highway Research Program. The asphalt pavement 
industry would like to see continued vigorous federal research programs 
to address the issues that have been identified within the National 
Asphalt Roadmap.
---------------------------------------------------------------------------
    \1\ National Asphalt Roadmap for Research and Technology, National 
Asphalt Pavement Association, Lanham, Maryland, 2007.
---------------------------------------------------------------------------
    As requested by the Subcommittee, NAPA's testimony will answer the 
following questions:

        1.  How can paving materials contribute to energy efficiency 
        and sustainability in the transportation sector?

        2.  What are the technical challenges and what ongoing or 
        future research and development projects will improve the 
        sustainability of pavement materials and address these 
        challenges?

        3.  What actions can the Federal, State, and local governments 
        take to overcome these impediments? What is the role for 
        industry and academia, especially in technology transfer?

1.  How can paving materials contribute to energy efficiency and 
sustainability in the transportation sector?

2.  What are the technical challenges and what ongoing or future 
research and development projects will improve the sustainability of 
pavement materials and address these challenges?

    With over 94 percent of paved roads in the United States surfaced 
with asphalt, even relatively small but widely applicable advances in 
asphalt pavement technologies could contribute greatly to energy 
efficiency and sustainability. Examples of such advances include 
Superpave and stone-matrix asphalt.
    As mentioned previously, the National Asphalt Roadmap for Research 
and Technology was published in 2007. The Roadmap is the result of a 
public-private partnership and encapsulates the shared vision to 
``Develop improved asphalt pavement technologies that ensure the 
continued delivery of safe and economical pavements to satisfy our 
nation's needs.''
    Some of the intrinsic attributes of asphalt pavement make it a 
natural choice for sustainability. The asphalt industry has also 
invested heavily in making this material more environmentally friendly. 
The committee may wish to consider additional factors in this regard.

Recycling. The asphalt industry is America's number one recycler. 
Recycling saves precious natural resources and reduces the carbon 
footprint of pavement construction. Of the 100 million tons of asphalt 
pavement reclaimed each year, about 75 million tons is mixed with 
virgin materials and incorporated into new asphalt pavement. This is 
called the highest and best use because the asphalt cement in the old 
pavement is reactivated, becoming part of the binder for the new 
pavement and replacing some of the virgin binder that would otherwise 
be required. Another 20 million tons of reclaimed asphalt pavement, or 
``RAP,'' is reused in other ways in highway building. Aside from 
recycling its own product, the asphalt industry incorporates materials 
from other industries, including used tires, waste roofing shingles, 
glass, and many others, into high-quality pavements. With Portland 
cement, however, the binder cannot be rehydrated after its initial use. 
Therefore, once the steel reinforcing material is extracted from 
reclaimed concrete, it is a low-value material which can be used only 
as aggregate in limited applications.

Perpetual Pavement. Advancements in milling, recycling, and asphalt 
pavement technology over the last few decades have created asphalt 
pavements that perform better, longer, and at lower life cycle cost 
than was previously possible. Today's asphalt pavements can be designed 
literally to last in perpetuity. Total pavement reconstruction is 
rendered virtually obsolete with a perpetual asphalt pavement. Instead, 
the asphalt pavement is engineered and built to last without requiring 
major structural rehabilitation or reconstruction, and needing only 
periodic surface renewal in response to distresses confined to the top 
of the pavement. Perpetual pavement is environmentally friendly because 
it is extremely long-lasting. When the surface is renewed, the material 
that is removed is recycled. Perpetual pavement is also budget-friendly 
and has a lower life cycle cost than conventional asphalt or concrete 
pavements.
    Studies from Kansas,\2\ Oregon,\3\ Washington,<SUP>3</SUP> Ohio,\4\ 
and Minnesota\5\ all show that asphalt pavements last as long as or 
longer than concrete pavements. In Oregon, the average age of concrete 
pavements on the interstates is about 30 years, the oldest being about 
50 years. Asphalt pavements on interstate routes in Oregon are, on 
average, about 40 years old, with the oldest pavements being between 50 
and 60 years old. In Washington, the asphalt pavements average an age 
between 35 and 40 years, with the oldest being about 50 years, and 
concrete pavements' average age is about 35 years with the oldest being 
about 50 years.
---------------------------------------------------------------------------
    \2\ Cross, Steven A. and Robert L. Parsons, Evaluation of 
Expenditures on Rural Interstate Pavements in Kansas, Kansas University 
Transportation Center, University of Kansas, Lawrence, Kansas, 
February, 2002.
    \3\ Transportation Research Board, Pavement Lessons Learned from 
the AASHTO Road Test and Performance of the Interstate Highway System, 
Transportation Research Circular E-C118, Washington, DC, July 2007.
    \4\ Gibboney, Willis B., Flexible and Rigid Pavement Costs on the 
Ohio Interstate Highway System, Westerville, Ohio, 1995.
    \5\ Lukanen, E., Performance History of HMA Pavements with 
Aggregate Base and Portland Cement Concrete Pavements, Minnesota 
Asphalt Pavement Association, New Brighton, MN, 2002.
---------------------------------------------------------------------------
    What is more, the studies from Kansas\6\ and Ohio\7\ show that 
asphalt pavements have a lower cost over their lives than do concrete 
pavements. Decades ago, using technology available at the time, an 
asphalt pavement would generally last 12 to 18 years before the first 
overlay was needed. Recent improvements brought about by better 
technology have been credited with extending the time to the first 
resurfacing of an asphalt pavement to over 20 years. And, unlike with 
concrete, resurfacing an asphalt pavement can be done when traffic 
levels are at their lowest and the road can be turned back to traffic 
during rush hours. This enhances safety and convenience to the 
traveling public by minimizing delays for motorists.
---------------------------------------------------------------------------
    \6\ Cross, Steven A. and Robert L. Parsons, Evaluation of 
Expenditures on Rural Interstate Pavements in Kansas, Kansas University 
Transportation Center, University of Kansas, Lawrence, Kansas, 
February, 2002.
    \7\ Gibboney, Willis B., Flexible and Rigid Pavement Costs on the 
Ohio Interstate Highway System, Westerville, Ohio, 1995.
---------------------------------------------------------------------------
    In addition, many asphalt pavements built decades ago are 
functioning as perpetual pavements. As mentioned above, perpetual 
pavements are designed so that the pavement structure will last in 
perpetuity. Total pavement reconstruction is rendered virtually 
obsolete. Instead, the asphalt pavement is engineered so that 
distresses are confined to the top layer of the pavement. At infrequent 
intervals, the surface is removed for recycling, and replaced with a 
smooth, safe new surface. The Asphalt Pavement Alliance has awarded its 
Perpetual Pavement Award to over 27 agencies since 2001. In order to 
qualify for this award, the agency must submit documentation showing 
that the pavement has lasted more than 35 years with no structural 
failure. These sustainable pavements use fewer resources and have a 
lower lifetime cost than conventional pavements.

Asphalt's Low Energy Footprint. A meaningful study of the energy 
footprint of any product must consider all phases in that product's 
life cycle. The gold standard for such analyses is the environmental 
performance tool provided by the National Institute of Standards and 
Technology (NIST).\8\
---------------------------------------------------------------------------
    \8\ Building for Environmental and Economic Sustainability; 
National Institute of Standards and Technology; (http://
www.bfrl.nist.gov/oae/software/bees/please/bees<INF>-</INF>please.html. 
Downloaded July 2, 2008.)
---------------------------------------------------------------------------
    The NIST tool is based on an extensive analysis of total life cycle 
energy requirements and CO<INF>2</INF> emissions associated with 
different pavement types and designs. This analysis has been vetted at 
the highest public levels and EPA supports its use through the 
Environmentally Preferable Purchasing (EPP) Program, which is charged 
with carrying out Executive Order 13423, Strengthening Federal 
Environmental, Energy, and Transportation Management.
    Using the NIST software to compare different pavement types, there 
is little doubt about the environmentally superior life cycle 
performance of asphalt pavements as compared to concrete.
    Very little energy is required to produce asphalt, as a refinery 
typically expends energy to obtain products like gasoline, fuels, and 
lubricants; in some refineries, asphalt is the product remaining after 
all others have been extracted. However, the Department of Energy's 
Energy Information Administration (EIA) assigns energy consumption 
values to the production of asphalt, and these are very low. According 
to the EIA, all carbon in asphalt is considered ``sequestered.'' \9\ In 
fact, due to the perpetual ability to reclaim and reuse asphalt 
pavement, the carbon (and energy) embodied in asphalt will likely 
remain sequestered indefinitely.
---------------------------------------------------------------------------
    \9\ The Department of Energy's Energy Information Administration 
(EIA) http://www.eia.doe.gov/oiaf/1605/archive/87-92rpt/chap2.html
---------------------------------------------------------------------------
    Asphalt pavements contribute to an energy-conscious environment in 
many other ways as well. Because asphalt pavements are faster to 
construct and rehabilitate, construction work can be accomplished 
during off-peak hours, reducing traffic construction congestion and 
commensurately reducing use of fuel and production of emissions. 
Because a new or newly rehabilitated asphalt pavement can be opened to 
traffic as soon as it has been compacted and cooled, there is no 
question of waiting for days or weeks, with traffic being detoured or 
squeezed into fewer lanes, for the material to cure. Technologies such 
as rubblization of concrete pavement with an asphalt overlay save 
energy because the rubblized pavement does not need to be hauled away, 
new base material does not need to be trucked in, and landfill space is 
saved. In addition, the need for mining and processing of virgin 
materials is reduced.
    In a side-by-side life cycle analysis, using the environmental 
performance software from the National Institute for Standards and 
Technology, the amount of CO<INF>2</INF> emissions associated with 
constructing and maintaining a 50-year life cycle of an asphalt 
pavement is only about 30 percent of that associated with a concrete 
pavement.\10\
---------------------------------------------------------------------------
    \10\ Prowell, Brian, Greening the Blacktop, Using Asphalt's 
Environmental Qualities to Compete, HMAT Magazine, May/June, 2008.

Smooth Roads Save Fuel. We know that smooth roads conserve energy and 
extend the life of pavements. Studies at a pavement test track in 
Nevada have shown that driving on smoother surfaces can reduce fuel 
consumption in the neighborhood of 4.5 to five percent compared to fuel 
consumption on a rough pavement. A five percent fuel saving is the 
equivalent of a $0.20 per gallon reduction in fuel costs, assuming that 
fuel costs $4.00 per gallon.\11\ Experts also estimate that a 25 
percent increase in smoothness can result in a 10 percent increase in 
the life of pavements. In other words, smooth roads conserve fuel, save 
money, and last longer.
---------------------------------------------------------------------------
    \11\ Sime, M., et al., WesTrack Track Roughness, Fuel Consumption, 
and Maintenance Costs. Tech Brief published by Federal Highway 
Administration, Washington, DC. January 2000.
---------------------------------------------------------------------------
    Many studies have shown that, more than any other factor, pavement 
smoothness can help reduce fuel consumption. It is sometimes said, 
however, that concrete pavements provide better fuel efficiency for 
larger trucks. The study most often cited in support of this assertion, 
which was conducted in Canada, has several flaws which are noted in the 
body of the report. For instance, the researchers noted that the 
variability of the data was too great to show conclusive differences. 
Also, the asphalt pavement studied was considerably rougher than the 
concrete pavements.
    In the end, the Canadian study proved what had already been shown 
in studies such as the one conducted in Nevada, that pavement 
roughness, not pavement type, is responsible for differences in fuel 
mileage. The Nevada study11 concluded that trucks running on a smooth 
pavement could save 4.5 percent on fuel consumption. Smoother pavements 
also result in longer pavement life by as much as 10 to 25 percent, 
resulting in lower maintenance costs. As a rule, asphalt pavements are 
smoother than concrete pavements. Smoothness measurements on interstate 
highways in Oregon and Washington showed that asphalt pavements are on 
average 33 percent smoother in Oregon, and over 50 percent smoother in 
Washington.<SUP>3
    </SUP>Smoothness also means that truck tires don't bounce on the 
pavement and deliver the kind of impact loading they would on a rougher 
pavement. Some experts estimate that increasing pavement smoothness by 
25 percent results in a nine percent to 10 percent increase in the life 
of pavements. Long life contributes to asphalt's sustainability.

Urban Heat Island Effect. Urban heat island mitigation is not a black 
and white issue. According to the United States Environmental 
Protection Agency, ``there is no official standard or labeling program 
to designate cool paving materials, and research in this area is in an 
early stage. While studies show that pavements can affect the urban 
heat island and resulting air quality, results are complicated by 
several factors. These include the impact of shadows from nearby 
structures; changes in pavement characteristics over time; and the 
absorption by buildings of solar radiation reflected from the pavement 
surface.'' \12\
---------------------------------------------------------------------------
    \12\ USEPA Heat Island web site, Cool Pavements: (http://
www.epa.gov/heatisland/strategies/coolpavement.html Downloaded July 2, 
2008)
---------------------------------------------------------------------------
    Density, heat capacity, thickness, porosity, and a myriad of other 
factors affect pavement surface temperature as well. In 2005, the co-
directors of the National Center of Excellence: SMART Innovations for 
Urban Climate and Energy, published an article in Public Works magazine 
emphasizing that factors other than pavement color play a large role in 
urban heat island mitigation.\13\ EPA sponsors and looks to the 
National Center as leaders in this area. Not specifically mentioned in 
the Public Works article, but clearly identified in a satellite image 
illustrating the article, the hottest surface temperature signature in 
Phoenix is the airport with its 23-inch-thick concrete runways. In the 
same article, the authors point out that open-graded asphalt pavement 
surfaces placed on top of concrete freeways are highly successful in 
reducing pavement surface temperature. EPA also recognizes that 
``[p]orous, or permeable, pavements benefit from the cooling effect of 
evaporation.'' <SUP>12</SUP> In addition, open-graded pavement systems 
have been shown to reduce the amount of pollutant loads.\14\
---------------------------------------------------------------------------
    \13\ Golden, Jay S., and Kamil E. Kaloush, A Hot Night in the Big 
City, How to Mitigate the Urban Heat Island, Public Works Magazine, 
December 1, 2005. (http://www.pwmag.com/industry-
news.asp?sectionID=760&articleID=268116&artnum=1 Downloaded July 2, 
2008.)
    \14\ Barrett, Michael, et al., Pollutant Removal on Vegetated 
Highway Shoulders Center for Transportation Research, The University of 
Texas at Austin, October 2005, Rev. January 2006 (http://
www.utexas.edu/research/ctr/pdf<INF>-</INF>reports/
0<INF>-</INF>4605<INF>-</INF>1.pdf, Downloaded July 2, 2008.

Role of State Departments of Transportation in Pavement Type Selection.

    NAPA's view is that State DOTs do an outstanding job of providing 
the best possible infrastructure for local conditions, and the asphalt 
industry whole-heartedly supports them. It is our strong opinion that a 
federal pavement selection policy is not a prudent way to approach 
sustainability. The challenges faced by agencies throughout the U.S. 
demands that those administrators have the autonomy to choose the 
paving material that best suits their needs.
    Legislating one standard for dissimilar environments removes the 
flexibility necessary to build the most environmentally and 
economically sustainable, highest-performing, safest roads. It is our 
opinion that Congress and the Federal Government should not dictate 
pavement selection.
    The DOTs are highly professional organizations which are assembling 
factual information so that they can perform life cycle cost analysis. 
NAPA supports the use of life cycle cost analysis based on factual 
information.
    NAPA's position is that local conditions require the existing 
oversight of the State and local governments to remain in place. The 
asphalt pavement industry is proud to be a partner of the State DOTs, 
the American Association of State Highway and Transportation Officials 
(AASHTO), and the Federal Highway Administration (FHWA) in these 
agencies' quest for continuing improvement in providing pavements that 
meet the Nation's needs.
    In addition, consider the following:

Reducing Congestion. Highway work zones reduce the capacity of a road 
to handle traffic, especially during rush hours. Asphalt pavements can 
be designed so that they only need periodic resurfacing, and the work 
to accomplish this can be scheduled during non-rush hours, facilitating 
the movement of vehicles through the work zone, reducing fuel 
consumption, and improving safety. Since asphalt does not need to cure 
in order to have the strength to support traffic, new or newly 
rehabilitated pavements can be opened to traffic as soon as they have 
been compacted and cooled.

Safety. Open-graded asphalt surfacings are widely used on highways to 
enhance safety. Ensuring the safety of our highways is always a top 
priority with agencies and contractors alike. Using porous friction 
courses on pavement surfaces helps to eliminate tire splash and spray 
in rainstorms. Not only does this enhance tire-to-pavement contact, and 
therefore safety, it also improves drivers' visibility. In a high-
accident area in Texas, replacement of a typical non-porous surface 
with porous friction course reduced wet weather accidents by 93 percent 
and reduced fatalities by 86 percent.

Porous Asphalt Pavement. The same open-graded pavement type that is 
used to surface highways can also be used in porous asphalt pavement 
systems for stormwater management. Placing a porous asphalt pavement on 
top of a recharge bed allows stormwater to percolate through the 
pavement surface into the recharge bed, where it is stored until it can 
infiltrate into the soil. Porous asphalt pavements decrease runoff and 
increase filtration, improving water quality. A porous pavement parking 
system tested at the University of New Hampshire Stormwater Center 
exceeded 95 percent removal efficiency for total suspended solids. In 
addition, a recent study by the Texas Department of Transportation 
found a 90 percent reduction in total suspended solids by using a 
porous asphalt surface on a highway pavement.
    Open-graded and porous pavements hold great promise for water 
quality improvement. To date, a successful concrete open-graded 
surfacing material for high-speed pavements has not been developed 
because concrete's brittleness causes it to crack and ravel under 
traffic. Porous asphalt pavements of both types--open-graded surfaces 
for highways, and porous pavement systems for stormwater management--
have been used widely for over 20 years with an excellent record of 
success. We need research to better quantify the benefits of porous 
asphalt pavements and to better design these environmentally friendly 
pavements.

Quiet Pavements. As developable real estate becomes increasingly scarce 
in the urban and suburban landscape, more residents find themselves in 
closer proximity to high-speed highways and their noise. A major 
component of that noise is generated at the tire-pavement interface. 
Many times, very expensive noise walls are constructed between the 
development and the highway. Often times these walls cost as much as 
$50,000 per affected household. However, such noise walls have very 
limited effectiveness in reducing noise from the roadway, especially 
for residents living farther away. Using a low-noise asphalt surface 
means that the volume can be turned down at the source, and that noise 
walls can be reduced in height. For every one decibel reduction, the 
noise wall can be reduced by three feet. If one considers all the miles 
of urban roadways in the U.S., the savings could be in the hundreds of 
millions dollars or more. It has been shown that asphalt pavements in 
the U.S. are quieter than concrete, anywhere from one to 10 
decibels.\15\<SUP>,</SUP>\16\<SUP>,</SUP>\17\ This reduction in noise 
is of great importance to those residents' quality of life. It is an 
important societal and budgetary issue that researchers continue to 
find ways to mitigate roadway noise through better surfacing materials.
---------------------------------------------------------------------------
    \15\ Hansen, D.I., R.S. James, and B. Waller, Tire/Pavement Noise 
Study for Arkansas APA, Asphalt Pavement Alliance, Lanham, MD, January 
2005.
    \16\ Hansen, D.I., R.S. James, and B. Waller, Oklahoma Tire/
Pavement Noise Study, Asphalt Pavement Alliance, Lanham, MD, January 
2005.
    \17\ Hansen, D.I., R.S. James, and B. Waller, Kansas Tire/Pavement 
Noise Study, Asphalt Pavement Alliance, Lanham, MD, June 2005.

Rubblization. When confronted with reconstruction or major 
rehabilitation of a concrete pavement, rubblization in place of the 
concrete with an asphalt overlay is the easiest, lowest cost, and most 
effective way to rehabilitate the pavement in the shortest amount of 
time. The State of Arkansas estimated that it saved $1.3 million per 
mile on rubblization projects totaling over 318 miles as compared to 
removing and replacing the existing concrete pavement. However, 
rubblization's benefits go beyond just the considerable money saved in 
construction; it also saves time and money for road users because they 
spend less time in traffic during the rehabilitation of the road. 
Spending less time in traffic means that vehicles produce a lower level 
of excess emissions. In addition, rubblization conserves stone by 
reusing the old concrete roadbed as the new road's base. Because the 
old roadbed does not have to be hauled away, and new material trucked 
---------------------------------------------------------------------------
in, further fuel savings and emission reductions are realized.

Warm-mix Asphalt Technologies. The asphalt industry is keenly 
interested in processes that improve its energy efficiency and 
environmental friendliness. In addition to recycling, the industry is 
working on a new set of technologies to reduce the production 
temperature of its material. Known as warm-mix asphalt, these 
technologies reduce emissions and lower energy consumption. They also 
offer the potential for better performance and an extended paving 
season. Continued research and demonstration projects will be required 
to assist in the full implementation of warm-mix asphalt.

Automation of Construction Practices. Another facet of research needed 
is in the automation of construction practices. Such improvements may 
improve not only efficiency, but also worker safety at plants and in 
the roadway work zones. Gains in efficiency would translate into less 
fuel consumption and lower production of greenhouse gas emissions. NAPA 
is very supportive of national efforts such as the development of 
intelligent compaction, automated sampling and testing, and other tools 
to enhance worker safety.

3.  What actions can the Federal, State, and local governments take to 
overcome these impediments? What is the role for industry and academia, 
especially in technology transfer?

    The planning, design, construction, and operation of highways have 
changed dramatically and will continue to evolve. Historically, State 
departments of transportation, in cooperation with the Federal Highway 
Administration, have been the public-sector leaders in defining 
contracting procedures, material specifications, and construction 
specifications. The procedures of State Departments of Transportation 
(DOTs) are often adopted by county and local governments and in many 
cases are also used in private construction activities.
    Many changes have occurred in the technology associated with 
asphalt pavements over the last 50 years. These changes have led to the 
continuous improvement of asphalt pavements through new products, 
analytical tools, and testing procedures.
    As many of our nation's highways and bridges exceed their design 
life, they will require significant improvements. An ongoing research 
and technology program aimed at continuous improvement in the 
performance of asphalt pavements is vital to the national interests.

Federal Research Program. Significant progress in asphalt pavements can 
only be achieved through a federally led, nationally coordinated 
research and implementation effort. In addition, an inclusive, well-
coordinated national effort is necessary to foster a strong legacy of 
technological advancement in asphalt pavement knowledge. A focused 
program for asphalt research should be based on broad intellectual 
competition, should be of substantial breadth and depth, and should be 
directed by a consensus of stakeholders.
    As Members of this subcommittee know, research also leads to a 
better educated workforce. There is an ongoing need for hiring and 
retaining engineers and technicians to design and analyze asphalt 
pavements. The training of professors, engineers, and technicians is 
facilitated by research.
    Within the next 30 years, improved asphalt pavement technologies 
must be developed to ensure the continued delivery of safe, 
environmentally sustainable, economical pavements that satisfy our 
nation's needs.
    As previously stated, with over 94 percent of the roads and 
highways in the United States surfaced with asphalt, even relatively 
small but widely applicable advances in asphalt technologies through a 
robust research and technology program could save many more millions of 
dollars, enhance sustainability, and result in a pavement 
infrastructure system that serves the Nation's economy and citizens in 
the years ahead.
    NAPA respectfully urges the Committee on Science and Technology to 
reauthorize the existing asphalt research program under the Federal-aid 
Highway Program and increase the funding to achieve the vision as 
outlined in the National Asphalt Roadmap for Research and Technology. A 
strong federal partner with adequate funding will foster asphalt 
pavement research and implementation as outlined in the Roadmap, 
resulting in a more sustainable, environmentally friendly pavement.
    Thank you for your time and attention. NAPA appreciates the 
opportunity to submit this testimony on these important issues and is 
available to discuss these issues further with the Subcommittee at your 
convenience.

                                  <all>


</pre></body></html>
